<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 10
                                                                   Page
 Indian Health Service............................................    1
 Navajo and Hopi Indian Relocation................................  109
 Institute of American Indian Arts................................  121
 Smithsonian Institution..........................................  151
 National Gallery of Art..........................................  261
 John F. Kennedy Center...........................................  277
 National Endowment for the Arts..................................  297
 National Endowment for the Humanities............................  421
 IMLS Office of Museum Services...................................  497
 Commission of Fine Arts..........................................  521
 Advisory Council on Historic Preservation........................  535
 National Capital Planning Commission.............................  569
 Holocaust Memorial Council.......................................  603
 Testimony of Member of Congress..................................  627
                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

 40-644                     WASHINGTON : 1997

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          




                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director






=======================================================================


                Department of Health and Human Services

                         Indian Health Service


=======================================================================



DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1998

                              ----------                              

                                          Thursday, April 10, 1997.

                DEPARTMENT OF HEALTH AND HUMAN SERVICES

                         INDIAN HEALTH SERVICE

                               WITNESSES

MICHAEL H. TRUJILLO, M.D., M.P.H., ASSISTANT SURGEON GENERAL, DIRECTOR, 
    INDIAN HEALTH SERVICE
MICHEL E. LINCOLN, DEPUTY DIRECTOR
LUANA L. REYES, DIRECTOR, HEADQUARTERS OPERATIONS
W. CRAIG VANDERWAGEN, M.D., DIRECTOR, DIVISION OF CLINICAL AND 
    PREVENTIVE SERVICES, OFFICE OF PUBLIC HEALTH
GARY J. HARTZ, P.E., ASSISTANT SURGEON GENERAL, DIRECTOR, DIVISION OF 
    FACILITIES AND ENVIRONMENTAL ENGINEERING, OFFICE OF PUBLIC HEALTH
DENNIS P. WILLIAMS, DEPUTY ASSISTANT SECRETARY, BUDGET, DEPARTMENT OF 
    HEALTH AND HUMAN SERVICES

[Page 4--The official Committee record contains additional material here.]


    Mr. Regula [presiding]. We'll call the committee to order 
and welcome Dr. Trujillo.
    Dr. Trujillo. Good afternoon, Mr. Chairman.
    Mr. Regula. And you have your assistants with you.
    Dr. Trujillo. Yes.
    Mr. Regula. We'll put your statement in the record and 
appreciate if you'll summarize for us.

                       Introduction of Associates

    Dr. Trujillo. Yes, I would like to summarize, Mr. Chairman.
    Today I have Mr. Michel Lincoln on my right, who's our 
Deputy Director; Mr. Gary Hartz, who's in charge of our 
Facilities and Environmental Engineering Division.

               Summary Statement of Dr. Michael Trujillo

    And we will be submitting--we have submitted our written 
statement for the record, and I would like to summarize a few 
of the comments from that and also add some new items.
    I would also like to introduce in the audience Mr. Rolin, 
who is the Chairman of the National Indian Health Board. He is 
seated directly behind me. We have worked very diligently 
together with the National Indian Health Board in developing 
the priorities for the Indian Health Program. They have also 
submitted their request and their statement to you and the 
committee members.
    First, I'd like to begin with a little more personal point 
of view. I had an opportunity to talk with an individual who 
visited the old site of the Carlisle Indian School in Carlisle, 
Pennsylvania. In their records was an article from the 
``Carlisle Arrow,'' which was published by the students of the 
United States Indian School. This one's dated February 28, 
1913. In the front page it notes that William Paisano, who was 
then governor of Laguna, and his brother, Ulysses G. Paisano, 
were on their way to Washington to represent their people. They 
had left Laguna on February 1. Ulysses G. Paisano happens to be 
my grandfather and his brother was William Paisano. My father, 
Miguel Trujillo, also came many times to Washington from Laguna 
and Isleta and represented the All Indian Pueblo Council in the 
late forties and early fifties. I guess today, I follow some of 
the tradition of sitting before you--but in this capacity as a 
Federal representative responsible for upholding the United 
States Government's obligation to American Indians in regards 
to their health care. So I hope I can represent my forefathers 
and certainly my grandfather as he came in 1913.
    As the Director of the Indian Health Service and as an 
American Indian from Laguna Pueblo, the continuing support of 
this committee as the principal health care program for the 
American Indian people and your influence over the programs 
that affect Indian people has helped the Indian Health Service 
and our tribal and urban health partners meet many of the 
health care needs of Indian people nationwide. We depend upon 
your continued support and advocacy to enhance health services 
to America's first citizens. I am committed to work with you 
and address any of the concerns that you may have regarding our 
present budget request.

                             health status

    Together we have made much progress over the years, and 
Infant mortality rates, maternal death rates, illness and death 
from infectious diseases have all decreased dramatically. The 
increase in life expectancy for Indian people we enjoy today is 
something that I think all of us can be very proud of and take 
a measure of credit. However, the American Indian and Alaska 
Native continues to bear the increased burden of illness and 
premature death compared to other U.S. populations.
    Contributing to lower health status is still a lack of safe 
water supply, deteriorating buildings with outdated systems, 
limited access to health care professionals and services, and 
lower per capita health care expenditures. In Fiscal Year 1996, 
the Indian Health Service per capita health care expenditure, 
based upon appropriations, was $1,578, compared to the U.S. 
citizen per capita of $3,920.
    Poverty, lack of employment and educational opportunities, 
and communities in crisis also contribute significantly to 
health care problems. I believe thesolution is a partnership 
between all communities--State, Federal, and tribal programs--for 
American Indians and Alaska Natives. Managed care must integrate not 
just with the health care programs and manage only costs, but also 
integrate other programs that can help people fully participate in 
society by building truly healthy communities.

                             budget request

    Our budget request for $2.122 billion is 3 percent over our 
1997 request. This includes some pay cost payments for tribal 
and Indian Health Service programs, first phase construction 
for two replacement facilities, contract health services 
increases, funds for tribes assuming some operations for 
management and administration of their own health care 
programs, some additional staff for new facilities, and 
sanitation facilities construction. Finally, it includes 
services for the most vulnerable segments of the American 
Indian and Alaska Native population, and that is women, elderly 
people, children, and urban Indians.
    While these are the highest priority items for the agency, 
we must recognize that the burden of illness and health care 
gap continues to exist despite the agency's request. Together 
we must close that gap.

                           external pressures

    The dramatic change in pressure remains a constant part of 
daily operations of the health care programs of tribal, urban, 
and the Indian Health Service. There are continuing changes as 
States implement their managed care systems and new welfare 
legislation. There are continuing pressures to adjust to 
inflationary and mandatory cost increases--with no 
appropriations to meet those needs. Those are in addition to 
the continuing population increases and the increasing need for 
services.
    The agency's request includes funding for clinical and 
preventive services, to help address some of the increasing 
needs for elderly people, women, and children. We are also 
requesting funding for the rising impact of chronic disease 
such as diabetes, cancer, and cardiovascular diseases.
    On a recent trip to New Mexico I made last month, I visited 
a number of tribes, including the Pueblos, such as Zuni, 
Laguna, Acoma, and Isleta in particular. They have 
deteriorating water systems that were implemented in the early 
fifties. Those systems are now deteriorating, and the quality 
of water and the access to water is a major concern. In fact, 
this morning I met with elected officials from Acoma and we 
discussed their water system and the concerns that they have 
with that. Laguna Pueblo is very concerned about obtaining some 
additional funding for an exemplary health care system for 
elderly people, and their facility. The Canoncito Navajo 
community, which is about 20 miles west of Albuquerque, has 
major problems with domestic violence, gangs, drugs, and 
problems in regards to outreach and public health services. The 
Pasqua Yaqui in Arizona have an increasing population, and we 
are trying to maintain their continuing support and health care 
system in a unique and viable health care maintenance system 
that they have had ongoing for a period of time.
    New tribes are coming into the Indian health care system. 
The Samish of Washington are coming in; and, the availability 
of new dollars for them and others is of major concern.
    We have had some major costs that have arisen out of the 
weather situations in the Dakotas, Minnesota, the Northwest, 
and in California. In addition, we are very concerned about 
some emergency situations such as the burning down of a 
facility in Lame Deer, Montana, that have come out of 
appropriated dollars.

                    restructuring and business plan

    Our restructuring effort and the business plan have 
developed incentives, governance policies, and performance 
standards to meet the expectation of IHS, tribal, and urban 
programs. Our business plan integrates more corporate business 
planning into our agency at all levels. Our planning operations 
include many of the aspects that the Government Performance and 
Results Acts are now requesting. In fact, in many respects we 
have had to do this for a long period of time. I believe in 
many ways that other agencies of the Federal Government are now 
catching up to the Indian Health Service efforts for a long 
period of time to operate with very restricted and minimal 
resources.
    The agency continues to reach out to develop and foster new 
partners. We have developed avenues of communication and 
cooperation with foundations and universities, especially this 
past year and with tribal colleges, and professional 
organizations. We will also concentrate very diligently this 
year in the training and development of future Indian health 
care leaders, so that they may take on the responsibilities of 
managing Indian health care programs throughout the Nation.

                        government-to-government

    The United States Government, I believe, has committed 
itself to a trust responsibility with tribal nations. It is our 
responsibility to uphold and strengthen that government-to-
government trust relationship. The trend of decreasing budgets 
and downsizing the role and responsibilities of the Federal 
Government cannot be used to diminish historic treaty and trust 
obligations of American Indians and Alaska Natives.
    You and I recognize that this budget request does not meet 
all the documented needs and increasing costs for health care 
for American Indians and Alaska Natives. In the context of the 
proposed five-year Federal budget, this year's request is 
critical for viability of the Indian health care system it 
supports. Federal funding for Indian health care programs must 
be a priority for this Nation. It is an issueof honor. It is an 
issue of dignity. It is an issue of respect. It is the right thing to 
do. Together let us strengthen the bonds between the American Indians 
and Alaska Natives and this great Nation.
    Thank you, Mr. Chairman. I look forward to working with 
you, the other committee members, and the staff for this coming 
year.
    [The prepared statement of Michael H. Trujillo follows:]


[Pages 9 - 13--The official Committee record contains additional material here.]


                      deteriorating water systems

    Mr. Regula. Thank you.
    Mr. Skeen?
    Mr. Skeen. Thank you, Mr. Chairman, and welcome, Dr. 
Trujillo. It's good to have someone sitting before me from the 
Indian Health Service that actually knows where Laguna is and 
Zuni----[Laughter.]
    Dr. Trujillo. Yes.
    Mr. Skeen [continuing]. And all the rest of them. I was a 
consultant moisture engineer at Zuni in 1951, and I always 
enjoyed the service, but I always enjoyed the association with 
the Indian Health Service. I lived in that community at the top 
of the hill where the lake is----
    Dr. Trujillo. Yes, yes.
    Mr. Skeen [continuing]. In the apartments that were right 
across from the hospital.
    Dr. Trujillo. Right.
    Mr. Skeen. Every time we had a full moon, we had all the 
ladies coming in to have babies. [Laughter.]
    Dr. Trujillo. I don't believe it's changed that much. 
[Laughter.]
    Mr. Skeen. No, sir, and I'll bet that same apartment is 
still there. [Laughter.]
    Dr. Trujillo. It probably is. Unfortunately, it probably 
needs a new water system. [Laughter.]
    Mr. Skeen. Well, you and I are on the same wavelength 
because that's been one of the most severe problems.
    Dr. Trujillo. Yes.
    Mr. Skeen. I just want to congratulate you on your 
position, and I'm delighted to be here with you today and 
talking about Indian Health Service. The Health Service had a 
very severe problem in the past and we've struggled against a 
lot of hardships to get this thing developed to the point that 
it is now. I think that, with you at the helm of this thing, 
we're going to see even more expansion and improvement.
    Dr. Trujillo. I hope so.
    Mr. Skeen. And certainly you have great credentials and you 
have great assistants, and so forth. But it used to be that the 
money would come to the Indian Health Service in Albuquerque 
and that's the last you ever heard of it. I think that today 
we're doing a better job. I'm not criticizing anybody, but it's 
part of the system, and I hope we can improve it because the 
facilities at Laguna--you have that cooperative medical 
facility out there that's had a tough row to hoe.
    Dr. Trujillo. Yes, the Acoma Hospital.
    Mr. Skeen. At Laguna.
    Dr. Trujillo. Right, yes.
    Mr. Skeen. And I hope that we can improve that kind of 
situation. I know this is very parochial, but I would assume 
that probably the same problems exist throughout the entire 
Indian Health Service.
    Dr. Trujillo. Yes, Mr. Skeen. In fact, we've also had 
difficulties, especially in Alaska, as you can imagine.
    Mr. Skeen. I can understand that, too.
    Dr. Trujillo. Yes, yes.
    Mr. Skeen. It's very remote. How many Native Americans do 
they have in Alaska?
    Dr. Trujillo. In Alaska I believe we're looking at around 
about 100,000, 150,000.
    Mr. Skeen. How many health facilities?
    Dr. Trujillo. Right now all our facilities in Alaska are 
presently managed directly by the tribes and corporations. One 
Indian----
    Mr. Skeen. The tribes themselves?
    Dr. Trujillo. Yes. There's one facility that is now managed 
by the Indian Health Service, and that is the Anchorage Medical 
Center.
    Mr. Skeen. Anchorage.
    Dr. Trujillo. We are going to be opening a new referral 
center there in mid-May.

            health care organizations and management systems

    Mr. Skeen. Is there any possibility of putting some of this 
responsibility on the health service organizations? I know that 
I've had a lot of Native Americans that ask us why don't they 
have a health service organization or something of that kind 
that they can pay into and help themselves for medical 
attention or health plans? Is there any possibility of doing 
that or is going to remain--or is that inconsistent with the 
Indian Health Service operation?
    Dr. Trujillo. In some of our regions we're working with 
health care organizations and management systems, including the 
States as they implement some of the managed health care 
programs in each of the States. In New Mexico, for example----
    Mr. Skeen. So you've incorporated it already?
    Dr. Trujillo. In some areas.
    Mr. Skeen. In some areas?
    Dr. Trujillo. Yes, such as in New Mexico the State is now 
meeting with tribes and trying to develop their new plan called 
SAUUDE.
    Mr. Skeen. Oh, I'm familiar with it.
    Dr. Trujillo. And, I was out there last March and I was at 
a tribal/State Health Department meeting in which they were 
explaining some of the new concepts in that plan with the 
Health Care Financing Administration. We hope to go forward 
with some of the plans that will include the tribes in New 
Mexico and address some of their concerns about 
implementationaspects of that plan.
    Mr. Skeen. Well, I appreciate it because it's been a long, 
hard road, but we've made some progress and I'd like to see 
some more. I think with your help, and the rest of us that are 
interested in that particular problem, we'd like to help you 
with it.
    Dr. Trujillo. Yes, sir. Thank you very much.
    Mr. Skeen. So bien venidos.
    Dr. Trujillo. Thank you.
    Mr. Skeen. And we're delighted to have you here.
    I notice you've taken the best, in your name over there, 
the best parts of both areas that you derive from; you're 
Native American and Spanish last name, but you've got an 
anglicized first name. [Laughter.]
    It's not ``Miguel''; it's ``Michael'' Trujillo. [Laughter.]
    Dr. Trujillo. Yes. Well, when I went to----
    Mr. Skeen. Doctor, you represent the whole span. 
[Laughter.]
    Dr. Trujillo. In fact, my baptized name is Miguel Trujillo, 
but when I went to school, they anglicized the first name.
    Mr. Skeen. Anglos have a propensity for doing that sort of 
thing. [Laughter.]
    Dr. Trujillo. And, all my credentials and everything came 
out ``Michael.'' [Laughter.]
    Mr. Skeen. Well, congratulations once again.
    Dr. Trujillo. Thank you.
    Mr. Skeen. It's good to be working with you. Thank you.
    Dr. Trujillo. Thank you, and thank you very much for your 
assistance.

                     tribal revenues and resources

    Mr. Regula. Just a couple of quick questions, and then 
we'll go on to you, Mr. Nethercutt.
    Do the tribes that have gambling casinos provide enhanced 
medical services for their members, or do they still just 
basically use your services?
    Dr. Trujillo. In the majority of areas that have developed 
gaming facilities and have gaming proceeds, the majority of the 
tribes, from my understanding, and also from some of my visits, 
do contribute significantly in a number of ways. Many of the 
tribes have built their own health care facilities. Others have 
expanded their own programs in additional staffing, additional 
insurance, and looking at behavioral components in the medical 
care system. Some have also provided health insurance for their 
employees, Natives and non-(tribal) Indian members and those 
staff who are non-Indians who work for their facilities. They 
have also expanded coverage in emergency care, including social 
service/educational programs in many, many areas.
    One example that is very outstanding is the Grand Portage 
Tribe in Minnesota in the Arrowhead portion of Minnesota. They 
were a very economically-depressed tribe. They have become the 
primary employment program in that whole district and have 
really turned around the economy in that whole county. They 
have provided exemplary health care services, educational 
programs, scholarships, as well as social/behavioral assistance 
to their own tribal members.
    Mr. Regula. So when the resources are there, they enhance 
the system in most instances?
    Dr. Trujillo. Yes, yes.

                                  DRG

    Mr. Regula. Another question: in many of the Government-
financed health programs we have the DRGs which limit stays 
depending on the type of treatment. Is there anything like that 
in the Indian hospitals or in the Indian Health Services that 
puts any kind of a cap on the extent of services, to somehow 
hold down the costs, or is it pretty much free choice by the 
doctor?
    Dr. Trujillo. In regards to our inpatient services, when we 
have reimbursements for Medicare we are under the same 
reimbursement regs.
    Mr. Regula. Okay.
    Dr. Trujillo. But one of the things that we have to 
consider is that many of our facilities are in remote areas, 
like in Alaska, including Anchorage. You need to consider the 
transportation, the problems in regards to the living 
situation, and the conditions that they may have when a patient 
returns home, many times that patient may have to stay longer 
because of those conditions, especially for transportation, 
such as in Alaska.
    We are certainly under the edict of looking at quality of 
care, looking at the length of stay and the provisions by which 
services are provided, including the reimbursement rates. Our 
attempt has been to look at length of stay, which has been 
decreasing in many respects through most of our facilities, as 
well as the inpatient days in general across our facilities. 
Just as they are in most hospitals nationwide, there's an 
increasing concentration of ambulatory care programs and 
ambulatory care surgery.
    Mr. Regula. So the enhancement of your outpatient 
facilities--where it's feasible?
    Dr. Trujillo. Yes.
    Mr. Regula. Mr. Nethercutt?

                            mandatory costs

    Mr. Nethercutt. Thanks, Mr. Chairman.
    Dr. Trujillo, welcome.
    Dr. Trujillo. Good afternoon.
    Mr. Nethercutt. We're glad to have you here.
    Dr. Trujillo, I represent the fifth congressional district 
of Washington, the east side of the State of Washington. We do 
have several clinics in my district, and I'll get to them in 
just a minute. But I first want to inquire of you, how much in 
mandatory and inflationary cost increases has your agency had 
to absorb over the last couple of years? I know that budgets 
have been tight, and I'm just wondering if you can quantify 
that for us.
    Dr. Trujillo. Well, yes, budgets have been tight. Even 
though we've had some minimal increases to our appropriations, 
we have still had to deal with the mandatory costs of pay 
increases that have occurred and inflationary costs, of course, 
in the medical care area, which is in some regions fairly 
expensive. I believe over the past four to five years it comes 
to around a total of a quarter of a billion dollars that we've 
had to absorb in those particular categories.
    Mr. Lincoln, you have more specific figures than that, I 
believe?
    Mr. Lincoln. Thank you, Dr. Trujillo.
    Over the last five years, the difference between what the 
mandatory requirements are and what was appropriated is about 
$250 million. In this year's budget the mandatory requirements 
are about $91 million, and we've requested $13.75 million 
toward those mandatories.
    Mr. Nethercutt. It doesn't seem to me like you're getting a 
fair shake from the President's budget. It looks like an 
increase of about 3.3 percent for the Indian Health Service for 
Fiscal Year 1998. It can't cover all your mandatory and 
inflationary cost increases over the next year, I would 
imagine. Is that true?
    Dr. Trujillo. That is true.
    Mr. Nethercutt. What kind of a budget request did you make 
to OMB before it was finished with you, I could say?
    Dr. Trujillo. Well, we had several requests to OMB. Our 
initial request to the Department, based upon the parameters 
that were given to each of the agencies in regards to the 
windows that we could request, was around about $2.3 billion. 
The request from the Department to OMB was $2.29 billion. And 
we appealed a number of times. The National Indian Health Board 
and the self-governance tribes also met directly with OMB on 
several issues and priorities. We also made an appeal back to 
the Department of $2.4 billion.
    Mr. Nethercutt. Well, I'm concerned for you, and as I look 
at my district, as I mentioned a moment ago, we have Wellpinit 
Indian Health Service clinic there that serves the Spokane and 
Kallispel Tribes and we have the Colville Reservation Indian 
Health Service clinic. Both are in terrible shape. I'm told 
that in Wellpinit they have to close their doors at one o'clock 
in the afternoon just because they have their patient load for 
the day. They have trouble caring for the basic health services 
of their population.
    I have a particular interest in the subject of diabetes. 
The disease of diabetes disproportionately affects Native 
American I'm worried, and the tribes in my district are 
worried, that funding for preventive care for that disease, 
whether it's dental-related or otherwise, is not there like it 
should be. There have been discussions, and I believe your 
agency has taken a look at the cost of new clinics or the cost 
of temporary or less-than-brand-new construction clinics that 
would service their needs, and the cost is high. There has, 
therefore, been some imagination flowing around and discussion 
about what can be done to meet the cost, so that the population 
can be provided for.
    Dr. Trujillo. Yes.

                             joint venture

    Mr. Nethercutt. Having said all that, my question to you 
is: to what extent would the agency be receptive to a joint 
venture arrangement, whereby perhaps the tribes pay 
construction costs and the Indian Health Service pays personnel 
costs and some other costs, such as administration costs? Would 
that make sense? Or some other combination of the two or three?
    Dr. Trujillo. Yes, a couple of things, just to go a little 
bit further in some of your description of the area there: I 
used to be the Chief Medical Officer in the Portland area and 
am familiar with the Spokane Tribe----
    Mr. Nethercutt. Sure.
    Dr. Trujillo [continuing]. And the facilities both at 
Wellpinit and Colville, and also the facilities in Idaho. It 
just so happens our Area Director from the Portland Area, Mr. 
James Floyd, is presently in the room, and he can speak later 
on this, too.
    We have had in legislation, joint authority with tribes to 
expand alternative ways of construction of facilities. One was 
the sharing of the process by which tribes would be able to 
construct some of their programs and facilities, and the Indian 
Health Service would also be part of that. A fine example is 
the Warm Springs Confederated Tribes, where we've developed a 
very fine facility and program that was built by the tribe and 
staffed by the Indian Health Service. The authority is there. 
Unfortunately, funding for that authority has not come forth. 
It is a very viable, very feasible way of looking at 
construction for future facilities, especially ambulatory care 
facilities, which are in great need. And, as you say, Wellpinit 
and the Colville facilities are facilities that are much needed 
in that area.
    Mr. Hartz has some specific information on this point. 
Gary, you might be able to expand a little bit further.
    Mr. Hartz. He took a lot of my thunder because of his 
knowledge of the whole program, specifically the Warm Springs 
example. There was another one done under the joint venture 
demonstration program in Oklahoma when it was first authorized 
and appropriations were provided. There's a couple of other 
authorities that we have where small ambulatory health center 
grants and other types of joint venture cooperative-type 
projects. The authorities are there. It's the resources to pool 
together that oftentimes become the constraint.

                   proposed diabetes research center

    Mr. Nethercutt. Sure. I see. My understanding is that 
Senator Domenici, perhaps with the assistance of Congressman 
Skeen, plan to establish a diabetes research center in New 
Mexico to study the incidence of diabetes among Native 
Americans and the Indian population, and I think that makes 
some sense, too. I haven't seen any budget proposals, but my 
understanding is that something may be in the works.
    Do you think there's the need for this kind of research to 
study diabetes among Native Americans?
    Dr. Trujillo. There has been a lot of research, basic 
research, in the etiology of the disease of diabetes. It's been 
well studied. We have a cooperative program in the Phoenix 
Indian Medical Center with NIH. The CDC has also been a part of 
that program, and many of the programs in Arizona, where those 
tribes have one of the highest diabetes incidence in the world.
    In this area of the discussion, Senator Domenici is now 
having talks with a number of individuals. He also had a formal 
hearing on diabetes in Gallup last week, which we did attend. 
We testified that the need for basic research may not be the 
aspect that Indian people and communities need. What is needed 
is research on how to replicate successful primary preventive 
programs to decrease the amount of end-stage renal disease, the 
end consequences of diabetes, and methodology by which 
communities develop community and wellness programs. Zuni in 
New Mexico has been a good example in developing community 
programs. How can that knowledge and that type of community 
involvement be transferred to other communities sothat it 
becomes successful, so that the disease itself is prevented, so that 
there is much less progression of the disease of diabetes? I believe 
those are the areas that need to be stressed, and I believe the Senator 
is also looking at that too.
    If a center or a program like this is going to be funded or 
established, it would be emphasized that it should be 
nationwide in regards to its assistance for Indian communities.

                                diabetes

    Mr. Nethercutt. The Indian Health Service had a program to 
reduce the incidence of periodontal disease among Native 
Americans who were diabetic. Are you familiar with that?
    Dr. Trujillo. A little bit.
    Mr. Nethercutt. I'm just wondering to what extent the 
findings that have been done by the ADA on that subject might 
be able to be incorporated into your program.
    Dr. Trujillo. I don't know. I could find that out 
specifically, and we can send you some information on that, but 
that's an area in which I believe we have gone further in 
regards to the public health outreach in having patients also 
be part of a comprehensive program. Not only are they screened 
for oral disease, but also eye disease, the peripheral vascular 
diseases, and also neurological consequences, when they come 
through in diabetic clinics.
    Mr. Nethercutt. Well, there is a bill that's pending now in 
the House that has to do with prevention in the Medicare 
program, not only for diabetes, but for other diseases. 
Diabetes is, as you may know, a substantial part of the 
Medicare expenditure, about 27 percent. 27 cents out of every 
dollar that is provided to Medicare is for caring for people 
with diabetes: for end-stage renal disease, heart disease, 
kidney failure, blindness, amputations. Medicare pays for 
that----
    Dr. Trujillo. Yes.
    Mr. Nethercutt [continuing]. But it doesn't pay for the 
front end. So Members of both parrties Republicans and 
Democrats, are supportive of changing to that concept of 
preventive care.
    Dr. Trujillo. Yes.
    Mr. Nethercutt. So I thank you for your good work and hope 
that a lot of what we're doing here can translate over to the 
IHS and back the other way as well.
    Dr. Trujillo. Well, thank you very much. Unfortunately, the 
incidence of end-stage renal disease and other consequences are 
still rising in Indian communities and among Indian people. I 
attended an opening about a year ago of a new dialysis center, 
which was very nice, a very up-to-date, modern facility with 
excellent machines and excellent nursing staff and physician 
coverage. I told the audience that I would be much happier if I 
were there to close it.
    Mr. Nethercutt. Yes. Those people are saints. I don't know 
how they do it in life. I mean, I've been through these 
hospitals in my district and talked to people who are on the 
machines sitting there, and I'll tell you, they're heroes.
    Dr. Trujillo. Yes.
    Mr. Nethercutt. I don't know how they do it.
    Dr. Trujillo. The aspect is to prevent the patients coming 
to that stage, so we can prevent the dialysis.
    Mr. Nethercutt. And it is prevention.
    Dr. Trujillo. Yes.
    Mr. Nethercutt. I think you're right; it is prevention.
    Thank you, Mr. Chairman.

                            life expectancy

    Mr. Regula. You mentioned life expectancy is going up. I 
think you said that in your testimony. How is life expectancy 
in the Indian population as compared to the average American 
numbers?
    Dr. Trujillo. It has risen over the number of years. It is 
now around about two or three years below the national average, 
whereas several years ago it was not the case.
    That brings up the other point which needs to be explored--
is while the Indian population is still a much younger age 
group, with the median age of around about 22, 24, and in some 
communities such as in the South West and in parts of South 
Dakota we have a median age of about 18. But there's a rising 
amount of elderly people in communities, and difficulty in 
establishing outreach programs for elderly people. How do they 
access care, home health care needs, reimbursement for those 
individuals; how do they access care in the medical and welfare 
programs and the institution of managed care in the States. 
These have become increasing concerns of the Indian Health 
Service and tribal programs, who have to look after the elderly 
people within their communities.

                      medical mobile/modular units

    Mr. Regula. Do you do anything with mobile units, because 
your population is pretty heavily scattered over wide areas and 
probably in pockets of small communities? Have you done 
anything where you've got a mobile unit with maybe a doctor and 
a paramedic who would visit these communities periodically?
    Dr. Trujillo. The majority of our facilities are not in 
mobile units. We do have--the emphasis, when we do go out, is 
primarily through the public health nursing program, the public 
outreach community health aides, and the community health 
representatives within our programs, rather than having a 
mobile facility. The quality of care is, I believe, much more 
comprehensive in a facility, an ambulatory care clinic or 
ambulatory care facility or a hospital.
    Mr. Regula. Thank you.
    Mr. Moran?
    Mr. Moran. Thank you, Mr. Chairman.
    To follow up on the questioning by my two colleagues, I 
understand that some Native Americans have to travel three 
hours three days a week to get to a kidney dialysis treatment 
center. That just seems too much to expect for any individual, 
and it doesn't strike me that enough is being made of modular 
and mobile units.
    In that same regard, this committee put a million dollars 
in last year for mobile and modular dental units, and, yet, 
there's no money in this year to do that, and I get a sense 
that you don't want to do it, and I'd like to know why.
    Dr. Trujillo. Mr. Hartz can address the issue in regards to 
the mobile dental units more fully than I can. What we have 
done in regards to dialysis units is that, because of the need 
as well as the cost to run the dialysis units and the expertise 
to manage those programs, the Indian health care or tribes have 
associated with nephrology programs in university settings or 
other health care facilities to establish facilities on the 
reservation or in association with our ambulatory care program, 
or sometimes within space within an Indian health care 
facility. Patients would come to that facility, but it's not 
managed by the Indian Health Service. The difficulty is that in 
many locations there may not be an accessible dialysis unit. 
There are places and locations where patients do have to be 
transported three times a week and a significant distance. This 
becomes very difficult in some areas when you have the 
weatherconditions to contend with, too.
    Mr. Moran. Yes.
    Dr. Trujillo. And that's a major area.

                              dental units

    Mr. Hartz, can you address a little bit more the dental 
units that we have talked about?
    Mr. Hartz. Sure. Also, Mr. Moran, just a brief followup on 
the home dialysis is that the sanitation facilities in many of 
the locations does not make it advisable to use the water 
because of the quality that might exist for some of the home 
dialysis-type units. So sanitation facilities needs still 
become a major deterrent to providing some of the health care.
    On the dental issue, we certainly do thank the committee 
for the million dollars that we did get because the need is 
very great. With that money that was provided, we went out for 
applications to distribute those funds, and we received over 30 
applications for the million dollars. We prepare a five-year 
plan of facility needs that includes a whole variety of 
hospitals, clinics, including money for the joint venture, 
issues that we touched on a little bit ago, and included in 
that is the dental program. In that five-year plan, we 
initially were looking at about a couple million dollars, but 
things are tight these days, and in the course of going through 
the priorities, they didn't get supported amidst all the other 
needs for health care delivery.
    Mr. Moran. You're saying it's in your five-year plan, but 
the bottom line is that you cut it out of this year, even 
though you needed the money and want the money?
    Mr. Hartz. It's in there every year. We start out with that 
as one of the requests, and we had a $2 million request in.
    Mr. Moran. You had a $2 million request to OMB? Is that 
what you're telling us?
    Mr. Hartz. We develop a five-year plan that we share 
publicly with the committee, and that's part of the request, 
that we start out with, but in the course----
    Mr. Moran. So you're telling us, if we had a ``who struck 
what'' table, it would have been struck by OMB, but it came out 
of Indian Health Service requesting $2 million----
    Mr. Hartz. It would have been struck in the process, yes, 
sir.

                  direct care and administrative costs

    Mr. Moran. Okay. Let me ask you a couple of general 
questions about the Indian Health Service. One, have you done 
an analysis of how much of the appropriation actually goes into 
health care for Native Americans?
    Dr. Trujillo. In regards to the services?
    Mr. Moran. Yes. In other words, if you were to take the 
whole appropriation, deduct what is spent on administrative 
cost, how much is actually attributable to the delivery of 
health care?
    Dr. Trujillo. Mike, we have some figures on that.
    Mr. Lincoln. The Indian Health Service budget basically is 
about a $2.2 billion budget. Included, in addition to that, 
there are the reimbursements for Medicare and Medicaid and 
private insurance. So the budget rises to a total of about $2.3 
to $2.4 billion. All of the collections that are Medicare and 
Medicaid in origin, $290 million of those are at the facility 
level, at the service unit for services. There is about $300 
million of the $2.2 billion request in 1998 in facilities of 
various forms, such as sanitation facilities. And so if you 
would allow me to count the sanitation facility construction, 
the building of water and sanitation systems, as part of the 
total, then that is another major portion.
    We have administrative costs of about $140 million of the 
total amount that is included for administration and support at 
the headquarters and at the area levels. I think I would call 
those administrative costs. That would bring an administrative 
cost rate, if you calculate it--you would divide that number by 
$2.3 billion----
    Mr. Moran. You'd say it's about 5 percent?
    Mr. Lincoln. It's going to vary--it's going to depend on 
what the numerator and denominator is. It will be somewhere 
less than 10 percent, in my opinion. Various reports count 
administration at the service unit and in the hospitals and in 
the health centers. The numbers I just gave you do not include 
these costs.
    Mr. Moran. Okay. Of the total, how much do you spend on 
prevention, instead of waiting after the fact, after people get 
sick? Are you doing the same thing that NIH does? It's all 
cure-focused instead of prevention-focused? Do you have an 
allocation for prevention? Do you have a policy priority that 
emphasizes prevention?
    Dr. Trujillo. In our budget request for this year, we have 
$82.5 million in our preventive services. And even though we 
may have hospitals and clinics, dental services, mental health, 
and alcohol and substance abuse categories that are in what we 
call the clinical services, many of those programs also deal 
with preventive services, such as the preventive programs that 
are within the dental aspects of the total care program.
    In regards to mental health, the preventive aspects of 
behavioral health are employed in that. Certainly, of course, 
in the line category of substance abuse and alcohol programs, a 
lot of that is devoted toward preventive programs and outreach. 
So when you take a look at the line items or the items called 
clinical services and preventive health care programs, there's 
a mixture of preventive and public health outreach.
    The aspects that we're trying to institute, not only within 
the Indian Health Service, but certainly within tribal programs 
and the urban programs, who also manage some of the clinics, is 
the aspect that the total care of the individual does not occur 
within the facility. The care of the individual and the health 
care of that individual comes from the family and the 
community. That is where the emphasis on prevention of illness 
and healthy lifestyle is of critical importance.

                              epidemiology

    Mr. Moran. I'm glad to hear you say that. I'm also 
interested in epidemiology, how much focus you put on 
epidemiology. It seems, particularly when you've got tribes and 
in isolated areas, having epidemiological surveys would be 
particularly helpful in making your delivery of health care 
most effective and efficient.
    Dr. Trujillo. Yes, that I believe has been one of the major 
success stories of the Indian health care programs. We have 
produced on a yearly basis for a number of years statistical 
reports based upon morbidity, mortality, and those regional 
differences. We have comparative data on diseases and disease 
categories. We also have an epidemiology program within the 
Indian Health Service. We had grants made to health boards who 
have taken on some of that responsibility for epidemiology, 
such as the PortlandNorthwest Area Indian Health Board that 
also facilitates much of the epidemiology program for the Northwest 
States.
    The concern that we have at the present time is assuring 
that the continuation of an internal data system for clinical 
programs is run in an effective manner, so that we can 
correlate data from States, correlate data from other managed 
care institutions, correlate data from the Indian Health 
Service, and also from those tribes and urban programs who are 
taking on the direct responsibility of managing and 
administering their whole health care program.

                      recruitment and scholarships

    Mr. Moran. That's good. So you catch the clusters.
    I have just one last question, if I might, Mr. Chairman.
    I'd like to hear what you're doing to recruit more Native 
Americans into the health professions. There was an Indian 
Self-Determination Act. I'd like to see what progress has been 
made in doing that, and the only other area really is, What 
incentives do you offer to attract health professionals across 
the board to go into the Indian Health Service since it's not a 
necessarily popular location in many of the rural and even 
urban area centers?
    Dr. Trujillo. Yes, we can forward you some data and some 
history upon our recruitment/retention program, as well as our 
scholarship and the incentives out of the Act.
    [The information follows:]


[Pages 25 - 28--The official Committee record contains additional material here.]



    Dr. Trujillo. What we do have are scholarship programs for 
Indian health professionals, not only in the clinical fields, 
but also for those who wish to go into administrative or 
aspects of the management program for Indian people. The Indian 
Health Service----
    Mr. Moran. Do you pay for their medical education?
    Dr. Trujillo. We also pay for their pre-medical or pre-
dental. We also have scholarships in those categories, as well 
as categories by which they can obtain their master's of public 
health degrees, and----
    Mr. Moran. So this is for the tribal members, if they want 
to go into health professions? It would pay for their college 
as well as their medical education?
    Dr. Trujillo. For their pre-medical courses.
    Mr. Moran. Well, that's college, yes.
    Dr. Trujillo. Yes. They also, then, have an obligation to 
return to a program that serves Indian people.
    Mr. Moran. How many years?
    Dr. Trujillo. It depends upon the number of years that 
they----
    Mr. Moran. Thank you, Mr. Chairman [speaking to Mr. Regula 
as Mr. Regula leaves the hearing room].
    Dr. Trujillo [continuing]. Wish to stay within the program. 
We also have incentives for professionals who are out of 
professional school in regards to loan repayment. We are 
attempting to have competitive salaries with surrounding 
communities and other health care systems, but with the Federal 
system those sometimes are not as competitive as we would like 
to see, especially in the hardship locations that are remote 
from metropolitan areas.
    However, we can offer, and tribes can offer and urban 
programs can offer, I believe, a very exciting health care 
career. It's a unique program that, again, attempts to 
emphasize that you're just not a clinician in a hospital or a 
clinician in a box, but, rather, you're working in a 
interdisciplinary approach. The aspect and the emphasis is upon 
public health and preventive services. The emphasis is not just 
upon the patient, but really is on the community.
    Mr. Moran. So you'll finance the education of practitioners 
and paraprofessionals?
    Dr. Trujillo. Those that are of Indian heritage. And a 
number of tribes have also emphasized the necessity of 
education for their own youth, and many of them are also 
offering scholarships for their youth, not only in 
administration or obtaining a law degree, et cetera, or other 
programs, but also in health careers.
    Mr. Moran. Does the Indian Health Service pay for people's 
medical education now, even if they're not Native Americans, if 
they agree to work in the Indian Health Service for the future?
    Dr. Trujillo. The only way that that can be done is if they 
join the U.S. Public Health Service in the program in which 
they are in a medical school, and then they also----
    Mr. Moran. So they have to be in medical school?
    Dr. Trujillo. Then they would obtain an obligation to 
provide services in the Public Health Service Commission Corps.
    Mr. Moran. Yes. So that's not--that's the Commission corps, 
okay.
    Thank you very much.
    Mr. Nethercutt [presiding]. Thank you, Mr. Moran.
    Is there more you wanted to add?
    Mr. Lincoln. May I, Mr. Chairman?

                        administrative cost rate

    Mr. Nethercutt. Certainly.
    Mr. Lincoln. I wanted to clarify the administrative cost 
rate. And what I'd like to do is ask the committee's indulgence 
that you will let us submit something for the record.
    I'm aware of two reports, and one is called the Chief 
Financial Officer's Report that all of Government provides. And 
the reason I mentioned the numerator and denominator, it's how 
you calculate things. In that report, the administrative cost 
rate at all levels through theorganization would be 15 percent 
to 16 percent. The number that I gave to you, though, is still a good 
number, but it's a different database. And if we could, we'd like to 
submit that for the record.
    Mr. Moran. Yes, it's just that 15 percent is high, whereas 
5 percent is pretty much consistent.
    Mr. Nethercutt. We'd be glad to have your submission. We'd 
appreciate that.
    [The information follows:]

           Administrative Costs Clarification for the Record

    IHS provided two different figures for its administrative 
cost rate during the course of the hearing. The $140 million 
figure (7% of the FY 1998 budget request) includes only the 
budgets for IHS' Headquarters and its 12 Area Offices (see 
Simplified Budget Structure Table proposed for FY 1998, 
specifically the Agency Management column). However, the 
preliminary FY 1996 Chief Financial Officer's Report indicates 
that the administrative costs and support percentage could be 
18%. This figure is higher because it attempts to capture 
administrative costs occuring at the local or Service Unit 
level. It was estimated by Counting the funding for IHS cost 
centers 1-10 in the Services Appropriation, and the Facilities 
and Environmental Health Support activity in the Facilities 
Appropriation Federal. Funding from these two sources was 18% 
of total IHS funding (in FY 1996) excluding funds administered 
by tribes and tribal organizations.
    The cost center codes 1-10 are 01-Executive Direction, 02-
Financial Management, 03-Personnel, 04-Property & Supply, 05-
General & Administrative Services, 06-Patient Accounts, 07-
Procurement & Contracting, 08-Program Planning & Evaluation, 
09-Program Services, 10-Systems Development.


[Page 31--The official Committee record contains additional material here.]


                         employment incentives

    Mr. Nethercutt. Let me just ask a couple of other 
questions, following up on the issue that Mr. Moran raised with 
regard to trying to get more people, more Native Americans, to 
study medicine----
    Dr. Trujillo. Yes.
    Mr. Nethercutt [continuing]. And get back in the system. 
What incentives are there that you provide or that you need 
assistance in funding to provide for people to come back to 
reservation locations and provide that kind of good health 
care? What can you tell the committee about that?
    Dr. Trujillo. Certainly competitive salaries in regards to 
coming in as a clinician or a professional in whatever 
profession, clinical profession they may be. I can use myself 
for an example. I went to undergraduate school and then went 
into graduate school and then finally to medical school. When I 
graduated in the mid-seventies, I was about the 80th Indian 
physician nationwide. We now have over 500 Indian physicians. 
The majority, however, are not within the Indian Health 
Service, but many are involved in Indian health care.
    My position in regards to attracting Indian physicians back 
into the Indian Health Service per se is that they, as 
professionals, certainly can bring the professionalism and the 
quality of care that are there, but they also can bring in the 
aspect of cultural knowledge, sensitivity, communication, the 
ability to know the people, know the circumstances, know the 
history, and know what we're striving for as Indian people 
toward healthy communities.
    But I think they also can serve in other capacities. Having 
an Indian physician or an Indian clinician at a university 
setting is also a primary example of the accomplishment of what 
an Indian can be and also entice others and educate others into 
Indian health care, and the circumstances and the needs of 
Indian people. Having somebody in a foundation or a research 
center who is an Indian clinician also brings that same 
credibility, not only to that person, but also to Indian people 
in general nationwide.
    So when I look at the development of Indian people and 
Indian leaders, it's not just for Indian Health Service, but 
it's for tribes, urban programs, and also university settings, 
research facilities, and other programs where Indian 
professionals can advocate for the needs of Indian people.
    Mr. Nethercutt. I happen to have a young nephew who's in 
his third year of medical school, and he's struggling. He is a 
bright young guy and really a hard-working student, and 
struggling with the idea of where he'll go: whether to 
research, whether to delivery of medicine in some one location 
versus another, or the traditional route of getting his 
residency and being a surgeon, or whatever it might be. So I 
think with the challenges to the medical industry today, 
whether it's Medicare or the increasing cost of Medicare and 
health care delivery, maybe there's an opportunity here to 
encourage people to turn to the Indian Health Service and go do 
a service, whether they're a Native American or non-Native 
American, to go out and give good service to this segment of 
our society.
    Dr. Trujillo. Yes, I believe our program is a unique 
program that covers not only delivery of health services, 
clinical services, but with the addition of environmental, 
sanitation program's. You have the addition of public 
preventive services, community outreach programs. You have a 
service that is unique in the United States. The Department of 
Health and Human Services has no other health care program such 
as the Indian Health Service. And, when you look at services 
that the Department of Defense, the Veterans Affairs, and other 
Federal agencies have, there is no other agency that delivers 
the type of care under the circumstances that we have, for the 
population that we have, and also have developed, I believe, a 
quality health care system, knowing that we also have to have 
some improvements, too. I believe we are a unique health care 
program in the United States.

                        dialysis patient travel

    Mr. Nethercutt. Just as an aside also, on the issue of 
transportation of dialysis patients, out in my district I went 
to our veterans' hospital last week and met with my veterans' 
advisory board. They were saying we really need this 
transportation to get veterans to a veterans' hospital for 
care. I have such a large district; it's 11 counties and from 
Canada on the north to Oregon on the south and Idaho on the 
east. It is long and remote, so we're trying to get a donation 
of a van from a local car dealer just to service those 
veterans. Perhaps we could think about that or some other way 
to get transportation donated or somehow work through the 
system, so that it's not necessarily a budget item, but the 
service could be provided to assist.
    Dr. Trujillo. Yes, we're trying to work out some 
cooperative agreements such as that in various locations. In 
fact, we've worked in that area with a VA facility, where we've 
had a VA physician come into those locations. After they've 
seen the veterans in that particular facility, they've also 
assisted in seeing Indian patients.
    I believe there's an avenue in which we could 
certainlyfacilitate an increasing amount of cooperative agreements with 
the veterans' association and other Federal facilities. That avenue 
will help everyone.
    Mr. Nethercutt. Sure.
    Dr. Trujillo. And, we're willing to explore that as much as 
we can.

                           budget priorities

    Mr. Nethercutt. Sure. I'm looking at your budget request, 
the 3 percent increase, and looking at the various 
expenditures, one through seven. Are these in order of 
preference for you? I'm looking at your Indian Health Service 
opening statement executive summary--increased pay cost for 
both tribal and Indian Health Service employees, and there are 
seven items listed: contract care, health care services, 
sanitation, and so on. Are those in an order of priority or are 
those just expressed by way of providing a list?
    Dr. Trujillo. They are priorities of the agency. The 
emphasis has been upon providing--assuring that we have 
essential clinical services continued. The aspects in regards 
to the preventive and public health programs are a component of 
that. Then there are aspects of assuring that tribes and those 
tribes who wish to manage and administer their program also 
have the same type of capabilities, just as the Indian Health 
Service may have, and assuring that they also have the 
administrative cost built into their programs as they manage 
their programs for clinical services and preventive and public 
health programs.

                   partnership with tribes and urban

    The other priority, I believe, we are trying to emphasize 
within the Indian Health Service, especially since I have come 
in, is the partnership and the cooperative working relationship 
with urban and tribal programs to develop an Indian health care 
program versus just an Indian Health Service.
    Mr. Nethercutt. Well, Mr. Chairman, I see you're back, and 
if there's anything----
    Mr. Regula. I just have one question.
    Dr. Trujillo. Yes.

                      accountability and standards

    Mr. Regula. If we give the money to--what would it be, a 
compact? Do you have any control over the standards or the way 
in which it's administered if it's given in a lump sum to a 
compact?
    Dr. Trujillo. We negotiate with a tribe in regards to the 
components by which they will be providing services. It is more 
specific in a contract versus a compact. The tribe has more 
flexibility in utilizing funds that come from the Indian Health 
Service in a compact methodology, in a compact program. 
However, they also have to utilize those funds in health care 
services.
    In the discussions that we've had and negotiations that 
we've had with tribes so far, they are looking at how they will 
also deliver quality of care. They are continuing many of the 
joint commission surveys and have passed accreditation. They 
also have internal management controls, and we also work 
through an audit system with them.
    Mr. Regula. Do you do any privatizing or contract services, 
if, say, a tribe were close to a city hospital, or with HMOs? 
Do you go outside, I guess, the normal procedure in order to 
give better care at less cost?
    Dr. Trujillo. A number of tribes who have had the 
availability of compacting or contracting, have had that 
available. In fact, there are some tribes, the Coeur d'Alene 
Tribe in Idaho, not only provides services to their own members 
but they also provide services to the community members; and, 
they also obtain reimbursements. So, tribes who wish to compact 
or contract and utilize their funds have an increased 
flexibility than a Federal managed program in these aspects.
    Mr. Regula. Thank you.
    Mr. Nethercutt. Well, thank you very much, gentlemen, for 
your testimony. There may be some questions that will be 
submitted to you in writing from other members, and we'd 
appreciate having your responses to those.
    Dr. Trujillo. Well, thank you very much.
    Mr. Nethercutt. Thank you.
    Dr. Trujillo. Thank you very much, Mr. Chairman.
    Mr. Nethercutt. The hearing will be adjourned.
    [The following questions and answers were submitted for the 
record:]


[Pages 36 - 107--The official Committee record contains additional material here.]



=======================================================================


              Office of Navajo and Hopi Indian Relocation


=======================================================================



[Pages 111 - 120--The official Committee record contains additional material here.]



=======================================================================


                   Institute of American Indian Arts


=======================================================================



[Pages 123 - 149--The official Committee record contains additional material here.]



=======================================================================


                        Smithsonian Institution


=======================================================================


                                         Wednesday, March 19, 1997.

                        SMITHSONIAN INSTITUTION

                               WITNESSES

I. MICHAEL HEYMAN, SECRETARY
CONSTANCE B. NEWMAN, UNDER SECRETARY
J. DENNIS O'CONNOR, PROVOST
L. CAROLE WHARTON, DIRECTOR, OFFICE OF PLANNING, MANAGEMENT AND BUDGET
RICHARD H. RICE, JR., SENIOR FACILITIES SERVICES OFFICER
DOUGLAS LAPP, EXECUTIVE DIRECTOR, NATIONAL SCIENCE RESOURCES CENTER


[Pages 154 - 160--The official Committee record contains additional material here.]



                           Welcoming Remarks

    Mr. Regula. Well, we will get the committee started. We are 
pleased to welcome you, Dr. Heyman.
    Mr. Heyman. Thank you, Mr. Chairman.
    Mr. Regula. And your institution is on the side of the 
angels most of the time.
    Mr. Heyman. Yes, I was going to say I try to keep it that 
way, but there are times.
    Mr. Regula. Some of the beef producers, I am sure.
    Mr. Heyman. As you and I said, I really stepped in it that 
time.
    Mr. Regula. Let's go off the record a minute.
    [Discussion off the record.]
    Mr. Regula. Back on the record.
    We are pleased to welcome you, Ms. Newman and Mr. O'Connor 
and Ms. Wharton, Richard Rice. Where is Richard? He is right 
back there. Okay.
    What we will do is put all your statements in the record 
and ask you to summarize. And I know I have a number of 
questions, and I am quite sure when the committee members get 
here they will also. So Dr. Heyman, it is all yours.

                           Opening Statement

    Mr. Heyman. Good morning, Mr. Chairman. I am going to try 
to compress what I said in my written statement and emphasize a 
few things.
    There really are two major subjects. One is the priorities 
of the Smithsonian in future directions and theother one is a 
brief overview of the 1998 budget request.
    As I think you know, my priorities during my Secretaryship 
have been to maintain the quality of the programs of the 
Smithsonian and to make the Smithsonian accessible to the 
American people outside as well as within Washington.

                         america's smithsonian

    My appointment coincided with the Institution's 150th 
birthday. Planning had occurred, which I was able to implement, 
which supported bringing the Smithsonian to people across the 
country. That huge exhibition, which you saw in Los Angeles, 
America's Smithsonian, went to six cities in 1996. It opens in 
Portland, Oregon, in April 1997. It will go to Birmingham 
thereafter. I have my fingers crossed that we will be able to 
raise the monies necessary for Columbus, Ohio, and for San Jose 
and maybe one or two others but those are less probable.
    So far it has had about 2 million visitors. It has had 
really rave reviews. It has had tremendous coverage. No Federal 
money has been in this; it was all trust money. There was good 
corporate sponsorship but obviously not enough, and the costs 
were in this first year more than we expected. We are quite 
optimistic that we can henceforth cover expenses by reducing 
expenditures and raising money in the places we are going and 
that we also can make up the deficit in ways that I can explain 
later if you are interested in that.

                      smithsonian sesquicentennial

    The actual birthday party on the Mall, which was last 
August 10-11, had a total of about 650,000 visitors in the 2 
days, the Saturday and the Sunday. Each museum of the 
Institution had a tent which was showing what it does and how 
its research is carried out and how it exhibits.
    There were three sound stages. There was continuous 
entertainment. One of the entertainers made a very interesting 
remark. He said that at this event Washington felt like an 
ideal small town where everybody came together around this 
celebration, and I had that feeling, too.
    And then there were TV specials during the year and there 
were a series of Smithsonian ``Minutes,'' and between the two 
an awful lot of people around the country tasted a little bit 
of the Smithsonian.

                         smithsonian home page

    The two other programs of access are, first, the Internet. 
We have a very large home page. It is about 35 hours. It 
fluctuates and keeps going up because the museums and research 
institutes keep adding more to their portions of it. We are 
getting around 8 million hits now a month. I don't know how 
long the people stay but that is a lot of hits, and as I 
indicated, that really is always changing, which is what is 
keeping up or increasing the number of hits. People keep coming 
back for new things to see.

                          affiliations policy

    And then, of course, we have the affiliations policy that 
the Board of Regents adopted last year, which suggests that 
really at the request of communities, the Smithsonian will 
consider long-term loans of artifacts, mostly artifacts that 
are in storage. The hook is that the museum that borrows has to 
pay all the expenses in terms of transportation and insurance 
and the like.
    [The information follows:]


[Pages 163 - 168--The official Committee record contains additional material here.]



                          collections on loan

    Mr. Regula. Will the fact that you are going to rehab some 
of these facilities cause you to make more loans instead of 
putting the materials that are in storage while you rehab?
    Mr. Heyman. It would be lovely if it worked out in that 
organized a way. I don't think it is going to. Because this 
whole idea is so new, it is going to take on very slowly.
    You know, there is going to be a great rush of interest and 
then when people find out they have got to pay the tab, that 
will moderate how many people are, in fact--but I hope, you 
know, 10 years from now we see a lot of Smithsonian artifacts 
around the country.

                     agreement with bethlehem steel

    The first formal agreement, which is a very preliminary 
agreement, is with Bethlehem Steel, which is creating a museum 
and has created the organization already. It is seeking to turn 
the old Bethlehem steelworks in the center of Bethlehem into a 
place of many activities, and one of them will be a museum of 
industrial history.
    It gives us the opportunity to move an awful lot of very 
large artifacts we have never been able to display in a 
contextual setting, and it gives us an opportunity to do a show 
on the American Industrial Revolution in the way that we have 
never been able to because we do not have the room. So if this 
works out it is going to be wonderful.
    Mr. Regula. Will you staff it or will Bethlehem?
    Mr. Heyman. We are going to curate it but they are going to 
pay for the time of the curators.
    Mr. Regula. This would be promoted in a sense simply as a 
satellite Smithsonian exhibit?
    Mr. Heyman. Yes, satellite Smithsonian exhibit, not a 
museum, that is not a Smithsonian museum.
    Mr. Regula. Bethlehem is the primary sponsor?
    Mr. Heyman. That is right. And I don't know what they are 
going to call that. I guess they are going to call that museum 
the Museum of Industrial History.
    Mr. Regula. But it will be promoted in part of your 
literature to attract a nationwide audience in terms of 
visitation; is that correct?
    Mr. Heyman. Yes, we certainly will reference it.
    Mr. Regula. And will also be on the Internet, then?
    Mr. Heyman. Oh, undoubtedly, it will end up on the 
Internet. We are kind of in the beginning stages of all of 
this. I just know we are going to have problems as we go on.
    We are going to have political problems as we go because 
some places we will not go and some places we will, but I think 
it is worth taking on those kinds of problems both to get us 
out and to help ameliorate our storage problems.

              national air and space museum dulles center

    As you know, I have taken on or at least I have urged no 
new museums and I have urged no new researchinstitutes, but I 
have had two big projects that were in the making when I became 
Secretary. They had been previously authorized and in one instance 
certainly commenced. One is the National Air and Space Museum and that 
involves, of course, the Dulles Center. Under Admiral Engen's 
leadership, the new director's leadership, the schematics for this 
Dulles Center are just about finished and the fund-raising activity has 
commenced.
    Mr. Skaggs, nice to see you.
    Mr. Skaggs. Good morning. Odd that you should recognize me 
at this point.
    Mr. Heyman. Well, we both understand why.
    The Federal share is relatively small. It is $8 million, 
all in planning money. All the rest has to come from elsewhere. 
And we have just about exhausted the first $4 million which 
have been appropriated, which will get us through schematics as 
of July but we want to continue the design process if we can 
possibly arrange it.
    Virginia has turned out to be a very important player in 
this. They have spent about a million dollars so far on 
infrastructure design. They will spend an additional $50 
million on construction of the infrastructure.
    Mr. Regula. Fifty?
    Mr. Heyman. Fifty. They are providing interest-free loan 
money for financial and fund-raising planning and they are 
providing bonding authority which will be one of the forms of 
financing the project.
    It is enormously important as we seek to raise what is 
going to be around $100 million that the momentum on this 
continue. If it flags, it makes it obviously more difficult to 
raise money. I will return to that for a moment when I touch on 
the budget.

                 national museum of the american indian

    The other project is the American Indian Museum, and we 
have spoken about that often. First, I am pleased to report 
that the Smithsonian has reached its goal in raising $36.7 
million for that museum.
    When I became Secretary, I was clearly charged with 
completing the American Indian Museum that had been chartered 
by Congress to conserve and exhibit the Heye collection of over 
a million artifacts, most of which are still in storage up in 
the Bronx. And it has been a taxing but interesting 
responsibility.
    At its heart it has three structures: One, a branch in New 
York City which has been completed, and it is in the old U.S. 
Custom House down by the Battery. That cost $24 million. It was 
split $8 million by the Federal Government, $8 million by the 
city of New York, and $8 million by the State of New York, but 
the Federal Government pays the operating expenses of that 
museum.
    The second is the Cultural Resources Center, which is the 
collection center of the American Indian Museum to which all of 
those objects in the Bronx shall be moved. That is under 
construction now.
    The Federal payments with regard to this are around $41 
million. It is going to end up that the private part of that, 
which I guess we had not thought we were going to have to do, 
will be somewhere around $15 million. We have spent $3 million 
of trust funds already in that project.
    The crown project of the whole American Indian Museum 
undertaking of course is the intended Mall museum. The cost of 
that is $110 million, and the Federal Government and the 
Smithsonian have already shared costs in planning and design. 
That planning and design is completed or is becoming completed. 
The remaining Federal share for construction is $58 million. 
That appears in the President's budget.
    It is no secret that the funding of this project has been 
controversial. I don't think the concept has been controversial 
but the monies to be invested have been controversial.
    This is my fourth time before this committee on this issue. 
The first three involved the rescission of the first phase of 
construction of the Cultural Resources Center. The second 
concerned the funding of the second phase of the CRC. The third 
involved the final planning and design appropriation.
    I argued unsuccessfully, unfortunately, here, strenuously, 
that in addition to the programmatic importance of this 
undertaking, promises have been made both to American Indians 
and to the donors of that $36.7 million that I don't think 
ought to be unfulfilled, for a variety of reasons, and I don't 
really have to repeat them because I have said them with 
frequency at these hearings.
    Various committees' statements, conference committee and 
the House committee and the Senate committee, have asked us to 
give scenarios that consume less Federal money than is intended 
here. I can say that we have worked very hard to conserve 
construction dollars within two related constraints. The first 
was maintaining the external shape of the building that you saw 
in schematics and thus the interior volume.
    That volume, by the way, in comparison to our places on the 
Mall, is still relatively small. The foot print is about 25 
percent of that small parcel of land. I think there is at least 
a lot of consensus that a smaller building on that site would 
be quite inconsistent with its place on the Mall and all of the 
other buildings that surround it.
    The second constraint has been honoring the external design 
and the number of internal features. I want to stress something 
that I have never stressed quite as much as I will now, but the 
design of that building flowed from 17 consultations around the 
country between 1990 and 1993 with Indian groups. I have only 
had a little experience in that consultive process with the 535 
tribes and other recognized groupings of Indians--coming to 
consensus is not an easy thing in that culture--and this set of 
consultations really came to a conclusion which has been 
universally acceptable to these groups.
    In addition, there were five additional regional design 
workshops which included Indians and others. There has been an 
enormous amount of process that preceded this design as well as 
positive responses to the design from the Fine Arts Commission 
and the National Capital Planning Commission.
    But within those constraints that I mentioned, we have done 
a number of things that are economizing since you saw the 
schematics and the preliminary plan last year. The major one 
was eliminating the mezzanine floor while also increasing 
public exhibit space. The ingenious solution that was arrived 
at was because the height of the building would be the same, it 
was possible to hang the mechanicals off the floor above, if 
you will, to lower the ceiling where those mechanicals hung 
down and then to permit the ceiling to go up again in the 
important exhibition space.
    But what we have turned out to have is more public 
exhibition space and new space than we have had previously. We 
have also reduced the space for administration and collection 
management, and more of that will be done at Suitland at the 
CRC than was originally intended, and we have eliminated a 
restaurant and we have reduced the museum store. And so the 
result is a place with a very high proportion of public space, 
in that sense more efficient than any of the other Mall 
museums.
    Mr. Regula. Have any of these activities reduced the cost?
    Mr. Heyman. No, but they have kept it from going above what 
was the originally intended cost and on which we have put an 
absolute ceiling.
    I, obviously, clearly hope there is going to be a positive 
response, and if I got it then I could start talking about 
other things the next year and the year following, so I will 
keep my fingers crossed.

                         fy 1998 budget request

    Now, let me talk about the budget submission itself. The 
President's budget is not a very complex one. There is an 
increase of $16.9 million in salaries and expenses. Of that, 
$10.35 million is for mandatory increases and for inflation. 
There are about $6\1/2\ million worth of enhancements.
    Mr. Regula. You say $10 million of the $16 million is 
mandatory increases and inflation. What is the balance?
    Mr. Heyman. The enhancements are $1.2 million for SAO for 
operations of the submillimeter telescope array at the Hilo 
field station. And then theothers are support for new 
facilities in the Natural History Building----
    Mr. Regula. So it is all operations?
    Mr. Heyman. Yes, it is all operations.
    Mr. Regula. And what you do is you have to catch up on 
fiscal year 1997 as well as 1998 on your salary and other 
uncontrollables?
    Mr. Heyman. Yes.
    Mr. Regula. I don't think any other agency has gotten that 
privilege in their budgets, fiscal year 1997 plus 1998.
    Mr. Heyman. I will have to find out why we were so well 
treated by OMB.
    Mr. Regula. That is step one.
    Mr. Heyman. I understand. If nothing else, I have found 
that out.
    Mr. Regula. A couple other hurdles. Okay.
    Mr. Heyman. Well, the new facilities support is at Natural 
History in the East Court, which is now coming to completion. 
You know, the West Court improvement is all privately financed 
but the East Court is the one that has been federally financed.
    The NMAI Cultural Resources Center, where construction has 
begun and will be getting along with respect to that, and then 
federally-supported facilities in Panama at STRI that Dennis 
knows all about that have been utilized in-depth for the first 
time.
    And then a little under a million dollars for trying to 
continue to improve and make adequate our collection 
information systems. It is just clear that we simply have to do 
more than we have to date in digitizing information, in being 
able to access it not only inside but now that we have such a 
big Internet presence to start to permit people to look into 
our collection from the outside, and in order to do that we 
need a lot more equipment and a lot more software than we have 
to date.

                collections in storage versus on display

    Mr. Regula. What percent is in storage versus what you have 
on display?
    Mr. Heyman. Well, somewhere around 95 percent.
    Mr. Regula. Is in storage?
    Mr. Heyman. Yes, a lot of those are very teeny.
    Mr. O'Connor. Mr. Chairman, it probably is not in storage 
but it is not on display. There are a large part of our study 
collection that are used on a regular basis.
    Mr. Regula. I am just concerned that you have things that 
will never be used and you keep adding buildings to store this 
stuff. It is like the attic in your home; you put it up there 
and it is long forgotten and it costs a lot of money.
    Mr. Heyman. We are concerned about that and we have been 
and we have known about your concern and it is our concern, 
too.
    Mr. Regula. Are you somehow offering these to museums 
around the country or in some way lowering the number of things 
in storage that in all probability will never be on display or 
used?
    Mr. Heyman. Well, there are two things we are doing. One is 
the policy on collection-based of affiliations. And in terms of 
the gross amount of space, for instance, if the Bethlehem one 
works out, that is a huge amount of space because the objects 
themselves are enormous.
    Mr. Regula. Will this include a lot of things that are 
currently in storage?
    Mr. Heyman. Yes, that is right. Or it will free up space 
where it is presently on display and other things from storage 
can be put on display.
    A second thing that Dennis stressed, and I guess I want to 
stress too, that the research collections are used, they are 
used for research and not for public visitation. So that 
collections can be seen, as you know, in terms of the research 
mission of the Institution.
    A second thing we are doing is that we are starting to look 
much more closely at the de-accessioning policies and trying to 
make easier de-accessioning of materials that are no longer of 
primary use to the Smithsonian for research or potential 
exhibits. And Dennis is working with those in the Institution 
who are in the collection management operation. Those are the 
major things that we are doing.
    The other thing is that we are collecting at a somewhat 
slower pace than we had been previously for a number of 
reasons, not the least being that there is no place to store, 
and that puts a kind of a cap on or at least induces you to 
find other kinds of solutions with regard to materials. But we 
have not created--as far as I know, since I have been 
Secretary, we have created no new collection space except for 
CRC and that in relationship to a collection that has been ill-
housed in New York.
    Mr. Regula. Mr. Skaggs, as we go along, if something occurs 
that you would like to ask about, don't hesitate.
    Mr. Skaggs. Well, I sort of have been collecting, wool-
gathering over here, so whenever we are at that point, I will 
just dive in.

                     fy 1998 capital budget request

    Mr. Heyman. On the capital side of the budget, obviously 
there is the $58 million in there, and you know that at OMB, it 
has been just general knowledge, when there is a big 
construction project to try to budget it all in the first 
instance. I am told that is the way ships are also funded.
    Mr. Regula. Assuming we may not have as much money as we 
anticipate, would you be able to prioritize downward in the 
sense of how we spread the $58 million and if there is $30 
million, we will get back to you to prioritize so that we can 
make the best use of whatever is going to be available in the 
way of any, if any, additional funds.
    Mr. Heyman. I would welcome that consideration.
    Mr. Regula. I just don't want to arbitrarily make that kind 
of decision in the markup.
    Mr. Heyman. Right. But I would be pleased to be able to 
speak with you about that when that comes to pass.
    Mr. Regula. Good morning, Mr. Yates.
    Mr. Yates. Good morning, Mr. Chairman.
    Mr. Heyman. Good morning, Mr. Yates.
    Mr. Yates. Good morning. How are you?
    Mr. Heyman. Fine, thank you.
    Mr. Yates. I didn't mean to interrupt. Sorry.
    Mr. Heyman. We have about $3.85 million in the budget for 
R&R at the Zoo, which addresses a lot of problems and a number 
of those are safety and health problems. We have $32 million in 
R&R in the balance for the Institution.
    I have sort of two disappointments in this budget. One is 
the level of repair, R&R monies, because we have been on a 
wonderful pathway in the last 3 years, and I think that is very 
sound, and as you know from the exposition of that subject that 
we made last year, that if we could ever get up to $50 million 
we really think we can take care of the Institution constantly 
and not have major deferred maintenance.

              national air and space museum, dulles center

    The other disappointment is the Dulles Center because, asI 
say, we will run out of planning money in July. And now that all of 
this is coming together in terms of design, in terms of modular design 
so that you can do it by phase, in terms of getting the fund-raising 
operation really started, I really think it would be a shame to loose 
the momentum and send out any signals especially to those who are 
asking for big contributions.
    Mr. Regula. Are you satisfied that the State is doing its 
part?
    Mr. Heyman. Yes, I am absolutely satisfied. In fact, 
Governor Allen before he goes out of office wants to get this 
all down, an absolute commitment, so that it will bind any 
successive administrations in Virginia.

                          educational outreach

    The last subject that I want to bring to your attention is 
just a little taste of outreach and what we are doing in K-12 
education. You have a packet in front of you. I hope at some 
time you will take a look at this book. I think it is a 
wonderful book. It is a ``Kid's Guide to the Smithsonian'' and 
it is just wonderful; I encourage you to share it with your 
grandchildren and others.
    Everybody has it. Well, in any event, are those in the 
package?
    Mr. Regula. Yes.
    The other things that you have in your packet are just a 
few things from SITES, the Smithsonian Institution Traveling 
Exhibition Service. You know, well before I was Secretary, you 
started to provide Federal funding for the Smithsonian 
Institution's Traveling Exhibition Service and I think that 
that has permitted us to do something that we never were able 
to do before, which is to get out in the rural areas and the 
underserved areas in the United States with modest shows 
actually most of the time but ones that are exceedingly 
important.
    Mr. Regula. When you say ``shows,'' do you mean that you 
send Smithsonian people out to a rural school? I mean, define 
what you mean?
    Mr. Heyman. In your packet, you will see this eagle with 
red, white, and blue on the cover. This is a nice, little 
example. There was a SITES show on posters, World War II. It 
was a small show. The people in Cozad had to pay a fee in order 
to get it, as museums normally do to get traveling exhibits. 
They are quite reasonable fees.
    This turned out to be the centerpiece of a month's worth of 
celebration in Cozad, Nebraska. It was just absolutely 
extraordinary. And I just let you look at what was created--not 
by the Smithsonian--but what was created within that part of 
Nebraska as a celebration that was----
    Mr. Yates. What is that? You showed us the book but what 
does it contain?
    Mr. Heyman. It contains all of the kinds of material, Mr. 
Yates, that----
    Mr. Regula. Did the school system do this?
    Mr. Heyman. No, this was a group of people with two chairs 
and then a whole committee.
    Mr. Regula. Within the community?
    Mr. Heyman. Within the community itself. It is really 
absolutely superb.
    Mr. Yates. It is remarkable.
    Mr. Regula. How many of these have you had--dozens?
    Mr. Heyman. We have about, what, 75 a year going around the 
United States.
    Mr. Regula. And you respond to the community's request?
    Mr. Heyman. Right. But what we also do, and this is in your 
envelope also, is that we put out a book that tells what is 
available and then people request it and then we try to make 
arrangements for it. But then whatever people want to build on 
top of the exhibition that is coming, as for instance this, is 
just an added plus, in my perspective.
    Mr. Regula. How do schools know about this?

                       ``barn again!'' exhibition

    Mr. Heyman. It really is not a school project usually. It 
usually is a around a museum in a community, a little museum in 
a community. That is the way it usually occurs.
    There is happening right now in Ohio, actually, a show 
called ``Barn Again!'' And the same thing is happening in 
relationship to that. This is a pot from St. Paris, Ohio, as 
with this other material created in relationship to the events 
that are going to surround ``Barn Again!''.
    Mr. Regula. They are coming to my district in June or July, 
Smithfield, Ohio. They have several in Ohio.
    Mr. Yates. They all are coming to your district.
    Mr. Heyman. Mr. Yates, I don't know if I should highlight 
this, but in your package you have the new scheduled SITES 
exhibitions in your state.
    Mr. Yates. Mr. Heyman, I would congratulate you and commend 
you upon listing all the exhibits in Ohio.
    Mr. Regula. Mr. Skaggs has a question. We are just kind of 
doing it informally here.
    Mr. Skaggs. Permit me, Mr. Chairman, I have got another 
subcommittee going on. I just want to get a couple questions in 
and then I need to leave.
    I first seized on the comment I think you made in 
connection with the status of part of what was going on with 
the Museum of the American Indian, which was ``becoming 
completed,'' which I think has a nice metaphysic to it. But 
more seriously, I have asked this question in years past just 
to get a feel for the research part of the budget.

                                research

    What percentage of the overall request for Federal funds 
will be going into intramural research activities?
    Mr. Heyman. I am hesitating because we have had a financial 
management system that has never told us that. It has grouped 
research with exhibitions essentially.
    When I have sought to look at us overall and get a feel for 
it, I really came to the conclusion we are about 50/50, about 
50 percent on public programs and exhibitions and about 50 
percent on research. In fact, I came to the conclusion in the 
Museum of Natural History it was maybe 60 or 70 percent 
research in relationship to public programming.
    We ought to start to be able to pick up that information 
now in a systematic way since we changed the management 
information system but that really harkens back to our origins 
as both a set of research institutes and a set of museums.
    Mr. Skaggs. That leads to another topic that we have 
visited before and that is whatever system of coordination and 
avoidance of duplication that you all have in place with the 
other Federal agencies that fund research. If you could again 
remind me of where things stand in making sure that your 
astronomy work is not duplicating what NSF is funding, what you 
are doing in history is not duplicating what NEH may be doing, 
and so on, and what systems are in place to make sure that in a 
structured way we are talking to each other across those lines.
    Mr. Heyman. I am going to let the Provost take a shot at 
that.
    Mr. O'Connor. Congressman Skaggs, one of the ways of not 
being duplicative in any extreme sense, especially in 
theexample you cite, astronomy, has to do with the structure of 
astronomy nationally and the fact that one of the most precious 
commodities in astronomy is telescope time. And consequently most 
telescopes are receiving NSF dollars to support them. There are groups 
that assign time in a competitive fashion for those projects.
    And, so, our work, when we are going on to a telescope, 
say, other than the three--the submillimeter array that is just 
now being completed--is done in a competitive fashion and in a 
nonredundant fashion and largely that is the result of a 
national structure in astronomy.
    In other areas such as taxonomy or in evolution, our work, 
in general, complements that kind of work that goes on in 
universities around the country, and it also offers venues such 
as the venue in Panama to do the kind of tropical evolution and 
ecology that other universities don't have. And so in large 
part our science is part of a large national picture and there 
is really very little redundancy in what we do.
    Mr. Skaggs. What are the mechanisms, though, to assure 
that? I mean, are the appropriate program officers in the 
Smithsonian talking to their counterparts at NSF or NEH on a 
regular basis?
    Mr. O'Connor. Regular basis. And with the Department of 
Agriculture and with the Forest Service. In all of those areas, 
we are in conversation on a regular basis with them.
    Mr. Skaggs. And we would hear a similar story if we asked 
the folks at NSF?
    Mr. O'Connor. Oh, I think so, yes. The program directors, 
in fact, at NSF, we don't directly compete for any of their 
resources. The only resources that we generally get from NSF 
are educational resources.
    Mr. Skaggs. I didn't mean that you tried to get any of 
their money, but again whether the people who are doing biology 
at NSF are talking with people doing biology in the Smithsonian 
to make sure that you are not overlapping in the funding that 
you or the activities that you are engaged in.
    Mr. O'Connor. That is true, sir. And a large part of that 
again goes back to the peer review system that is in place at 
NSF.
    Mr. Skaggs. Is there any document that lays all of this out 
anywhere or does there need to be or is this sort of common 
law?
    Mr. O'Connor. I can put some materials into your hand. I 
will do that.
    Mr. Skaggs. Thanks. Thank you, Mr. Chairman. Excuse me for 
having to go to another hearing.
    Mr. Regula. That is perfectly all right. I am glad you can 
get those in.
    [The information follows:]


[Pages 178 - 179--The official Committee record contains additional material here.]



               smithsonian environmental research center

    Mr. Regula. Following up on Mr. Skaggs, have you a research 
facility in Maryland, and do you work with EPA at the 
Chesapeake Bay office to avoid duplication?
    Mr. O'Connor. Yes, sir.
    Mr. Regula. I think Mr. Skaggs has an important point. We 
had USGS yesterday, and I assume you communicate with them on 
some of your science to ensure that the government is not 
spending money on duplicative efforts.
    Mr. O'Connor. In mineral sciences, our volcanologists, the 
people that study volcanos, are in constant contact.
    Mr. Heyman. SERC in the Chesapeake Bay is an interesting 
one because so much of their work is done in a consortium with 
a whole variety of the other agencies and consequently the 
research on the Chesapeake is really well or pretty well 
coordinated because they are all working together in a single 
consortium.
    Mr. Regula. Have you finished?

                    smithsonian office of education

    Mr. Heyman. One other thing I wanted to do was I wanted to 
tell you something that I am only becoming aware of in a 
systematic way, which is the amount of activity that we have 
that is devoted to K through 12 education. And Dennis just 
created out of a number of entities at the Smithsonian, the 
Smithsonian Office of Education, so we are really beginning to 
see what all of those things are.
    The variety of things that we do within the District of 
Columbia, for instance, we have two magnet schools, teacher's 
nights, a whole variety of things that we do in curriculum.

                   national science resources center

    But I just wanted you to have one example of this, and I 
asked Doug Lapp, who is the Executive Director of the National 
Science Resources Center which puts together science curriculum 
for public schools or schools in general all over the United 
States, just to give you a sense of what that is and what that 
means. It will be very quick.
    Mr. Regula. I was wondering what that was all about.
    Mr. Heyman. I am sorry Mr. Skaggs had to go. I think he 
would have had fun with this.
    Mr. Lapp. We wanted to illustrate a little bit about what 
we have been doing with school districts across the country.
    One of the problems we have had in the past with kids 
learning science and technology is that it has all been 
mediated through reading--textbooks and diagrams. So we 
developed a program called Science and Technology for Children 
that involves 24 different units for grades 1 through 6. We 
developed and field tested it in districts across the country 
and it is now nearing completion. It has been under development 
for the past 8 years, funded by the MacArthur Foundation 
initially, a lot of support from Dow Chemical Company, later 
support from the National Science Foundation and Department of 
Education, and a number of other corporations.
    The idea is to get kids into science through hands-on 
investigations of their own, not just demonstrations but 
actually getting engaged with the phenomena. And I just put 
something in front of you here as an example of an activity 
that we have done in a lot of contexts.

                      electric motor demonstration

    The last time I did this was in Durban, South Africa, 
actually with a bunch of teachers; and the South African 
government has gotten interested in this as well. This is an 
``ugly compass,'' we call it. It has got a couple of what we 
call refrigerator magnets; and if you get far away from 
anything else magnetic, it will point north.
    You will see there is another little magnet there on your 
tray, and I am going to ask you to pick it up and see if you 
can affect the armature of this thing. And I will give you a 
clue, the poles of this magnet, unlike the ones we used in 
school when we were there, are the flat faces. So the North 
Pole is the flat face on this magnet, so that is the powerful 
one. And just see if you can use that magnet to make that 
armature keep going around. Because not only does that act like 
a compass----
    Mr. Regula. It works.
    Mr. Lapp. Not only does that act like a compass, it also 
acts like the armature of a motor. See if you can use the 
opposition, the repelling part the magnet to get it to go away 
perhaps.
    Mr. Yates. They don't repell; they will attract.
    Mr. Heyman. Just turn it around, Mr. Yates.
    Mr. Lapp. Try the other side there.
    Mr. Yates. I can't get the balance.
    Mr. Lapp. There it goes.
    Mr. Regula. I see what you mean.
    Mr. Lapp. So kids can learn this by switching the poles of 
the magnet. They can get this one to repell and this one to 
attract and that one to repell. They are reversing the field in 
this case and they are acting like the commutator. So they get 
the first idea of the motor straight. Then we bring them to the 
fact that there is electricity involved, in motors. That is 
what this other cup is concerned with because you see there is 
a coil there. That little push-button will energize it.
    See with your compass if it will swing around when you 
press down the button. You can see the compass responds. Then 
bring it closer to your armature here, close to the magnets, 
and just push the push-button and see what happens.
    Mr. Yates. Nothing.
    Mr. Lapp. Maybe you can bring the coil near the magnet 
there.
    Mr. Regula. It pulls it in.
    Mr. Lapp. What does it do on the other side?
    Mr. Yates. I think I ruined it.
    Mr. Lapp. With a little bit more practice, they can 
actually get this going so that on one side it attracts and on 
other one it will repell, and as they keep on doing this, they 
can make a motor out of this, an impulse motor.
    It is all building up to an idea. You know, kids have lots 
of toys at home that have motors that look like this, and when 
they pull them apart they find there are magnets inside and a 
little armature, but they really can't see it work because it 
is all closed up.
    Mr. Yates. Why don't you apply your talents toward making 
an electric automobile?
    Mr. Regula. This is step one.
    Mr. Yates. That is why I asked the question.
    Mr. Lapp. We have materials that address that with kids. 
They discuss reducing pollution, using electric automobiles, 
and then they get to thinking about, well, where does the 
electricity come from that operates electric automobiles; and 
it sometimes comes from polluting power plants, so then they 
begin thinking about that as well.
    But what we have done here is to take this armature out for 
kids to get it where they can see it as it is working. They 
suspend it on a set of brushes. So if you bring the magnet up 
close to the armature here, it turns. It is a little more 
efficient than the coil was, obviously. But we wanted you to 
see this. This is just one part of a K through 6 elementary 
school program.
    We have field tested this unit across the country and we 
have brought in school district people from over 200 school 
districts over the past several years to learn about hands-on 
science. We have brought them into the Smithsonian for a week-
long institute--we bring in superintendents of schools, their 
science supervisors and people that can provide some real 
leadership.
    Mr. Yates. How long have you been doing this?
    Mr. Lapp. About 7 years. There is a list of districts that 
have participated in your book here, but there are over 200 
districts across the country. A number of them are districts 
from large urban centers.
    We have been working very closely with the New York City 
schools. We have Chicago involved with Leon Lederman's group in 
Chicago. We have formed some partnerships with a number of 
industries, such as Hewlett-Packard and Dow Chemical, that help 
their districts to support this kind of science in their 
schools.
    Mr. Heyman. What proportion of kids do you think are using 
this NSRC hands-on curriculum?
    Mr. Lapp. Well, from the districts that are participating 
in the institutes alone, we have over 2 million kids in grades 
K through 6, so it is getting close to 20 percent of the kids 
in the Nation.
    Mr. Yates. How do you do it? Do you make these devices and 
send them out or do they make it themselves?
    Mr. Lapp. Both actually. Our publisher-manufacturer's kits 
provide everything a class of 30 kids needs to do these 
experiments, and then we encourage school districts to make 
their own little factories to create these kits and recycle 
them. So for instance, in Schaumburg, Illinois, outside of 
Chicago, they have had a science material center for many years 
that assembles these kinds of materials, into science kits. 
They will send a kit to the sixth-grade teacher; she uses it 
and sends it back to the center where it is refurbished and 
sent out to another school. They can really get economies of 
scale this way. We have now hundreds of these centers operating 
across the country.

                         funding for education

    Mr. Yates. Has your budget for this operation been growing?
    Mr. Lapp. Actually, it is always a struggle.
    Mr. Yates. What do you mean by ``struggle''?
    Mr. Lapp. It is always a struggle to raise money for 
education.
    Mr. Yates. But does your budget for this operation come out 
of the Smithsonian's budget or does it come from a private 
donation?
    Mr. Lapp. It is shared. There is a small part that comes 
out of the Smithsonian, both trust and Federal. We have grants 
from a number of industries. We have some grants from the 
National Science Foundation, grants from the Department of 
Education, so this is a shared thing.
    Mr. Yates. What is your budget?
    Mr. Lapp. About $3 million a year total, including the 
grants.
    Mr. Yates. Has this grown?
    Mr. Lapp. It has grown over the past several years, yes.

                         sao education program

    Mr. Regula. I see you have this program, Micro Observatory 
News, where the high school girl explores the birthplace of 
stars. Of course, this is not quite parallel but it is in a 
sense; it is part of the outreach program.
    Does this mean that a school in Illinois can communicate 
with one of your observatory people?
    Mr. O'Connor. That is correct, Mr. Chairman. It is out of 
our astrophysics operation up in Cambridge, and anybody who can 
have access to the Internet can have access to telescopes 
that----
    Mr. Regula. Are you saying that the student could actually 
use the Internet system? Is it hooked into thetelescope so that 
you would reach the equivalent experience of actually being there and 
looking through the telescope?
    Mr. O'Connor. That is correct, sir.
    Mr. Heyman. Most telescope observation now is not like 
peering through a telescope, it is really looking at a screen. 
So what they are seeing over the Internet is the same thing as 
the astronomer sees who is sitting at the base camp of any of 
our telescopes.
    Mr. Regula. Is there a schedule so that the student or the 
teacher will know whether this will be available?
    Mr. O'Connor. There is a schedule. I don't have it with me 
but there is a schedule. There is a way of getting queued up in 
order to access the material.
    Mr. Regula. Do you get a lot of activity, and is it growing 
as people learn about it?
    Mr. O'Connor. It is relatively new so it is starting to 
grow. It is starting to pick up now that schools are gaining 
access to the Internet.
    Mr. Heyman. What it really requires is high school teachers 
who are really interested in it, who know what they are doing 
and who cooperate with regard to the creation and the use of 
the curriculum which comes out of SAO. And there are going to 
be about five or six dedicated telescopes. These are ones with 
a lot of range. You cannot look this way so much but you can 
look out very far, and they will be queuing and they will be--
and you can always see them because they are going to be placed 
in various locations in the world so at least some of them will 
always be in the dark.

                   distributing education information

    Mr. Regula. How do you alert the schools as to what you 
have to offer? How do people learn about it?
    Mr. Lapp. We do a broad mailing every year for these 
institutes. That is one of the brochures in front of you 
attached to that list.
    Mr. Regula. It goes out to schools across the country?
    Mr. Lapp. Across the country. We especially target the 
school districts that are receiving support from the National 
Science Foundation Systemic Initiatives. What we try to do is 
be a catalyst for them, and help get them organized. We run our 
institutes on a very, very organized basis.
    We got help from Hewlett-Packard in developing a strategic 
planning manual, because we feel one of the things that school 
districts lack is this ability to plan for the long range, 5 
years out. We help them to plan all the things they need to do 
to get a good science program in place, including the teacher 
training, the materials, the assessment, and all the rest, 
including building community support with local industry.
    So that is something we think we really have gotten a 
handle on and we are helping lots of school children across the 
country. By the time they leave us, they have the strategic 
plan that they need to go back to their school boards, and 
their local business and industry partner, to get something 
moving.
    Mr. Regula. I assume that the National Education 
Association must have a publication that goes out to all the 
members, which would be mostly teachers, in the country that 
maybe they would give you public service type of announcement 
where you put a little blurb in about this?
    Mr. Lapp. That is a very good question, and we also 
approach school district administrators through their 
publications.
    Mr. Regula. These are great but people have got to know 
about them.
    Mr. Lapp. We have more demands than we can supply. We are 
just at the selection point now for two institutes and we have 
had about twice as many applications as we can accept.
    Mr. Yates. I would follow-up on your question, Mr. 
Chairman.
    Mr. Regula. Certainly.
    Mr. Yates. You brought out the fact that students through 
their entry into the Internet can look through these 
telescopes. Am I stating this correctly?
    Mr. Lapp. Yes.
    Mr. Yates. What about the person who isn't a student who 
has a computer? Is there any way they can do it?
    Mr. Regula. The public.
    Mr. O'Connor. Yes, sir, anybody who has access to the 
Internet would have access to these images.
    Mr. Heyman. I don't think they are going to end up being 
able to program them, but they will be able to observe whatever 
is being observed at the school level.
    Mr. Yates. Well, suppose just as you publish what you are 
doing for the schools of the country, how can the public in 
general get this kind of information so that with their 
computers they can engage in the activities that you are making 
available to the schools?
    Mr. O'Connor. This I believe, Congressman Yates, that this 
particular example of the Smithsonian Astrophysics Observatory 
material would be accessible through the Smithsonian Home Page, 
and so the public in looking at our home page and our events 
and activities would ultimately be able to access this. But it 
is not a particularly--today the access that way is not 
particularly user friendly; it has to be refined. It takes too 
many hits on the old mouse to actually get to the site.
    Mr. Yates. What do you mean by hits on the mouse?
    Mr. O'Connor. It takes too many instructions.
    Mr. Yates. I am not familiar with the mouse. I feel at a 
real loss because I don't know how to operate a computer. I 
grew up without computers, computers became popular after I was 
65 years old, and I was not smart enough to leave the golf 
course and learn about computers.
    Mr. O'Connor. I would be happy to demonstrate for you, sir.

                   smithsonian's financial resources

    Mr. Yates. Okay. I may take you up on that as soon as I 
learn how to punch a button. This is just another example of 
what an incredible and unique institution the Smithsonian is. 
In my mind, it is one of the truly great institutions of the 
world. I don't know of another institution in the world that 
compares with the Smithsonian. There are museums, there are 
scientific organizations, there are art museums in various 
parts of England, France, and other civilized countries of the 
world, and yet I don't know of any of them that holds a candle 
to the Smithsonian. And that is why I kind of shudder at the 
prospect of your not having adequate money to carry on your 
activities, and that is what I am leading up to.
    Do you have adequate funding to carry out your mission? I 
think that in former times when there was not quite the 
emphasis on a balanced budget that we seem to be having now 
that your funding was adequate to carry out your purposes. Now 
that the emphasis is on cutting the budget, are you getting by? 
You are growing aren't you?
    Mr. Heyman. Well, you will always have to grow some.
    Mr. Yates. Yes. Well are you growing?
    Mr. Heyman. Yes. I mean, we are growing in some kinds of 
programs. Like, for instance, this whole educational 
undertaking is expanding. Our budget--well, it is hard tosay. 
Certainly our Federal budget is not growing in this regard. But we are 
finding other sources of revenue to help.
    Mr. Yates. What other sources are you finding and in what 
amounts?
    Mr. Heyman. I don't have those but I could really give 
those to you, Congressman Yates.
    Mr. Yates. Well, we are interested in what your total 
budget is, both appropriations and private donations. As long 
as I can remember, and I think you still do have a private 
budget and an appropriations budget.
    Mr. Heyman. That is correct.
    Mr. Yates. And both of them of course are subject to the 
purview of this committee. Although there was a time when that 
was disputed.
    Mr. Regula. Dillon Ripley.
    Mr. Yates. That is right. Dillon Ripley thought you were a 
private institution. And I think it was 1977 when we had the 
showdown, and I said to him, you are getting a hundred million 
dollars from the government. That has the essence of having 
some quality of being a public institution. So we had a long 
investigation. Have you ever read that?
    Mr. Heyman. I have not but this Secretary has no question 
about the fact. What kind of Federal entity is another issue, 
but I have no doubts about Federal connection.
    Mr. Yates. But anyway, that is what I am interested in is 
making sure that the Smithsonian, which again I consider it a 
unique institution, does have the funding to carry on its 
activities.
    Now do you have to cut back as a result of not having 
adequate funds in any of your activities?
    Mr. Heyman. Well, what we have been doing obviously is, 
putting aside the Indian Museum, the only thing that has been 
growing, we have been losing FTEs so we have fewer full-time 
equivalent positions now then we did previously.

                          work year reductions

    Mr. Yates. Well, I keep getting word that as you lose your 
FTEs, you are making your existing employees do the work, too.
    Mr. Heyman. Well, to the extent we can get away with it.
    Mr. Regula. If you will yield, Mr. Chairman, I don't think 
we have lost FTEs; have we?
    Ms. Newman. Oh, yes.
    Mr. Yates. You heard Ms. Newman's expression, Mr. Chairman. 
She said, oh, yes.
    Mr. Regula. That is Vice President Gore's initiative that 
caused that, not this committee.
    Mr. Yates. I would agree with that. The fact that he does 
it does not make it any better.
    Ms. Newman. Do you want to do the numbers or do you want to 
hear those later?
    Mr. Regula. Have you finished your statement?
    Mr. Heyman. Yes, sir.
    Mr. Yates. Did you want to tell the Chairman about the 
FTEs?
    Mr. Regula. Go ahead.
    Ms. Newman. If we look at fiscal year 1993 as a beginning 
point, we have gone from 4,825 FTEs down to 4,598. These are 
authorized. In the 1997, 1998 budget, we are talking about 
4,378 FTEs. So you see there is a major reduction since fiscal 
year 1993.
    And the plan, based on our agreement with the Office of 
Management and Budget is after 1999 we would go down to 4,303, 
which is one of the reasons why we were so pleased with the 
buy-out authority because it allowed us to bring these numbers 
down in a way that did not disrupt the organization. But there 
is a reduction.
    Mr. Yates. Well, how much of a cut can you stand in your 
budget this year?
    Mr. Heyman. Well, I am certainly--I am going to plan on at 
least at the moment on our getting what is being asked for.

                        fiscal year 1998 budget

    Mr. Yates. Is this a minimum budget?
    Mr. Heyman. Yes, the S&E increase is really a minimum 
budget. The $10\1/2\ million, Congressman Yates, will keep us 
even in relationship to last year but adds for wage increases 
and for inflation.
    The other part, which would be $6\1/2\ million in 
enhancements, are activities that will become a little bit more 
enriched than previously but at a fairly modest level.

                        voluntary contributions

    Mr. Yates. Do you collect from the public at the entrances 
to your museums now?
    Ms. Newman. We have boxes for voluntary contributions in 
it.
    Mr. Yates. How much does that bring in?
    Ms. Newman. Very little funding. To be honest, we have 
pretty much covered the cost of the operation of the boxes.
    Mr. Yates. Mr. Regula and I have had some differing 
opinions on this, and he has won, frankly.
    Mr. Regula. On the parks.
    Mr. Yates. Yes, I was just going to say, parks now have a 
substantial entrance fee for people coming to them. I forget 
what it is for Yosemite, but I was shocked by the amount of 
money they have to pay to get in.
    But at any rate, I hope it will keep your institutions free 
as long as we can. It would be nice if we can do it for the 
next 2 years, as long as I am here. After that, do what you 
want.
    Mr. Heyman. I have somewhat similar plans.
    Mr. Yates. Well, perhaps we can get a sympathetic chairman. 
He is usually sympathetic.

                 national museum of the american indian

    But, at any rate, now that we know that you need the amount 
of money that OMB has approved for you--what are you doing 
about the Indian Museum? Is the Congress being derelict about 
that? Do you have an agreement where we would put up a certain 
amount of money--assuming we collect a third I think of the 
total cost from the public. I am told you have collected a 
third from the public.
    Mr. Heyman. Yes, sir.
    Mr. Yates. And how much money do we have to put up now--we 
being the Federal Government.
    Mr. Heyman. Well, in terms of the construction cost for the 
museum, $58 million; and that is in the President's budget.
    Mr. Yates. And that will construct the museum?
    Mr. Heyman. Yes.
    Mr. Yates. What else will you need beyond that?
    Mr. Heyman. Well, operating money, obviously, as time goes 
on.
    Mr. Yates. But nothing in connection with the construction 
or furnishing of the building?
    Mr. Heyman. There is a $6 million equipment fund 
thereafter. That is about it.
    Mr. Yates. But that goes on over the years, doesn't it?
    Mr. Heyman. Well, yes, it certainly can be gradual. But the 
other problem we are all going to have to face is moving the 
materials down from New York to Maryland, which is going to be 
a costly operation.
    Mr. Yates. Any idea as to what the cost will be?
    Mr. Heyman. Well, we are estimating around $10-20 million, 
because we have to conserve the materials.
    Mr. Yates. Over how long a period? It depends on the amount 
of money you get.
    Mr. Heyman. That is right.
    Mr. Yates. If you get $2 million, you move $2 million worth 
of stuff.
    Mr. Heyman. Yes, sir.
    Mr. Yates. What happens if you don't get the $58 million 
this year?
    Mr. Heyman. Well, if we were assured that we were going to 
get the $58 million in the course of construction, in other 
words if this were phased in and we were permitted to start, 
that would be fine. I think the Chairman was alluding to the 
possibility in any event that we might discuss this before 
markup.
    Mr. Yates. Have you drawn an alternate plan for phasing? By 
that I mean, if instead of getting $58 million the committee 
decides to provide funds for phasing in the construction 
program, do you have any plans for the number of years that you 
would want to undergo this?
    Mr. Heyman. Well, I mean I am now talking off the top of my 
head Mr. Yates, but my sense about this is once we really get 
started constructing this in the manner in which it is designed 
it ought to go on and get completed. It is not going to be 
usable otherwise. Unlike the Dulles facilities where we have 
really tried to think in terms of modules, on this one it is an 
entire building.
    Mr. Yates. So even if you phase it in over time, you have 
to get a pretty substantial appropriation this year for it?
    Mr. Heyman. Yes.
    Mr. Yates. I see.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Moran, we have been busy asking questions, 
so we will give you a shot at it.
    Mr. Moran. Thank you, Mr. Chairman.
    I first want to ask Sid, did you bring this in for show and 
tell?
    Mr. Yates. No. No. They brought it, and they have shown and 
they have told.
    Mr. Moran. I was impressed.
    Mr. Yates. I could never do this.
    Mr. Heyman. We would be pleased to put on a little show for 
you afterwards.
    Mr. Moran. Not necessary.
    Mr. Yates. This is for smart kids. I couldn't do it.

                        smithsonian affiliations

    Mr. Moran. Let me ask you--it is nice to see you, Mr. 
Secretary, Madam Under Secretary. I want to follow-up on the 
questioning that both the Chairman and the Ranking Democrat, 
former chairman, asked of you, how we are using the--our plans 
to use the resources that are not adequately being made 
available to the public now, what are our future plans really.
    It seems one of those areas is to use private resources 
where they are available, supplemented by your professional 
expertise and some of your artifacts. For example, we have 
talked about a couple museums in northern Virginia that would 
complement the Smithsonian but for which the Smithsonian would 
not be responsible, whether it be liability for the cost of 
construction or even operations, but they cannot be done right 
without consultation from the Smithsonian and, of course, 
lending the artifacts that you might have.
    Now, have you thought about that? Do you have any kind of 
contingency plan? Is there any ability for a private 
organization to set itself up to fund something with the use--I 
think it would have to be pledged in order to generate the 
private money, the professional expertise that you have 
available? The Indian Museum is kind of hybrid in that way, 
with private money that you are raising, but I would like to 
hear from you.
    I mentioned to Mr. Berry, for example, that we talked about 
a national sports museum where we would build on Ken Burns' 
video and the experience of the Negro leagues and development 
of women and sports and so on and make a technologically up-to-
date facility with an IMAX screen and so on. And then the Army 
wants a museum because it has a half million really priceless 
artifacts that it cannot display. Can you give us some guidance 
on what the possibility of something like that might be?
    Mr. Heyman. Well, Mr. Moran, the Regents last year adopted 
a set of policies which I will be happy to make available to 
you which talk about collection-based affiliations. And the 
short of it is that we are beginning to explore, at the request 
of places that would like to borrow, lending on a semipermanent 
or long-term basis artifacts, objects from museums in the 
Smithsonian, where all the costs would be paid by the 
receivers.
    But this is part of a desire on the Smithsonian's part to 
get out around the country and not solely be here, number one; 
and, number two, to be able to display, often in context, 
materials that we simply do not have enough room to display in 
our existing museums.
    So we are open to conversations with respect to those 
matters, but the first thing we should really do is to provide 
you with a set of policies so that you see what the contours 
are of what the Regents adopted.

              national air and space museum dulles center

    Mr. Moran. That would be very helpful. It is a shame that 
there is so much gathering dust that is inaccessible to the 
public for lack of financial resources. We can understand a 
lack of public resources, but if there are potential private 
resources that would enable the displaying of those artifacts, 
we ought to pursue that, and I think there are such 
opportunities.
    I am also very much interested in the Indian Museum. I 
think that is a terrific idea that we want to advance. And I 
know that you have been making progress on the Air and Space 
Annex out there at Dulles. It is in Mr. Wolf's district. I know 
Mr. Wolf has been speaking with the Chairman and has spoken----
    Mr. Regula. He has already.
    Mr. Moran. I am sure he has. But I gather that you will 
finish spending the $4 million that was initially available, 
that will be concluded this fiscal year I gather.
    Mr. Heyman. Well, it will be concluded by July. There is 
some hope that there will be a supplemental appropriation bill 
this year that might result in a little bit of money topermit 
us to continue into the next fiscal year.
    Mr. Moran. Okay. Well, I know that you have been very 
accommodating to that. I know it is important to Mr. Wolf and 
others who want to be able to show these kinds, whether it be a 
plane or missile or spacecraft or whatever; and you just cannot 
conceivably find the room down at the Air and Space Museum, so 
it does make some essential----
    Mr. Heyman. That is really the problem. We can't show large 
aircraft there.
    Mr. Moran. But I think you are doing a wonderful job. It is 
a priceless resource, as Mr. Regula and Mr. Yates have said; 
and we just want to find out how we can best give you the kind 
of financial support and political support to keep it the best 
in the world.
    Mr. Heyman. Thank you, sir.
    Mr. Moran. So we thank you for what you are doing.
    Mr. Yates. Mr. Chairman, may I ask a few more questions?
    Mr. Regula. Sure.

                            sites catalogue

    Mr. Yates. I just want to congratulate you on the update of 
the SITES catalogue. I think they are spectacular. I remember 
years ago when SITES was just a closet institution, really just 
a minor part of the Smithsonian. Now it is the country's 
museum. You go out to the country through SITES. And these 
catalogues are just beautiful, particularly the ones for 1996 
and 1997.
    That cover is like a French impressionist. It is a 
beautiful thing. I note from the your explanation within the 
cover that it was commissioned for your 150th anniversary.
    Ms. Newman. Yes.
    Mr. Yates. Where is this painting?
    Ms. Newman. We have posters, Mr. Yates.
    Mr. Yates. I love these posters.
    Ms. Newman. It has already been noted.
    Mr. Heyman. We have certain efficiencies.
    Mr. Yates. I would hope Chairman Regula, upon receipt of 
that poster, would think it was not too artistic and would put 
it up in this committee room.
    Mr. Regula. You will get it framed for us?
    Mr. Yates. Sure, they will frame it for us. We will take 
down the piece that talks about the Cuyahoga Valley.
    Mr. Regula. I think Georgia O'Keefe might go.
    Mr. Yates. Okay. I will put it up in my office.

                         smithsonian expansion

    At any rate, I think this is a spectacular operation. It is 
growing all throughout the country.
    I remember years ago the question came up as to--when the 
Smithsonian was building new buildings, the question came 
before our committee, why should they build new buildings in 
Washington? Why shouldn't the Smithsonian be made a part of the 
country? Why don't you have a Smithsonian West, for example, 
and have a branch in Canton, Ohio--you know, as far west as 
Canton?
    You were shaking your head a moment ago, Mr. Chairman. But 
I can see now that perhaps it is not needed. But the SITES 
operation is a real possibility for bringing the Smithsonian to 
every part of the country, rural as well as urban; and I think 
that is great.
    Mr. Heyman. Well, I think that is where our expansion 
really is; and it is in traveling and lending. It is in getting 
out of Washington. It is communicating in ways--taking 
advantage of technology, probably doing more with television 
than we have done before. In other words, it is not going to be 
building-based. It is going to be information-based or object-
based but not building-based. And I think that is a healthy way 
for us to think about--of expansion.
    Mr. Regula. But the cost is local.
    Mr. Heyman. And then the cost gets distributed in a whole 
bunch of ways that are different from the classical ways of 
paying.
    Mr. Yates. You talked about expanding. Do you have an 
expanded building program as well? Do you require other new 
buildings in order to carry on your activities?
    Mr. Heyman. Well, I will be happy if, in the balance of 
your term and mine, I get this Indian Museum and Dulles Center 
really concluded. Those are two very large undertakings, and I 
think they are going to strain all our capacities in fund 
raising and Federal funding.
    Mr. Regula. Costs don't stop with the building, because you 
have staff; and that is why we need fees.
    Mr. Yates. Oh, yes. That is why you need fees.
    Mr. Regula. Yes.
    Mr. Yates. Well, I can see that in the Dulles part of it, 
Mr. Chairman.
    Mr. Regula. Well, I think you anticipate fees at Dulles, 
don't you?
    Mr. Heyman. Well, that is an open question, not one that I 
have certainly put to bed.
    Let me also say that we are also trying very hard to find 
some opportunities for office space which would be a trade-off 
against rent, largely because I don't think we are doing this 
as efficiently now as we could. I think we could end up with 
more space if we do it essentially in terms of ownership rather 
than paying inflated rent. Our rental account is pretty big.

                      smithsonian children's book

    Mr. Yates. Now are these sold or distributed?
    Mr. Heyman. They are sold.
    Mr. Yates. What is the cost?
    Ms. Newman. $14.95.
    Mr. Yates. Is anybody buying them at that price?
    Ms. Newman. Yes, very successful.
    Mr. Regula. Are they in your catalogue? Shops but not the 
catalogue?
    Ms. Newman. It is in the press catalogue. It is not in the 
mail order catalogue.
    Mr. Regula. Will you put it in the mail order catalogues?
    Ms. Newman. Yes.
    Mr. Yates. What are your new musical albums?
    Mr. Heyman. Congressman Yates, I don't know if you have 
been down, or, Mr. Regula, if you have been down to the 
Portrait Gallery, but we have a show called ``Red, Hot and 
Blue'' which is just absolutely extraordinary. It is just so 
much fun. And, in connection with that, we put out a set I 
guess of three CDs and a catalogue that is a book on the 
history of American music.
    Mr. Yates. I have a book, and it is just beautiful.
    Mr. Heyman. You ought to try to get down there. It is just 
a wonderful show. We have been having a succession of 
celebrities come.
    Mr. Regula. How long will that go on?
    Mr. Heyman. It closes in July. There is still plenty of 
time.
    Mr. Yates. Well, you have not had enough celebrities unless 
you can get the Chairman down.
    Mr. Heyman. I went over to greet a distinguished graduate 
of Berkeley--you know that I once taught and was once 
chancellor there--Gregory Peck, and he came and stayed two and 
a half hours, and he was just absolutely enchanted by it.
    Mr. Yates. I would think he would be. All your galleries 
are just beautiful. Air and Space still gets the bulk of your 
trade, though.
    Mr. Heyman. Yes.

                     repair and restoration funding

    Mr. Regula. One of the things I am concerned about is, as 
you know, we have been pushing the, repair and restoration, and 
last year we got it up to $39 million, and of course you said 
you needed $50 million; and now it is back to $32 million. As a 
matter of policy, I think that we are only building big costs 
in the future by failing to meet repair and restoration that 
ought to be done today; and I have to say that I would feel 
compelled to get that number up.
    Mr. Heyman. Well, that certainly would not disappoint me, 
Mr. Regula. I think that the cut in the OMB budget is due to 
the fact that they have only a certain amount of money that 
they felt they could devote to the Smithsonian. And under the 
policy of doing all of the funding for a major building in the 
first year, they ran out of money; and thus they looked 
elsewhere for it.
    Mr. Regula. Well, I see repair and rehabilitation took the 
hit for the Indian Museum in the final analysis. Isn't that a 
fair analysis?
    Mr. Heyman. Yes, I think so.

                 national zoological park safety needs

    Mr. Regula. Well, that is what concerns me. And of course, 
as you add these facilities, then you only exacerbate your 
repair and rehabilitation problems. The zoo, for example, I 
think has some real health and safety concerns; and yet the 
request is level; and that means some of those are not going to 
get taken care of. This is a potentially dangerous situation.
    Ms. Newman. Mr. Chairman, we are interested in working on 
the buildings and planning for the buildings at the zoo; but I 
want to assure you that we have determined the extent to which 
there are safety problems there; and those have been addressed. 
There were this last year some problems with fire alarms, and 
we--in conjunction with resources that we had and some 
conversation here with the committee staff, we are able to 
handle that. So as far as the zoo is concerned, we do have it 
on a schedule of repair and restoration; but I don't want you 
to be concerned about the safety issue.

                          smithsonian research

    Mr. Regula. I would be interested in what concrete results 
you have from research. I saw this article about the xenon gas 
research yields new potential for medical imaging. That sounds 
like a very productive activity or very productive result of 
some esoteric type of research that you are doing.
    Mr. O'Connor. Well, it is, I think, going to enhance the 
magnetic resonance imaging enormously. And the pictures that we 
have already generated with some of the earlier teams Mr. 
Chairman, I think it is going to enhance the capacity for 
physicians in diagnostics.
    Mr. Regula. I would like for you to put in the record an 
example of each of the research centers, like Panama, for 
example, of maybe one or two instances where what has been 
produced is having impact on people in the United States and 
enhancing their quality of life. If you will put these in the 
record, I just want to be sure that we are not doing research 
for research's sake.
    Mr. O'Connor. Well, sir, in Panama in particular, we have 
started and now are cooperating with 12 other countries in what 
I think is a very exciting project.
    Mr. Regula. Do they contribute part of the cost?
    Mr. O'Connor. Yes, sir. It has to do with tropical forest. 
Through those studies, we are discovering which trees grow very 
rapidly, and that then will permit reforesting of particular 
areas with commercial hardwoods.
    Mr. Regula. Well, that is the kind of thing I would like to 
get in the record. Xenon gas is a good example that our 
investment is paying off in terms of the quality of life for 
people.
    Mr. Yates. Off the record, Mr. Chairman.
    [Discussion held off the record.]
    Mr. O'Connor. Mr. Chairman, we will provide you with 
examples.
    [The information follows:]


[Pages 194 - 196--The official Committee record contains additional material here.]



               comparison of visitation to funding levels

    Mr. Regula. Okay. Some of the visitation costs, I was 
looking at the Custom House in New York. I figure it comes out 
to the about $50 a visit.
    Mr. Heyman. We have really got to look at those figures 
again, and I better get back to you on that analysis. Because I 
only saw it yesterday, and I wasn't satisfied with that. I just 
don't understand it, and I have got to look into it.
    Mr. Regula. The Indian Museum is $14.7 million, and the 
same number of visitors at Cooper-Hewitt in New York is $5.16 
million. That is almost triple the cost per visitor.
    Mr. Heyman. Well, I have got a lot of problems with this 
piece of paper.
    Mr. Regula. Well, maybe it is not accurate. I don't know.
    Mr. Heyman. I got a fiscal year 1997 Federal budget. I have 
1995 visitation. Some of the museums were not open for all of 
1995. I just really want to look at this, but we will get that 
back to you.

                      non-federal funding sources

    Mr. Regula. Also, I notice in--where is it--one of your 
statements you said--this was in the Washington Post on 
December 18 of 1996. It is talking about Orkin, and it quotes 
you: ``The only way for museums to survive and thrive if we 
find funds nowhere else,'' said Heyman, ``we are doomed at 
least to a static future and, worse, to one of continuing 
erosion.''
    And I assume that represents a real concern that you have 
and why you are reaching out to corporate sponsors.
    Mr. Heyman. Yes.
    Mr. Regula. Frankly, I would rather have fees than 
corporate sponsors, but that is a trustee decision at this 
juncture.
    Mr. Heyman. It is, and I find the fee issue a really tough 
issue and I thought a lot about the parks.
    Mr. Regula. I might tell you that I have asked the parks, 
what the reaction on the part of the public has been to fees? 
And they have had no complaints.
    Mr. Heyman. One of my problems here--there are a lot of 
problems. But one of my problems here, we get a lot of sporadic 
and erratic use of the museums and people go over for lunch, 
for an hour, and it is a very different kind of user pattern 
than parks.
    Mr. Regula. That is sort of like Golden Eagle, where you 
buy the ticket that lets you in any museum for a period of 12 
months.
    Mr. Heyman. Well, it is a never-ending subject of inquiry 
within the Smithsonian as well as outside.
    Mr. Regula. Right. But I am concerned about the 
Orkinapproach.
    Mr. Heyman. That has been a tremendous success. It really 
has been.
    Mr. Regula. I understand that.
    Mr. Heyman. Well, I was making a little joke in the 
Washington Post; and the Post did not seem to get what I was 
saying.
    Mr. Regula. Off the record.
    [Discussion held off the record.]
    Mr. Regula. That was off the record.
    You are opening a new shop at National Airport. I think you 
have had one in Baltimore since 1995.
    Ms. Newman. Right.
    Mr. Regula. You see this as a pattern of outreach and do 
you make some profit on these?
    Ms. Newman. Yes. First of all, the agreement is that we do 
not use our funds for the development of the shop. The risk is 
all on the part of the developer, of the third party. We, 
however, have a great deal of input in the design of the shop, 
the products sold and the image of the Institution. Royalty 
then comes to the Institution.
    As a matter of fact, we are being approached by other 
airports, given the extent to which the developers believe this 
is useful in airports. From our point of view, it is another 
way of communicating to people coming into the city that here 
is a wonderful stop while you are in Washington.
    Mr. Regula. Well, do you anticipate going beyond the 
periphery of the greater D.C. area? I mean, basically, it would 
be Baltimore, National; but would you contemplate Chicago or 
Cleveland?
    Ms. Newman. We have had questions raised about shops in 
Chicago and New York and Grand Central Station, for example. 
But, for us, the first question is where is the money coming 
from, because we are not going to----
    Mr. Regula. You mean to develop the shop so the developer 
has to do this?
    Ms. Newman. That is right. But it is a wonderful 
opportunity for the Institution.
    Mr. Regula. It is, obviously, a success. I just saw the 
gentleman that had the duty free shops and sold them for an 
enormous profit.
    Mr. Heyman. One of them, in any event.
    Mr. Regula. Yes, one of the two. He gave away the vast bulk 
of a couple billion dollars.
    Mr. Heyman. I wish he had known about the Smithsonian.
    Mr. Regula. I noticed that, according to the article I 
read, he only kept $5 million out of an enormous fortune. So 
this is sort of something you develop little by little.

                              fundraising

    Mr. Heyman. We are trying to do modest incremental 
development of a number of those kinds of activities, and 
perhaps the one that has the most potential is to do more 
product development. We do very little. But there are so many 
objects and patterns and the like at the Smithsonian that 
people could use usefully if we get the right way of doing it. 
I think it would probably add to our profit in that regard.
    Mr. Regula. All but the quilts.
    Mr. Heyman. Well, it depends on who makes them.
    Mr. Regula. How have your contributions been? Are you going 
up or down?
    Mr. Heyman. Our contributions this year are a little lower 
than last year, but that is because of fewer very big, major 
gifts. And last year we had a $10 million gift that was not 
replicated this year.
    But if you look at contributing membership, which is sort 
of like the annual funds, we are doing okay. And I keep looking 
at that and try to nudge that up and nudge that up, because it 
is the contributing members who, over time, make larger gifts 
when they are able and when they are really interested in it. 
So it is the base that I am really interested in.
    But we have got to do more with that, and we are 
contemplating very seriously having a capital campaign for the 
Smithsonian and position ourselves in terms of fundraising in a 
much more organized way than we have been.
    Mr. Regula. And that would be capital for what?
    Mr. Heyman. Mainly endowment. Not for buildings but for 
mainly endowment. It is what has happened in the big State 
universities. And now if you look at places like University of 
California or Ohio State University or University of Michigan, 
all of them are involved in serious fundraising in which a 
campaign is usually one of the ways to organize and also 
attract a big bump-up in terms of contributions.
    Mr. Regula. Let me say off the record.
    [Discussion held off the record.]

                    government grants and contracts

    Mr. Regula. Well, back on the record.
    I note in your nonappropriated funds you have government 
grants and contracts for $46 million, which is a pretty good 
chunk. What kind of activity did you do for that $46 million?
    Mr. O'Connor. The largest single component of that, Mr. 
Chairman, is up at the Smithsonian Astrophysical Observatory, 
and those grants are largely from the National Aeronautics and 
Space Administration.
    Mr. Regula. And they are conditioned on your producing 
information that they find useful?
    Mr. O'Connor. We submit proposals for particular attempts 
of observing phenomenon; and if they like the proposal, it is 
funded.
    Mr. Heyman. And then they go out sometimes for requests 
which we can keep.
    Mr. O'Connor. For example, they had a request out recently 
for the management of the new satellite observatory, and we 
will be managing that facility.
    Mr. Regula. And you have some among your own facilities and 
some you will manage for other agencies?
    Mr. Regula. This would be a tribute to the quality of your 
scientists, I would think.
    Mr. O'Connor. I think, Mr. Chairman--without being too far 
off base, I think it is nationally acknowledged that the 
Smithsonian-Harvard Astrophysics Group is the best astrophysics 
group in the country and probably in the world. It is not a 
particularly widely known group, but they have made some really 
substantial observations.
    Mr. Regula. I think the whole area of research that you do 
is very little known as far as the public. They think of the 
Smithsonian as being these buildings down on the Mall. But 
Panama, astrophysical, it is quite an asset of the country and 
most of the world.
    Mr. Heyman. I really believe that, but you never know how 
much you ought to talk about your research. It is a little 
like--I keep going back to the analogies of running a State 
university, how much you talk about your research andhow much 
you talk about undergraduate teaching. So it is a little tender from 
time to time. But we have been making our story known in research I 
think in the last number of years with greater frequency.

                          smithsonian outreach

    Mr. Regula. I like the outreach programs. As you know from 
prior hearings, I have always pushed hard to get agencies to 
outreach so the country can benefit; and I think what you are 
doing in many of the things we have discussed this morning is 
making it available to schools in an educational program.
    I assume that colleges and universities can also take 
advantage of what you are doing, and what we are going to have 
very shortly in Stank County, which is interactive programs 
where both the scientists and the students will be actually 
able to converse.
    Mr. Heyman. Yes, the Natural Partners Program; and I am 
looking forward to increasing that activity. Because we are 
doing it now in Mississippi and Tennessee and Alabama, and now 
we are going to be moving to Ohio. And that can be a wonderful 
program. I really do think so.
    We have close to 700 interns every year from--largely from 
colleges but also from high schools from around the country. 
Some get paid. Some don't. But each of them has an experience 
working with some folks at the Smithsonian, and it is really 
sought after, and people really like it.
    Mr. Regula. I would think so, yes. We have had some from 
our district that get involved in these programs, and I am 
quite sure that the people would certainly welcome that 
opportunity.
    Some of your donors give money for specific purposes, I 
assume, where you have an earmark and then some for general 
purposes, is that correct?
    Mr. Heyman. Mostly designated and less unrestricted. I am 
always partial to the latter, but----
    Mr. Regula. Yes, I can understand that.
    Well, I think we will have questions for the record; and I 
am quite sure some of the other members will. We have a real 
problem because members have three subcommittees going.
    But we are going to have a challenge here to prioritize 
this, because OMB gave you perhaps a better boost than they 
have many of the other agencies that we have in this committee. 
And they are all very substantive needs that we find in Park 
Service, Forest, et cetera, so I am quite sure we will get back 
to you and say, this is how much we have that we can do, given 
our 602(b) allocation, and in light of that would you 
prioritize. We want to work with you to make the best use of 
the funds available.
    Mr. Heyman. I would be very pleased if you could do that, 
sir.
    Mr. Regula. So once we get a 602(b) allocation, then we 
will have a better idea of what we can do.
    Thank you very much for coming.
    Mr. Heyman. Thank you very much.
    Ms. Newman. Thank you.
    Mr. Regula. The committee is adjourned.
    [The following questions and answers were submitted for the 
record:]


[Pages 202 - 259--The official Committee record contains additional material here.]



=======================================================================


                        National Gallery of Art


=======================================================================



[Pages 263 - 275--The official Committee record contains additional material here.]



=======================================================================


                         John F. Kennedy Center


=======================================================================



[Pages 279 - 295--The official Committee record contains additional material here.]



=======================================================================


                    National Endowment for the Arts


=======================================================================


                                          Thursday, March 13, 1997.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

JANE ALEXANDER, CHAIRMAN


[Pages 300 - 301--The official Committee record contains additional material here.]



    Mr. Regula [presiding]. Well, we'll get the hearing 
started.
    We're pleased to welcome Ms. Alexander to testify on behalf 
of the National Endowment for the Arts. I don't have an opening 
statement.
    Mr. Yates, would you like to make some opening remarks?
    Mr. Yates. Well, I had opening statements for years about 
the National Endowment for the Arts. I think it's one of the 
shining agencies of our Government. Its record of performance 
over the years, in spite of the fact that some have tried to 
mark it by the few mistakes that have been in this agency, has 
been one of a distinguished performance.

                      place of the arts in society

    And I know that at the moment there are some who threaten 
it with going out of existence, but I feel quite sure that the 
Congress, in its wisdom, will continue it not only for this 
year, but for years to come. Every President who has been in 
office since 1965, and even before, has spoken of the necessary 
place of the arts in the culture and in the life of our 
country. And I endorse their statements. I should say, my 
research started with Dwight Eisenhower who looked to the place 
of the arts in our society. And so I look to its continuation 
under the very able leadership of our witness this morning, Ms. 
Alexander, and I welcome her as being the chairman.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Obey.
    Mr. Obey. No opening statement; I just want us to report 
out the money. [Laughter.]
    Mr. Regula. That's fairly clear.
    Mr. Yates. It's even more powerful than mine. [Laughter.]
    Mr. Regula. You didn't say how much, though.
    Mr. Yates. Yes, I did--$136 million.
    Mr. Regula. Oh. [Laughter.]

                           future of the nea

    Mr. Regula. Let me preface my questions today with a few 
remarks. As you all know, the House leadership agreed two years 
ago that Fiscal Year 1997 would be the last year of funding for 
the National Endowment for the Arts. This was not formally 
voted on in the House; and the Senate, in fact, does not 
endorse this course of action; however, it is at this moment a 
fact of life in the Republican House.
    This, as a matter of fact, is one of the top goals of our 
Conservative Action Team on the Republican side. However, 
having said that, there are many Members who feel quite 
differently. And there's a substantial number of Republicans 
and a majority of Democrats who do not support this goal and 
who are trying to resolve the problems.
    I would hope today to have some constructive dialogue on 
alternatives. To simply take a position that we stick with the 
current system and merely advocate the increased funding does 
not achieve the goals that we have to try to address with 
respect to the issues that exist within the House. I think we 
need to determine today what is the appropriate role of 
Government in the preservation of the culture of this country?

                  nea and the preservation of culture

    Ms. Alexander, I have a hypothetical question for you, and 
you may comment on it or you can enlarge upon it in the record. 
The question I would ask--and I will have the same question for 
the Humanities--is, if we were a Parliamentary system and if 
the Prime Minister named you the Minister of Culture, how would 
you preserve, enhance, and educate the people of this country 
as to our cultural heritage as a Nation?
    Ms. Alexander. Mr. Chairman, and members of the committee, 
I'm pleased to be able to come and talk about the National 
Endowment for the Arts this morning.
    In response to your question, Congressman, I feel that what 
the Endowment is doing now is trying to preserve the heritage 
of our great cultural legacy, our arts legacy, which perhaps 
has never been more vibrant than it has been in the Twentieth 
Century of the United States of America. All you have to do is 
think about what has happened in the world of dance which has 
impacted the history of dance and dance worldwide, visual arts, 
theater, literature, and on and on, not to mention music and 
museums.

                             arts education

    What I would do would substantially expand on what we have 
already begun. For example, arts education, which has been in 
decline for the past 25 years--I would make sure that every 
child in America from the very earliest age had the opportunity 
for arts education in their lives.
    Why? Not only does it enhance their own quality of life, 
their spirit and problem-solving skills, and critical thinking, 
but we need to build creative minds for the future. We need to 
build creative minds for America because all the new 
technologies that are coming at us so quickly need fast 
interpretations; they need problem-solving; they need creative 
and imaginative thinking. And business knows this already, and 
they have actually looked to the world of the arts and arts 
education for the leaders of the future. So that would be one 
main priority, which is that every child, from the earliest 
stage, would have the arts in their lives.

                      strengthen arts institutions

    Secondly, I would embolden and enhance the arts 
institutions that already exist, that preserve our cultural 
legacy, and are an investment for the future by developing 
those in the arts for tomorrow; by making sure that our museums 
were open to all people at all times, that they were able to 
acquire what they needed to acquire for their patrons, that 
they were able to interact with arts education, as so many of 
them are trying to do now.
    They would need some more opportunity to do that; the same 
with our orchestras, which have been having some problems 
lately; the same with our theaters in the United States. Part 
of arts education involves the facilities that produce art 
themselves, so they need to be a in a very healthy situation 
where they are being sustained.

                         international exchange

    Those would be some of my major priorities. And, also, 
let's not forget international exchange. I think that's a very 
important component which has been neglected in the past few 
years. The world knows us through our popular culture, through 
our dissemination of video, film, and audio art, but doesn't 
know us in the real, live performing arts. So I think we need 
to have a little more international cultural exchange, as well.

                             arts education

    Mr. Regula. How would you enhance the education program? 
I've heard the statement--I don't know how accurate it is--that 
one-third of the congressional districts receive nothing from 
the National Endowment for the Arts. And it would seem to me, 
if that is accurate, that there would be an opportunity for 
education in every district, because you mention education in 
your statement here.
    How do we enhance that? I know that in my own district 
there was a grant that allowed a string ensemble to go around 
to the schools and discuss music with students. How could we 
enhance that kind of a program?
    Ms. Alexander. Well, first of all, you need to have an 
infrastructure for arts education that makes sense. Certainly 
Goals 2000 has arts education as part of the curriculum, but 
not all schools are taking Goals 2000 into their programming 
and into their curriculum at this time. We hope in the future 
they will.
    So we need to build the infrastructure through our State 
education programs that give training to teachers for arts 
education. We need to help the teachers that are in the school 
systems already work with artists and learn about arts 
themselves so that they're not overburdened and taking on more 
than they can chew.
    This is not for a minute to eviscerate the three R's, or 
any of the basics that we want in school, but this is to work 
in conjunction with the basics in school. We know that this can 
happen and that the arts only make learning in all subjects 
easier.
    So, one thing is to build an infrastructure through the 
educational system that makes sense in the States and the 
locals----
    Mr. Regula. And you would envision NEA providing some help 
in that effort?
    Ms. Alexander. We already have partnerships with the 
Department of Education in this regard. The Endowment, as you 
know, is a very small agency, and what we do is try to leverage 
through partnerships and increase advocacy information about 
arts education and artists in the schools--let's not forget 
artists in the schools. But we can't have artists in the 
schools unless we have very strong arts institutions, because 
they can't eviscerate their own reason for being, which is to 
produce arts for their audiences.
    Mr. Yates. Mr. Chairman?
    Mr. Regula. Yes; I'll yield.
    Mr. Yates. Following up on your question, would you permit 
Ms. Alexander to tell you about the Ying Quartet and how it 
served in Iowa? Can you tell the chairman about that? It was in 
the schools. It follows up on your own question.

                    chamber music rural residencies

    Ms. Alexander. That is our Chamber Music Rural Residencies, 
which includes not only chamber music, but jazz ensembles as 
well. They go into rural areas that apply to the Endowment for 
these residencies, which are about nine months. And the Ying 
Quartet, of course, was in Jessup, Iowa--for actually over a 
year--and they absolutely changed the life of the community, 
and the community changed their lives as well. The young 
ensemble become very proficient at what they do; they're now in 
residence in Rochester at the Eastman School of Music as 
performers and teachers.
    So, this is just one way that we interact with communities 
in the United States. They went into the schools and educated, 
and they taught lessons to all people in the community as well.

                        the arts and the states

    Mr. Regula. Are you comfortable, generally, with what the 
States are doing? Because part, of course, of the NEA funding 
flows on through to the States and is supplemented by State 
appropriations.
    Ms. Alexander. Mr. Chairman, States have fluctuated just as 
the Federal Government has in their individual State arts 
budgets, and I think that they need a little more solidity, 
year-in and year-out. Some States, because of the money that we 
give them--which makes up, in many cases, fully half of their 
State appropriations for the arts--have been severely 
diminished because we're not able to give them as much money 
because of our almost 40 percent cut last year.
    So, this has been problematical. A few States have 
increased their State arts budget in the past year, but it 
still doesn't add up to a whole lot if you look at the 
nationwide profile.

                  private sector support for the arts

    Mr. Regula. One last question before we go around the 
table. I heard the allegation that there is about $10 billion 
contributed by the private sector to arts. Do you think that's 
accurate?
    Ms. Alexander. Oh, yes. The private sector is, of course, 
the main funder of the arts in the United States, and it is 
almost exactly in reverse to what the rest of the world does. 
The rest of the industrialized nations have maybe 90 percent of 
public subsidy for the arts and 10 percent private, and we have 
90 percent private and 10 percent public. But it is the 
partnership and what the private sector is able to leverage 
through its imprimatur of excellence from the NEA. What we do 
at the National Endowment for the Arts simply is unequalled by 
any other entity in the Nation.
    Not only are we the largest single funder of the arts in 
the United States, but we bring together people from all across 
the United States--private citizens--to adjudicate the 
applications. So it's a very fair and equitable process we 
feel. And what the Government does best, what the Endowment 
does best, is to provide opportunity and access for all. No 
other entity, as I say, does this except at a Federal level.
    Mr. Regula. The staff reminded me--would you like to make 
an opening statement? [Laughter.] I think your opening 
statement was a response to my question.
    Ms. Alexander. Yes, it seemed to be. I would, Mr. Chairman, 
like to submit my written testimony for the record if I may.
    Mr. Regula. No, I understand; that's a given.
    [The prepared statement of Jane Alexander follows:]


[Pages 307 - 312--The official Committee record contains additional material here.]



    Ms. Alexander. Thank you. And I have a feeling you want to 
get right to the questions, but I would like to say that if the 
Endowment didn't exist today, I do feel that you would have to 
invent it because of this imprimatur of excellence that I spoke 
of that has the ability to leverage so much other public and 
private money, and also for the Endowment's ability as a 
convener.

                            american canvas

    We had a very interesting, I think, and important 
initiative this past year called American Canvas. We went into 
six--seven cities, actually, if you include Rock Hill, South 
Carolina, as part of our Charlotte, North Carolina visit--and 
asked people in the communities about the value of the arts to 
their communities and how they intend to sustain them for the 
future. We're concerned about no infrastructure being built 
when you start to diminish the public sector role at the 
Federal, State, and even local level--because there is a domino 
effect there.
    American Canvas, we felt, was a very important initiative, 
and it will result in a report that will tell people how they 
might build a network within their own community to have 
sustained support for their cultural institutions. And that 
could only be done at the Federallevel. We were able to attract 
leaders from all kinds of fields: educators, legislators, business 
leaders, people in health services, and religion, to come together as 
part of a committee for American Canvas. And that's another thing that 
can only be done at the Federal level.

                        interagency partnerships

    Another is interagency partnerships, Federal partnerships. 
We have 30 Federal partnerships with other Federal agencies. We 
have one with the Department of Justice for young kids who are 
in trouble, because the arts are a natural to keep kids off the 
street, to keep them engaged, to keep them building a skill. 
The child who picks up a trumpet is less likely to pick up a 
gun or a needle. That's our thinking, and it's also the 
thinking of the Attorney General as well.
    And we have partnerships with the Park Service for cultural 
tourism, which is the fastest-growing entity for tourism in the 
United States.

                  partnerships with the private sector

    And then we also have the ability at the Federal level to 
leverage partnerships, not only with States and regional 
agencies, but also with the private sector. We have a very 
important initiative right now in the area of access on-line 
called Open Studio, with the Benton Foundation. It will create 
access points in the new technologies for on-line sites across 
the country for arts organizations, and these range from 
Telluride, Colorado to inner-city Chicago, and so on. And those 
will just increase exponentially.
    Mr. Regula. Are these on the Internet?
    Ms. Alexander. Yes.
    Mr. Regula. So any student who has a school with equipment 
can benefit from this?
    Ms. Alexander. Absolutely it's not all in place yet; we 
just started. Each site that we're helping to get going now has 
to mentor 10 to 20 other sites in a year, so you can see that 
this is going to grow exponentially.

                              nea web site

    Not only that, if you are on-line, I urge you to check out 
the Endowment's own Web site, which we're very proud of, which 
has twice been cited by USA Today as one of the hottest sites, 
and also serves an average of 2,000 people a week. We've had 
over 1.7 million hits since we inaugurated it last April. This 
is a very fast-growing Web site, and what we will be expanding 
in the years is a database for artists and arts organizations 
and people interested in the arts across the United States. In 
other words, it will be the entry point for the arts in the 
United States, on-line.

                nea and the international arts community

    These are the kinds of things that I feel only can be done 
by a Federal entity, not to mention hosting my colleagues from 
other countries of the world. If the arts Endowment, and I as 
its chairman didn't exist, who, in fact, would a cultural 
minister come to visit?
    The minister of Greece paid me a visit last week, and he 
said, ``Thessaloniki is the cultural capital of Europe this 
coming year, and we have a very large cultural festival going 
on in the summer, and I regret to say that the arts from the 
United States are under-represented. Can you do anything about 
it?'' And to my great chagrin, and to the shame of the American 
people, I had to say, ``I'm afraid we don't have any money to 
be represented by the United States at your international 
festival.''
    Mr. Regula. How would we be represented, assuming there 
were enough money?
    Ms. Alexander. Well, we have plenty of dance groups, music, 
and so on----
    Mr. Regula. Okay.
    Ms. Alexander [continuing]. That we could send, were we, 
and USIA also, in a healthy position to have international 
exchange. As the Cultural Minister of Greece said to me, ``You 
are very well represented through audio, visual, and so on, but 
we don't see the real thing.''
    Mr. Regula. How long does this festival go on? Several 
weeks?
    Ms. Alexander. Several months.
    Mr. Regula. Mr. Yates, did you want to defer to Mr. Obey? 
He may have to leave.
    Mr. Obey. No, no. You go.
    Mr. Regula. All right.
    Mr. Yates. I found your statement most impressive. I found 
the Chairman's question a little disturbing, his question 
raising the question of a minister of culture, because I think 
the critics of NEA who seek to kill NEA are calling NEA a 
harbinger of Government culture. And I don't think NEA creates 
or spreads Government culture, as such. I think whatever grants 
NEA makes are made pursuant to private citizens. I want to go 
into that for a moment.
    But here, for example, we have a ``Dear Colleague'' letter 
sent out on February 27 to all Members of the House by John T. 
Doolittle, a congressman from California, in which he says, ``I 
want to make sure you have the opportunity to read today's Wall 
Street Journal, which endorses free-market principles rather 
than Government bureaucracies to determine the course of 
American culture.'' And, of course, free-market principles do 
determine the course of American culture, do they not?
    Ms. Alexander. I believe they do.
    Mr. Yates. Okay. And then he goes on to say, ``My goal and 
the goal of the Conservative Action Team is to end all funding 
for the National Endowment for the Arts.'' And then he 
continues, ``However, the Federal Government is often the major 
force behind the direction that our culture's heading. The 
preservation of our culture is dependent on the creativity and 
the ability of our citizens, not on the benevolence of 
bureaucrats.''

                        nea grant making process

    And, of course, I think Mr. Doolittle indicates by that 
statement that he has a total misconception of how NEA works, 
and I want to take you through the procedures of how NEA works, 
not only for the record so that Mr. Doolittle may read it, but, 
as well, for some of the members of the committee who may not 
be as familiar with it as they would be after this hearing.
    Applications are filed with NEA by ``wannabes,'' people who 
want grants and hope for approval by the National Endowment for 
the Arts. What happens to those grants when they are filed? Do 
you approve them by yourself? Or what is the procedure that 
takes place?
    Ms. Alexander. Thank you, Congressman Yates, for giving me 
the opportunity to explain this.
    We disseminate broadly our guidelines for applicants in the 
country, and anybody can apply who has been a 501(c)(3) for 
four years or more. The applications come to the agency--we now 
only allow one per organization; we used to allow multiple 
applications--they come into the agency, and they are reviewed 
by our staff and put into the proper discipline category; in 
other words, music would go into ``music,'' and so on, and 
multi-disciplinary would go into anarea we call ``multi-
disciplinary,'' where many different disciplines are served, such as an 
arts festival.
    Then we convene panels, and we try very carefully to 
balance them geographically, aesthetically, and by gender, 
race, and ethnicity. We don't discriminate in terms of age.
    Mr. Yates. But you do have a pool of panelists, do you not, 
made up of people from all over the country----
    Ms. Alexander. Yes.
    Mr. Yates [continuing]. Who have some familiarity with the 
field in which you're asking them to serve?
    Ms. Alexander. Absolutely. They need to know, they need to 
be experts, if you will, to the best of their ability in the 
chosen field. We also include one lay-person on each panel.
    Mr. Yates. Right, and that was----
    Ms. Alexander. And that's a person who does not make their 
living in the arts.
    Mr. Yates. And that was pursuant to the request of this 
committee some years ago.
    Ms. Alexander. That's right, in fact, it was a very wise 
decision, and we are very happy with the lay-people. Not only 
have they been extremely contributive to the panels, but, also, 
I feel that they have learned a lot from the panelists as well 
about the field that they're adjudicating.
    Mr. Yates. Okay; now we have this pool of panelists, and 
these are private citizens.
    Ms. Alexander. That's correct. And I'd like to add, if I 
may, that the turnover rate is close to 88 percent a year, so 
that we don't have, like in the old days, people who would 
serve on one panel year-in and year-out for three to four 
years; that doesn't happen any more. We really look for new 
panelists all the time, and we're always increasing our panel 
data bank.
    Mr. Yates. How do the panels work? You organize a panel--
you go to your pool, you select people for a particular 
discipline, and they will meet and review applications, will 
they not?
    Ms. Alexander. That's correct.
    Mr. Yates. All right. And they recommend approval or 
disapproval of the grant?
    Ms. Alexander. That's correct.
    Mr. Yates. Once they have acted, what happens to those 
grants--to their actions?
    Ms. Alexander. Then they move the approvals and the 
rejections to the National Council on the Arts.
    Mr. Yates. And the National Council on the Arts is made up 
of whom?
    Ms. Alexander. Twenty-six people chosen by the President, 
confirmed by the Senate, to serve on the National Council. They 
are people from all over the country as well, different 
discipline backgrounds and patrons of the arts as well.
    Mr. Yates. And they either approve or disapprove of the 
actions taken by the panels.
    Ms. Alexander. That's correct.
    Mr. Yates. All right. And once they have approved or 
disapproved of those actions, then their recommendations go to 
you.
    Ms. Alexander. That's correct.
    Mr. Yates. What is your function with respect to that?
    Ms. Alexander. I can approve or disapprove those that 
they've passed on to me for recommendation. I cannot approve 
those they have rejected.

                          rejection of grants

    Mr. Yates. How many--in your capacity as the head of NEA--
how many of the recommendations of these private citizens who 
make up the panels and the council have you rejected?
    Ms. Alexander. In my history as chairman of three-and-one-
half years, I would say not more than 25.
    Mr. Yates. Not more than 25? And what was the number of 
grants that have gone out the----
    Ms. Alexander. In the past few years, since I've been 
chairman?
    Mr. Yates. The comparable figure to the 25 that you 
projected. How many have been approved?
    Ms. Alexander. Probably about 12,000.
    Mr. Yates. Twelve thousand; okay. So that there is no 
control of culture, as such, by NEA. You don't control it, 
except in the final analysis you either approve or disapprove 
of the action that has been taken by private citizens. Is that 
not correct?
    Ms. Alexander. That's correct.
    Mr. Yates. Okay.
    I see you looking at me.
    Mr. Regula. Well, I'd like to get a round in and then I'll 
give you all the time you want.
    Mr. Yates. All right, I thought I would finish----
    Mr. Regula. Yes, that's fine. Are you going to follow up on 
that?
    Mr. Yates. Now that's the procedure that has taken place?
    Ms. Alexander. Yes.
    Mr. Yates. That takes place--not has taken place, but takes 
place. Thank you.
    Mr. Regula. Mr. Wamp?
    Mr. Wamp. Thank you, Mr. Chairman.
    Despite the fact that in the last Congress I did support 
the phase-out of NEA funding, I want to make a couple of points 
that have come up since you were in my office, Ms. Alexander, 
last week.

               decreasing corporate funding for the arts

    In Chattanooga, Tennessee, where I hail from, we've had a 
tremendous history of giving to the arts from the private 
sector. But the empirical data showed that a lot of our 
corporations that have traditionally supported the arts are now 
not owned--some from within our region, some not even from 
within our country--and their giving to the arts is actually on 
the decline.
    And I've checked into the facts, because I try not to get 
involved in which way the wind is blowing, but where is the 
science behind some of this? And what is the hard evidence? And 
the hard evidence in our part of the world is that arts funding 
is decreasing, that the State of Tennessee is under increased 
financial pressures.
    State funding is decreasing; corporate funding is 
decreasing, and kind of unlike public broadcasting, where they 
go to the airwaves and tell their viewers to make it up as the 
Government phases out, arts funding is going to decline. I want 
to raise that as an issue and let you discuss what corporate 
America is actually doing, because in our experience in 
Chattanooga, where we've had a great history there, corporate 
giving is down substantially and programs are now starting to 
really suffer.

                       federal funding priorities

    Secondly, I also studied, since you were there last week, 
this 90-10 differential between other industrialized countries' 
funding for the arts and the humanities versus science and 
technology, and I just want to raise the issue, not to at all 
suggest that we should reduce funding for science and 
technology, but just to point out that I think there may be a 
relationship between the nuclear build-up and the arms race in 
our country and our investment in science and technology versus 
arts and the humanities.
    And now that the Cold War is over, we might want to re-
visit what our priorities are on education funding for arts and 
humanities versus science and technology, and whether or not 
that balance at 90-10 is justified in the post-Cold War era.

                  private sector support for the arts

    Ms. Alexander. Wow! [Laughter.]
    Well, that's fascinating. First, to respond to your 
corporate giving; I do want to bring to your attention the 
report to the President that the President's Committee on the 
Arts and Humanities, a bipartisan committee, recently released. 
In it they call for corporations in America to step up their 
funding for the arts because there are many, many areas, as you 
point out--and I didn't know Tennessee was one of them--where 
corporate giving is actually on the decline as priorities 
shift, as the agendas of the CEOs shift.
    And that's another reason that you need to have a 
Federalrole in the arts; it's about addressing those areas in the 
United States that have no corporations--and there are many of them 
that are rural or in inner-cities--and that would not have access to 
private giving at all, and that's what the Endowment is about. It's 
about opportunity and access for all--opportunity and access for all.

                       federal funding priorities

    To address your question about science, I'm probably not 
the right one to do it because I do think science has been an 
extraordinary liberator for many areas of our lives in the 
United States. However, it would also be valuable, I think, to 
take a look at your priorities and how you may want to re-order 
them in the United States, and so be it.
    Mr. Regula. Mr. Wamp mentioned that there are more and more 
owned by foreign corporations, and from your testimony it would 
indicate that there's not a big history of private giving in 
other countries, that they tend to rely on Government. And, 
therefore, these foreign corporations that now own United 
States companies just simply don't have that as part of their 
corporate culture.
    Ms. Alexander. Very good point.
    Mr. Regula. Are you finished?
    Mr. Wamp. Yes.
    Mr. Regula. Mr. Obey.

                 authorization status of the endowment

    Mr. Obey. Well, thank you, Mr. Chairman. Let me simply 
observe that much has been made of the fact that this program 
isn't authorized. This committee, through the years, has funded 
a lot of programs that weren't authorized. The National 
Institutes of Health have been funded in years when there was 
no authorization. The Centers for Disease Control--I doubt we 
would want all the immunization programs going on in the 
country just because Congress didn't pass an authorization. The 
Commerce Department authorization--various portions of that 
agency, year-after-year, have been unauthorized.

                 appropriations status of the endowment

    The appropriations status was made quite clear on page 65 
of the committee report last year when it pointed out that the 
House and the Senate had not reached agreement, and whether or 
not there should be an ending of funding for the Endowment. 
That's still up in the air, and I would be very surprised if, 
in the end, it isn't funded.
    But let me also make some other observations. To put things 
in perspective, the $136 million that you're requesting this 
year would run the Pentagon for about five hours, so I hardly 
think that this is a case of budgetary overreach.

                importance of the arts to all americans

    I would also make another observation. There is an argument 
made that the arts are really just--you're funding high culture 
items, that there really is no significant benefit that accrues 
to average citizens of this country. I don't know; everybody 
has their favorite philosopher--Plato, Aristotle--mine is 
Archie, the cockroach. [Laughter.]
    And if you take--Archie wrote something a long time ago 
which he applied to the movies, but I think applies, generally, 
to the arts at this time. It was written in the 1920s, and he 
said: ``The movies are young and crude. They're not afraid of 
gusto and the heroic, whether they sentimentalize some lousy 
gunman and his doings, or put across an incredible Western, or 
splurge with hope and melodrama, or embark on an adventure of 
pure fantasy, like Walt Disney stuff.
    They are instinctively trying to hand the public some kind 
of stuff that wins the audience away from the often-sordid 
surface of everyday existence. They may do it badly; they may 
do it obviously; they may do it crudely. But they do have the 
hunch that what millions of people want is to be shown that 
there is something possible to the human race besides the dull 
repetition of the triviality, which is often the routine of 
common existence.''
    Mr. Yates. Good for you.
    Mr. Obey. I think that's pretty good stuff for a cockroach. 
[Laughter.] It's probably pretty good stuff for a congressman 
as well. Sometimes people equate the two. [Laughter.]

                     purchasing power of nea dollar

    But I served on this subcommittee, my very first 
subcommittee, in 1969, when I came on this committee on April 
Fool's Day, and I've seen a lot of changes in this Endowment 
since that time.
    My understanding is that your budget request represents a 
70 percent reduction in the purchasing power of this program 
since 1979. In fact, it is roughly equivalent to the funding 
level which we were providing in 1972----
    Ms. Alexander. That's correct.
    Mr. Obey [continuing]. In real dollar terms, and I think we 
ought to remember all of that when we decide whether it 
deserves a tiny amount of public funding.
    Let me just ask you two questions in the interest of time. 
First of all, many people in the Congress who are opposed to 
funding will find some outrageous example of a grant that had 
been provided in the past, and they will use that to assert 
that somehow funding for this program is destructive of the 
kind of values that we want to inculcate in our children.
    I'd like you to do two things: first of all, explain to the 
committee how you believe funding can help expose young 
children around the country to good values; and, secondly, 
because the stereotype of the arts that has been peddled by a 
lot of people is the outmoded stereotype that this really is 
just a high-culture thing for the cultural elites of the 
country, would you explain to the committee how funding 
patterns have changed geographically, moving from large 
metropolitan centers to small communities? Would you explain 
how this funding exposes people in those towns to popular arts 
as well as the symphony and ballet and things like that?
    And what do you think the bottom-line loss would be to the 
country if we were to rely, as the Wall Street Journal tells 
us, if we were to rely simply on the private sector to fund 
arts in this country?

                        the arts in communities

    Ms. Alexander. The proliferation of the arts in the United 
States of America has been truly revolutionary, I think, since 
the inception of the Endowment--of course, not only because of 
the Endowment. Were there arts before? Of course; there is 
always art where there are human beings in the world in one way 
or the other. But what happened when the Endowment came into 
being was there was a climate, both from the American people 
and from the legislators, that said, ``We want the arts in our 
community. We don't want them just in the major urban 
environments. And we want the facilities; we want orchestras; 
we want museums; we want all these things.''
    And what the Endowment made it possible to do was to give 
the catalytic money to that community that applied and create 
these facilities. So the proliferation has been outstanding in 
every single arts discipline and in every region ofAmerica. In 
fact, the arts are, as you know from your own district, all over your 
own districts and they continue to grow. Everywhere I travel in the 
country, and you may have examples in your own districts, there are new 
facilities being built.
    And what we're trying to say to the people is, ``All right, 
you want to build the facilities, but hold on here. You have to 
have an infrastructure to maintain and support them in the 
future and to maintain and support your artists.'' That hasn't 
happened yet. And I can cite over and over again examples of 
communities that suddenly found their facilities in deficit 
because they hadn't planned ahead efficiently. Some communities 
are addressing that, but not enough. And that's what our 
American Canvas Initiative is really all about.

                     value of the arts to children

    Secondly, with regard to good values to children, as I 
cited earlier, we know that there are studies done now about 
the arts, math and music, that came out of UC Irvine. These 
have been very, very important, showing that children who from 
the very early stages of life have music in their lives do well 
in other subjects. What music does is actually open 
neurological paths for patterning and learning in all subjects, 
specifically math, physics, and other pattern-oriented subjects 
of that kind.
    I would like to bring your attention to a new publication 
of the Endowment's called ``Imagine,'' which is about 
introducing children to the arts. This has been one of our 
very, very popular publications at the Endowment in years past 
and we've renovated and put it out now as ``Imagine.''
    Mr. Regula. Could you supply one for each of the members 
here?
    Mr. Yates. Each of us has one, Mr. Chairman
    Mr. Regula. Oh, I see.
    Mr. Yates. There's one in front of us.
    Mr. Regula. Oh, Okay.
    Mr. Yates. As there is the other book, ``Creative 
America,'' that she mentioned.
    Ms. Alexander. So not only do the arts enhance learning and 
build skills because they are problem solving, but they also 
address, as your cockroach ``Archie'' addressed, that other 
part of life that we sometimes call ``soul''; we sometimes call 
``entertainment''; those other areas of life that we sometimes 
don't value enough or put a premium on.

                        reach of nea grant money

    With regard to your ``high culture only,'' which we're 
sometimes accused of, in fact, just the opposite has happened. 
The Endowment spreads its money pretty fairly across the 
country and according to the number of applications we get. Do 
we fund more in New York and California? Yes, we do, because 
the preponderance of applications that we get come from both of 
those areas. But by and large we reach rural areas; we reach 
very small arts organizations and very large ones as well.
    And let's not forget, when we give money to a place like 
the Houston Grand Opera, most of the time it's not necessarily 
for funding of a new opera, but it's for their outreach program 
so that kids can come in and see opera for nothing. That's what 
the Endowment's money very often goes to. But let's not forget, 
and I must repeat this, we have to keep the organizations, the 
arts organizations, healthy. We have to keep the artists 
employed in the organizations in order for them to do the 
outreach.

                 health of america's arts institutions

    And that's the problem, the bind that we're in right now. 
These facilities are not as healthy as they could be. More than 
50 percent of the theaters in the United States of America are 
carrying significant deficits. And they don't have companies 
anymore. When I started at Arena Stage, I was a member of a 
company. My husband, Ed Sherin, was the artistic director, and 
we had more than thirty in the company. That was in the late 
sixties and early seventies. Today the Arena Stage carries one 
full time artist. This is downsizing a vision of America at the 
very time we should be expanding our vision. At the very time 
that we have the healthiest economy in the world, we should be 
expanding our vision of the arts and celebrating the Millennium 
through the arts and the humanities.
    Mr. Obey. Thank you, Mr. Chairman.

                        authorization of the nea

    Mr. Regula. Thank you. I might enlarge a little bit on Mr. 
Obey's comments as to the authorization, and that is that Mr. 
Yates was always successful in getting a waiver from the Rules 
Committee to overcome the lack of authorization.
    Mr. Yates. And you can do, Mr. Chairman----
    Mr. Regula. Well, I think there may be a somewhat different 
Rules Committee
    Mr. Yates. Well, there is, but you're much more persuasive. 
[Laughter.]
    Mr. Regula. Just so we have the record straight, I think 
the Rules Committee historically has followed the guidance of 
the leadership in the House.
    Anyway, Mr. Skaggs?
    Mr. Skaggs. Thank you, Mr. Chairman. Good morning.
    I don't want to sow any bad will within the cultural 
community, but when you were saying if it weren't for the 
Endowment for the Arts, where would a Minister of Culture pay a 
call, you should have seen Mr. Hackney. [Laughter.]
    After the weekend that some of us had in Hershey, 
Pennsylvania, I'm also intrigued at the notion of having 
painting and music workshops for Members of Congress as a way 
perhaps of making some progress in relationships, but we'll put 
that aside as well. [Laughter.]
    Mr. Moran. Yes, don't push it too far. [Laughter.]
    Mr. Skaggs. I don't know, you and finger paint. [Laughter.]

                      importance of art to society

    But I really am glad that Mr. Obey started the line of 
comment and question that he did because, you know, we are so 
wrapped up in the pragmatic. As important as that is, as 
important as our free market, profit oriented system is, you 
get the sense that as a culture we have lost contact too much 
of the time with the value of imagination and inspiration, and 
where do we get that in the economy? It's hard to find, as 
worthwhile and rewarding in the traditional sense as most of 
our jobs might be. So I really see this modest, and it is very 
modest, investment that the Federal Government makes in the 
individual and community soul of the country as meeting a very, 
very important human need.
    One thing, again, to play off of this last weekend, that I 
think we have realized more and more in this place is that we 
are a community and that we need the arts--if anybody is going 
to improve the fabric of this community, it has to be us. And I 
would like again, looking at the way that your grants have been 
placed around the country, for you to give us a little bit of a 
homily about the importance of those arts related activities to 
building communities. We are constantlyreminded about the 
fraying of the social fabric in the countryside. My sense is that, 
second perhaps only to sports teams, arts organizations are what have 
some prayer of knitting things back together again.

                     the arts as community builders

    Ms. Alexander. Thank you, Congressman Skaggs. I couldn't 
agree more that the arts are a natural community builder. And a 
recent research report that we put out--the Endowment also is 
the main research arm for arts research in the country--shows 
that there are more people that attend non-profit arts events, 
and more money is made from them than all the professional 
sporting events.
    Mr. Skaggs. So I had it wrong. [Laughter.]
    Ms. Alexander. Well, the interesting thing is, we subsidize 
the funding of sports stadiums, you know, and a lot of money 
goes into that. But if this is the statistic, why aren't we 
putting more money into the arts? Non-profit arts? So that's 
some interesting research that came out, but it does build 
community. If you think, outside of houses of worship, outside 
of sporting events, we don't come together as a people in any 
given community as much as throughout the arts. We meet at 
museums, we meet at performing arts events, we meet at 
galleries, and so on, concert halls, and arts festivals. There 
are 45,000 arts festivals in the United States. It's a very 
important meeting ground for the public in any given community. 
And that's growing as well.

                     practical applications of art

    Mr. Skaggs. Why haven't we figured out a way of proudly 
asserting the value of that to ourselves more? I mean, we may 
do it here this morning, but you know, there is that sense that 
it is an enormous, uphill battle for the value to this society 
that comes out of that enterprise to even hold a candle to the 
bottom lines of any number of other things. And I--you know, 
it's bewildering. Maybe we need to get back to the point you 
were making, and I'd love for you to elaborate on it, that this 
is all ultimately very pragmatic, that the growth of parts of 
our minds that come from arts and music are very practically 
transferable to the other activities that this society tends to 
value more in math, or physics, or whatever. And if you've got 
more data like that, maybe that's your best case in this very 
pragmatic place.

                   importance of the arts to learning

    Ms. Alexander. Well, I'd like to bring your attention to, 
and I'll ask my colleagues to find it for me, but there was a 
recent article, a long supplement in Business Week about what 
the arts do for creative minds of the young, young creative 
minds, and what businesses look for in the future. And I think 
this is really germane to what we are talking about--what the 
arts do.
    Mr. Regula. Without objection, we'll make this part of the 
record.
    [The information follows:]


[Pages 324 - 339--The official Committee record contains additional material here.]



    Ms. Alexander. Would you make it part of the record? It's 
called ``Educating for the Work Place through the Arts.'' And 
this was a supplement that was sponsored by business leaders 
and corporate leaders in Business Week.
    Mr. Regula. Mr. Moran?
    Mr. Moran. Thank you, Mr. Chairman.
    Since we're all revealing our biases, I'll do the same. We 
have all studied the history of western civilization, of world 
civilization really, and most of what we study is the result of 
patronage of the arts. Now, during most of that civilization 
the patronage was conferred by monarchs. And it's a lot easier 
if you're a monarch to simply fund the arts with almost 
infinite resources, but the real test is for a democracy to do 
the same. Greece did. And that's why we study that Greece was 
almost the pinnacle of civilization. And we take, in many ways, 
our lead from their standard setting. But every year it will be 
difficult for this democracy to develop sufficient support to 
give the arts their due and to recognize their invaluable role 
in our society.

                       arts and inner-city youth

    And what I wanted to share with the members of this 
committee is the testimony that we received from outside 
witnesses by a person that I think gave us the most compelling 
testimony. She was a young woman that grew up right here in 
this neighborhood, in Washington, D.C.--not far from the 
Kennedy Center, but a world away from it. She had never seen an 
opera until she was a teenager. And she is now one of the 
world's greatest opera singers, Denyce Graves. And she spends 
much of her available time promoting the National Endowment for 
the Arts, because she recognizes that it is one of the very few 
opportunities that can be made available for children like her 
to experience arts, and that's to fulfill their potential, as 
she has been able to fulfill hers.
    And with that inspiring example, I would like to ask of 
you, Ms. Alexander, how much of the money that we make 
available actually goes to the Denyce Graves of the world; 
young children in depressed neighborhoods who otherwise would 
never have an opportunity to realize their talent and to share 
it with us?
    Ms. Alexander. I'm glad you're giving me the opportunity to 
talk about one of my favorite places which, is Space One Eleven 
in Birmingham, Alabama. Space One Eleven is a small visual arts 
organization that is in one of the poorest areas of Birmingham 
and in the census track of one of the poorest areas in the 
United States. And it opened its doors to its neighborhood 
children one day when they saw that the children were coming 
home after school and they didn't have much to do and the 
children were hanging out in the streets. And these were 
little, tiny kids up to teenagers. And a wonderful woman who 
runs Space One Eleven named Anne Arrasmith opened up the doors 
of Space One Eleven one day and said, ``Come on in,'' and she 
got someof the artists in and said, ``Let's teach these kids 
something about art.''
    To make a long story short, when I visited, there was a 
little girl named Lakeisha, six years old, who was making this 
brick. Now, Birmingham has a perfectly wonderful museum that 
the Endowment also helps support that has the largest 
collection of Wedgewood in the United States. So the artists 
took these kids to study the Wedgewood in the Birmingham 
Museum. And they taught them a little bit and said, ``Let's 
make Wedgewood bricks.'' Then they found out that one of the 
government buildings in Birmingham decided to go under 
renovation of a big, blank wall that it had and it wanted an 
art work on the wall. They applied, with the help of an 
architect, to fill that wall with Wedgewood--``Wedgewood 
bricks.'' Now, this one is just little Lakeisha's who was six 
years old, but imagine that the bricks became more 
sophisticated as the kids got older and they began to do them 
even more interestingly.
    That wall is sixty feet long and three stories high, I 
believe. And they are filling it as we speak. They won the 
contract, these young people, and they're filling it with a 
dragon--they decided to make a ``beast,'' they called it. That 
was what they felt representative of the steel industry and 
things that came out of Birmingham a long time ago. That was a 
$100,000 contract that they got to do this wall, from the 
government. And they're working on it as we speak.
    Lakeisha is now several years older and her cousin, who 
came into the program a little before her, is now a working 
ceramicist. And two of the children that were in the program 
are now in art school. This is a perfect example of what 
happens with a little bit of money that we put into a visual 
arts organization.
    Mr. Moran. Do you have any idea of the proportion of grants 
that actually go to these low income communities? I mean, you 
can supply it for the record, you don't have to.
    Ms. Alexander. Yes, we'd like to supply it for the record, 
because it's a little tricky, you know, but we have a pretty 
even balance.
    [The information follows:]

                    NEA Funding to Inner-city Areas

    By statute, 7.5% of NEA program funds ($6.069 million in FY 
97) are reserved for the states arts agencies specifically for 
projects benefitting underserved communities. Such communities 
are defined as ones in which individuals lack access to arts 
programs due to geography, economic conditions, ethnic 
background, disability, or age. The states, particularly urban 
states, have used some of these funds for inner-city projects.
    Although we do not have exact figures, as there is no 
common definition of ``inner city,'' it is clear that many 
grants made through the four funding divisions have the effect 
of benefitting inner-city populations. Examples of some of 
these NEA-assisted projects include the Inner City Latchkey and 
Residency Program offered by the California Arts Council with 
the assistance of an NEA grant. This program enables artists to 
work with children in neighborhoods in the Los Angeles area. 
These kinds of arts activities in schools, arts centers, and 
community centers provide a creative alternative to the dangers 
of street life.
    Among the Education & Access grants awarded recently by the 
Endowment was one to the Dance Theater Foundation in New York 
in a consortium with Urban Gateways in Chicago and Network Arts 
in Philadelphia to expand the Ailey Camp Program (using the 
Alvin Ailey Dance Company) to reach inner-city youth in 
Philadelphia and Chicago.
    Among the Creation & Presentation grants was one to the 
Forum of Contemporary Art in St. Louis, Missouri, to support 
residencies by nationally-known African-American artists 
working with inner-city high school youth--to use the study of 
the visual arts as an opportunity to expand beyond the gang and 
drug activity so prevalent in their lives and perhaps to choose 
the visual arts as a constructive and positive career.

                 possible consolidation of NEA and NEH

    Mr. Moran. And at one point I think it would be useful, if 
it hasn't already been brought up--on perhaps a less positive 
note--but to share with us what you think might be the downside 
of consolidating NEA with NEH, because I know it's going to 
come up and I think you ought to get onto the record in advance 
of any further discussions the subcommittee might have.
    Ms. Alexander. If we could submit that for the record, I 
would be pleased to do so.
    [The information follows:]

                 Pros and Cons of NEA/NEH Consolidation

    The issue of combining NEA and NEH functions was discussed 
during the 104th Congress, Senate Labor Committee hearings. 
Section 103 of the reported bill, S. 856, called for joint 
administration of the Office of Inspector General, and ``non-
duplication of administrative functions, such as provision of 
facilities and space, records management, contracting, 
procurement, printing and provision of mail and library 
services.'' Responding to the reported legislation, the two 
endowments convened a series of high-level staff meetings 
during 1995 to discuss how to implement the proposed 
legislation. While a number of preliminary observations were 
made, the meetings were quickly overtaken by events when both 
endowments faced budget cuts on the order of 40 percent and 
massive staff reductions.
    In a general sense, representatives of the two endowments 
found that there were a number of fiscal and managerial 
problems associated with combining offices. The economies of 
scale normally associated with combining like offices were 
difficult to obtain given the small size of both agencies and 
the numbers of personnel involved. Combining very different 
agency data processing systems and changing long-held standard 
operating practices would have proved relatively costly in 
relation to the small savings that would have been realized by 
consolidating the small numbers of staff.
    The National Endowment for the Arts and the National 
Endowment for the Humanities serve very different 
constituencies--artists and arts and cultural organizations as 
opposed to scholars and universities. There is some overlap 
between the programs of the two agencies in the area of 
documentary filmmaking, support for museums and a few other 
areas which could be better differentiated. With the exception 
of those areas, however, the programs of the two agencies are 
very different. In this context, it is important to note that 
since 1996, both agencies have been operating at very reduced 
program staff levels. At NEA each arts discipline generally is 
represented by two knowledgeable staff people. It is difficult 
to see how the two agencies could continue to support the range 
of arts and humanities projects now being assisted throughout 
the country, if staff were further reduced as part of a plan to 
combine the agencies.
    The advantages of consolidation appear to be more political 
than policy oriented. A newly consolidated entity to which 
additional Federal cultural programs are added could be viewed 
as less vulnerable to political attack.

    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, Ms. 
Alexander. It's nice to see you again and you're welcomed to 
the subcommittee.

                   alternate funding sources for nea

    It's hard to argue with anybody who advocates the value of 
the arts. I have no quarrel with valuing the arts. You and I 
have talked over the past couple years about ways to have some 
Federal involvement in the arts at a time when we have a 
tremendous debt and we are battling deficits and trying to cut 
corners where we can in this country. I would be happy to have 
you respond today. Maybe there's been some progress. But my 
sense is, and correct me if I'm wrong, that there has been no 
real serious effort--at least that I have knowledge of today--
that you or anybody in your agency has thought about or imposed 
ways that you can engage the private sector. First, from the 
standpoint of encouraging mega-corporations that are making 
zillions of dollars a year to support the industry that they 
want the public to support.
    And, second of all, in those instances where there is 
commercial success from artists who have benefitted from NEA 
grants. There have been many, and I'm proud of all those people 
who've done so well, because they enlighten the Nation with 
their scholarship and their artistic nature. However, it seems 
to me, in an environment of financial pressure that the country 
is under that it would be in your best interest to not only 
require NEA artists who go on to commercial success to give 
back a percentage, a royalty if you will. Maybe that's not 
acceptable to you and your agency, but to me it seems to make 
sense that they would make this contribution to that resource 
which gave them commercial success.
    So I wonder if you could enlighten me and the subcommittee 
as to, No. 1, what efforts you have undertaken to say to the 
Disneys of the world, and the Sonys, and all the others, ``Why 
don't you give one penny of every ticket that you sell to the 
NEA?'' And have 2 percent of every commercial dollar that 
inures to the benefit of an NEA beneficiary, give that back to 
the Endowment and let it get beyond $136 million. Could I have 
you respond to that?

                    office of enterprise development

    Ms. Alexander. Absolutely, and I'm very pleased that you 
did ask this question, because in fact we took you very 
seriously last year. I did begin an Office of Enterprise 
Development at the agency. It is a very small staff of two, and 
I detailed one of my assistants to it. And we really encourage 
the private sector, corporate leaders, and particularly the 
Hollywood community--I've been doing that for a couple of years 
now--to recognize that an awful lot of their roots, the talent 
that is nurtured through theincubator part of the Endowment's 
funding, ends up in the commercial sector, and that we need their help.

                           recapture of funds

    However, I bring to your attention two things. We don't 
give individual grants anymore. So we wouldn't be able to ask 
individuals who are performing in a concert or in an 
institution to pay back in that way. And an institution like, 
for example, the New York Shakespeare Festival that went on to 
great commercial success with, ``Chorus Line,'' and now ``Bring 
In Da Noise, Bring In Da Funk'' on Broadway--all that money is 
now plowed right back into the system so that more people have 
opportunity and access within it. So we wouldn't want to tap 
those funds either.
    Mr. Nethercutt. In what system?
    Ms. Alexander. Excuse me, I didn't mean system--
institution. For example, the New York Shakespeare Festival 
which made money on ``Chorus Line'' then used that money to 
increase and expand the number of productions they did in other 
areas. It's a very equal opportunity kind of outfit. So that 
was, we felt, very admirable.
    The other thing is, if we wanted to have any kind of 
supplemental income we would need professional--excuse me, 
congressional--help in this regard. We can't do it on our own, 
Congressman.
    Mr. Yates. As a matter of fact, the law prohibits it.
    Ms. Alexander. Yes. We're not allowed to solicit and invest 
funds and I've found that a great drawback for us at the 
agency. I mean, I couldn't go out and actually ask corporations 
to give money to the government and I also found even if asked, 
people would say to me they weren't comfortable giving money to 
the government. They already gave it in taxes. Why should they 
give any more?

                  solicit and invest authority for nea

    Mr. Nethercutt. Would you be willing to explore that 
option, of changing the law so that perhaps a private 
foundation could be created that would be subject to 
solicitation? The Smithsonian does that, as I remember. I mean, 
would you be willing to explore that as an alternative to 
simply coming to the Congress and saying, ``We need $136 
million or we need 350,'' or whatever it is you want to do the 
job you need to do? And if the Congress could then pave the way 
to allow you that freedom, would that be acceptable?
    Ms. Alexander. Well, that would certainly be acceptable, 
because I think supplemental income would be warranted in any 
case. And it might be a very good national initiative to try to 
challenge, if you will, the private sector to come up with 
funds to fund individual artists, to fund a lot of the things 
the Endowment doesn't do.
    At the same time, though, I still think that you need a 
Federal presence, a Federal role, for many other reasons--
Federal liaison, international liaison, convener, major 
database information research, and so on. You would still need 
that role from the Federal Government.

              appropriate level of federal funding for nea

    Mr. Nethercutt. I guess the challenge, the question then is 
what's the level of that Federal role, I mean financially? How 
much is enough to meet the role requirements that you're 
suggesting? Is it $18 million, which is essentially your 
administrative costs, as I look at this? Unless I'm mistaken, 
it's about $18 million you're asking for?
    Ms. Alexander. I believe the $18 million would be if we had 
the request level of $136 million.
    Mr. Nethercutt. Exactly. It's just under $17 million now.
    Ms. Alexander. Yes.
    Mr. Nethercutt. And would that be adequate, as a stamp of 
approval from a Federal agency that supports the arts to allow 
you to have the administrative support, but to seek the grant 
support in the private sector? I saw Alec Baldwin on television 
the other day talking passionately about how ``we must fund the 
NEA.'' But, I'm wondering how much Alec Baldwin would be 
willing to contribute to his passion and his profession to 
allow your agency to proceed if you had some core funding from 
the Federal Government and the taxpayers at large, along with 
the other conglomerates who make so much money in the arts and 
live on it.
    I'm exploring this with you because, frankly, I want to see 
you survive some way. But I know there's pressure in the 
Congress as we face this budget problem. We face those who'd 
say, ``We can't afford you.''
    Ms. Alexander. I understand what you're saying and I really 
appreciate your concern. We're concerned as well. And in 
defense of somebody like Alec, let me say that Alec does give 
privately to a great many different organizations, in addition 
to paying hefty taxes to the United States government. 
[Laughter.]
    And there are other young people--there's a wonderful, 
young Grammy recording artist who believes strongly in the NEA, 
named Richard Marx, who is giving an awful lot of his own 
private money to enhance arts education for young people all 
through the United States.
    So it's beginning to happen. They're beginning to 
understand that they have to give a little bit more. But let me 
point out, Congressman, that the Endowment is already pretty 
bare-bones at $99.5 million for what it needs to serve the 
country. And for us to be diminished, it would have to be only 
in proportion to how much a private entity such as you're 
talking about, or a quasi-public or private one, could sustain 
or even enhance the service to the United States arts community 
and the people of America. So that would take a while, it seems 
to me.
    We're the largest single funder of the arts in the United 
States; $99.5 million is very difficult to raise. And it might 
take many, many years. I'm not saying that I'm against it, but 
you can't just reduce one without making sure that the other 
pot is there and is sufficient to provide the needs.

                   establishment of a true endowment

    Mr. Nethercutt. Yes, but if I'm in your chair, I'm planning 
for the worst. I'm thinking defensively and I'm out there 
working to have independence, rather than dependence. I mean, 
the benefits I could see of your being more independent is not 
having to worry about a grant that you----
    Mr. Skaggs. Would the----
    Mr. Nethercutt. Let me finish--worrying about a grant that 
you just issued six months ago that's perceived to be obscene 
and you're having to fight that battle and then justify your 
existence. It just seems to me you ought to strive for 
independence and freedom from----
    Ms. Alexander. But I can't do that, Congressman. I can't 
strive myself because I'm a Federal official.
    Mr. Nethercutt. I know. I understand that. I'm saying to 
you, though, maybe we can work through the law to allow you to 
have a way to satisfy your needs, but also to satisfy the 
public needs as well and the public involvement and the 
taxpayers' involvement in your existence. That's what I'mtrying 
to persuade you to think about.
    Ms. Alexander. Well, you may remember that last year 
Congressman Williams suggested that the government make a $9 
billion endowment and that wouldn't be too bad. [Laughter.]
    Mr. Skaggs. Would the gentleman yield?
    Mr. Moran. Or too likely. [Laughter.]
    Mr. Skaggs. This is a terribly important question for this 
society. I have people in my district that don't think it's a 
great idea for $2,000 a person to go to defense right now with 
all of the things that are pressuring on this budget. They 
realize that's their responsibility, but it makes it a little 
bit easier to swallow because they've got fifty cents a year 
going to the arts. We need to be aware of the diversity of this 
land and we need to keep it together. And we need to give 
everybody a sense that they have a stake in the whole 
enterprise.
    Mr. Nethercutt. I understand that. But what's better--to 
lose the National Endowment for the Arts or to be creative to 
the point where we can keep the National Endowment for the Arts 
and still meet the other responsibilities?
    Mr. Skaggs. What's better is to keep both, because if we 
lose the National Endowment, there are going to be more people 
revolting against paying their taxes for other things that far 
eclipse this.
    Mr. Regula. I want to suspend a minute and just informally 
with the committee members discuss the remainer of the 
schedule. Depending on how much time each of you would still 
like--Mr. Dicks has some time yet--perhaps finish by 11:30, so 
that the National Endowment for the Humanities could come on 
and we could finish by 12:30 or so. Or we can come back after 
lunch. How much time does anyone seek yet?
    Mr. Yates. I would want ten minutes, I think.
    Mr. Regula. Okay. Anyone else? Okay. All right. We'll try 
to finish up with the Arts and then finish the Humanities and 
run over a little bit at noon if that's okay.
    Mr. Yates. I'll be short.
    Mr. Regula. Okay. Mr. Dicks.

               importance of the arts in washington state

    Mr. Dicks. Well, I want to welcome Jane Alexander to the 
committee today on the National Endowment for the Arts. I have 
been a very strong supporter over the years under the great 
leadership of Congressman Yates and our committee and, frankly, 
I think the National Endowment for the Arts has been one of the 
great successes in our country's history. When you look at all 
the help that has gone out to establish art organizations and 
institutions all over this country--I mean, in the last--since 
1965, when the Endowments were created, I mean, it is utterly 
amazing.
    And I can remember being in Seattle with Livingston Biddle 
in 1977 when we gave three major challenge grants, and that 
went to the Northwest Ballet, to the Seattle Symphony, and to 
the Repertory Theater. And those institutions have grown 
because of those challenge grants into some of the finest 
institutions in the country. And they can work all over 
Washington State and the Northwest, they've come to Washington, 
DC. It has been really utterly, I think, very spectacular.

                       role of the private sector

    And we talk about the private sector. And the reality is, 
if you look at the history of this, the private sector gave 
very little to the arts of this country until the Endowment was 
created. And if you follow--The Wall Street Journal did a 
series on this a few years ago--you follow, as the Endowment 
grew, the amount of support from the private sector grew. I 
mean, the Endowment has been a catalyst to get the private 
sector to be involved in the arts in this country.

                             panel process

    And many people say they like the panel system. They think 
the way the grants are approved and sorted out gives them 
guidance about what people who are real professionals from all 
over the country think is important in the arts, and if the 
endowment supports it, then for a lot of these private sector 
companies it's a good guide about where they should invest.

                   importance of the arts to society

    And I kind of agree with Congressman Skaggs. I come from an 
area where defense is a very important part of our economy, but 
I can tell you that one of the greatest things in the Northwest 
is the arts. And the people who--the quality of life there is 
better because of the arts. And I really worry that if we--you 
know, the budget deficit is coming down. Some of us had the 
courage to vote for a budget resolution in 1993 that has taken 
the deficit from $290 billion down to $107 billion. And by 
making hard, tough decisions, we're going to get the budget 
balanced. But to completely eliminate the National Endowment 
for the Arts and Humanities would be one of the great tragedies 
of the Congress in its history.
    At our conference on civility, David McCullough urged us to 
try to think of trying to do important things, of trying to 
look out and see what we can do to make this country really 
better, on a bipartisan basis. And after the last Congress in 
which we saw the government shut down, we saw an attack on the 
arts and humanities, and an attack on the Corporation for 
Public Broadcasting--I mean, that does not represent the 
American people. That is not the direction the American people 
want to go. And I just hope my friends and colleagues on the 
other side, some of which I think are just blindingly committed 
to ending this program or that program, in order to go home and 
tell people they've eliminated it, I think they're going to go 
home and wind up with a lot of political embarrassment, because 
a lot of people who are community leaders in every community in 
this country support the arts. If I look at the people who are 
the leaders of the business community, the professional 
community, in the city of Seattle, in Tacoma, in my district, 
they're all involved in supporting the arts. And I don't think 
they're going to look very kindly on a Congress that takes a 
kind of reactionary step backwards and eliminates the 
endowments.
    And I hope we've learned something from the last Congress--
that moderation, judgment, good sense, bipartisan support can 
be established, and I hope that we can come together. I hope 
the moderate Republicans and the Democrats together can save 
the Endowment on the floor of the House. And that's where, when 
it came down to it last year, we were able to win that fight. 
And I hope that this year we can avoid that and give the 
Endowment some support. They used to--your funding used to be 
up around $175 million. It was cut back to $99 million. Now the 
President, I think properly has said, ``Let's take if up to--
what, $132 million?
    Ms. Alexander. $136 million.
    Mr. Dicks. Yes, but that's still a significant reduction. 
So for those people who genuinely are concerned about balancing 
the budget--and I accept that as something we have to achieve--
you made your contribution to that effort. And it's a very 
small amount of money when you look at thecontext of this 
entire Federal budget. And I just applaud you for the job you've done.
    When we went out to Seattle and went to the Central 
District and saw all the kids at Garfield High School in the 
innercity of Seattle working on arts projects--we've got to 
give these kids something to do, other than be in gangs and 
street violence. And to eliminate the Endowment would be a 
tragedy. And I hope you'll lead the fight so we don't do that.
    Mr. Yates. She is.
    Ms. Alexander. Thank you so much, Congressman Dicks. And 
Seattle is such a wonderful case in point, because I really 
think it's the Athens of the West today. Look at just those 
three areas that you talk about that got Challenge Grants back 
there, and the Seattle Repertory Theatre is now the incubator 
for Broadway shows now.
    Mr. Regula. Mr. Wamp, and then Mr. Yates.

                   effect of lower taxes on the arts

    Mr. Wamp. Very briefly. I'll try to leave Ms. Alexander out 
of a little exchange. Having followed the logic and the facts, 
I want to make one quick point. That is, you can't plead the 
defense that Alec Baldwin's taxes are too high and not support 
tax relief in our country. Taxes haven't gone down in my entire 
lifetime. And if Alec Baldwin had fewer taxes to pay, I'll 
guarantee you he'd give away more of his money. So I want to 
point that out to all of our friends on the left that tax 
relief is long overdue.
    Mr. Dicks. I do remember the 1981--and I know you're a very 
young Congressman, but I think you were around then----
    Mr. Wamp. Not that young.
    Mr. Dicks [continuing]. And taxes were cut very 
dramatically here is this Congress.
    Mr. Wamp. Well, taxes have gone up five times since I----
    Mr. Yates. I want to point out, she did not say that Alec 
Baldwin's taxes are too high.
    Ms. Alexander. No, he didn't say that, and he gives a lot 
of money away.
    Mr. Wamp. Well, she certainly made the inference that Alec 
Baldwin was paying exorbitant, very high taxes----
    Mr. Yates. No, not at all.
    Mr. Dicks. I'm sure with his income he does pay heavy 
taxes.
    Mr. Wamp. Secondly, for the good of this institution, I 
want to remind my friends from the left to the right that if we 
had entitlement reform underway in this Congress, we wouldn't 
even be here today arguing over funding for the National 
Endowment for the Arts. We would fund it without question if we 
had entitlement reform. We're talking about planning productive 
seeds in our society. Ms. Alexander came to my office and made 
the point that this is good for economic development. This is 
good for planting seeds that can lead to productivity, vision, 
imagination, and things that are good for our society. We can't 
continue to let entitlements go unchecked and be able to fund 
these programs that many people believe in.
    Let's have the courage to address the CPI in a bipartisan 
way. Let's have the courage to come together on Medicare and 
Social Security so we can afford discretionary spending where 
we do serve on the Appropriations Committee.
    I yield back.
    Mr. Regula. Mr. Yates?
    Mr. Yates. Zach, you make a very good argument, except I 
don't think it's founded in fact. John Doolittle is not worried 
about cutting the entitlements. John Doolittle and his group of 
CAT's--I don't know whether you're a member of a Conservative 
Action Team--says that it's culture that he's worried about and 
that NEA is guiding that culture. He isn't talking about its 
being too much money or too little money. He's just talking 
about the fact that they're guiding the country along certain 
paths. And, of course, he's wrong as we tried to point out when 
we went through the procedures there.

                       youth poetry in the metro

    At any rate, Mr. Chairman, you were asking about education 
for the young people. There's a little article from, Fort 
Lauderdale, January 31st from the Sun Sentinel. ``At age six, 
Malik Waleed, from Washington is a published poet--not in those 
little magazines nobody buys, but where his work can be seen by 
some of the most influential people in the city: on the walls 
of the subway station near the Capitol. He's one of 15 children 
from city public schools whose work is being displayed in 10 
subway stations as a way to promote reading. Curly-headed under 
his baseball cap, wearing a nubby sweater, jeans, new black 
boots, Malik took part in his first ever poetry reading this 
week at the Library of Congress. After a little difficulty 
finding him something to stand on to bring him up to the 
microphone level''--and here's what he read--``fear is like 
underpants that are too tight,'' he read, ``you can't get in 
them. Green underpants outside on the grass, underpants you 
don't like to wear. Make fear go away. Loosen up.'' [Laughter.]
    Afterward, Malik, reticent like other poets who want the 
work to speak for itself, wouldn't say what he was afraid of 
when he wrote the poem. Malik writes his poems on a computer--
now I'll skip some of it.
    And there's another little girl, 13-year-old Natasha, whose 
poetry was on the walls, too. ``I'm running into a new year,'' 
she wrote. ``I let the old years twirl back like a whirlpool.''
    The poetry program began in 1994 as a way to encourage 
literacy and promote reading. Poems have appeared on ad panels 
on Washington busses. This is the first time they've been 
displayed in the Metro. The project is sponsored by the Library 
of Congress, the Center for the Book, The Metropolitan Area 
Transit Authority, the D.C. Commission on the Arts, and the 
National Endowment for the Arts. There you are; that's one of 
the things that they are doing that I think has resulted in 
some outstanding poetry being written, Mr. Chairman.

                   nea support to museum exhibitions

    I want to bring out the fact that you cited a few moments 
ago that more people attend our chosen museums than attend 
sporting events. Millions and millions of Americans are going 
to the museums to look at the art shows. There was an article 
that appeared in Time Magazine on Dutch treats, a review on the 
Vermeer show. I don't mean to be partisan on this, but this is 
what it says. ``Two of the casualties of the Republican 
Congress's petulant drive to shut down parts of the Government 
have been well, you would hardly guess. Not only nine cabinet 
departments and Federal agencies, but the artists Winslow Homer 
and Johannes Vermeer.''
    But it goes on to say ``Meanwhile, at the National Gallery, 
lines have been forming at 6:00 a.m. in below freezing weather 
and stretching around the block. What are the unticketed 
missing? Quite simply, one of the most perfect shows ever 
installed in an American museum.'' That's from Time, January 8, 
by Robert Hughes.
    It was an unfortunate circumstance that closed the museum 
at a time when one of the great great shows that ever graced a 
museum was being held at the National Gallery. I see you have a 
Cezanne catalogue there. That was from where, the Philadelphia 
Museum?

                           indemnity program

    Ms. Alexander. That was indeed an Endowment-funded 
catalogue. The Endowment also indemnified the show. I think Ed 
Able, of the American Association of Museums, testified before 
your subcommittee last week, saying that this exhibit would not 
have happened without the Endowment's ability.
    Mr. Yates. That's correct. Now if the Endowment goes down, 
the Indemnity Program goes down too. Does it not?
    Ms. Alexander. We do administer it, yes.
    Mr. Yates. You do administer it? And what function does the 
Indemnity Program perform? I have the impression that if the 
Indemnity Program were not in existence, that many of the shows 
that take place throughout our country today in rural areas as 
well as in big cities, which depend upon the ability of the 
museum to ensure their loans would not take place. Is that 
correct?
    Ms. Alexander. The international loans, yes.
    Mr. Yates. Yes. There is no domestic program for indemnity, 
it's just for loans from international sources?
    Ms. Alexander. Yes. The only partis the international 
component of a domestic exhibition.
    Mr. Yates. You couldn't have had the Vermeer show, for 
example, could you?
    Ms. Alexander. We indemnified the Vermeer.
    Mr. Yates. That's correct. You probably indemnified the 
Cezanne show?
    Ms. Alexander. And Byzantium currently at the Metropolitan 
in New York. Almost all the shows that come from abroad.
    Mr. Yates. If you did not have, if there were no Indemnity 
Program, which is a Federal program, correct?
    Ms. Alexander. Yes.
    Mr. Yates. If you did not have the Indemnity Program, could 
you have had the Vermeer show or the Cezanne show because of 
what the insurance costs would likely be?
    Ms. Alexander. I doubt it. These are priceless works.
    Mr. Yates. To insure them, it would be impossible to insure 
them.
    Ms. Alexander. Millions, multi-hundreds of millions.
    Mr. Yates. For premiums?
    Ms. Alexander. Yes.
    Mr. Yates. Just for the premiums themselves.
    Ms. Alexander. Well, I don't know the cost actually.
    Mr. Yates. Well, yes. Except that, well, you have one Van 
Gogh selling for $80 million. You have a Picasso selling for 
multiple million dollars and the other masterpieces selling. 
They have to have insurance if they are to be borrowed from 
other places, as though they could be replaced anyway.

               nea and the health of the arts in america

    I think you were outstanding in your explanation as to what 
is likely to happen in the event that those who seek to kill 
the endowment were successful. There is a letter which I have 
in my office by Congressman Doolittle, again containing an 
article which I think appeared either in the Post or in one of 
the magazines, that said that the endowment is not necessary.
    Mr. Regula. It was in the Post.
    Mr. Yates. Was it the Post?
    Mr. Regula. Yes. It was an op-ed piece.
    Mr. Yates. That's right. That the Endowment is not 
necessary, that private giving would more than replace the 
funding that the Endowment now makes available for the arts 
throughout the country.
    I gathered from your previous testimony here this morning, 
that wouldn't be the case in your opinion?
    Ms. Alexander. Oh, no, no. I think what the Endowment does, 
Congressman, is grant the first little bit of seed money. 
Because we adjudicate so carefully the applications like no 
other institution in the United States does or can, our ability 
to leverage is greater than any other imprimatur. So that's one 
reason.
    The other is as a convener, as a Federal liaison, 
international entity, and also--I have lost my train of 
thought. But I think I have said most of what I wanted to 
earlier.
    Mr. Yates. Usually it's the names that go first. 
[Laughter.]
    Then the knees go. Then the nouns go.
    Ms. Alexander. Maybe I'm war wary.
    Mr. Yates. Well, that's understandable. I think she has 
covered everything, Mr. Chairman. Thank you.
    Thank you, Jane, for an outstanding performance. 
Outstanding. I wish there were critics here.
    Mr. Regula. I have just a couple I would like to ask. Then 
Mr. Dicks, if you have any further.
    Mr. Dicks. I'm fine.

                         grants to individuals

    Mr. Regula. One of the problems has been the individual 
grants, as you well know. That has been the subject of 
controversy and criticism over a period of time. Under the 
present system, you testified there are no individual grants.
    Ms. Alexander. Except for literature and our honorifics--
Heritage Fellows, which are folk and traditional masters and 
Jazz Masters.
    Mr. Regula. This system will not result in some of the 
egregious things, at least as oftentimes perceived, that might 
have happened in the past. Would you say that the system is 
designed to preclude that?
    Ms. Alexander. I----
    Mr. Regula. Well, activity or projects that offend a lot of 
people.

                   project funding and accountability

    Ms. Alexander. Well, we certainly try funding projects; we 
try to be more accountable in telling the American people where 
their money is going by adjudicating specific projects rather 
than what we did in the past, which was seasonal support. So we 
do feel we can tell people better where their money is going.
    But as I have always said, sir, you are never going to 
close down controversy because not everybody is going to like 
everything that you are going to do.
    Mr. Regula. I understand that.
    Mr. Dicks. Would you yield on that point just for a second?
    Mr. Regula. Yes.

                     grantee reporting requirements

    Mr. Dicks. As I understand, when I read your statement, I 
think you said one of the problems in the past had been that 
sometimes people would come in and say one thing, they were 
going to do one thing and then they would do something else.
    Ms. Alexander. Yes.
    Mr. Dicks. With the money or with the grant. But you now 
require reporting during the time of the grant so that if there 
is a dramatic change in what's going to be done, at least the 
endowment knows about it. Isn't that correct?
    Ms. Alexander. Absolutely. If there is a change, sometimes 
we ask for the money back if we feel that the new project is 
not worthy of support.
    Mr. Dicks. Thank you.

                         nea grantee subgrants

    Mr. Regula. Do you have any control over sub-grants, where 
of course, I think it was in Minneapolis there was a problem?
    Ms. Alexander. That, Congressman, was not a sub-grant. That 
was a grant to the Walker Arts Center, which is a very 
prestigious museum, for some of their performing arts events. 
But we do not sub-grant any more.

                     geographic reach of nea money

    Mr. Regula. Okay. Do you have any ideas, and you might want 
to do this for the record, as to how to get a greater outreach 
if the statement that only two-thirds of the congressional 
districts received any help is accurate. If it's an educational 
objective, I think there ought to be some ideas about how to 
get greater outreach.
    Ms. Alexander. The problem is when we have a cut of the 
size of 40 percent, something has got to give. We simply can't 
reach all the districts we used to reach.
    Mr. Regula. So it's not because you don't get applications. 
You simply don't have enough to respond to allof them?
    Ms. Alexander. We only ask for one application per 
organization now because I don't have the staff. I had to cut 
the staff by 45 percent, as you remember.
    Mr. Regula. Right.

                         application statistics

    Ms. Alexander. We don't have the staff to deal with the 
number of applications that used to come in.
    This year we had approximately 2,500 applications as 
opposed to, in years past, up to 16,500. This year we are only 
able to support 912 organizations and a few literature 
fellowships. In the past, we supported 2,000 organizations, and 
gave up to 3,800 grants.
    So you see, a lot had to go. But that's going to happen if 
you give us a cut of this size.
    Mr. Dicks. Will the chairman yield?
    Mr. Regula. Yes.

                          controversial grants

    Mr. Dicks. A lot has been made about controversial grants. 
I mean, how many grants? Have you ever added up how many grants 
have been made by the Endowment?
    Ms. Alexander. Yes. It is in the neighborhood of about 
110,000 now over 32 years. We can't give you an accurate 
estimate, I mean an accurate count of how many hit the papers 
and were subject of investigations. But about 45 to 50 caused 
some problems for some people. So that's a pretty good----
    Mr. Dicks. That's got to be almost one-fifth of one percent 
or less.
    Ms. Alexander. Oh it's minuscule.
    Mr. Dicks. Minuscule.
    Ms. Alexander. Minuscule.
    Mr. Dicks. And the arts are always going to be somewhat 
controversial.
    Ms. Alexander. Yes. Some art somewhere. But we do our best. 
Sometimes we do fund less than the best, but we're trying 
always through these citizen panels to make sure that we are 
awarding what we feel is the best in America.

                        the arts and the economy

    Mr. Dicks. Just one other point. I mean people talk about 
the necessity for jobs and employment, I mean there are a lot 
of jobs and employment created in the arts. I find that every 
community is trying to do more for tourism, to bring people to 
their community. Having these outstanding arts institutions is 
a great thing for each of these communities. I know people come 
from all over the world to Seattle now. When we used to have 
the Ring there, people came from everywhere. I think it's 
economically very positive for most of the communities.
    Ms. Alexander. Absolutely.
    Mr. Regula. Mr. Moran?

                    arts funding in other countries

    Mr. Moran. Thank you, Mr. Chairman. Mr. Chairman, some 
place I saw some figures on what other countries dedicate to 
the arts, the proportion of their budgets, I know it's 
available some place. I would like for you to submit that for 
the record, the proportionate share that other nations are 
willing to commit on a per capita basis. If you have any 
numbers off hand, you might share them with us now. Otherwise, 
I think it would be useful for the record.
    [The information follows:]

              Governmental Arts Support in Other Countries

    The per capita investment in the arts by other countries is 
based on widely variable cultural combinations within 
countries, thereby creating an unreliable picture not only 
between the country and the U.S. but from country to country. 
Last year, UNESCO was working on a project that attempted to 
document an accurate look at the per capita contribution to the 
arts and culture in a broad range of countries; unfortunately, 
UNESCO abandoned the project because of political pressure from 
countries that did not agree with the UNESCO methodology.
    Perhaps the most accurate way of determining levels of 
monetary support is to compare the budget of the country's 
equivalent to the National Endowment for the Arts. Many 
countries have an independent agency that, like the National 
Endowment for the Arts, supports and nurtures the national 
cultural life. For instance, in 1994, three new agencies were 
created out of the Arts Council of Great Britain: the Arts 
Council of England, the Arts Council of Wales, and the Scottish 
Council (the Arts Council of Northern Ireland already was a 
separate body). The Arts Council of England is an autonomous, 
nonpolitical organization operating at arm's length from the 
government, and reporting to the Secretary of State for 
National Heritage. For 1995/1996, The Arts Council of England 
received 191.1 million pounds from the Department of National 
Heritage, a 2.75 percent increase from the 1994/1995 budget. Of 
that amount, 59.5 million pounds will be funded through the ten 
regional arts boards (which operate like state arts agencies in 
the U.S.), and the Arts Council will directly fund 131.6 
million pounds. The majority of the Arts Council's support goes 
to regularly funded organizations. Additionally, project grants 
are made in dance, drama, mime and puppetry, film, video, 
broadcasting, literature, architecture, and other disciplines.
    In 1993, the government created a national lottery and gave 
the Arts Council of England responsibility for distributing the 
arts share of the lottery proceeds in England. Lottery money, 
which is expected to raise more than 250 million pounds for the 
arts each year, supports capital projects in the arts.
    In comparison, the Arts Council of Ireland receives 18.4 
million pounds, about 75 percent of which is from the 
government and about 25 percent of which is from the national 
lottery. The Arts Council's budget represents a steady increase 
in government support for the arts from 10.2 million pounds in 
1992. Further, a partnership between Aer Lingus and the Arts 
Council of Ireland, formed in 1991, subsidizes travel for about 
850 Irish artists and arts administrators each year.
    The Arts Council of Ireland awarded 800 grants to 
individuals and organizations in 1996, and focuses its 
resources on increasing the reach of the arts throughout the 
country, international activities, artist residencies, arts 
festivals, broadcasting opportunities in the arts, and arts 
training.
    The Canada Council receives funding from three sources--
Parliament (about C$98 million); an endowment fund established 
by Parliament in 1957 (now valued at approximately C$150 
million); and individual donations and bequests. In 1995, the 
Canada Council's budget for grantmaking was C$86.5 million. The 
Canada Council awards about 4,200 grants a year--3,000 to arts 
organizations and 1,200 to individual artists. The Council, an 
autonomous agency, reports to Parliament through the Minister 
of Cultural Heritage.
    The Australia Council also is an autonomous agency and its 
grant review is carried out by peer assessment based on 
artistic merit and innovation. In 1996, the Council awarded 
grants to 673 individual artists with an average grant of 
A$14,500, and 1,432 organizations with average grants of 
A$14,500.
    Further, it is interesting to note that, in the 
Reconstruction and Development Program launched by President 
Nelson Mandela in post-apartheid South Africa, one of the 
principal goals of the new government was to establish a 
government funding policy for the arts, which was a remarkable 
statement about the importance of the arts in a country faced 
with overwhelming problems in the economy, unemployment, 
housing, and health care.

    Ms. Alexander. I do not have the numbers because they vary 
according to the countries' appropriations at any given time. 
But what we give is really a very tiny proportion of what other 
countries give.
    Mr. Moran. Is ours the lowest of any other civilized 
country?
    Ms. Alexander. Industrialized nation, yes. Thirty eight 
cents per person per year.
    Mr. Regula. I mentioned controversy. I have observed that 
there is some controversy that goes with sporting events.
    Ms. Alexander. Yes indeed. Thank you.
    Mr. Regula. We are going to finish this hearing. We have a 
vote on. We'll come back and we'll start the Humanities 
hearing. So thank you very much for coming.
    Ms. Alexander. Thank you, Mr. Chairman.
    Mr. Regula. There will be a lot of questions submitted for 
the record.
    Ms. Alexander. Thank you.
    [Recess.]
    [The following questions and answers were submitted for the 
record:]


[Pages 356 - 419--The official Committee record contains additional material here.]



=======================================================================


                 National Endowment for the Humanities


=======================================================================


                                          Thursday, March 13, 1997.

                 NATIONAL ENDOWMENT FOR THE HUMANITIES

                                WITNESS

SHELDON HACKNEY, CHAIRMAN, NATIONAL ENDOWMENT FOR THE HUMANITIES

[Page 424--The official Committee record contains additional material here.]


                            Opening Remarks

    Mr. Regula. Well, we're pleased to welcome you, Mr. 
Chairman.
    Mr. Hackney. It's great to be here.
    Mr. Regula. I have a commitment at noon, and Mr. Nethercutt 
is going to take over the committee as soon as he gets here. I 
hope to get back. But rather than have everybody come back, 
it's a lot more efficient and everybody is so busy to begin 
with, that you can see the degree of interest is somewhat less, 
which you probably welcome.
    Mr. Hackney. That is a metaphor for the humanities, sir.
    Mr. Regula. Why don't you save your opening statement. I 
don't know whether we'll get Members back, and I don't know how 
quickly Mr. Nethercutt will be here.
    Mr. Hackney. If you would, rather than give it, I would 
appreciate it if the written version could be entered into the 
record.
    Mr. Regula. Oh yes. That goes without saying.
    [The prepared statement of Sheldon Hackney follows:]


[Pages 426 - 433--The official Committee record contains additional material here.]



    Mr. Hackney. I will not tell you what I was going to tell 
you, but I will tell you that the budget cuts have been 
painful. I worry a lot about things that we're not able to do 
that we ought to be doing to preserve and present our cultural 
heritage. You have asked us to be entrepreneurial and to do 
things differently; we are doing that. We are slimmer; we have 
reorganized. We are entrepreneurial. We are looking for 
partners in the private sector to support the humanities.
    Even at the lower level of funding, despite the fact that I 
am worried a lot about it, we are still doing very interesting 
and important things.

                     Supporting Culture In America

    Mr. Regula. Why don't we wait for Mr. Nethercutt, and ask 
you the same question I asked to the chairman of the NEA. If 
you were a minister of culture, how would you suggest that we 
enhance, preserve, educate students on the culture of this 
Nation, because that's basically what we are talking about--
preserving what we have, enhancing it for future generations, 
and educating, especially young people. How do we reach them to 
get a better understanding of their culture? How would you 
respond to that?
    Mr. Hackney. I find that a fascinating question, actually. 
I assume that you mean it heuristically: that is, for its value 
as a way of getting us to think about this subject.
    Mr. Regula. That's correct.
    Mr. Hackney. Because we're not likely to have one. Let me 
start by saying----
    Mr. Regula. We're not going to convert to a parliamentary 
system.
    Mr. Hackney. That's right.
    Mr. Regula. I think you know where I'm headed. [Laughter.]
    Mr. Hackney. Yes. Let me say the reason we don't have a 
ministry of culture is not only because we don't have a 
parliament. It's probably more accurate to say that the reason 
we don't have a parliamentary system is because we have the 
kind of culture that we have. The Government was designed by 
the Founding Fathers to disperse power among the branches of 
the Federal Government and among different levels of 
Government, per se. The American people are suspicious of all 
forms of concentrated power, that's why we like to see power 
decentralized and be much more pluralistic. To the extent that 
the culture operates here in a self-conscious attempt to 
express something about beauty and the meaning of life, the 
cultural system in the United States is also dispersed and 
decentralized. It operates in the public and private sector, 
and at various levels--local, State, and national.
    So I think the first thing to imagine, if there were a 
ministry of culture, is that its primary function would not be 
to fund everything that happened in the world of culture, but 
to make sure that the pluralistic system that supports culture 
in the United States is healthy, and to do that with grants and 
activities in various areas--not to dominate, but really to 
facilitate among cultural organizations.
    It is particularly important that the institutional base of 
cultural activities in the humanities and the arts remain 
healthy. One of the things that NEH now does, and the NEA does, 
is to help those basic cultural institutions remain viable. 
That would be a continuing function of the two agencies. So I 
think any sort of ministry of culture here would need to follow 
a very balanced program of activities and grants that would 
stimulate educational activity, the creation of new knowledge, 
some performances, and the preservation of texts and objects of 
our culture and to make them available through public programs. 
You need to do all of those different activities at the 
different levels and in the different regions of the country.

            ``Synergy'' Between the Humanities and the Arts

    Mr. Regula. Do you think there is any synergy between the 
humanities and arts?
    Mr. Hackney. Yes. There really is. They do fit together, 
even though it's very important to realize that they operate, 
the humanities community and the arts community, operate 
nationally in very different ways. The NEA and the NEH operate 
in very different ways. They are in themselves different 
cultures.
    We don't do the same things, though there are some common 
concerns. For instance, we both helped to fund the Byzantium 
show that's at the Metropolitan Museum in New York now. We both 
have also helped to fund the ``Splendors of Imperial China'' 
exhibition that's now at the National Gallery of Art. But we 
fund different parts of those shows. So there is a 
collaboration and not a competition, not an overlap, no 
redundancy I would say.

                      NEH and Humanities Education

    Mr. Regula. Out of curiosity, in terms of education, would 
it be a fair statement that the humanities might impact more 
the post high school level?
    Mr. Hackney. No. We do a lot of K-12 education as well. 
Sixty percent of the K-12 curriculum is the humanities, so we 
need to continue to be active in this area.
    Mr. Regula. Of course it was stated earlier that the arts 
reach the schools, and it's a very important dimension.
    Mr. Hackney. They may do more with pre-school than we do. 
We have a hard time getting down to pre-school.
    Mr. Regula. But you're trying.
    Mr. Hackney. But we're trying. [Laughter.]
    Mr. Nethercutt [presiding]. Nice to see you, sir.
    Mr. Yates, do you have questions?

                     NEH Application Review System

    Mr. Yates. I do. Thank you, Mr. Chairman.
    Mr. Hackney, you were in the gallery this morning when I 
was asking the questions of Ms. Alexander. The procedures of 
NEH are very much like those of NEA, are they not? In the 
sense----
    Mr. Hackney. Well, in the broad sense in which she was 
speaking this morning, yes. We have merit review panels and 
outside reviewers.
    Mr. Yates. The point I was trying to make in connection 
with my interrogation of Ms. Alexander was that the work, the 
decisions on grantmaking are made by groups of private citizens 
rather than by you as the administrator. You have a supervisory 
function, but primarily the grants are reviewed in the first 
instance by peer panels, and the second instance by the 
Humanities Council. Both of these groups are private citizens 
from private life. Is that not correct?
    Mr. Hackney. That is correct. Yes.
    Mr. Yates. All right. Can you tell me how your procedure 
works, applications are filed for grants, and are distributed 
to various disciplines within the humanities?
    Mr. Hackney. People actually apply to a particular program.
    Mr. Yates. You have a pool of panelists, a huge pool of 
panelists from all over, made up of people from all over the 
country, private citizens, in no way affiliated with the 
humanities except that they are subject to a call to act. They 
have agreed to act as panelists. Do they have a greater 
affiliation than that?
    Mr. Hackney. A lot of them will be professionals in the 
field. They are not affiliated with NEH or with the Federal 
Government. We also have lay people as well as professionals.
    Mr. Yates. Well, for example, you would have as your 
panelist people like Fred Baumann of Kenyon College.
    Mr. Hackney. Yes.
    Mr. Yates. Rick Beard of the Atlanta History Center; 
Barbara Benson, executive director of the Historical Society of 
Delaware; Doreen Bolger, director of the Museum of Art of the 
Rhode Island School of Design; Wayne Booth, the Department of 
English at the University of Chicago, my alma mater; Lloyd 
Chapin, vice president and dean of faculty, Eckerd College, and 
so forth.
    Mr. Hackney. Exactly.
    Mr. Yates. These are the panelists on whom you call from 
time to time?
    Mr. Hackney. Exactly.
    Mr. Yates. They review the grants--the applications that 
are placed before them for review. They approve some, they 
reject some.
    Mr. Hackney. Right.
    Mr. Yates. Let me put it that way. Those that are approved 
then go to your Humanities Council.
    Mr. Hackney. Right and the Council also considers 
applications that are not recommended for funding.
    Mr. Yates. This is made up of members who are appointed by 
the President of the United States and approved by the Senate.
    Mr. Hackney. Exactly.
    Mr. Yates. Is that correct?
    Mr. Hackney. Yes. That is correct.
    Mr. Yates. Okay. When they are through with their job--in 
one instance the peer panelists, in the other, the council--of 
reviewing the applications, they go back to civilian life?
    Mr. Hackney. Yes.
    Mr. Yates. Then, what they approve comes to you. You have 
the function of approving or disapproving their work?
    Mr. Hackney. Right.
    Mr. Yates. Have you disapproved any of their work?
    Mr. Hackney. Yes. But not often.
    Mr. Yates. How often would you say?
    Mr. Hackney. 99.9 percent of the time I have followed the 
recommendation of the merit review system.
    Mr. Yates. So when you and the Arts Endowment are accused 
of shaping the culture of the country, that's not true, is it? 
In the sense that if it's being shaped at all, it's being--in 
the approvals that take place, it's being done by citizen 
members of the panels and by citizen-members of the council.
    Mr. Hackney. Yes.

                     impact, if neh were eliminated

    Mr. Yates. All right. Now I am sorry I came a little late 
and I do not know what you told the chairman in respect to what 
would happen if you went out of existence.
    Mr. Hackney. I have not addressed that question.
    Mr. Yates. You haven't addressed that question. Well----
    Mr. Hackney. I did say that I was worried.
    Mr. Yates. I propound it to you at the present time. You 
know that there are those in the Congress who think that you 
ought to go out of existence. What would happen in the event 
that you did? Just a broad question, I know, and I'm not being 
precise, but I'm sure you can address it and state just what 
would happen in your opinion.
    Mr. Hackney. It would be a great tragedy for our culture. 
It is probably easier to imagine the loss that would occur in 
terms of some specific things, preservation of real objects to 
be one. Even----
    Mr. Yates. Preservation of real objects, one. Are you 
talking about Chinese vases or about----
    Mr. Hackney. Books.
    Mr. Yates. I see.
    Mr. Hackney. Newspapers and historical objects in museums.
    Mr. Yates. All right. I shouldn't interrupt you, but 
continue with what else would happen. Is that the sum?
    Mr. Hackney. No. That is not the sum substance. I think it 
is important to realize that NEH is the single most significant 
funder of humanities activities in the U.S.
    Mr. Yates. What do you mean by humanities activities?
    Mr. Hackney. The creation, preservation, and presentation 
of knowledge in the humanities: that is, our history, our 
knowledge about literature, history of literature, history of 
thought, religion, ethics, language, all of those things that 
we do.
    Outside of schools and colleges, NEH provides more funding 
for humanities activities than any other single entity in the 
country. In fact, we provide probably about half of the total 
funding for humanities grants in the U.S. The Andrew W. Mellon 
Foundation is the largest private foundation that has an 
interest and a real program in the humanities. They give away 
about $30 million a year. If you take all of the major 
foundations in the country that support the humanities, 
together they provide only about $50 million a year in funding.
    So NEH is quite significant. If you take NEH out of the 
system, then public programs in the humanities will suffer. Let 
me give you an example here. This past fall there were three 
major documentary films that appeared on PBS--the series on 
``The West'' that Ken Burns did, the two-part series on 
Theodore Roosevelt, called ``TR,'' and the series on----
    Mr. Yates. Which I thought was outstanding.
    Mr. Hackney. It was terrific.
    Mr. Yates. I thought it was terrific.
    Mr. Hackney. And I don't know whether you got a chance to 
see ``The Great War,'' which was broadcast in November and was 
a slightly longer series.
    Mr. Yates. Was that World War I?
    Mr. Hackney. World War I.
    Mr. Yates. Yes.
    Mr. Hackney. Which we also funded.
    Mr. Yates. I saw it in part. It was a long one.
    Mr. Hackney. It was a long one. It was a grim story. It's 
hard for one sitting.
    Mr. Yates. It was a very good documentary.
    Mr. Hackney. Extremely good. Well, those three film series 
were funded by NEH three or more years ago. It has taken them 
this long to get to the production and presentation stage.
    Our Media program has gone from $11 million to about $3 
million a year. In future years----
    Mr. Yates. From $11 million to $3 million, as a result of 
the cuts?
    Mr. Hackney. As a result of the cut.

                         impact of budget cuts

    Mr. Yates. Well, while we're on that subject, why don't you 
expand on that answer. We know what happened to the film 
program. It was reduced from $11 million to $3 million. What 
happened to your other programs? Were they reduced as well?
    Mr. Hackney. Yes, most of them were. We first set 
priorities: One starts with the notion or with the fact that 
the State humanities councils, which are very important 
affinities of the NEH, were to be held harmless in the cut; 
that is, we level-funded them. In fact, they got a slight 
funding increase in this past year. I think that was wise for 
various reasons, but mainly because they really deliver 
humanities programs at the local level in a marvelous way. So, 
with State humanities councils getting roughly the same amount 
of money and the rest of NEH getting cut, then other programs 
had to be cut more.
    The Preservation and Access program is a line item in the 
appropriations bill. Preservation was protected somewhat 
because it is important, but it still went from $22 million to 
$17 million, roughly a 25 percent cut. I tried to protect 
summer seminars for college teachers and high school teachers 
because I think they are absolutely wonderful.
    Mr. Yates. That's very important.
    Mr. Hackney. And the NEH Fellowship programs. The seminars 
and fellowships both got about a 25 percent cut. Having set 
those priorities, that meant Public Programs and other programs 
in the endowment had to be cut by 60 percent or more.

              brittle books and other preservation efforts

    Mr. Yates. I forget how long ago it is now. Is it as long 
as 10 years ago that we in this committee joined with 
universities and other organizations throughout the country to 
try to save the important books of the country?
    Mr. Hackney. Right. The brittle books preservation effort.
    Mr. Yates. The brittle books of the country, which are 
being consumed by slow fires. I wish we had samples of them 
here to show Members of the committee but I'm sure, George, 
that you have books that are old and the pages are falling 
apart.
    Well, the same things are happening to many of the great 
books of the country. The libraries are losing some of their 
outstanding volumes. So this committee took onto itself the 
task of providing funding for a program of saving those books. 
What is happening to that program?
    Mr. Hackney. As you recall, Mr. Yates, that was to be a 20-
year program.
    Mr. Yates. That's right.
    Mr. Hackney. To microfilm three million books.
    Mr. Yates. That's right. Three million books, and I 
objected at the time I think to the fact that only three 
million were being saved, point one. I still haven't found out 
who determines what books are going to be saved.
    Mr. Hackney. This was begun before my time. It was a great 
contribution to American culture. NEH led in the creation of a 
national plan whereby institutions apply to us for grants to 
microfilm brittle books. We check to make sure that a 
collection is being preserved by people who can really do it, 
who are professional, and also that it fits into the plan to 
make sure that we're not redundant and that we don't save the 
same kind of material two or three times.
    Mr. Yates. The Library of Congress also has a program going 
for this purpose or is the Library of Congress's program a part 
of the one in which you are engaged?
    Mr. Hackney. They are putting their own collection in 
digital form. They have a modest program of helping to digitize 
other books that we are helping with.
    Mr. Yates. Right. They have their own, as I remember, 
having been on the subcommittee that funds them for one 
Congress. They have a plant that they are building for this 
purpose in one of the cities. You don't know much about that?
    Mr. Hackney. No. But I should mention that we also support 
regional preservation centers where people can get trained.
    Mr. Yates. Right. You also have a program for preserving 
the old newspapers.
    Mr. Hackney. Yes, indeed. It's similar to the kind of 
program that we're funding for the brittle books.
    But to go back to your original question, we are on track 
in those programs or rather, we were on track until the budget 
cut. About 750,000 books will have been microfilmed by the 
completion of the projects we are currently supporting. But, 
because of the budget reductions of FY 1996/97, 39,000 fewer 
books are being microfilmed than the plan calls for and some 
804,000 newspaper pages are not being microfilmed. So we are 
going to lose a lot of material.
    Mr. Yates. Those are being consumed. You won't be able to--
--
    Mr. Hackney. They will be lost.
    Mr. Yates. In other words, the papers and the books at the 
tail end are just going down the drain as the ones beyond the 
three million that you originally proposed.
    Mr. Hackney. Right.
    Mr. Yates. Okay. What else do you want to tell us about 
what you do? Is Guinevere Griest here?
    Mr. Hackney. No. She retired for the third time.
    Mr. Yates. What was her activity? I know you had Mr. 
Cannon, and I met a few of the others who I'm sure we'll be 
unable to hear from today and whose testimony I always enjoyed 
so much. I don't know that the chairman now wants to hear from 
them. But I was always enchanted by their testimony, 
particularly Ms. Griest, who came in with books all the time.
    Mr. Hackney. Yes. Right.
    Mr. Yates. I take it you're not a Greek bearing books----
    Mr. Hackney. No show and tell. No, but we do have a project 
to put all of the surviving texts of classical Greece and Rome 
in digital form in a project called Perseus, that will be 
available in CD-ROM form, and eventually put on the Internet.

                      other effects of budget cuts

    Mr. Yates. That sounds good. What else do you want to tell 
me about how you will suffer, our big country will suffer if 
the Humanities goes out of existence?
    Mr. Hackney. Well the creative work of individual scholars 
will be dramatically curtailed because of the loss of our 
fellowships. The summer seminars for teachers, which are the 
best professional development programs for teachers in the 
humanities now in the country. These would be lost.
    Mr. Yates. In the country?
    Mr. Hackney. In the country, right. So that will be a 
terrible loss.
    Mr. Yates. Thank you, Mr. Chairman.

                       neh income recovery policy

    Mr. Nethercutt. Thank you, Mr. Yates.
    Mr. Hackney, I just have a couple of questions. Sorry I 
missed your testimony. I was pleased to have a chance to talk 
with you privately and enjoyed that earlier, I guess it was a 
week ago.
    Could you for the record, please, sir, recognizing that you 
are different than the NEA----
    Mr. Hackney. Yes.
    Mr. Nethercutt. And you do different things, and you are 
distinct and should be considered separately, would you comment 
on as we discussed, as I discussed this morning with Ms. 
Alexander and talked with you a little bit about this concept 
of trying to get some commercial benefit back to the endowment 
from those who succeed by your grants.
    Mr. Hackney. We do have a program, income-recovery policy 
that has been in effect for some time. We have recently changed 
it to make it a little more aggressive, if you will. The Ken 
Burns films are really the only things in our experience that 
have earned enough money, but I think there may have been two 
or three other projects in the distant past that have also 
earned money. We have recovered our costs from the Ken Burns 
films there and put them back into his other media projects.
    What we have just done with our program income recovery 
policy is to take the cap off it. Traditionally, we had limited 
our recovery to the amount of money that we had invested in the 
project. We have now taken that cap off so that we can, if 
there is great commercial value and a revenue stream, share in 
income earned up to seven years after the end of the grant 
period.
    Mr. Nethercutt. There was a witness who testified before 
the committee last week, I have forgotten who it was, but she 
brought several books, one of which was the new book about 
Lincoln, which is a wonderful book.
    Mr. Hackney. Written by David Donald.
    Mr. Nethercutt. Yes. She testified, if I remember 
correctly, that he was a recipient of an NEH grant. I believe 
that has achieved some commercial success. I have the book.
    Mr. Yates. Have you read it? [Laughter.]
    Mr. Nethercutt. Stephen Ambrose has also published a study 
of the Lewis and Clark Expedition. I have heard that's a 
marvelous book. To what extent can we in the future, is this 
the kind of recovery that you are talking about, get some sort 
of commercial benefit back? I should say benefit back from the 
commercial successes, a royalty of some kind.
    Mr. Hackney. Yes. We have never had a book that has earned 
enough money to come into our policy. The one feature of our 
policy that we perhaps ought to re-think is that we allow the 
grantee to keep the first $50,000 of program income sort of as 
an incentive and as an acknowledgement that they had to go 
through a lot of effort. The grantee keeps the first $50,000. 
We start recovering with all the income above that amount.
    Well, in our previous policy, we recovered only up to the 
amount of the grant. NEH fellowships for scholars are only 
$30,000, so we never get that back because it's under the 
$50,000 threshold. I think that's probably the right policy, 
but it may need some rethinking.
    One of the interesting features of the question about how 
and should we recover from individual scholars who write books 
is the question of how much of--I mean they all come to their 
subject with a lifetime of learning. We provide research 
experience for a few months or longer. So, how much of the book 
is ours, if you will, and how much is theirs? The real purpose 
of NEH is to facilitate the creation of new knowledge and make 
it available to the public. We have to think about whether we 
might have a counter-productive effect if we tried to be too 
aggressive.

         forging partnerships and becoming more entrepreneurial

    Mr. Nethercutt. I understand. There are realities to that. 
I'm not suggesting it's a simple solution. I am just trying to 
figure out a way that it can be employed in some fashion to try 
to benefit your agency.
    Mr. Hackney. I should say though, Mr. Nethercutt, that in 
line with your question this morning, we have been looking for 
partners outside the endowment. The Mellon Foundation is one 
that we have induced to invest heavily in the humanities 
fellowship programs at independent centers for advanced study, 
which I am very pleased with. We have some other partners.
    There is also a group of people who have come together to 
form a 501(c)(3) organization called the National Trust for the 
Humanities, which is in existence and does not yet have a 
staff, but it is already with volunteer help, raising some 
money for the humanities. I would like to pursue this much more 
aggressively than we can now. We need to have ``solicit and 
invest'' wording added to our authorization legislation to 
allow us to really be much more aggressive and to draw in those 
private funds to which you would like for us to have access.
    Mr. Nethercutt. I just think it makes sense in this, again, 
difficult financial climate we find our country in, and the 
Congress finds itself in, budget pressures here and there. 
We're always trying to squeeze somewhere and are not going to 
make everybody happy. It is very difficult.
    I have some concern that you are linked so closely both in 
budget requests and in hearings with the NEA, because I think 
there is a clear distinction. The idea that we want to preserve 
books and great books is extremely important and should be 
pursued. That's different from promotion of the humanities, 
although it does certainly promote the humanities.
    As an English major in college, I have some sensitivity to 
what you do and why, but yet I am also mindful of the fact that 
my responsibility isn't just to you or your agency or what I 
like in Government, but what everybody does. That is the 
balancing act we go through.
    Other than just saying I hope you'll be patient. We'll do 
our best on this subcommittee to be fair and do what we can 
within our budget requirements, I'll be happy to take any final 
comments you have, or yield back to Mr. Yates.
    Mr. Yates. May I have one more question?
    Mr. Nethercutt. Yes, sir.

                  private sector unlikely to fill void

    Mr. Yates. Or two more. Mr. Rawlings, president of Cornell, 
appeared before us as an outside witness last week, and said 
that there's no way the private sector would be able to provide 
the same kind of financial assistance to the humanities that 
the Endowment does in the event that you went out of existence. 
Do you agree with him on that?
    Mr. Hackney. Absolutely. The point also has been made over 
and over by William G. Bowen, who is the president of the 
Mellon Foundation. He has been rather adamant on the fact. The 
1995 Nina Cobb report on philanthropy in the humanities, funded 
by the Rockefeller Foundation, also makes the point that it's 
unlikely that the private sector could fill in for loss of 
Federal funds in the arts and humanities.

           importance of neh support for humanities education

    Mr. Yates. And with all of the emphasis being made by both 
parties now in favor of expanding funding for education, which 
the loss of NEH would undercut.
    Mr. Hackney. It would undercut humanities education 
efforts, absolutely. I think the big interesting new area in 
education is going to be professional development for teachers 
in the K-12 area. Any dramatic improvement in the performance 
of schools in America is going to be done with the teaching 
core that's there. With new technology coming in, we need to 
ask how those teachers are going to make progress in their own 
ability to use the newtechnology and in their teaching 
techniques. Professional development opportunities for these teachers 
is something that NEH provides through our summer seminar programs.
    Mr. Yates. Who would take your place in financing programs 
of that type in the event you went out of existence?
    Mr. Hackney. I don't think there is any candidate for that.
    Mr. Yates. Could the Department of Education do it?
    Mr. Hackney. They handle a lot of money. Most of their 
money flows through in categorical programs that are governed 
by--
    Mr. Yates. Especially with grants to States now.
    Mr. Hackney. Right. Exactly. So they don't do exactly what 
we do.
    Mr. Yates. Thank you.

               universities and other sources of support

    Mr. Nethercutt. Yes, sir. Can the universities take a 
greater role in humanities promotion? Do you see that as a 
possible outlet in perhaps cooperation with foundations across 
the country or industry? Again, in the exploration phase, we're 
trying to figure out how to make this all work.
    Mr. Hackney. They do a lot now.
    Mr. Nethercutt. But I mean do you think more can be done? I 
am thinking of the alternative to NEH, if it ever comes to 
that.
    Mr. Hackney. Well, if NEH did not exist, public humanities 
activity basically would be limited to local historical 
museums, which would be scrambling for money wherever they 
could, but the humanities would mainly exist in schools and 
colleges. They do wonderful things. They allow their faculty to 
do research, but there would be much less research without NEH, 
and it would be much less good. There would be no hope of 
public programs. There is no other source for this sort of 
funding--such as documentary films for television, which reach 
more people than anything else we do--other than NEH.
    Mr. Nethercutt. Isn't there a commercialization of the 
potential for the public television broadcasting? I know the 
Ken Burns Jefferson series, is that sold in cassette?
    Mr. Hackney. Indeed, yes.
    Mr. Nethercutt. I assume that goes back to PBS though?
    Mr. Hackney. Some goes to PBS. I'm not sure what their view 
is, but Ken Burns has a non-profit organization to which his 
share of those funds go. He puts that into the production of 
new films.
    Mr. Nethercutt. I see.
    Mr. Hackney. So it's all non-profit. Let me make one point 
there. It is now sort of easy to imagine Ken Burns generating 
funds from his films because he is very good and he is well 
known now. NEH started funding his documentaries in the late 
1970s, actually, and have supported him a lot. The question is 
not so much about how Ken Burns will survive, though he says 
that he couldn't do without us, but the question is who is 
going to discover the next Ken Burns and make it possible for 
them to get a start in making documentary films. We fund a lot 
of first-time filmmakers that work very hard to put together a 
project from which they can produce a film. That's a very 
important function for our culture.
    Mr. Nethercutt. I'm sure it's an important function for our 
culture. I guess the question is how do you measure the 
effectiveness of it and the value to the public. I mean maybe 
obscure filmmaker A has done a wonderful work, but if nobody 
ever sees it, perhaps nobody in the broad sense, then perhaps 
certainly it has value, but minimal value other than to those 
who care about the work.
    Mr. Hackney. Most of the films that we fund are shown on 
PBS. They are very successful, I should say. But they all have 
shelf life, which means that they can be used later for 
educational purposes even if they don't have a mass audience.
    One of the things that I hope the new National Trust for 
the Humanities, the 501(c)(3), can do is to raise private funds 
to put those films that are now sitting on someone's shelf, 
unused and not benefitting anyone, put those in every classroom 
in the country so that they can be used for educational 
purposes. So, there is an afterlife for those projects.
    Mr. Nethercutt. Any more, sir?
    Mr. Yates. No. Thank you.
    Mr. Nethercutt. Thanks for your testimony.
    Mr. Hackney. Thank you very much for the opportunity.
    Mr. Nethercutt. The hearing is adjourned.
    [The following questions and answers were submitted for the 
record:]


[Pages 445 - 496--The official Committee record contains additional material here.]



=======================================================================


                    IMLS--Office of Museum Services


=======================================================================



[Pages 499 - 519--The official Committee record contains additional material here.]



=======================================================================


                        Commission of Fine Arts


=======================================================================



[Pages 523 - 533--The official Committee record contains additional material here.]



=======================================================================


               Advisory Council on Historic Preservation


=======================================================================



[Pages 537 - 568--The official Committee record contains additional material here.]



=======================================================================


                  National Capital Planning Commission


=======================================================================



[Pages 571 - 602--The official Committee record contains additional material here.]



=======================================================================


                       Holocaust Memorial Council


=======================================================================



[Pages 605 - 626--The official Committee record contains additional material here.]



=======================================================================


                          Members of Congress


=======================================================================


                                         Wednesday, April 16, 1997.

TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                         ALASKA INDIAN PROGRAM

                                WITNESS

HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ALASKA

    Mr. Regula [presiding]. The committee will be in session. 
We are happy to have the chairman, the big chairman of the 
Resources Committee and the gentleman from the biggest State in 
the Union.
    Mr. Young. Not quite as pretty as the State the chairman is 
from, but very pretty and quite large.
    Mr. Regula. Well, it's quite nice.
    Mr. Young. Well, Mr. Chairman, it's an honor to testify on 
Alaska Native programs. I have been doing this for a long time, 
as long as you and I have been here. I have a longer writter 
statement that has been submitted for the committee record.
    The Indian Health Service is crucially important, Mr. 
Chairman, to my constituents in Alaska. Since Congress amended 
the Indian Self-Determination Act, the Indian Health Service, 
IHS, has entered into self-governance compacts with tribes. 
Alaska entered into an All Alaska Compact with the IHS, which 
has provided a more direct and improved service to Alaska 
natives and has greatly reduced administrative costs of having 
the IHS administer these services. I fully support the 
appropriations within the IHS self-governance compact fund to 
continue for the All Alaska Compact.
    One thing, Mr. Chairman, not in my written statement. At 
some point along the line we're going to have to look into the 
compacting process. Alaska has tried to compact with the IHS, 
reached an agreement, signed an agreement. Then the IHS delay 
and delay and delay. It's a terrible burden upon those tribes 
who thought they were getting the money.
    Mr. Regula. You like the compacting programs?
    Mr. Young. Yes. They work well. Other than out in 
Rockville, Maryland, where the IHS has a little hold-up on the 
money. They like to hang onto the money too long. Once the 
agreement is reached, we ought to release the funds to the 
compacts because it does work.
    Alaska Native Medical Center--I greatly appreciate the 
funding allocated for the completion of Alaska Native Medical 
Center in Anchorage, Alaska, which will admit its first 
patients on June 2, 1997. Our great concern is over the 
administration's plan to reduce the second fiscal year of 
funding for this hospital to $4.8 million. I respectfully 
request that this subcommittee increase funding for fiscal year 
1998 back to the original $11.3 million to meet the needs set 
forth in the planned level of operational needs.
    A little explanation there, Mr. Chairman. We appropriated 
the money for this hospital. It was programmed over a period of 
time where they had to have operating funds. Now the 
administration is proposing to cut back on it. I think it's 
like building and buying an airplane and not getting any gas 
for it. You can't run a hospital unless you have the 
appropriate money for it.
    This is something that I am encouraging here, the General 
Accounting Office study of Venetie case impact. Currently, the 
health care delivery in Alaska has been provided by 12 regional 
non-profit health corporations. However, within the last three 
years, IHS has allowed several villages to break away from the 
regional concept to administer their own health programs and 
receive funding directly from IHS. While I admire the desire 
for direct contracting with IHS, it is absurd that the IHS 
would consider entering into 226 compacts with the villages and 
tribes of Alaska. I respectfully request that language be added 
to the appropriations bill that would provide for a General 
Accounting Office, GAO, study on the report of the Venetie 
decision on health care delivery systems in Alaska prior to any 
restructuring of the regional health care system. Appendix A of 
my testimony is language for your consideration of the GAO 
report on the impact of the Venetie case in Alaska.
    Mr. Chairman, I considered doing this in my committee 
myself, but I do not have jurisdiction over the appropriations 
or any part of it. So I thought it would be appropriate for 
your committee to ask for this study, this little breakdown. 
Indeed, it's something no one has ever done before. It should 
recognize 226 new tribes in the State, more tribes than we have 
in all the rest of the lower 48.
    Mr. Regula. Two hundred and twenty six?
    Mr. Young. Tribes. Every village is recognized as a tribe 
in the State. What has happened, you diminish the effects upon 
the village to provide health care if you break it down into 
small independent units. It's an administrative nightmare. I 
don't know why Ada Deer, Assistant Secretary of the Interior 
for Indian Affairs, did it. She did have the authority, we 
didn't think she did. But she has caused I think, chaos. Before 
they change the health care delivery system, because I am 
interested in the patients more so than the political 
ramifications of this. The patients can not receive health care 
from a small village of say 55 people, which is considered a 
tribe. But they would probably apply for it and receive the 
money and the people, the patients would get no adequate health 
care.
    Alaska sanitation needs, water and sewer facilities. 
Reports have stated Alaska has identified unmet sanitation 
needs exceeding $1 billion. This is based on the non-existence 
of water and sewer facilities in more than 85 percent of the 
rural villages of Alaska. As the leading Nation of the world, 
our 49th State shouldn't be experiencing such Third World 
conditions. I urge that we maintain or enhance the IHS 
appropriations of $90 million for Alaska for sanitization 
facilities construction in 1998. Currently the Alaskan share is 
approximately $20 million. It is very important to keep the 
level that has been recommended.
    Alaska patient travel funds. This is one that's unique to 
Alaska. Patient travel is an expensive cost which Alaska must 
incur each year due to geographic and non-existence of 
interstate road system in the State. Rural Alaskan natives must 
travel to regional centers or to the Alaska Native Medical 
Center in Anchorage, Alaska, when they require additional 
medical care and the only transportation available is air 
travel. Many patients forego care until an easily treatable 
condition has become a full-blown emergency. I respectfully 
urge the subcommittee to review the IHS's budget and include a 
separate appropriation of $5 million for patient travel costs 
in Alaska.
    If it sounds like I am contradicting myself, Mr. Chairman, 
when I say we can't do it in these villages, we just do not 
have the proper equipment. What happens in a lot of the smaller 
villages, people that have something that could be treated very 
quickly and solved just can't afford to fly in and get it taken 
care of.
    Alaska Legal Services Corporation, Mr. Chairman, you know I 
rarely support any project with attorneys involved. However, I 
strongly believe that representation Alaska Legal Services 
provides for people who cannot afford their own attorneys is 
justified. It's hard for me to say this as a conservative, but 
in fact, one of the problems we have had inthe rural areas is 
that there was no legal people who would like to go out. Alaska Legal 
Services takes care of that.
    Bering Sea Fishermen, this is something dear to my heart. 
This subcommittee included $800,000 in its Fiscal Year 1997 
budget to address the Chum Salmon fishery disaster in the 
Arctic-Yukon-Kuskokwim areas of Alaska. The Bering Sea 
Fishermen's Association, on behalf of all its membership, is 
requesting $1 million. I know that's a lot, but this is one of 
the biggest things we have to develop the economy in the State. 
I support the request to design and implement cooperative 
projects with Alaska Native villages in Kotzebue Sound, Norton 
Sound, and Yukon, and Kuskokwim Rivers, et cetera. I 
respectfully urge this subcommittee to honor this request to 
help fund fishery development in economically deprived regions 
of my State.
    Indian Child Welfare case needs justification. In the past, 
BIA has not provided adequate data to support or justify budget 
requests on child welfare services and needs for all tribes. I 
am requesting that this subcommittee require a detailed budget 
justification report from the Bureau on child welfare cases 
which include the following: Types of services provided, number 
of children and families to whom services were provided, number 
of out-of-home placements of children, average length of time 
children are in out-of-home placements, numbers of children who 
are able to receive performance through family reunification, 
legal guardianship, kinship or adoption.
    Mr. Chairman, as you know, I have received numerous 
requests from my constituents in Alaska. However, I did want to 
briefly outline the most urgent appropriations requests. You 
have heard me state the importance of these requests, the IHS 
All-Alaska Compact with Alaska natives, the Alaska Native 
Medical Center in Anchorage, a GAO study which I think is 
crucially important to health care delivery in Alaska, a report 
on Indian child welfare cases, the Alaska Legal Services Native 
Allotment representation and funding to develop and improve a 
fisheries in the most economically deprived regions in my 
State. Additionally, I am briefly listing the requests I have 
received from Alaska and ask this subcommittee to consider each 
one of those requests.
    Lastly, I would like to add my support to the Institute of 
American Indian and Alaska Native Arts for their appropriations 
request. They are continuing in their efforts towards a move to 
their own campus. I support these efforts and respectfully ask 
the subcommittee to honor their appropriations request of $5.5 
million for operations until they have moved to their permanent 
campus.
    Mr. Chairman, that's within five minutes.
    Mr. Regula. Thank you. You didn't mention Tongass.
    Mr. Young. Unfortunately, that's not under the 
appropriation process. That's something you and I can talk 
about later on. As you know, we have lost all our mills. We 
have shut down everything, and now this administration is 
trying to shut down the remaining saw mills. We have got about 
9 million acres of dead trees and it's very very discouraging.
    Mr. Regula. One question. Our next witness isn't here yet. 
Yesterday Ada Deer was here for the Bureau of Indian Affairs. 
The issue came up, what impact will the welfare reform bill 
have on the Indians, because employment is not readily 
available. Do you want to comment on that?
    Mr. Young. Well, two things have happened. On the welfare, 
at my instigation, we have passed the flexibility to the State 
to help delivery systems, using an example, a non-profit 
corporation to administer the welfare program in the rural 
areas that have no employment. We believe it's adequate. There 
still have to be efforts put forth to receive money on the 
welfare rolls, but one of the biggest problems we have is we 
don't want the natives moving out of the rural areas back into 
the urban areas creating a ghetto. We think we can do this by 
letting them have work programs in the communities for 
community improvement run by the non-profit corporations.
    Mr. Regula. So you are really trying to address what you 
see as the coming problems.
    Mr. Young. Yes. And it will be a problem. You have to 
understand two things that have occurred, Mr. Chairman, and a 
little history, because we do have a little time. We never had 
a problem until the Government got involved in this about 25 
years ago, actually 30 years ago. There was no welfare and 
everybody took care of themselves. We believe that can be done 
again. The welfare system is a very debilitating system for a 
lot of young people. It has caused a tremendous, just like you 
read in the papers here, a tremendous racial, unmarried 
mothers, family breakdown, heavy drinking, heavy drug use, a 
lot of what we call funny money, because no one has to work for 
it. We believe this is a better way. Most of the native groups 
support the concept. They know it's not working. They don't 
want to cold turkey it. We can't do that because there's no 
jobs available in those rural areas. That's what we are trying 
to do.
    Mr. Regula. Okay. Thank you.
    Mr. Young. Please re-look at my testimony, Mr. Chairman, 
and you and I will talk on the private side on some of these 
things that we want to do.
    Any other questions?
    Mr. Regula. No.
    Mr. Young. Thank you, Mr. Chairman. I appreciate it.
    [The information follows:]


[Pages 634 - 637--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                  U.S. FOREST SERVICE--COLUMBIA GORGE

U.S. FISH AND WILDLIFE SERVICE--METROPOLITAN GREENSPACES RESTORATION GRANT PROGRAM

                                WITNESS

HON. EARL BLUMENAUER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Mr. Regula. Okay. Your statement will be put in the record 
in full. I hope you can summarize for us.
    Mr. Blumenauer. I'll try my best, Mr. Chairman. Thank you. 
I am impressed with the wide range of people that you are 
patiently listening to today.
    Mr. Regula. Yes. We have got quite a round up here.
    Mr. Blumenauer. I guess basically what I wanted to do was 
to spend less than my five minutes to reinforce the major point 
of my testimony, which is that the investment in the green 
infrastructure of the Columbia River Gorge is a unique 
opportunity for the Federal Government. It is a geologic wonder 
that is world famous. Investment that the Federal Government 
makes in the Columbia River Gorge----
    Mr. Regula. Investment in what? What kind of investment?
    Mr. Blumenauer. Well, I am glad you asked me that, Mr. 
Chairman. There are 292,000 acres in the Columbia Gorge, as 
well as a series of small scale parks, greenways and trails. 
What I am here today is to seek this subcommittee's investment 
in following through on the purchase of land in the gorge 
that's in sensitive areas. Part of what we have done in the 
gorge is develop a long-term management plan of the Federal 
lands in that area and to promote partnership between the local 
governments and the private land owners. The main Federal 
components of the gorge partnership are the acquisition of 
sensitive lands and some modest payment to the counties to 
assist in the economic development for the changes.
    Mr. Regula. Once we have acquired it, who manages it?
    Mr. Blumenauer. It's Forest Service.
    Mr. Regula. So it would be still Federal management?
    Mr. Blumenauer. That's correct.
    Mr. Regula. The problem is that in tight budgets, every 
time we buy something we end up with some ongoing management 
expense. That is why we are trying to make sure that we only 
buy what is vitally important.
    Mr. Blumenauer. I appreciate that, and why I am hoping that 
the committee will give a little attention in terms of what is 
going on in the Columbia River Gorge. For instance, Multnomah 
Falls is the most visited attraction in the entire national 
forest system. We have already helped secure 30,000 acres that 
are critical parcels in Washington and Oregon, but this work is 
far from over.
    The president's budget suggests $1.5 million for land 
acquisition.
    Mr. Regula. In the gorge?
    Mr. Blumenauer. In the gorge. There are at least $5 million 
in critical properties that can and should be acquired in the 
course of the next Fiscal Year, to maintain their protected 
status. Time is of the essence because the act gives the Forest 
Service a limited amount of time to purchase the available 
property.
    Mr. Regula. Are these properties presently owned by timber 
companies?
    Mr. Blumenauer. In some cases. There are a variety of 
private ownerships. But if we don't move quickly, they will 
revert to a less protected status. Frankly, you are going to 
hear lots of requests for money. I saw the list. But in terms 
of the impact, the national impact for this scenic and natural 
area, you will have more impact for fewer dollars than any 
place else. The $5 million actually represents a reduction over 
what has happened in the past.
    Mr. Regula. Okay.
    Mr. Blumenauer. The last piece speaks to the request the 
president has for $300,000 for Metropolitan Greenspaces. These 
are the regional government has identified through a 
comprehensive planning process, opportunities to leverage this 
with private contributions. It has a lot of impact for the 
education of young people about natural areas and further 
preservation of green space in the metropolitan area. My 
testimony goes on in some length of why the $300,000 is a 
minimum investment and has a great deal of pay back.
    Mr. Regula. Well, we are going to do the best we can. We 
have a limited amount for land acquisition as you know. We'll 
try to meet the challenges. Thank you for coming.
    Mr. Blumenauer. Thank you very much for your courtesy.
    [The information follows:]


[Pages 640 - 643--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                       DEPARTMENT OF THE INTERIOR

                          U.S. FOREST SERVICE

                                WITNESS

HON. MICHAEL D. CRAPO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    IDAHO

    Mr. Regula. Mr. Crapo, I think you are next.
    Mr. Crapo. Thank you, Mr. Chairman.
    Mr. Regula. We'll put your statement in the record.
    Mr. Crapo. I appreciate that. I'll summarize it very 
quickly. I appreciate the opportunity to come before you today 
and would like you to pay special attention to some of the 
projects that I have identified in my statement. In particular, 
the Sawtooth National Recreation Area easements.
    The Sawtooth National Recreation Area is an area that was 
established in Idaho in 1972 to ensure the preservation and 
protection of the natural, scenic, historic, pastoral and fish 
and wildlife values there. It's a place, if you ever do get to 
Idaho, you ought to see. It's one of the most grand and 
beautiful places in the world.
    A part of that whole process was that there's a lot of 
private land there.
    Mr. Regula. Are these in-holdings?
    Mr. Crapo. In-holdings, yes. It was intended over time that 
the private land would not be purchased, but that scenic 
easements be purchased so that the value was protected. That 
effort kind of got forgotten over time. Recently some 
developments, actual proposed developments started taking place 
there because there was no progress being made. So the land 
owners decided well, if a lot of the public movement to stop us 
from grazing our cattle takes place and if the easement process 
is not proceeding, we will develop our land. Last year, we were 
able to get $800,000 as a start to head off some very 
significant possible problems. This year, we are asking that we 
continue that process. It looks like over time we are going to 
need around $9 million.
    Mr. Regula. What are the scenic easements? What kind of 
cost breakdown?
    Mr. Crapo. It is in different amounts. I'm sorry I can't 
give you the amounts. The Forest Service has actually 
categorized them in category 1, category 2, and category 3. 
Some are actually quite expensive.
    Mr. Regula. This limits it to the present usage?
    Mr. Crapo. That's right. It basically requires that the 
current scenic values be preserved. They are allowed to graze 
cattle, the current usage, and actually construct buildings 
that are consistent with the scenic and historic times.
    Mr. Regula. So they could run a dude ranch, for example?
    Mr. Crapo. I believe that would be correct.
    Mr. Regula. Or a farm or a ranching operation?
    Mr. Crapo. Yes. What we are asking is that this year that 
$1.8 million has been requested by the president. We would like 
to go as far beyond that as we can and treat the $1.8 million 
as a bare minimum in the request. We do ultimately need $9.2 
million to make the purchases. This again is a very critical 
and important project in Idaho, and I would encourage your 
attention to that.
    Mr. Regula. You get a bargain, in a sense. You don't have 
to buy the title to the land and even the use of it enhances it 
in a way. I assume that we don't get into any costs beyond 
purchasing the easement?
    Mr. Crapo. Is still under private ownership.
    Mr. Regula. In the private sector.
    Mr. Crapo. And Mr. Chairman, this is one of those win-wins, 
where everyone, the private land owners are willing buyer-
willing seller arrangements. The environmental community is 
very supportive of this. The people across the State of Idaho, 
and I assume the Nation, are very supportive of this type of 
protection.
    Mr. Regula. Would the State be able to put up any money if 
we would condition a larger amount on a match?
    Mr. Crapo. You know, I have not checked with the State on 
that, but I would be glad to ask.
    Mr. Regula. Would you? Because what we are trying to do is 
leverage our dollars, whether it's a visitor's center, whether 
it's land acquisition, by getting the States, particularly to 
come up with part of the money. It's a possibility. I wish you 
would check and get back to us.
    Mr. Crapo. I will investigate that. Your suggestion that 
perhaps a larger amount would be made available if there were 
some matching monies from the State?
    Mr. Regula. At least it would be an inducement for us to do 
as much as we can. We would condition whatever we put in the 
bill on a match from the State if they are interested, because 
obviously it would double the amount of acreage we could do.
    Mr. Crapo. I would be glad to check into that. I would hope 
that the committee would look at least at the $1.8 million as 
the president has requested.
    Mr. Regula. Of course we don't know what we are going to 
have. As you well know, we don't have the $602 billion at this 
juncture. Some negotiation is going on on the budget issue 
right now.
    Mr. Crapo. I thank you, Mr. Chairman, for your attention 
today. I appreciate your interest in this issue. It's a very 
important issue.
    Let me just quickly get the other items I have.
    Mr. Regula. Okay.
    Mr. Crapo. The Hagerman Fossil Beds National Monument is an 
important request. That is covered in my testimony. The 
Peregrine Fund we have been working with you on for some time. 
I am just asking you to continue the efforts there that we have 
already been working with you on.
    The Raptor Research Facility is a very important facility 
of Boise State University. We are requesting $2.847 million for 
the design and construction of a Raptor Research Technical 
Assistance Center at the university.
    Mr. Regula. Has this got some matching money in it?
    Mr. Crapo. That, I do not believe. Well, yes and no. This 
is a participation with different groups, the BLM, the Fish and 
Wildlife Service, the Idaho Department of Fish and Game, the 
Peregrine Fund, the Boise State University would also be 
assisting, Idaho State University and the University of Idaho. 
I do not know the details of how the funding is--
    Mr. Regula. Does this facility serve all those agencies?
    Mr. Crapo. It serves all of those groups and agencies.
    Mr. Regula. It's at a university?
    Mr. Crapo. It's at a university.
    Then finally, as I am trying to hurry through here, we have 
been working very hard within the Sun Valley area, again in the 
Sawtooth National Recreation Area, to get a dedicated trail 
constructed. The authorization is in place and we have been 
working closely between all of the Federal and State agencies. 
We need to now move ahead with some of the already authorized 
operations with the $350,000 grant for trail construction, and 
$100,000 for recreational structures. Again, supporting the 
tremendous environmental heritage we have in that area that is 
a national recreation area.
    Mr. Regula. I assume you are getting more and morepressure 
for development out there.
    Mr. Crapo. Much more.
    Mr. Regula. That seems to be the pattern in Colorado, Utah, 
Idaho, that people are moving out there.
    Mr. Crapo. That is true. One of the things that is 
important is that we provide the upkeep and the continued 
maintenance of these trails for the public as they come out to 
participate and to see the tremendous scenic beauties that we 
have set aside as a national recreation area.
    Mr. Regula. Mr. Wamp, do you have any questions? Interrupt 
any time if you have questions.
    Thank you very much.
    Mr. Crapo. Thank you, Mr. Chairman.
    [The information follows:]


[Pages 647 - 649--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

        U.S. FOREST SERVICE--MIDEWIN NATIONAL TALLGRASS PRAIRIE

                                WITNESS

HON. JERRY WELLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS

    Mr. Regula. Mr. Weller? Jerry?
    Mr. Weller. Good morning, Mr. Chairman. It's good to see 
you all. I appreciate the opportunity to have a chance to be 
before your subcommittee and to once again make a presentation 
regarding a very important priority for the State of Illinois, 
a bipartisan priority for the State of Illinois.
    As you probably recall, Mr. Chairman, thanks to your 
assistance, and of course this Congress, this past year the 
former Joliet Arsenal military facility in my district was 
converted to peace-time uses. The key components of this 
redevelopment plan, this conversion of the Joliet Arsenal was 
to create a 19,000 acre conservation area, the first ever 
national tallgrass prairie, which is the largest tallgrass 
prairie, a national veterans cemetery, and two industrial 
parks.
    Mr. Regula. Did you get buildings that were useful?
    Mr. Weller. The buildings at the facility, most of them are 
in disrepair because of their age and the Army, while they were 
not being used, did not maintain them as well as one would 
hope. There is of course the cost of upgrading those that would 
be used for purposes.
    I do want to note that the first 15,000 acres of the land 
transfer has occurred out of that 19,000 acres. There is some 
environmental clean-up costs because of munitions production at 
the facility. As that land is being assessed for that purpose, 
the remaining land will be established. But the prairie is 
really a key component of our efforts to preserve land for 
conservation and open space in an area that is rapidly 
suburbanizing and rapidly developing. Of course it's already 
been nicknamed the Yellowstone of the midwest by many of those 
that are very active. It's an important part of our effort to 
preserve open space and conservation.
    I noted in the last two years that your committee has 
invested $4 million in initial development costs for the 
tallgrass prairie. Now that the Midewin National Tallgrass 
Prairie has been formally established, land has been 
transferred, it's necessary to begin to make the prairie park 
more visitor friendly, and also to begin natural habitat 
restoration. Today I wanted to submit formally a request of 
$4.7 million for the coming Fiscal Year, and just kind of break 
down how these dollars would be allocated.
    First, $1.6 million would be used for operation costs, as 
well as restoration and habitat projects, $1.2 million is 
needed for recreational construction. That would include 
restrooms, parking lots, trails, and of course a picnic area. 
As I noted, the Yellowstone of the Midwest, Midewin National 
Tallgrass Prairie, is expected to attract thousands of 
visitors. Of course when it is potentially opened to the public 
sometime in the near future we need these facilities to 
accommodate them.
    Also we would like to mention an addition $1.9 million is 
requested as part of this overall $4.7 million which is 
requested for additional land acquisition. There are two 
closeby small parcels of property, one 11 acres, which would 
cost approximately $100,000 to acquire, a second which is 
almost 900 acres is expected to cost about $1.8 million. In 
this case we have willing sellers, local community and local 
governments are supportive of this land acquisition. It may be 
a valuable asset to add to the Midewin macrosite, and continue 
to protect valuable wetlands and open space.
    I particularly want to note that this project has had 
overwhelming bipartisan support. I have attached to my 
testimony a letter signed by the entire Illinois delegation of 
both Republicans and Democrats. Of course Mr. Yates, the 
ranking Member of this subcommittee has been a tireless 
advocate of the Midewin Prairie, and a real leader in our 
efforts to obtain funds. The continued development of this 
project not only has included Federal dollars and Federal 
investment, but I do want to note that already 1,200 hours of 
volunteer time have been contributed by local volunteers. We 
have also received some substantial contributions from the 
private sector, from private foundations, corporations, 
conservation organizations, which have contributed to the 
efforts. So it's been both a public and private partnership.
    Mr. Regula. As I understand, the governor has been very 
supportive too in giving staffing and so on.
    Mr. Weller. Yes. The Illinois Department of Natural 
Resources, formerly known as Department of Conservation, is in 
a partnership arrangement with the Forest Service. Of course 
not only is public-private, but also State-Federal cooperation.
    Mr. Regula. As you know now, we have this program of fee 
collections in the parks. Does this lend itself to that? Is 
there one entrance, for example, where we could get a modest 
fee and the money goes back?
    Mr. Weller. The enacting legislation gives the Forest 
Service the authority to collect fees. They do intend to pursue 
that authority as helping support the----
    Mr. Regula. One last question. Suppose we would condition 
some of this on a match from the State. Do you think this would 
help leverage? Could you get the State to come up with some 
money to expand what we could do? We are trying to leverage 
every dollar.
    Mr. Weller. I understand that. Of course the State of 
Illinois is now going through an education funding reform, 
where they are shifting a lot of funds to our schools as part 
of our property tax swap. Perhaps your State of Ohio is doing 
the same thing. So that has set priorities, and in the last 
couple of years, the Department of Natural Resources has not 
been in a land acquisition mode now because of that shift. But 
we can certainly explore that.
    Mr. Regula. Why don't you talk to the governor and get back 
to us because this is an asset for the State and if we could 
get the State to help some we could leverage the dollars we 
have. As you know, it's tight. Particularly acquiring land that 
might otherwise get away, you talk about ancillary, this 
acreage that maybe ought to be included.
    Mr. Weller. Really what's so important about this is the 
Chicago suburban area growth, and suburban sprawl comes in. 
This is a key effort to protect the valuable open space, which 
also enhances the property that is developed I guess you would 
say. But also the point is, is that timing is important for us, 
that we move forward.
    I really appreciate the support your subcommittee under 
your leadership has given in the last few years.
    Mr. Regula. We want to do that. We want to continue to try 
to help here, but as I say, if we can get some help from the 
State, it expands what we can accomplish. So give it a try.
    Mr. Weller. I will pursue that with Governor Edgar and the 
Department of Natural Resources and see what opportunities are 
there. Of course I do wish to once again request that full $4.7 
million. I appreciate the support you have given. You have been 
terrific, Mr. Chairman. I look forward to working with you and 
Mr. Yates and Mr. Wamp and other Members of the subcommittee.
    Mr. Regula. You might include Mr. Kasich in this equation 
too.
    Mr. Weller. We would love to have him come visit.
    Mr. Regula. He simply needs to get us a good allocation 
through the budget process. Okay. Thank you.
    Mr. Weller. Thank you very much.
    [The information follows:]


[Pages 653 - 656--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

   BAIR ISLAND/DON EDWARDS SAN FRANCISCO BAY NATIONAL WILDLIFE REFUGE

                                WITNESS

HON. ANNA ESHOO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
    Mr. Regula. Ms. Eshoo?
    Ms. Eshoo. Good morning, Mr. Chairman.
    Mr. Regula. Your statement will be put in the record.
    Ms. Eshoo. All right. I will try to make very good use of 
your time and be as brief as possible.
    I am very excited to be here today to speak to you about 
the $10 million appropriation that we are requesting from the 
Land and Water Conservation Fund to make Bair Island a part of 
the Don Edwards San Francisco Bay National Wildlife Refuge.
    I have come before this subcommittee many times requesting 
an appropriation to buy Bair Island. But while the purchase had 
been authorized, the owner of the property was not willing to 
sell. You always said to me do you have a willing seller, and 
we did not. All of that changed in January of this year, Mr. 
Chairman, when Kumagai Guma Company, Ltd., which owned the land 
agreed to sell it. Peninsula Open Space Trust, a non-profit 
group dedicated to conservation, purchased the land for $15 
million. I would like to acknowledge the presence of Audrey 
Rust, who you may have noticed when I walked in, I gave her a 
great hug. She is the executive director of POST, and we really 
consider her a super woman in the Bay area because it was 
through her deft negotiations with the corporation that they 
agreed to sell. POST also agreed, POST made a commitment to 
raise $5 million of the $15 million purchase price from the 
private community, from the private sector toward the total 
purchase price. So that's why even though $15 million is the 
purchase price, I am requesting today $10 million for Fiscal 
Year 1998 in the Interior Appropriations Bill to cover the 
remainder of it.
    In terms of management, the Fish and Wildlife Service is 
now staffing and covering the maintenance. They are prepared to 
continue doing that of the refuge. So I think that we are 
bringing forward a very pragmatic sensible package because 
we're not asking the Federal Government to pick up the tab for 
everything.
    Mr. Regula. One, would the State put some money in if we 
conditioned ours on their participation?
    Ms. Eshoo. I am not sure. I am not sure. I think that to 
date, there has been some talk as to the public access and what 
might be done with some State funds, but it was premature, 
because any kind of planning for public access, et cetera, 
really needs to come after the lands have been procured.
    Mr. Regula. Is this truly an island or is there a causeway? 
How do you access it?
    Ms. Eshoo. Well, there is access. There is some access in 
terms of city of Redwood City. Audrey?
    Ms. Rust. There is a bridge from a major highway over 
tothis island. That's the only access.
    Ms. Eshoo. It's the only access there is.
    Mr. Regula. How many acres are involved?
    Ms. Eshoo. Sixteen hundred.
    Mr. Regula. Sixteen hundred acres. Is it all marsh?
    Ms. Eshoo. It's all wetlands.
    Mr. Regula. So all wetlands.
    Ms. Eshoo. This is really the last portion of wetlands of 
the Bay area that remains for preservation. That is why it 
would be moving over into what has already been designated by 
the Congress, the Don Edwards Wildlife Refuge. It is a very 
unique opportunity for us. I think that it is structured really 
very well. It is easily restorable habitat. If you were to come 
to the Bay area, and of course we would welcome you there, you 
could walk around the islands, paddle the marshes in a canoe, 
you can see the brush that's alive with animals. The islands do 
provide a home to 125 different species of birds. I can go into 
all of that.
    Mr. Regula. No.
    Ms. Eshoo. I will submit that for the record.
    Mr. Regula. The one thing I would like you to do is check 
with the State of California and get back to us, to see what 
the possibilities are of leveraging this. So we'll wait until 
we hear from you.
    [The information follows:]


[Pages 659 - 660--The official Committee record contains additional material here.]



    Ms. Eshoo. Finally, Mr. Chairman, I would like to also draw 
attention to the broad base of support that this project 
enjoys. The local community obviously has made a huge 
commitment. They will certainly follow up with that. There are 
dozens of letters that have come to you and the subcommittee 
Members. I would also like to submit for the record statements 
by Audrey Rust, who is the executive director of POST, Florence 
La Riviere, chairperson of the Citizen's Committee to Complete 
the Refuge, and a letter from the Bay area congressional 
delegation in support of the appropriation. This is a top 
priority for us in the Bay area. We are again, very excited 
this year because we have worked hard to put something together 
that is both fair and marketable, as it were to the committee.
    Mr. Regula. Let's see if you can market it to the State.
    Ms. Eshoo. All right. Here is something that Audrey just 
gave me. Bair Island, well we did it.
    Mr. Regula. Okay, thank you very much.
    Ms. Eshoo. Thank you, Mr. Chairman, very much.
    [The information follows:]


[Pages 662 - 663--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

             U.S. FOREST SERVICE--BUREAU OF LAND MANAGEMENT

                                WITNESS

HON. ROBERT F. SMITH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Mr. Regula. Mr. Smith, Chairman of the Agriculture 
Committee.
    Mr. Smith. Mr. Chairman, sir, Your Honor.
    Mr. Regula. Too much of that gets expensive when you put 
those adjectives in there.
    Mr. Smith. I commend your patience for listening to all of 
us.
    Mr. Regula. We've got quite a day.
    Mr. Smith. I don't know how you do it. I'll make this as 
concise as possible.
    Mr. Chairman, thank you very much. I have a couple of 
thoughts that primarily surround the question of how we manage 
timber in America. You have had the opportunity to go out to 
the west and witness first hand what we are and are not doing. 
It's in the past been dependent upon science, the gang of four 
was brought together in the Agriculture Committee, you recall, 
in the mid-1980s, which prompted option 9 by the Clinton 
Administration, which prompted the no management concept.
    Since that time, we recognize that dependence upon science 
is vitally important. The result is but a scientific panel 
discussion of forestry in America by nine scientists, plus one 
Forest Service liaison person. It took them a year. Charles 
Taylor was really the instigator of this program. I want to 
leave this with you for your staff to look at, Mr. Chairman. 
But basically what they do, they don't recommend anything. They 
suggest eight options. The most interesting one I think is the 
one that says if you do nothing, as we are doing, setting aside 
forest for a particular purpose, if you do not enter those 
forests or you don't manage them, you lose everything 
environmentally that you want to obtain. You lose endangered 
species. You lose stream bank protection. You lose quality and 
quantity of water. You will ultimately lose all the timber.
    So the timber resource is in a state of active change. The 
less you do, the more chance to have to lose all of the things 
that we want to protect.
    Mr. Regula. So you are saying we need good management.
    Mr. Smith. What we need is management. That's the first 
step because there are those who say no, no, no, that we can't 
enter those forests for any reason. You have heard those.
    The other thing I want to suggest is that I have been 
working closely with our governor in Oregon. We're trying to 
identify model areas where we can go in and make something 
happen on the ground that will prove that management is a good 
idea and that the Forest Service is trustworthy again. The 
Forest Service has lost its place really in the minds of many 
people, caused by a lot of things.
    But for instance, you are familiar with a study that has 
been ongoing in Oregon which was called the Eastside Project, 
four years, $35 million. It still hasn't been completed. We are 
saying for a very small amount, why aren't we putting that 
money on the ground where we know that if we for instance, pre-
commercially thin, take those few loadings off the floor of the 
forest, take the dead and dying timber out, then you'll have 
less forest fire, you'll have less reason to appropriate all 
this money for fire protection.
    Mr. Regula. I understand that.
    Mr. Smith. You know exactly what I am talking about. So I 
am not prepared yet to make a request, but I just wanted to 
prepare you because we want to put money on the ground through 
the Forest Service, people that we have educated to do this.
    Mr. Regula. To enhance the management?
    Mr. Smith. Exactly. We don't want any more studies. We 
think we ought to end the studies.
    Mr. Regula. I agree with that.
    Mr. Smith. Let's put some money on the ground where it 
belongs, Mr. Chairman.
    Mr. Regula. Okay.
    Mr. Smith. Thank you so much.
    Mr. Regula. I think we're going to have a meeting on our 
other project one of these days.
    Mr. Smith. Yes, we are.
    Mr. Regula. We can tell part of this story there.
    Mr. Smith. Yes, we could. Thank you.
    Mr. Regula. It's not well understood at all.
    [The information follows:]


[Page 666--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

              SANDY HOOK/GATEWAY NATIONAL RECREATION AREA

                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Regula. Mr. Pallone? Your statement will be part of the 
record. We appreciate your summarizing.
    Mr. Pallone. Thank you, Mr. Chairman. I will. I'll just 
basically briefly go through the projects and give you the 
money amounts and why I think they are important.
    Again, I know you and the committee and the subcommittee 
have been very helpful to me and the projects in my district in 
the past. I certainly appreciate that. I wanted to talk 
initially about the Sandy Hook Unit, which is part of Gateway 
National Recreation Area. I have requested $5.935 million for 
park operations at Sandy Hook. I understand that that's usually 
part of a larger pot of money, but that's the amount that is 
estimated as needed for Sandy Hook.
    Most importantly at Sandy Hook though, and I have mentioned 
this in the past, is that the access to the Hook is really 
jeopardized at this point because it's very narrow and it gets 
washed over by the ocean and the Bay where they meet. You put 
some language in the bill last year that basically asked the 
Park Service to address this problem. But now they estimate 
that they would need $4.8 million for the next Fiscal Year, 
which is in the president's budget.
    Mr. Regula. Is this beach replenishment?
    Mr. Pallone. It is basically no, it is not. It's not part 
of replenishment. That's in Energy and Water. This is to 
construct a pipeline from the northern end of the Hook to the 
critical zone. They pump sand from the northern end through the 
pipeline to replenish the area where the critical zone is. But 
what you are really doing is paying for the pipe essentially.
    Then also on Sandy Hook is the lighthouse, the oldest 
actual lighthouse in the United States. That is in need of 
help. We have asked for $884,000 in the coming Fiscal Year for 
stabilization and rehab of the lighthouse.
    Mr. Regula. Is it open now? Is there an exhibit?
    Mr. Pallone. It's not open as an exhibit. It is actually an 
operational lighthouse.
    Mr. Regula. Oh is it?
    Mr. Pallone. It's the main lighthouse used by the Coast 
Guard.
    Mr. Regula. Should they rehab it then?
    Mr. Pallone. The way I understand it, the Park Service owns 
the lighthouse and it's not open to the public because of its 
condition. So this would serve to rehabilitate the lighthouse 
and set up a little museum area. But the actual beam is 
operated by the Coast Guard.
    Mr. Regula. Is this automatic equipment?
    Mr. Pallone. Yes.
    Mr. Regula. There's no person?
    Mr. Pallone. No, no individual.
    Mr. Regula. Okay.
    Mr. Pallone. Then also at Sandy Hook is Fort Hancock, which 
is basically a series of historical structures. What we are 
trying to do is put together a plan to basically entice private 
industry to come in and rehabilitate the buildings for 
different facilities there. I have asked $150,000 for a market 
analysis of the lands to basically try to accomplish that. We 
couldn't possibly do it with Federal funds, but if we could at 
least put together Federal seed money to put together a plan 
and do a market analysis, that would be very helpful.
    Also there's a proposal to build a bikeway and pedestrian 
trail as part of Gateway's General Management Plan. That's $2.4 
million. Utilities rehab at the Hook----
    Mr. Regula. Have you looked at the possibility of ISTEA 
money for that?
    Mr. Pallone. To be honest, my understanding is that we have 
I guess requested this, but I am asking you as well. So maybe 
we'll see how that works out. You have got to try, right?
    Mr. Regula. Hedging your bets. Okay, we've got half a 
minute left.
    Mr. Pallone. All right. I won't go through all the others. 
There's more at Sandy Hook. I have some requests referring to 
Church of the Presidents, the Edison MemorialTower. These are 
historic areas.
    I just wanted to mention two more things, if I could. Then 
you have the written testimony to rely on. One is to continue 
the Mid-Atlantic OCS Moratorium, which I know I come every year 
asking for that. I know there are others who feel the same.
    But I also have a request which is new with regard to a New 
Jersey moratorium on OCS sand and gravel lease sales. There is 
an applicant who has now asked to actually mine sand and gravel 
off the continental shelf or the outer continental shelf off 
the coast. I am very much opposed to that. It basically would 
jeopardize our fishing, our tourism industry.
    Mr. Regula. Is this in the State's jurisdiction or ours?
    Mr. Pallone. It's Federal jurisdiction. The State I guess 
is out to three miles. I think they are trying to do that too. 
But this is actually beyond.
    Mr. Regula. Is it beyond the 10-mile limit?
    Mr. Pallone. This is beyond the three-mile limit.
    Mr. Regula. Are they going to just suck it up out of the 
bottom and barge it away?
    Mr. Pallone. Exactly. That is exactly what they do. The 
problem is that not only is it a problem in terms of the 
profile and the effect on fisheries, but also my concern is 
that that's the same sand that's used for the beach restoration 
fund. So I don't want to open it up to private use for gravel 
and other purposes.
    Mr. Regula. So what agency is involved?
    Mr. Pallone. It's Mineral Management. They so far haven't 
moved ahead with it.
    Mr. Regula. MMS?
    Mr. Pallone. Yes. They have had a request, but they haven't 
moved ahead with it. I am asking you to look at it.
    Mr. Regula. Okay.
    Mr. Pallone. Thanks, Mr. Chairman.
    [The information follows:]


[Pages 670 - 677--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

                       RUST AND TOUGALOO COLLEGES

                                WITNESS

HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSISSIPPI

    Mr. Regula. Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman. I won't hedge my 
bets, I am asking the committee for money.
    Mr. Regula. It's the amount that's the problem.
    Mr. Thompson. Yes, well, I know. First of all, I appreciate 
the opportunity to come before the committee. I am speaking 
specifically with reference to the Historically Black Colleges, 
Historic Building and Restoration and Preservation Act. A lot 
of us who are Members of the Congressional Black Caucus would 
not be here had it not been for those institutions. To the 
extent that those institutions survive, they have deteriorating 
buildings, and they have needs. Congress recognized that 
sometime ago and provided money to meet those needs.
    I have a request for $4 million in this appropriation.
    Mr. Regula. Is this totally restoration?
    Mr. Thompson. Yes. It's already on the register. It's been 
identified and everything.
    Mr. Regula. Now are these colleges, I see Rust and----
    Mr. Thompson. Tougaloo.
    Mr. Regula. Tougaloo. Do they get any money from the State?
    Mr. Thompson. No. They are private.
    Mr. Regula. They are both private?
    Mr. Thompson. Right. They are members of the United Negro 
College Fund.
    Mr. Regula. Okay. Because in Ohio we have a school, 
Wilberforce, but it gets State money.
    Mr. Thompson. Right. No, there is, believe it or not, a 
prohibition in our State against giving private college monies. 
However, we did get a tuition assistance program finally 
approved by our State for students who go to private college.
    Mr. Regula. It goes to the individual.
    Mr. Thompson. That's right. Not to the college directly.
    Mr. Regula. We have the same thing in Ohio.
    Mr. Thompson. It's helped. For example, Rust College, which 
is at Holly Springs, Mississippi, served as an office for the 
Holly Springs slave market and as quarters for General Grant's 
troops during the Civil War.
    Mr. Regula. Let me ask you this because in the interest of 
time. Could you prioritize this? I don't think we're going to 
have $4 million. Is there a building that is probably more 
significant than others?
    Mr. Thompson. Yes.
    Mr. Regula. I assume your request covers a number of 
buildings?
    Mr. Thompson. Actually the request only covers three 
buildings.
    Mr. Regula. But of the three, is there one that maybe has 
great significance?
    Mr. Thompson. Yes.
    Mr. Regula. Get that information to us and what that one 
would cost. I am just trying to prioritize because of the 
limited amount of money.
    Mr. Thompson. Absolutely. Now there are two colleges we're 
talking about. I will get you the information you need.
    Mr. Regula. If we condition that some money on a State 
matching, do you think you could maybe get the State of 
Mississippi to put up some money? We're trying to leverage our 
dollars.
    Mr. Thompson. If not, not from the State, could we talk 
about other local funds.
    Mr. Regula. Yes, any source, private.
    Mr. Thompson. You know, we'll take what we can get.
    Mr. Regula. Well, sometimes if you have language that says 
we'll do this if private or local or the State has this, that 
helps to get them energized and come up with their share.
    Mr. Thompson. Again, these institutions are most deserving. 
We're here asking for whatever support we can get. It's clearly 
needed and we respect the direction and authority of the 
Committee.
    Mr. Regula. If you could get back with the priority of the 
buildings, which structures would be the most significant. 
Secondly, whether there would be a possibility of getting State 
and/or local or private assistance, just get this information 
to the staff and we would like to do what we can.
    Mr. Thompson. We'll get it back to you this afternoon.
    Mr. Regula. There's no big rush. We would like to leverage 
our dollars. This is a question I am pretty much asking 
everybody today, what they can do.
    Mr. Thompson. As you talk leverage, what are you looking 
for, 75-25, 80-20?
    Mr. Regula. Normally what we have been talking about is 50-
50. Take a look at it. You might be surprised what the 
possibilities are.
    Mr. Thompson. Okay.
    Mr. Regula. Again, and that's not a hard and fast rule, but 
understand what our goal is, to just stretch our dollars. 
There's lots of people here today. We have to keep the parks 
open.
    Mr. Thompson. Remember those who are not hedging their 
bets. This is all the requests we have for this amount. I 
appreciate the opportunity.
    Mr. Regula. Get us the information.
    Mr. Thompson. I will get it to staff. Thank you.
    [The information follows:]


[Pages 680 - 684--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

            SANTA MONICA MOUNTAINS NATIONAL RECREATION AREA

                                WITNESS

HON. BRAD SHERMAN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Regula. Let's see, Mr. Sherman, I think you are next on 
the list here.
    Mr. Sherman. Mr. Chairman, I appreciate the opportunity to 
testify before the subcommittee to request $8.5 million.
    Mr. Regula. You must be from Beilenson's district, 
obviously. I remember. Santa Monica is an old friend. We'll put 
your statement in the record, and you can summarize for us. I 
have been there. I am pretty familiar with Santa Monica.
    Mr. Sherman. Well, we have a tremendous local effort.
    Mr. Regula. I know that.
    Mr. Sherman. There are over 30 million people who come to 
the beaches and the mountains within the boundaries of the 
National Recreation Area. While I am asking for $8.5 million, 
the local effort should be double that. But the key is to 
complete the Backbone Trail, which goes for 65 miles.
    Mr. Regula. I have been on it.
    Mr. Sherman. Tony has done such a good job, I don't need 
to----
    Mr. Regula. Tony was always very persuasive. We put a lot 
of money in there, as you know. It's expensive. That's one of 
the problems.
    Mr. Sherman. It's very expensive per acre, but it's very 
inexpensive per visitor.
    Mr. Regula. I understand. I am sympathetic to urban 
recreation because of my district. Can you leverage anything 
with California and/or Los Angeles, and/or private?
    Mr. Sherman. Well, in terms of leverage the Federal 
component would be about a third of what we would be spending 
in the next year on land acquisition. So I have told the local 
officials look, don't put any money in.
    Mr. Regula. Are they putting money into land acquisition?
    Mr. Sherman. Yes.
    Mr. Regula. And this is going into the Santa Monica 
Recreation Area?
    Mr. Sherman. Exactly.
    Mr. Regula. In other words, they are buying the land and 
giving it to the Federal Government to be part of this?
    Mr. Sherman. Whether they are giving it to the Federal 
Government, they are coordinating its ownership and operation 
with the Federal Government.
    Mr. Regula. I think California has a major park facility 
that's basically contiguous to this I think as I recall a map. 
It's kind of intermingled.
    Mr. Sherman. What you have is a National Recreation Area 
which includes county and State and Federally owned lands, and 
then additional lands that need to be acquired. As I say, local 
government, State government, are going to put $17.5 million 
into acquiring some key parcels. My hope isthat the Federal 
Government can focus on this Backbone Trail.
    Mr. Regula. And in terms of acquisition?
    Mr. Sherman. Yes, in terms of acquiring.
    Mr. Regula. Is this land presently owned by private owners?
    Mr. Sherman. Yes. The thing is with the pressures, you 
know, we had a recession that was particularly compounded in 
L.A. that served better than any zoning law to prevent 
development of key ecological properties. Well, the recession 
is ending. We need to acquire these properties now or in a few 
years, we won't be able to.
    Mr. Regula. I think we had some land out there that we're 
hoping to get, and he hasn't been overly generous.
    Mr. Sherman. I can give you county money, I can give you 
State money. Bob Hope. The one other thing I'll mention, Mr. 
Chairman, and you well know this. We have got $900 million a 
year coming into Land and Water Conservation Fund, and spending 
14 percent of it.
    Mr. Regula. I had a reporter from the area call me and I 
suggested a solution. I said we'll open up off-shore drilling 
off California and then we'll earmark all the money for 
California. How's that?
    Mr. Sherman. We have off-shore drilling just a few miles 
north of my district. If we could just have the revenue from 
California's off-shore drilling go to land acquisition in 
California, I won't have to come before this subcommittee 
again.
    Mr. Regula. I understand. I'm trying to think maybe if 50 
States owned that land.
    Mr. Sherman. I understand.
    Mr. Regula. Okay. Thank you for coming. We've been 
sympathetic to Santa Monica in the past.
    Mr. Sherman. I hope that we can do a bit more than the 
president has put in his budget.
    Mr. Regula. Okay. Thank you.
    [The information follows:]


[Pages 687 - 688--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

        NATIONAL PARK SERVICE--INDIANA DUNES NATIONAL LAKESHORE

                                WITNESS

HON. PETER VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA

    Mr. Regula. Mr. Visclosky?
    Mr. Visclosky. Mr. Chairman, thank you very much for the 
opportunity to testify. I want to thank you as I have in the 
past for all of your generosity and the generosity of the 
Members of the subcommittee for the----
    Mr. Regula. And the taxpayers.
    Mr. Visclosky. And the taxpayers of America for the Indiana 
Dunes National Lakeshore. I am here to report that the money 
set aside two years ago for land acquisition for Crescent Dune 
has consummated that.
    Mr. Regula. I thought it was finished.
    Mr. Visclosky. Yes. That's done. Monies were set aside last 
year in your bill also for demolition that was desperately 
needed. That is being pursued.
    I am here essentially for two requests. One is for a $1.5 
million add-on for land acquisition. We have a number of vital 
properties that are in danger of being destroyed, as well as 
hardship cases.
    Mr. Regula. This would be adjacent lands to the Dunes?
    Mr. Visclosky. In the authorized boundary that still have 
not yet been purchased. My second request is construction 
monies of $1.5 million for phase II development of the 
Goodfellow Camp, which was formerly owned by the U.S. Steel 
Corporation. Again, the subcommittee several years ago provided 
$800,000 for completion of Phase I, which again, has taken 
place. Phase II includes an environmental education center. We 
want to make that camp and facility available for the young 
people in our area.
    Mr. Regula. Okay. My standard question, can we leverage 
some money out of the State?
    Mr. Visclosky. I don't know about the State in this 
instance, but as far as land acquisition, within the last 
couple of years I would note that you have had donations made 
as far as property by various environmental interests that have 
purchased lands, as well as the public utility company in our 
area.
    Mr. Regula. The Cuyahoga Valley, which is near my area, has 
an environmental education center, which I think is something 
very similar to what you are talking about. A lot of that money 
came from foundations. This may be an avenue that ought to be 
pursued.
    Mr. Visclosky. Mr. Chairman, they have attempted to work 
out an agreement with some of the local corporations and 
environmental groups. To date, I must in all honesty tell you 
those negotiations have not born fruit as far as trying to find 
that local support.
    Mr. Regula. Suppose that we put some money in and condition 
it on a match. Do you think that would stimulate them?
    Mr. Visclosky. Let me talk to the Park Service and the 
individuals involved, and I would be happy to get back to you.
    Mr. Regula. Explore that and get back to us. A lot of times 
you can leverage by saying okay, if we get a dollar, you get a 
dollar local to match. That stretches what we have available 
and I think it is very helpful many times in getting local 
communities to take action.
    Mr. Visclosky. The long-term problem you would face on the 
subcommittee is not necessarily the $1.5 million for the 
construction. For example, the administration's request for 
Goodfellow is an additional $400,000. That is in the 
administration's proposal for some of the services that are 
scheduled to be provided once construction is complete.
    Mr. Regula. I know; I understand. That's why we're always a 
little wary, because every time we buy something, a piece of 
land or whatever, you've got the long-term operating costs.
    Mr. Viscloskly. Exactly, exactly.
    Mr. Regula. Okay.
    Mr. Visclosky.  Mr. Chairman, thank you very much. I 
appreciate it.
    Mr. Regula. Thank you.
    [The information follows:]


[Pages 691 - 693--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                 RIO GRANDE NATIONAL WILDLIFE CORRIDOR

                                WITNESS

HON. RUBEN HINOJOSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TEXAS

    Mr. Regula. Mr.----
    Mr. Skeen. It's good to see you, sir, again.
    Mr. Hinojosa. Again. Hinojosa.
    Mr. Regula. Hinojosa.
    Mr. Hinojosa. That's it.
    Mr. Regula. Joe can handle that one; he's a southwesterner.
    Mr. Hinojosa. Well, we share the border.
    Mr. Skeen. Paisano.
    Mr. Hinojosa. Muy paisano.
    Mr. Regula. Well, thank you for coming. Your statement will 
be made a part of the record, and if you'll summarize for us.
    Mr. Hinojosa. Thank you.
    Mr. Regula. And maybe address the matching fund issue. 
You've heard me say this enough to know what I'm interested in.
    Mr. Hinojosa. Thank you, Chairman. I want to thank you and 
Congressman Skeen for allowing me----
    Mr. Regula. Are you in Kiki's former district?
    Mr. Hinojosa. I am taking the place of Congressman Kiki de 
la Garza, the 15th district on south Texas.
    Mr. Regula. Yes, I kind of figured that.
    Mr. Hinojosa. I'm learning. I have a great deal of interest 
in trying to do some of the good things that Congressman de la 
Garza did.
    Mr. Regula. Yes, I think I've heard of the Rio Grande 
before. [Laughter.]
    Mr. Skeen. What an act to follow.
    Mr. Hinojosa. If I can only accomplish a few of the things 
he did, I'll be very happy.
    Mr. Skeen. Oh, I think you're probably up to it. He was 
certainly a grand individual.
    Mr. Hinojosa. Yes, he was. He still is.
    Mr. Skeen. Buena juente.
    Mr. Hinojosa. Gracias.
    The project that I wish to speak to is a Fish and Wildlife 
Service project, better known as the Lower Rio Grande Valley 
National Wildlife Refuge. It was a project that was started 
back in 1979, and we've been able to get about half of it done. 
In the 1998 budget there is a request for $2.8 million for land 
acquisition.
    Mr. Regula. This is the President's budget.
    Mr. Hinojosa. Yes, sir; that is correct. And as I said 
earlier, of this project, begun in 1979, I highlighted a few of 
the areas that have been bought so that you can see that we've 
made a lot of headway in that period of time.
    Mr. Regula. The pink is I assume Federal.
    Mr. Hinojosa. Yes.
    Mr. Regula. We've already acquired it. Is it connected?
    Mr. Hinojosa. We're trying to connect it.
    Mr. Regula. So that's your mission, in a sense, is to buy 
the end-holdings to get it into a continuous part.
    Mr. Hinojosa. Eventually we would have 132,500 acres that 
would all be connected, and it's an area that has a lot of the 
birds and a lot of----
    Mr. Skeen. A lot of diversity.
    Mr. Hinojosa. A lot of diversity.
    Mr. Skeen. Up and down the whole Rio Grande.
    Mr. Hinojosa. That's exactly right, and it's an area that 
can be bought, acreage that can be bought at very low prices.
    Mr. Regula. What is the chance of Texas coming in with some 
money if we could suggest a match?
    Mr. Hinojosa. Mr. Chairman, from what I could research on 
it, Texas has not been able to participate, at least in the 
past. I would like very much to attempt to try to get some 
funding, but from what I was able to find I didn't find any 
matching funds.
    The Department of the Interior has had this quota amongst 
its top priorities----
    Mr. Regula. Yes, that's true.
    Mr. Hinojosa [continuing]. For the last 10 years. And what 
I find is that in having met with Larry Ditto of the Fish and 
Wildlife Service, that there is a lot of support.
    Mr. Regula. Is this the State or the Federal?
    Mr. Hinojosa. He's a Federal employee.
    Mr. Regula. Well, at least take a try at the State and see 
if they would help, because it would leverage more money. And 
buying in-holdings ought to be done as quickly as possible, 
because it gets more expensive after every year.
    Mr. Hinojosa. What I saw was that for $1 million, we can 
get a thousand acres. So the price is very cheap and an 
opportunity for us to try to connect, and thus protect the 
species that are there now.
    Mr. Regula. Joe, are you familiar with this?
    Mr. Skeen. Mr. Chairman, there is a question I would like 
to ask Ruben, and that is, all these lands that you are talking 
about are privately owned? There are no Federal lands; there 
are no State lands in this?
    Mr. Hinojosa. That's correct.
    Mr. Skeen. This is all private land, private ownership.
    Mr. Hinojosa. That is correct.
    Mr. Skeen. Which is unique along the border, of course.
    Mr. Hinojosa. It's unique, and the good thing is, according 
to what I learned from Larry, they are willing to sell. So I 
think that we have an opening, an opportunity here that we 
could take advantage of.
    Mr. Skeen. Some of it is agricultural land, producing 
crops?
    Mr. Hinojosa. That is correct.
    Mr. Skeen. By way of irrigation from the river?
    Mr. Hinojosa. That is correct.
    Mr. Skeen. So it has a water right as well.
    Mr. Hinojosa. Yes; yes they do. And you know that, just 
like your State----
    Mr. Skeen. Riparian.
    Mr. Hinojosa [continuing]. We have a water crisis. We have 
a drought that is in the beginning of----
    Mr. Skeen. I know, because we owe you water all the time.
    Mr. Hinojosa. Right, that's correct.
    Mr. Skeen. From the Pincus and the Rio Grande.
    Mr. Regula. Is this a boundary river with Mexico?
    Mr. Hinojosa. It is.
    Mr. Skeen. It is.
    Mr. Regula. And what do we own, to the center of the River, 
or what's the boundary?
    Mr. Skeen. You have the border with all of Mexico, but then 
it runs through the western center of the State of New Mexico.
    Mr. Regula. In other words, we're buying land on the north 
side of the river.
    Mr. Hinojosa. We're buying just on the Texas side.
    Mr. Skeen. On the east side.
    Mr. Regula. So NAFTA would have some impact on this.
    Mr. Hinojosa. We have several bridges that are doing lots 
of business with Mexico in Rio Grande City, in McAllen Farm, in 
Progresso, and Brownsville, and all of that area is in this 
habitat.
    Mr. Regula. Thank you.
    Mr. Hinojosa. It's a pleasure to be here. Thank you for the 
opportunity.
    Mr. Skeen. Thank you, sir.
    Mr. Hinojosa. I hope to get to know you better.
    Mr. Skeen. We'll make that opportunity, and thank you.
    Mr. Hinojosa. Thank you, Joe.
    [The information follows:]


[Pages 697 - 699--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                   STONES RIVER NATIONAL BATTLEFIELD

                           FORTRESS ROSECRANS

                                WITNESS

HON. BART GORDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    TENNESSEE

    Mr. Regula. Mr. Gordon?
    Mr. Gordon. Chairman Regula, and Chairman Skeen.
    Mr. Regula. Your statement will be a part of the record.
    Mr. Gordon. Thank you.
    Mr. Skeen. Good to see you.
    Mr. Gordon. And I also thank Ms. Weatherly for the good 
staff advice that she has given us along the way. I feel like 
this is a family reunion. We're meeting again, annually, on an 
issue that is very much a family to me.
    Mr. Skeen--Mr. Regula, I'm sure, has instant recall on all 
these items over the years.
    Mr. Regula. I have some vague recollections.
    Mr. Gordon. Since you weren't here the last couple of 
times, let me give you just a quick update. In my hometown of 
Murfreesboro, Tennessee, there is a battlefield named Stones 
River Battlefield. During the Civil War there were over 50,000 
battles and skirmishes, yet only 45 of those were thought to 
be, or have a major impact, on the outcome of the war. Stones 
River was one of those.
    Secretary Lujan, some years back, put it on his list of the 
25 most endangered battlefields in the country. And what's 
happened is, it's right next door to the fastest-growing 
community in Tennessee and one of the fastest growing in the 
country. And so it's a real struggle to keep up with the 
improvements there.
    Mr. Skeen [presiding]. What community is it?
    Mr. Gordon. Murfreesboro, my hometown.
    Mr. Skeen. Murfreesboro.
    Mr. Gordon. Over the last 12 years that I've been in 
Congress, I can't think of a weekend that I've been home that I 
haven't spent some time there trying to go through the good 
progress that they have been making.
    With this committee's help, and I am grateful for that, 
over the last few years you've helped us to do two things. One, 
because we're a fast-growing suburban area, and the battlefield 
was created back in the 1920's, even though the original 
battlefield had 3,000 acres, the current battlefield only has 
about 300, and it simply wasn't created large enough at the 
time.
    And so there are different sections in the community that 
we're trying to connect with a trail along the river. It's 
impossible to get a lot of that property now in some of the 
floodplains, and so we're taking a trail along the river to 
connect these, which I think will be interesting for the linear 
park in the future.
    It was also, if not the first, one of the first agreements 
where there's an agreement with the community that the Park 
Service is making a capital investment of building the trail, 
and then the community is taking all of the expense of 
maintenance. So I think it is a good partnership.
    We are here to ask for funds to complete the final section, 
which takes it on into the park. And one particularly 
interesting section, which is maybe a half-mile, is an old 
trace like the Natchez Trace that is still cut out and will 
allow folks to walk through that trace in that regard. So we 
need $375,000 to complete that.
    The other project--and I'm here with some bit of apology; I 
came last year saying that I was only going to come, that that 
was the last time, on what's called Fortress Rosecrans. It was 
the largest earthen fort ever built in the United States, and 
what they have done is, as they have cut through 130 years of 
privet and bushes, they have discovered that it was even larger 
than expected. And so the Park Service wants to be able to 
preserve the other section, and that will take about $275,000.
    These are modest requests. And what I have tried to do over 
the years--I admire some things the Park Service does, but 
their promptness is not one of them, and you have to go through 
all of these things; and I think that I'm trying to get in 
synch with that and let my impatience settle down a little bit. 
And so we really are asking each year for just what they think 
their estimates are. We're not trying to pad it. Again, I think 
these are relatively modest for what we need. We're not trying 
to stockpile any money. It's just what it takes.
    And, Mr. Chairman, as I said before you got back in, last 
year I came in and told you that Fortress Rosecrans would be 
completed, and I'm chagrined to say that, again, they found--
I'm glad they found the extra--but the $275,000 is what they 
say will complete that project, and the last two little links 
of the trail will be completed, so that should be done. So 
those are our requests for construction.
    I know land acquisition is always a continuing problem with 
you and that you wish you had more money for the whole works. 
Let me just make a quick statement there, and I know you're 
going to deal with this later. I guess my first request is, get 
the pot as big as you can get it. And then I know that when the 
time comes to separate it that you'll probably do so in an 
equitable manner.
    As I mentioned earlier, the reason Stones River Battlefield 
was on Secretary Lujan's 25 most endangered battlefields is 
because of this enormous growth around. Two years ago there was 
initial money, then it was left out for land acquisition. Last 
year we were able to get $500,000.
    There is a pot of money there that is in an account, so it 
looks like there is a balance, but it's all being held for one 
final piece of property that should be closed on very soon. 
This is a get-it-or-lose-it situation with this growth here 
right now.
    I noticed that you asked the question earlier about 
partnerships. I'm pleased that the National Trust--the one that 
sold the coins--they came in and partnered on a piece. The 
Battlefield Preservation Group is coming in and partnering on a 
piece, but, you know, it's $30,000 to $40,000 a shot.
    Mr. Regula [presiding]. We'll do the best we can.
    Mr. Gordon. Thank you, sir.
    Mr. Regula. Thank you.
    [The information follows:]


[Pages 703 - 706--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                              THE PRESIDIO

                                WITNESS

HON. NANCY PELOSI, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Regula. Nancy?
    Ms. Pelosi. Mr. Chairman, Mr. Skeen, thank you very much.
    Mr. Regula. I thought we took care of you last year. I 
can't believe you're back. [Laughter.]
    Ms. Pelosi. Mr. Chairman, you took very good care of us 
last year, and I'm here to thank you.
    Mr. Regula. Good.
    Ms. Pelosi. And to thank the committee and the staff for 
all of your work and cooperation.
    Mr. Regula. Thank you. Next witness. [Laughter.]
    Ms. Pelosi. Now to protect your investment. [Laughter.]
    Mr. Regula. Oh, okay.
    Mr. Skeen. This is the second round.
    Mr. Regula. Well, we have your statement in the record. If 
you could summarize, that would be helpful.
    Ms. Pelosi. I'll be as brief as possible in respecting your 
time. But thank you for the opportunity to be here. I'm hoping 
that within the next few days--and I've said this to you a 
number of times--that the President will name the appointees to 
the Presidio Trust, and we can go forward with what you have 
helped us accomplish.
    All of us who care about the Presidio as a national park 
are forever in your debt.
    Mr. Regula. I see a few problems on the homeless issue 
emerging out there, from what I read.
    Ms. Pelosi. Would you like me to go into that?
    Mr. Regula. Well, you ought to tell me about it when we 
have more time, but I am interested.
    Ms. Pelosi. Well, my view is that a national park's purpose 
is not to house homeless people.
    Mr. Regula. I agree.
    Ms. Pelosi. As much as I'm committed to solving that 
problem in our community, a national park is not the answer to 
the problem.
    Mr. Regula. That's why it's important to go forward with 
the development of the program that was outlined in the bill 
last year.
    Ms. Pelosi. Absolutely. As you know, much community input 
was provided in terms of the general management plan, and the 
Presidio is a national park governed by national park 
legislation.
    But, anyway, I am here to request the $24.6 million that is 
in the President's budget for the Presidio and appreciate your 
consideration of that request. I am pleased to answer any 
questions about it and the $300,000 in the budget for San 
Francisco Maritime National Historical Park.
    I join my colleagues in the San Francisco Bay Area 
delegation for fudning from the Land and Water Conservation 
Fund to acquire Bair Island to be included in the Don Edwards 
San Francisco Bay National Wildlife Refuge, and join the 
delegation, also, in the reques for the Bay Area Ridge Trail.
    I also want to lend my support to the National Endowment 
for the Arts. I support the President's budget request.
    My full statement elaborates much more on the Presidio and 
other issues, and I would be pleased to answer any questions 
that you may have. And once again, I want to thank you and your 
excellent staff for all that you have done to make this 
possible. Simply put, without you, it would not have gotten 
done.
    Mr. Regula. Well, it was a squeaker last year, but we 
finally got it through.
    Ms. Pelosi. Yes, indeed, thanks to your help; I'll be 
forever grateful.
    Mr. Regula. Well, it seems to be a very responsible plan. 
Now, if we could just lift the moratorium on drilling, we would 
have some more money in the entire Land and Water Conservation 
Fund. [Laughter.]
    You don't have to comment. Okay, thanks for coming.
    Ms. Pelosi. Thank you very much, Mr. Chairman.
    Mr. Regula. We'll talk about that other issue on thefloor 
some day.
    Ms. Pelosi. Whenever, at the chairman's convenience. Thank 
you, Mr. Chairman.
    [The information follows:]


[Pages 709 - 711--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

              HISTORICALLY BLACK COLLEGES AND UNIVERSITIES

                                WITNESS

HON. EARL F. HILLIARD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA

    Mr. Regula. Mr. Hilliard?
    Mr. Hilliard. Thank you, Mr. Chairman.
    Mr. Regula. Welcome. Your statement will be made a part of 
the record. Tell us what you're interested in, briefly.
    Mr. Hilliard. Thank you very much, Mr. Chairman. I will 
make it brief, but I am very appreciative of your time and of 
this committee.
    I'm here today to testify in support of the HBCU Historic 
Building Restoration and Preservation program; and this is a 
program that is administered by the National Park Service. Last 
year, $29 million was authorized in the Omnibus Park Act to 
fund this program. I am here today to ask you to request the 
subcommittee to fully fund this program at the $29 million 
amount.
    I attended three HBCUs: Morehouse College in Atlanta, 
Atlanta University, and Howard University, and all three of 
those schools have contributed greatly to the growth of this 
country. Their alumni have done so throughout this country and 
throughout the world, and there is a need to preserve those 
buildings, many that are historical in nature. Many of them 
were built by freemen back in the Reconstruction period of our 
country. Some of them date back more than 150 years, and they 
are part of our national heritage.
    Mr. Regula. Well, this is an ongoing program of the Park 
Service, is it not?
    Mr. Hilliard. It is; it is. It's an ongoing program, but 
this is the first time that this amount has been set aside. 
They have never had enough, and this is not enough, but this 
goes a long way.
    Mr. Regula. Okay, well thank you for coming. We have a lot 
of priorities we have to address, but we'll keep it in mind.
    Mr. Hilliard. I understand, Mr. Chairman, and I appreciate 
your making this part of the record.
    Mr. Regula. Okay, this would be for building rehab, is that 
correct?
    Mr. Hilliard. Yes.
    Mr. Regula. And they would selectively rehabilitate these 
buildings because of their historic character?
    Mr. Hilliard. Absolutely.
    Mr. Regula. Okay, thank you for your statement.
    Mr. Hilliard. Thank you very much, Mr. Chairman.
    [The information follows:]


[Pages 713 - 714--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. JERROLD NADLER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK

    Mr. Regula. Mr. Nadler?
    Mr. Nadler. Thank you, Mr. Chairman, and members of the 
subcommittee, for the opportunity to testify before you today.
    I have submitted a written statement, which I therefore 
will not read; this is a summary, but I ask that it be made 
part of the record.
    Mr. Regula. Right, without objection.
    Mr. Nadler. Thank you. Mr. Chairman, I am here to urge 
strongly full funding for the National Endowment for the Arts, 
the National Endowment for the Humanities, and the Institute 
for Museum and Library Services, and urge you to fund these 
programs at the level requested by the President: $136 million 
for the NEA, the same for the NEH, and $26 million for the 
museum portion of the IMLS.
    I will not go through all the reasons why Federal support 
of the arts through the NEA and Federal support of the NEH is 
vital. I am sure you're familiar with that debate; you've heard 
that. I would refer you to the transcript of our press 
conference and to the previous press conference--I think it was 
last week--but let me just make a few observations.
    The arts working group estimates that the $116 million 
provided by the NEA in 1992 fostered economic activity 
totalling $1.86 billion, which would not have occurred without 
the NEA--in other words, with this private support of the arts, 
a 20-fold return on investment in jobs and other services.
    Studies show that the non-profit arts industry alone 
generates $36.8 billion in annual economic activity, supports 
1.3 million jobs, and returns $3.4 billion to the Federal 
Government in income taxes--$3.4 billion for an investment of 
$116 million. Very few Federal programs cost so little and 
return so much, simply as an economic investment or even just 
for the budget.
    But that's not the whole picture. We know all the reasons 
why the arts are vital. And let me say that the NEA--and let me 
make just one observation. Helping children learn, reaching out 
to disadvantaged communities, boosting the economy, and 
providing national access to great performances, that's what 
the NEA is doing today to support the arts and to improve 
America, and that is why we in Congress must continue our 
bipartisan support for the arts.
    Now some--I want to make some observations on a number of 
things that have been said in the course of this debate in the 
last couple of years or weeks. One, it's been said that Federal 
arts funding benefits, predominantly, a few cities like my own 
New York and certain other States, and I have two observations.
    First of all, of course a State like New York or California 
will get a disproportionate share of Federal artsfunding for 
the same reason that a State like Indiana or Illinois or Kansas will be 
getting a disproportionate share of the Federal wheat subsidy. I might 
observe that I am shocked that New York City and my own district in 
Manhattan gets not a penny for wheat subsidies.
    Mr. Regula. Do you have the Lincoln Center in your 
district?
    Mr. Nadler. Yes, I do. I was going to make an observation 
about that in a moment; that's my second point. The first is, 
obviously, some of our large cities like New York, like Los 
Angeles, like others like you've named are meccas for the arts; 
people come from all over and, of course, a disproportionate 
share of the arts activities earn a disproportionate amount of 
the arts funding----
    Mr. Regula. But it has outreach?
    Mr. Nadler. That was my second point.
    Mr. Regula. Outreach through--TV and radio?
    Mr. Nadler. But it's not just the TV and radio. The NEA 
grants to organizations in New York or wherever--for instance, 
if an organization--I forget the name of it--they got a 
$770,000 grant; it was in the New York Times last week; that's 
a theatre troupe based in New York, so it counts to New York, 
but its performances are not in New York; they're all over the 
country, and that happens all over the place.
    Frankly, if the NEA were to be eliminated, which is on the 
table this year, unfortunately--if the NEA were to be 
eliminated, Lincoln Center in my district, the Museum of Modern 
Arts, all the big New York museums; Lincoln Center would 
survive--Lincoln Center, I think it's eight-tenths of 1 percent 
of its budget from the NEA. What would not survive are all the 
different groups that bring the arts to rural America and to 
small-town America. You wouldn't have, except in very small 
proportion, the traveling symphony orchestras, the traveling 
theatre groups, the traveling dance groups; they simply 
wouldn't be funded, because the corporations in large measure 
fund different kinds of things. They fund, frankly, more 
stationary things. Lincoln Center would be funded by the Ford 
Foundation, by General Motors, and so forth. But the traveling 
theatre group that brings the theatre to the small towns in 
Iowa--they wouldn't exist, and that's a situation you had 
between the WPA and inauguration of the NEA 30 years ago. And 
so--and you also wouldn't have arts education which is so vital 
not only for the arts and for humanity in the United States 
but, frankly, for education. Those are two specific 
observations I would make.
    If I could make a very political observation: I think it 
was the chairman who said that we shouldn't re-fund the NEA 
this year, though I think the chairman has supported it in the 
past, if I'm not mistaken, because a deal was made two years 
ago, an agreement--I don't want to use a word that's 
pejorative--an agreement was made two years ago; we should be 
bound by that agreement.
    Let me observe that no Congress is legally or should feel 
bound by an agreement made by leaders or members of a previous 
Congress. We have elections intervening and the people of the 
United States make their feelings felt, and people were elected 
partially based on saying, ``I don't agree with that agreement; 
I want to continue funding of the NEA.''
    And people are elected saying the opposite. And the fact is 
that agreements shouldn't--cannot bind future administrations 
or future Congresses.
    Mr. Regula. Well, you understand our problem; there's no 
authorization and it's subject to a point of order.
    Mr. Nadler. Well, I understand that problem; I observe the 
following: We should be consistent, and I wish that Congress 
would observe its own rules. [Laughter.]
    And I don't want to make a partisan point of this; I think 
this is more now than under the Democrats, but I won't swear to 
that. I didn't notice it then; now I notice it. So, it may 
not----
    Mr. Regula. It changes your perspective.
    Mr. Nadler. Well, perhaps; I certainly didn't notice it 
then, and maybe it was true then, and maybe not; I don't know. 
But what I'm referring to is that every rule that comes--I 
shouldn't say every--almost every rule that comes to the floor, 
maybe, in fact, every rule that comes to the floor has a 
standard line in it that says, ``All points of order are 
waived.''
    Mr. Regula. Well, I think that has changed to some extent.
    Mr. Nadler. Well, I don't think that--that hasn't changed 
unless it wasn't done before the partisanship took over; now it 
is. Now, it certainly hasn't changed to be done less; I mean, 
I've been watching that one carefully; that it's virtually 
unanimous now. I mean, every rule says that.
    We passed the Omnibus Budget Act that we passed last year 
at the end of--that marathon thing was 2,000 pages, and we 
waived the point of order that had to be in print for three 
days; it was in print, I think, for 35 minutes. And we voted on 
it--an hour and 35 minutes, and we couldn't even get a copy; 
one copy was on the minority side; one on the majority side, 
and you couldn't get one to take to your office. And that was 
waived because they had to pass that day and not a day later.
    So, let me say that if, in fact, we consistently follow the 
rule on authorizations--and I would urge that we do, but don't 
start with this one----
    [Laughter.]
    Mr. Nadler [continuing]. If we consistently follow the rule 
on authorizations--and as I said, I think we should, because 
for a lot of reasons it's a good rule--then I would not 
recommend or suggest or urge that that not be done here. But 
since that rule is generally ignored--I mean, the NEA, itself, 
has been unauthorized for several years. I could--a lot of 
different programs have been unauthorized for years, and they 
go on. I think even the Defense budget was unauthorized for 
years, and we appropriated the money.
    So, to suddenly make that a sticking point, frankly, it's 
very simple: Either there's a majority of people on the House 
floor who want to fund the NEA, or there isn't. I think it 
would be wrong to try to deny those of us, whether in majority 
or not, I think we are, but I don't know now; we'll find out, 
hopefully.
    Mr. Regula. I think you might find out on a motion to 
instruct.
    Mr. Nadler. We might, but the fact is, I think it would be 
wrong on an issue of this prominence, a degree of 
contentiousness--or whatever you want to call it--to try to 
deny the regular up and down vote and then say it's a 
procedural motion; it's a motion on the rule, or something. As 
long as we have generally been waiving points of order, the 
points of order on this one should be waived. The amendment to 
add the appropriations should be made in orderby the Rules 
Committee, because, frankly, this is a major national issue--not just 
on the amount but on the existence--and there ought to be a straight 
vote on it, and that's the only way--if we want to run the House with a 
small ``d''; not a big ``d''; with a small ``d'', that's the way we 
ought to do it; we shouldn't hide behind points of order.
    Mr. Regula. Okay. Thank you for coming.
    Mr. Nadler. Thank you, Mr. Chairman.
    [The information follows:]


[Pages 719 - 722--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

    TERRITORIAL AND INTERNATIONAL AFFAIRS, FISH AND WILDLIFE SERVICE

                                WITNESS

HON. ROBERT A. UNDERWOOD, A REPRESENTATIVE IN CONGRESS FROM THE 
    TERRITORY OF GUAM

    Mr. Regula. Mr. Underwood?
    Mr. Underwood. Good morning, Mr. Chairman and members of 
the committee. I have a statement that I'd like to submit for 
the record.
    Mr. Regula. And, without objection, it will be in the 
record. Just summarize it for us, please.
    Mr. Underwood. I want to thank you again for the support of 
Compact Impact, and I want to draw my testimony primarily to 
the snake program. In the Interior budget under the territories 
budget there's been a $1 million increase--and I'm happy for 
that--but the $1 million increase is actually for the snake 
program. My concern with that is that that's really in my 
estimation a Fish and Wildlife responsibility. The situation on 
Guam is that the Fish and Wildlife Service has declared 20 
percent of the island a wildlife refuge overlay and has not 
specifically funded any money to deal with the snakes. Instead, 
the snake money that has been appropriated has been through 
money that is generally earmarked for territories, primarily, 
technical assistance programs. And so, what I want to suggest, 
and I would like to strongly recommend is to leave the $1 
million that's in there--that has been boosted--and leave if 
for territorial technical assistance, and ask Fish and Wildlife 
to fund out of their budget $1 million for snake eradication--
--
    Mr. Regula. Tell me how they do this; I'm curious. Is this 
a snake that lives in the trees?
    Mr. Underwood. The brown tree snake; it migrates from one 
end of the island to the other.
    Mr. Regula. How do you eradicate it?
    Mr. Underwood. Well, there is no fool-proof method, and the 
program up to now has been designed primarily to keep it from 
leaving the island, and, of course, we're interested in working 
towards its eradication.
    Mr. Regula. What impact does it have, what's the negative 
part of this?
    Mr. Underwood. Well, the negative part of the snake, of 
course, is that it has totally, almost nearly destroyed the 
bird population on the island. It is a threat to neighboring 
islands, and of course, it hurts our tourist-driven economy; 
there's a lot of scare stories about it. People ask me if I 
want snake repellent? I said, ``No, I'd rather have media 
repellent on this issue.''
    Because it's the media that's----
    Mr. Regula. It's not poisonous, I assume.
    Mr. Underwood. It's only mildly poisonous, but it will 
attack anything that is small enough to get into its mouth. So, 
there have been reports where it has crawled into cribs and 
have started to chew on an infant's hand.
    Mr. Regula. How big is it? Is it three feet?
    Mr. Underwood. Well, it would go anywhere from three feet 
to about nine feet. It's a serious problem----
    Mr. Regula. I can understand that.
    Mr. Underwood [continuing]. And I'm very much interested in 
working towards a solution, but I do find it curious that the 
money usually earmarked for technical assistance for the 
territories is being used to fund this.
    Mr. Regula. Its habitat is strictly trees?
    Mr. Underwood. Trees and any--it doesn't live on the 
ground, but it does migrate up; it causes power outages. In my 
own home over the course of 25 years I've seen about three 
snakes in the house.
    Mr. Regula. In the house?
    Mr. Underwood. In the house, yes.
    Mr. Regula. Now, I'm sure this doesn't enhance your 
tourism.
    Mr. Underwood. No, it doesn't; no. It's a major problem, 
and it's a major public relation's problem, but it also has a 
dramatic impact on----
    Mr. Regula. Did it migrate there?
    Mr. Underwood. It came in from military ships bringing in 
lumber from the Philippines and Solomon Island. And in its own 
natural habitat in the Solomon Islands the ecosystem is such 
that its numbers are kept down, but in Guam there is not the 
same ecosystem.
    Mr. Regula. It has no natural enemy?
    Mr. Underwood. There's no natural enemy on Guam other than 
people.
    Mr. Regula. What keeps it down in the Solomons?
    Mr. Underwood. In the Solomon Island, you know, it's a 
complicated thing. They have different species of birds, 
different food supplies, and that's part of the reason we're 
asking to bump up the funding--to understand this a little bit 
more.
    Mr. Regula. To see if there is some way to control it?
    Mr. Underwood. Right. In a natural way.
    Mr. Regula. Right. Right.
    Mr. Underwood. Although, you know, my office is inundated 
with strange ideas about how to deal with the snakes.
    Mr. Regula. I'm sure that's true. [Laughter.]
    Mr. Underwood. I think I've attracted every snake charmer 
in the world.
    Mr. Regula. Thank you very much. We appreciate your 
testimony.
    Mr. Underwood. Thank you very much.
    [The information follows:]


[Pages 725 - 726--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

               LEWIS AND CLARK TRAIL INTERPRETIVE CENTER

                                WITNESS

HON. DOUG BEREUTER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEBRASKA

    Mr. Regula. Okay. Mr. Bereuter; the people who are 
scheduled aren't here, so we'll go forward.
    Mr. Bereuter. Thank you very much, Mr. Chairman----
    Mr. Regula. Let me give an aside: I had the Romanian 
delegation in this morning, and they suggested that we ought to 
include that in the May trip.
    Mr. Bereuter. I'm sure they would.
    Mr. Regula. So, I said, I would just perhaps----
    Mr. Bereuter. Discuss it with me?
    Mr. Regula. Exactly.
    Mr. Bereuter. All right. I'll look for your counsel.
    I'm a little reluctant to begin after the last word about 
snake charmers, but I put their----
    [Laughter.]
    Mr. Regula. The Big Red's done pretty well on the football 
field. [Laughter.]
    Mr. Bereuter. Well, we do play a snake charmer down in the 
locker room.
    Mr. Chairman--and I want to address myself to the members 
of your subcommittee, as well--I am requesting, and have a one-
page summary perhaps in front of you, that National Park 
Service direct $300,000 in funding for construction of the 
Lewis and Clark Trail Interpretation Center. These funds are 
needed to complete a project which was first authorized by 
Congress in 1987, and I list for you and for the committee 
staff the appropriation history on this which dates back to--
first appropriation in Fiscal Year 1990 and 1991.
    Mr. Regula. When you say complete, is this thing partly 
built or----
    Mr. Bereuter. The land purchase took quite a while. The 
plans have been prepared, in fact, there are two sets of plans, 
and then we had the change so that it required a 50 percent 
match, and this set the community back quite awhile until they 
worked things out internally and with the State of Nebraska to 
come up with the 50 percent match.
    Unfortunately, the Park Service spent part of the 
appropriated funds for other activities in that region; so, 
they had spent some of what was available. But that is needed 
to supplement what is available now, and I gave you details for 
your staff about the kind of plans--the state of affairs there, 
and I hope that finally the Nebraska city having suffered a 
setback because of the change in our decision here and the 
administration about matching funds can now proceed with it to 
complete--and the State will, as the Park Service wants, either 
take it over or the community will take it over so that there 
will no ongoing National Park Service commitment for 
maintenance and operation.
    Secondly, I would like to mention the fact that I support 
the administration's request of $315,000 from State and private 
forestry funds for the National Agroforestry Center in Lincoln. 
I also support the administration's request for $600,000 in 
research funding for the center.
    This funding is necessary to help ensure the continuation 
of valuable research being conducted at the center for the 
semi-arid parts of the Nation.
    This was authorized in the 1990 Farm bill; its received 
funding; they have changed, at the request of the 
administration, to some extent their orientation, but I'd like 
to keep this center organized, viable, and therefore, I support 
the administration's request.
    Third and finally, I remain strongly committed and 
supportive of the establishment of a new Fish and Wildlife 
Cooperative Research Unit at the University of Nebraska. I've 
patiently requested funding for this cooperative research unit 
each year since 1990--watching, while such units were located 
in other States. I think it's finally time to meet the needs in 
Nebraska.
    The administration's Fiscal Year 1998 budget includes an 
increase of $1 million for those cooperative research units. 
I'm sure they're convinced this is for operation, and I don't 
think they're committed to starting another center, but I think 
with the fact that Nebraska's only one of 10 States without a 
cooperative fish and wildlife research unit within the State is 
an important deficit.
    Nebraska is the heart of the most important waterfowl 
migratory pattern on the continent, and the effort of this fish 
and wildlife unit would be particularly important to the Platte 
environment which serves as the major stopping point for not 
only the sandhill cranes which draw thousands of people each 
year to see them, but also the full array of geese and ducks 
that come and go across this region.
    So, I am asking, as I have since 1991, the subcommittee for 
funding for that kind of research unit in Nebraska, undoubtedly 
on the campus of the University of Nebraska in cooperation with 
the State's effort.
    Those are my requests, Mr. Chairman, and I know you face a 
formidable task, although it's not quite clear yet, I guess, 
how formidable.
    Mr. Regula. That's true. You have the--what is it?--the big 
arbor--in your distrist?
    Mr. Bereuter. The Arbor Day Foundation is headquartered--
Arbor Day was started in Nebraska City.
    Mr. Regula. Does that have any relationship to the 
Agroforestry Center at Lincoln?
    Mr. Bereuter. No, but the Lewis and Clark Center has a 
relationship since the Arbor Day Foundation would do the 
landscaping for the site that would be the Lewis and Clark--
it's only two miles from their headquarters.
    Mr. Regula. How does this tie into the one that was 
dedicated in Iowa--I think that was for the beginning of the 
Lewis and Clark trail. Well, it was just opened or it's being 
opened.
    Mr. Bereuter. For better or for worse, I have to admit to 
the fact that when I was a member of the Interior Committee I 
was responsible for the authorization language that permitted 
interpretive centers. And the first one authorized in the 
Nation was in Nebraska, but we faced this delay and Iowa came 
along and kind of hijacked the process; in fact, diverted some 
of the funds on one occasion to the Iowa Center. The Iowa 
Center's being located in the middle of a industrial area next 
to a dog track, and I think it's an abuse of the appropriation 
process to have located in our good neighbor's location across 
the river in Council Bluffs.
    But as we prepare for the year 2003 with lots of activities 
planned for the Lewis and Clark bicentennial, I would like to 
see this center up and operating.
    I'm also responsible for the fact that there are now across 
the State, on an authorization I got through and you helped 
fund, markers at each of the Lewis and Clark campsites which on 
a State historical marker--paid for in part if not totally by 
Federal funds--excerpts from the journal from of the Lewis and 
Clark expedition that day including all of the misspellings and 
everything that they used at the time.
    Mr. Regula. This is a fascinating story; I read part of it.
    Mr. Bereuter. It is.
    Ambrose--who's the author that just--Stephen Ambrose. I 
keep hearing people from all directions and all orientations 
talking about this incredible book, and I need to get to it, 
but I did buy the Lewis and Clark Journals, a three-set volume, 
and I've sort of been through the entire coming and going 
stretch through Nebraska to see what they had to say, and they 
complained about the mosquitos just like I do. [Laughter.]
    Mr. Regula. We're not in that business of eradicating 
those.
    Thank you.
    Mr. Bereuter. Thank you very much. I appreciate your 
consideration.
    [The information follows:]


[Pages 730 - 733--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    NATIONAL PARK SERVICE PROPERTIES

                   U.S. FOREST SERVICE ROAD PROGRAMS

                                WITNESS

HON. BART STUPAK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN

    Mr. Regula. Mr. Stupak. And without objection your 
statement will be made a part of the record and we appreciate 
your summarizing it for us.
    Mr. Stupak. Thanks, Mr. Chairman. Let me go through it if I 
can and summarize it as you suggest.
    As you know, we have two national parks and two lakeshores 
in my district. We support the President's funding as requested 
on each of those; the two lakeshores and the two national 
parks.
    I do believe, though, if I can draw your attention a little 
bit to Sleeping Bear Dunes National Lakeshore--you know, in 
Michigan we now have the experimental user fees in the national 
parks. We really have a problem with parking at Sleeping Bear. 
We're just asking if this committee somehow could fashion 
something which would direct the Secretary to move towards 
using user fees for additional parking. We have a canoe 
station, Canoe Liberty Station, and these people are parking 
along the State highway and have to cross roads to access the 
park.
    Mr. Regula. Is an area available and what you're suggesting 
is we purchase some land?
    Mr. Stupak. Or just take some of the area that's there and 
put in a parking lot. There's land available that the park owns 
that really is an abandoned farm.
    Mr. Regula. So, what it needs is to be upgraded for 
blacktop.
    Mr. Stupak. Sure, and now what they're saying is, ``We 
never have any money.''
    So, we're saying, ``Use part of these user fees.''
    That's what the purpose of the whole experimental program 
is.
    Mr. Regula. Have you approached the superintendent? Is he 
sympathetic to that cause?
    Mr. Stupak. He's sympathetic, but no one wants to make a 
decision. Once in a while Congress has to help along these 
decisions.
    Mr. Regula. So, you'd like if he's helped to make a 
decision?
    Mr. Stupak. You bet.
    Mr. Regula. I've got it.
    Mr. Stupak. Let me talk just quickly about the Keweenaw 
National Historical Park. The President's request is only 
$280,000; we'd like to see that raised to $600,000 which would 
provide some additional rangers and really some preservation 
grants. Up there, they've still got two feet of snow on some of 
these buildings we're trying to preserve, and every winter we 
lose a couple, and we keep asking the President to put some 
money in, and it gets part way there but never what we need.
    Last year, you were a great help to us in allowing us to 
put a prevention on the Park Service where we're going to build 
the Beaver Rim Basin road, or Beaver Basin Rim road, through 
the Pictured Rocks National Lakeshore; we put language in and 
said, ``Don't spend any more money on this road, because you're 
going to cut a road 13 miles through at $13.5 million, and 
you've been using H-58 since * * *.''
    H-58's a county road.
    ``* * * since 1968, so just improve H-58.''
     So, we prevented them from cutting up the woods and 
spending $13.5 million. So, we're saying use H-58, and they are 
saying, ``Well, we would, but we can't use our money on a 
county road, even though half that road or part of that road is 
* * *''
    Mr. Regula. You're talking about the money that comes to 
the Park Service from the road ISTEA money, and they can't use 
it because H-58 is----
    Mr. Stupak. It's a county road.
    Mr. Regula. Okay.
    Mr. Stupak. Even though half of it goes--oh, I shouldn't 
say half--a good portion of it goes to the parks----
    Mr. Regula. So, you're suggesting that we give them 
authority to do so?
    Mr. Stupak. Correct; and we have the language there, and 
we're really grateful for the work you did with us, and I know 
there may be a point of order, and again, we're willingto work 
with the Rules Committee to try to get that point of order corrected.
    Let me, if I can, jump to forests for a few moments. 
Forests products is the largest industry I have in my district. 
You know, it's a great financial, environmental--our whole 
lifestyle depends on out there. Back in 1985, beginning 1986, 
there was a 50-year forest plan implemented, and in each decade 
there was so much timber that was supposed to be cut from the 
Hiawatha National Forest. We all agreed to it: 
Environmentalists, industry, everybody. We went from below-cost 
timber-sale forests to above-cost. What has happened in the 
last five years, however, has been a 32 percent reduction in 
the timber sales available. Now, to make this management plan 
everyone agreed not to sue, so there was a valid contract here. 
Forest Service is saying, ``Well, we don't have the people.''
    They actually have more people, but they are doing things 
like archeology and they're paying the people out of timber 
sales. What we're asking, again, is to use the power of this 
committee to direct them to maintain this contract. It's the 
only one in the Nation where we gave up certain rights for 
timber sales. And again, if there's any problem with waivers, 
we're happy to help you out.
    The President's program devastates timber roads; it also 
really devastates the timber sales. In my testimony, I've 
pointed out certain things we need. We can find a balance to 
ensure we have healthy, productive forests, providing jobs and 
at the same time protecting the environment. Ninety-seven 
percent of these roads we put in there are used for 
recreational purposes after we're done logging in the area. So, 
we'd ask that timber sales programs and that timber roads be 
put back into the budget.
    Last, but not least, we've discussed it just about every 
year I'm here: abandoned mines. Northern Michigan at one time 
was a great mining community, but once a year we will lose a 
young person who's walking along, or playing by an abandoned 
mine; goes in; sinks in, and every year the Federal Government 
tells us, ``Stay away from them.''
    And every year we tell the Federal Government, ``Where are 
they?''
    And they say, ``We don't know.''
    So, I mean, it's foolishness, and we're just saying, 
``Let's put some money into it. We got proposed legislation to 
pass; it's part of my testimony. We're willing to work with you 
to make sure it's----''
    Mr. Regula. I'm familiar with the problem; they are around 
where I live too. They certainly are dangerous.
    Mr. Stupak. Very dangerous. I said, we lose one young 
person a year.
    Mr. Regula. I can believe that.
    Mr. Stupak. And I know counties just don't have the money 
to do it. The mining companies got out; converted the land back 
to the State or to the counties, and they're stuck; they don't 
have the money to do it. You understand it.
    With that, if there's any questions I'd be happy to answer, 
but thanks for your help in the past especially on the Beaver 
Basin Rim road, hopefully we can do something to get that road 
fixed up for the visitors and surrounding communities.
    Mr. Regula. Okay, thank you.
    [The information follows:]


[Pages 737 - 740--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                         NATIONAL PARK SERVICE

                        BUREAU OF INDIAN AFFAIRS

                          U.S. FOREST SERVICE

                                WITNESS

HON. JAMES L. OBERSTAR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MINNESOTA

    Mr. Regula. Mr. Oberstar, I think you're next on our list 
here. We're a little behind schedule so, without objection, 
your statement will be in the record, and anything you can do 
to shorten it will help.
    Mr. Oberstar. Mr. Chairman, I come to this committee and 
each year I understand more and more the meaning of, ``It's 
lonely at the top.''
    You get to do all the work, listen to all this testimony, 
and the others are scattered someplace. [Laughter.]
    Mr. Regula. Well, that's interesting, I must say.
    Mr. Oberstar. And you're very patient, and you do----
    Mr. Regula. So many good things we can do if we had more 
money.
    Mr. Oberstar. You do invest your time, and you are very 
patient and listen--and you have listened to us in the past, 
and as Mr. Stupak said, we are appreciative for all that you 
have done.
    I have a very few items. Voyageurs National Park--we've 
been trying to complete the consolidation of the land within 
the park boundaries. The authorization 27 years ago provided 
for the Land Acquisition program; there's $3 million, 68 tracts 
of land left. The Park Service--the landholders themselves, Mr. 
Chairman, would like to get this matter settled.
    Fond du Lac Indian Reservation--I have just recently, and 
several times over the years visited the Fond du Lac school. 
I've been in ghetto schools, and they would be a step up from 
what we have on the Fond du Lac Reservation. How can you expect 
learning to take place in conditions where the ceiling is 
falling and the rain is coming through, and the snow is 
entering the windows. It's a relatively--well, you know, $12 
million for a new school, but that's a permanent investment; so 
much better than anything they've ever had.
    The 1854 Treaty Land to provide funding for the law 
enforcement on the reservation and biological services--which 
is actually management of their wildlife--they have done such a 
great job throughout the Chippewa tribes in Minnesota to 
improve the quality of law enforcement and wildlife 
enforcement. Their officers work hand-in-hand with the 
Minnesota Department of Natural Resources and they're first-
class people. They need this funding if they're going to 
continue to maintain those resources.
    ``Circle of Flight'' is something that--it's just so 
intertwined in the whole culture of the Chippewa people that I 
just think this is one of these--it's wildlife management, but 
it's also a cultural issue now with the Chippewa people.
    Mr. Regula. Does the Fish and Wildlife Service manage this?
    Mr. Oberstar. Jointly with the Indians and with the 
Minnesota DNR.
    Finally, you heard Mr. Stupak talk about the importance of 
forestry to his district; it's vitally important in my 
district. We have iron ore mining and thank goodness the steel 
industry is doing well; that's our economic mainstay, but the 
wood fiber industry has gone through a $2 billion upgrading of 
their pulp and paper mills and particle board plants. Access to 
timber is vitally important, but those timber roads represent 1 
to 3 percent, depending on the forest--nationwide----
    Mr. Regula. Let me suggest when we get the floor amendment 
to cut back on the roads money, come help us.
    Mr. Oberstar. I have been there every year, Mr. Chairman--
every year.
    Mr. Regula. It's easy to attack forest roads.
    Mr. Oberstar. There is a former member of Congress who made 
that his annual event, and I think one of the reasons he's no 
longer in the Congress is that he made too much about an issue 
he didn't understand.
    Mr. Regula. Yes. Well, they don't recognize that this is 
access for sportsmen; it has a recreation dimension; it's more 
than just for the timber industry.
    Mr. Oberstar. Total cost of the construction of the road is 
written off against and in the first year against a timber 
sale, but the 50-year road benefits everybody else long after 
the timber sale is complete. You've got three to five years to 
complete that sale, and once that's done that road stays; it's 
a permanent benefit and while they're logging, the snowmobilers 
are in there and the cross-country skiers, and the summer 
hikers, and all the recreational enthusiasts, and they all 
using it, and they don't pay a dime.
    Mr. Regula. You know, you and I are in complete agreement. 
In fact, the Forest Service testified that they have triple the 
visitor days of the Park Service just to illustrate how much 
these are used, and the multiple use that you get from each 
one; a variety of choices.
    Mr. Oberstar. And I think they ought to be fair, and I'm 
willing to stand up for it, and I disagree with what the 
administration has set forth in their proposal, and we're going 
to stand arm-to-arm with you, Mr. Chairman.
    Mr. Regula. There we go. Thank you.
    Mr. Oberstar. All right. Thank you very much.
    Mr. Regula. We appreciate your coming.
    [The information follows:]


[Pages 743 - 745--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

GREAT MEADOWS SALT MARSH AND STEWART B. MCKINNEY, NATIONAL WILDLIFE REFUGE

                               WITNESSES

HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT
HON. ROSA DELAURO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT

    Mr. Regula. Chris, I understand you and Rosa are coming up 
together; you have the same interest in the Great Meadows and 
the Stewart B. McKinney, NWR.
    Mr. Shays. Yes.
    Mr. Regula. Your statements will both be made part of the 
record, and if you can both summarize--we appreciate your doing 
this together; we're a little behind schedule.
    Mr. Shays. We'll help you out.
    Ms. DeLauro. We'll be glad to try to help you out. Thank 
you so much, Mr. Chairman, and I'm delighted to join in with my 
colleague, Chris Shays, to testify about an issue that we've 
heard about before. It clearly is important to the district 
that I represent and to Congressman Shays and his district and 
to the entire State.
    We are in the home stretch, if you will, on the Great 
Meadows Salt Marsh. In terms of the request for Federal funds, 
what it is at this juncture is purchasing the remaining 
critical habitat. We're talking about $3.6 million in land and 
water conservation, and essentially what we want to try to do 
is to maximize the effectiveness of the $7.8 million in Federal 
funds already invested in this purchase.
    Mr. Regula. This is all the Fish and Wildlife Service, I 
assume.
    Ms. DeLauro. Yes.
    Mr. Regula. And they manage it.
    Ms. DeLauro. Yes.
    Mr. Regula. Do they use it as an educational tool; is there 
access for the public?
    Mr. Shays. The answer is access and the 30 acres that we're 
looking to purchase now will help that access. That's the kind 
of a last stretch----
    Mr. Regula. I'm assuming it's school groups that go out 
there
    Ms. DeLauro. That's exactly--and I will just tell you, it's 
the Stratford Development Company which has worked with 
community groups over the last 20 years of this development. 
They are using non-Federal funds in order to make this a place 
where you can have an education facility, pedestrian walkways, 
parking, so that you're making it accessible to the broader 
community.
    Mr. Regula. Is there any way we can leverage this in 
getting some match from either private, local, or State that 
will finish it up?
    Ms. DeLauro. In terms of the 3.6, that probably isn't the 
case; the State has to put in money; they are working on an 
additional 10 acres--which is not the ecologically critical 
piece--with the non-Federal dollars. But this is the final $3.6 
million in terms of request in terms of Federal funds.
    Mr. Regula. Well, the reason I keep asking people if they 
can get help locally is we're trying to leverage our dollars as 
much as we can, because you can understand, we're probably 
going to be flat-funded in the allocations based on what we did 
in 1997; that makes it a challenge to do all the good things 
we'd like to.
    Ms. DeLauro. And I think that, both with Congressman Shays 
and myself support that. I mean, there is already very good 
evidence of the use of that kind of leverage. They have been 
doing this; as I say, the State and the private effort. We can 
create in this facility between 3,000 and 5,000 jobs in an 
economically troubled area.
    Mr. Regula. This is an aside: Are you in the demonstration 
fee project. You know, we've given the Fish and Wildlife 
Service, the Forest Service, and the Park Service the ability 
to charge some entrance fees with the proviso they keep the 
money.
    Mr. Shays. This is basically the salt marsh share, and the 
challenge with the salt marsh is with the number of people 
around and the tidal basin that comes all the way down from New 
Hampshire, we are polluting the sound to such an extent that 
the way it cleans itself in spite of the abuse--it's the salt 
marsh. And so, frankly, a lot of the salt marsh----
    Mr. Regula. It's the filter.
    Mr. Shays. It's the filter. So, when you talk about match, 
the focus is more on protecting the Sound andmaking sure the 
bald eagle and the other wildlife are able to grow, part of the 30 
acres we're looking to purchase will allow for us to restore the flow 
of water the way it was so that the migratory birds and other shell 
and----
    Mr. Regula. The northern everglades.
    Mr. Shays. Yes. Exactly, exactly. So, there are parts of 
this that you would not walk through, but they have paths, and 
it's right next to major areas: New Haven and Bridgeport.
    Ms. DeLauro. And I mean, there's oyster-seed beds there; 
that's a shellfish industry--as Chris has pointed out, a 
crucial breeding and feeding ground.
    Mr. Regula. I understand.
    Mr. Shays. You know the other thing is we're just here to 
thank you, because we've already gotten 400 acres and we're 
looking----
    Mr. Regula. There's so many of these worthwhile things.
    Mr. Shays. We're with you--we're here with you, Mr. 
Chairman.
    Mr. Regula. Okay, thank you.
    Ms. DeLauro. Thank you so much, Mr. Chairman--we appreciate 
your time and your consideration.
    [The information follows:]


[Pages 748 - 751--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

           SOUTHERN FLORIDA ECOSYSTEM RESTORATION INITIATIVE

                                WITNESS

HON. PETER DEUTSCH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

    Mr. Regula. Okay, next on the list here is Mr. Deutsch. I 
think we're trying to stay on the way we have these listed. 
And, Mr. Deutsch, I'm very familiar with this so let's save our 
time. We'll make your statement a part of the record.
    Mr. Deutsch. Well, I appreciate that; it's feels like this 
is our annual exchange, and I appreciate the work of the 
committee and four-plus years that I've been in Congress.
    Unfortunately, we're back. You know, this is a long-term 
commitment. The administration's budget calls for a $135 
million for the----
    Mr. Regula. Well, I think we're going to get a lot down 
there, because we've put in a good bit--you have the Farm Bill 
which, I think, had a $200 million----
    Mr. Deutsch. I will add, though, I was just in the park 
this weekend--as much as we've done--I mean, if you look at the 
numbers--I mean, we've made a big investment; there really is 
lots to be done, and some of the things are really specific.
    I was with the director of the park, at Everglades Park 
itself, and they don't have one hydrologist on their scientific 
science staff.
    Mr. Regula. Well, we've been pushing them to do the science 
before they do the digging and whatever else.
    Mr. Deutsch. And I think, but there's sort of a couple 
parts: One is the land acquisition part that everyone is 
talking about the land acquisition side, and even with that 
other money, we're still under the same constraint--let me 
emphasize too, the State is doing its share, in fact, on Sunday 
I found out--the lieutenant Governor was with me in the park--
Florida's State Land Acquisition program, Florida State, is the 
largest land acquisition program in the world.
    Mr. Regula. Yes, they've done their share.
    Mr. Deutsch. I mean, even larger than the entire Federal 
Government's. And even it's not just State that's doing its 
share, I mean, it really is down to the county level and the 
water management district level. I mean, we are taxing 
ourselves as a community. In fact, property tax is at the max 
in terms of what have been done; it's about $30 million. Local 
property tax do land acquisition, and it really is a national 
treasure--I mean, it's an international treasure.
    Mr. Regula. Staff was there for a couple of weeks.
    Mr. Deutsch. Yes, and I appreciate the work you've been 
doing, but it hasn't stopped, and it's not going to stop 
probably for, you know, when our kids are still in Congress.
    Mr. Regula. It's a classic example of act in haste and 
repent in leisure.
    Mr. Deutsch. Absolutely.
    Mr. Regula. Because in years past we did things that never 
should have been done.
    Mr. Deutsch. And I really think it's a really success from 
the Congress--as good a success story is.
    Thank you very much.
    Mr. Regula. Well, I'm going to keep supporting it.
    Mr. Deutsch. All right; I appreciate it. Thank you, Mr. 
Chairman.
    Mr. Regula. Thanks for coming.
    [The information follows:]


[Pages 754 - 757--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    JOCASSEE GORGES-LAND ACQUISITION

                               WITNESSES

HON. BOB INGLIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH 
    CAROLINA
HON. LINDSEY GRAHAM, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    SOUTH CAROLINA

    Mr. Regula. Next is Bob Inglis; Bob and Mr. Lindsey 
Graham--I didn't know we dealt with tires here. [Laughter.]
    Okay, without objection, both of your statements will be 
made a part of your record. We appreciate very much any 
summarization you can do and briefly, I think you both talked 
to me about this project.
    Mr. Inglis. Right. And I'd be happy to defer to the man who 
represents the district----
    Mr. Regula. Okay. You're adjacent to it, I assume.
    Mr. Graham. Okay. Thank you, Mr. Chairman, and I will be 
brief.
    Mr. Regula. Is this the Fish and Wildlife Service? I 
recall, is it a refuge?
    Mr. Graham. Forest Service.
    Mr. Regula. Forest Service, okay.
    Mr. Graham. Well, I bet you have a million good projects.
    Mr. Regula. We really do.
    Mr. Graham. Well, now you've a million and one. All right. 
[Laughter.]
    Mr. Regula. A million and two's coming behind you. 
[Laughter.]
    Mr. Graham. A million and two. Well, we're trying to 
appreciate what you have to do. I know there's a limited amount 
of money and when you buy land, I think we need to get as big a 
bang for the buck as possible for the taxpayer. And that's 
where I'm coming from on this; we're looking at a 3,575-acre 
tract which will be an extension of Sumter National Forest.
    Mr. Regula. This is owned by power companies.
    Mr. Graham. I'm most certain. There's a 33,000-acre tract 
that's going to be created; $10 million has been set aside by 
the State of South Carolina to purchase 30,000 acres from a 
power company, and at the end of the day we're going to have a 
33,000-acre tract that will take some of the most pristine land 
in the Appalachian region, the Blue Ridge Escarpment, and have 
multi-purpose use, but set it aside for generations to come.
    Mr. Regula. Excuse me. This will be operated by the State, 
the 33,000 acres?
    Mr. Graham. Yes, sir.
    Mr. Regula [continuing]. As a multi-purpose recreation 
area?
    Mr. Graham. Absolutely. In conjunction with North Carolina; 
this is going to be a project that goes across the border of 
South Carolina; there's a lot of energy at home from the 
private sector, State government, local community, to come up 
with the money to buy the major portion of the Jocassee Gorge. 
And here's where we come into play: these pink areas--I'm 
colorblind; I'll take their word for it that it's pink--
represents 3,575 acres of Forest Service land that would weave 
the pattern to be a complete 33,000-acre tract. If we purchase 
the lands that you see here in the pink color, it would fit in 
with what South Carolina and North Carolina's trying to do for 
the Lake Jocassee region; it would be one of the largest 
preservations on the eastern----
    Mr. Regula. Is Lake Jocassee--is that a natural lake?
    Mr. Graham. No, sir. It was created--the gorge area we're 
talking about--the Lake was created by Duke Power, but the 
Jocassee Gorge is one of the most pristine areas for wildlife 
and nature and the whole Blue Ridge Mountain----
    Mr. Regula. The lake is hydro?
    Mr. Graham. Yes, sir.
    Mr. Regula. Is it still operating?
    Mr. Graham. Yes, sir; absolutely.
    Mr. Regula. And so they would retain that?
    Mr. Graham. Yes, sir. They would retain the use of the----
    Mr. Regula. But do they open it for recreation?
    Mr. Graham. That's part of the agreement; that the State of 
South Carolina and North Carolina would have a deal to allow 
multi-purpose use--but the Jocassee Gorge area is the 
designation in question, and the Sumter National Forest lands 
fit in together so, the puzzle's complete; it's about a $6 
million purchase price, and I don't know if we could get by 
with less, but our 3,500-acre acquisition leverages over 30,000 
acres to make it a seamless web, and I think it is a great buy 
for the taxpayers.
    Mr. Regula. Can we do this on a stretch-out basis, or does 
it have to all be done in one year?
    Mr. Graham. That's a good question, Mr. Chairman. I 
really--I think they're looking for an appropriation in this 
year's budget to go ahead and seal the deal. The Crescent 
Resources Company, that is a wholly-owned subsidiary of Duke 
Power, is in really deep negotiations now with South Carolina. 
South Carolina's got a $10 million bond issue set aside for 
this--I mean, people are very serious; the private sector's put 
thousands, soon to be millions, of dollars into it. North 
Carolina is working with South Carolina to come up with a per-
acre purchase price. And if we could add the 3,500-acre tract--
--
    Mr. Regula. Is this privately-owned in separate tracks or 
is it one block?
    Mr. Graham. It's separate tracts owned by the same company; 
it would sold as a block. That's what we're talking about. 
You're asking some great questions.
    Mr. Regula. One property owner?
    Mr. Graham. Absolutely.
    Mr. Regula. So one--okay.
    Mr. Graham. It's a 30,000-acre purchase deal with one 
property owner that will encompass many tracts of lands, and 
when the quilt's made, you've got the Jocassee Gorges preserved 
forever for multi-purpose use, and it's sort of the window's 
closing on opportunities like this in the eastern part of the 
United States.
    Mr. Regula. There already has been Nantahalla.
    Mr. Graham. Nantahalla National Park.
    Mr. Regula. Nantahalla.
    Mr. Graham. And when you put it all together, there will be 
some development on Lake Jocassee that won't be covered. I 
think it's a good accommodation of needs, but it puts this area 
offlimits to development, but can be used by the public and 
logging and hunting in a reasonable fashion.
    Mr. Regula. Okay. Well, we're familiar with it.
    Mr. Graham. Thank you.
    Mr. Inglis. Mr. Chairman, I was just going to add just 
three very quick points. One, I'm here because it's a beautiful 
spot, and my son and I enjoyed canoeing recently on Lake 
Jocassee, but also because I happen to represent the fourth 
district of South Carolina, major population areas that would 
access----
    Mr. Regula. That would use this?
    Mr. Inglis [continuing]. This facility.
    Within the SMSA, I believe we have about a million people 
that live from Spartanburg, Greenville, down to----
    Mr. Regula. You have a lot of growth in your State.
    Mr. Inglis. Yes. So the quality-of-life enhancement by 
having this available is huge to those nearly million people--
Anderson being is Lindsey's district.
    But the second point is that these properties are 
contiguous to existing U.S. Forest Service property, which is 
an important point, I know, to the committee.
    Mr. Regula. Yes, I see that on the map here.
    Mr. Inglis. In fact, one of them in North Carolina, as you 
can see, is an outparcel----
    Mr. Regula. Right.
    Mr. Inglis [continuing]. Which would, I'm sure, be 
something that the Forest Service would be interested in 
getting control of.
    Mr. Regula. Oh, yes, it's an in-holding there.
    Mr. Inglis. An in-holding, yes, an in-holding.
    And then the third and final point is this truly is a 
beautiful piece of property, and we've already given--Lindsey 
and I have already given you Tommy Wyche's book on this, and 
it's just as beautiful as the pictures that he's taken of it.
    Mr. Regula. If we make it so nice, we'll lose people from 
Ohio going down there. [Laughter.]
    Mr. Graham. No tax, either. You come down; no passport 
needed; you just come on down.
    Mr. Regula. There's a chicken plant down there that they're 
home-based in my district and you have BMW, and I think you may 
have Michelin.
    Mr. Inglis. Yes, we've got a tire company. I can talk to 
you, if you want. Can we go into that subject now? [Laughter.]
    Mr. Regula. Okay. Well, thanks for coming.
    Mr. Graham. Thank you, Mr. Chairman.
    Mr. Inglis. Thank you.
    [The information follows:]


[Pages 761 - 763--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

           VIRGINIA BLUE RIDGE PARKWAY INTERPRETATIVE CENTER

                                WITNESS

HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA

    Mr. Regula. Okay, now Ohio's next here. What happened? Do 
you want to wait for David?
    Mr. Hall. Sure. He's here.
    Mr. Regula. Do you want to wait?
    Then Bob Goodlatte is--next.
    Mr. Goodlatte. Sure.
    Mr. Regula. Okay, come on, Bob. I know your project. So we 
can get yours out in a hurry.
    Your statement's a part of the record. You and I've talked 
about it.
    Mr. Goodlatte. Well, thank you, Mr. Chairman. I very much 
appreciate the opportunity to talk to you about it for a minute 
again, and I will be brief and would like to submit my 
statement for the record.
    Mr. Regula. Without objection.
    Mr. Goodlatte. This is a proposal that we have put forth on 
behalf of the Commonwealth of Virginia and Roanoke County, 
Virginia for an interpretative center on the Blue Ridge Parkway 
in Roanoke County, Virginia. This is the largest metropolitan 
area on the Blue Ridge Parkway in the Commonwealth of Virginia, 
and it is one of the heaviest traffic areas.
    This interpretative center would be at the conjunction of 
the Blue Ridge Parkway and a spur road that this committee has 
previously funded that goes into what's called the Explore 
Park. It's a Blue Ridge historic settlement village.
    Mr. Regula. Well, let me just ask a couple of questions 
here that are important. Who owns this land that you're 
proposing to put this on?
    Mr. Goodlatte. The County of Roanoke owns the land.
    Mr. Regula. They would contribute this. Who would have 
title when it's done, the Park Service?
    Mr. Goodlatte. The Park Service would own it.
    Mr. Regula. Do you contemplate that the State would operate 
it?
    Mr. Goodlatte. The Commonwealth or the county would operate 
the facility.
    Mr. Regula. It would not be--the Federal Government?
    Mr. Goodlatte. No. We're not asking for any operating 
costs. We have submitted documentation to show that they would 
be covered by the Roanoke County government. They have come up 
with $200,000 in capital funds each year for the next four 
years. They have also contributed the land. The Commonwealth 
has already appropriated $250,000 for engineering studies, and 
what we are asking for is a total of about $2.05 million over 
two or three years, $600,000 this year, which would match 
another $2.05 million that would be put up by the Commonwealth 
and the County.
    Mr. Regula. So this would be a 50/50 match on the 
construction?
    Mr. Goodlatte. That's correct.
    Mr. Regula. And State or local operation----
    Mr. Goodlatte. The Federal Government's obligation is 
simply to match what the Commonwealth is willing to do to get 
it built, and nothing beyond that at all, and I don't favor any 
operating expenses.
    Mr. Regula. Okay, well, thank you for coming. We are 
familiar with this project.
    Mr. Goodlatte. Great. And if there's anything else we can 
tell you about it, please don't hesitate to let us know.
    Mr. Regula. Well, we'll be in touch. Okay.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Regula. Thank you, Bob.
    [The information follows:]


[Pages 766 - 769--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                  WRIGHT BROTHERS PRINT SHOP BUILDING

                               WITNESSES

HON. TONY P. HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
HON. DAVE HOBSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO

    Mr. Regula. Thanks for your patience here. This is the last 
one this morning. We're trying to stay on schedule; it's not 
easy. We have a lot more this afternoon.
    But what I need is a printing press.
    Mr. Hobson. Well, we'll try to help you out.
    Mr. Regula. Yes. Well, I'm very familiar with it, as you 
both know. I had a delegation from Dayton in the office, and 
there's great local support, and I know the time constraints 
you're both working on to get this thing done in time. I think 
you've got the governor interested now. I believe we had a 
letter from the governor on this one.
    Mr. Hobson. Well, it's very important to the community, Mr. 
Chairman, and you were instrumental in helping us get this 
statute passed some years ago. I remember that well. It was one 
of the first things that we worked together on.
    Mr. Regula. Yes, that was touch-and-go, as I recall.
    Mr. Hobson. Well, we did it on suspension. [Laughter.]
    Mr. Regula. Which is kind of an unusual way to do it.
    Mr. Hobson. But, with your help, standing next to me on the 
floor on our side anyway----
    Mr. Regula. Well, we'll try to make this one work.
    Mr. Hobson. Okay, well, we appreciate it. We'll submitt 
some written testimony, but this is a bipartisan project; it is 
a bi-communal--I mean, Miami Valley project. This is all in 
Tony's testimony.
    Mr. Regula. Well, I was impressed with the enthusiasm of 
the team that came in. I think you had the editor of the paper 
and the banker.
    Mr. Hobson. Right.
    Mr. Hall. We have great support. Dave and I both support 
it. You know, the park is in both of our districts. This 
particular building is in mine, but we support each other on 
it. You know about it and you've been very helpful to us. 
There's a match that would come from the people of Montgomery 
County and the 2003 Committee. So we just seek your help.
    Mr. Regula. Can we put a little burr under the State to get 
them to contribute?
    Mr. Hobson. Well, they're going to be in it----
    Mr. Regula. Are they going to put some money in it?
    Mr. Hobson. Yes, we hope--we think that's going to happen.
    Mr. Regula. I see that in your testimony.
    Mr. Hobson. We think that's going to be part of the deal. 
The governor's expressed an interest in it.
    Mr. Regula. You've got the funds budgeted.
    Mr. Hobson. Yes, and the local community, and with the 
people that are involved in the local community, I don't have 
any hesitancy, and you've seen them raising the money. So we 
think we've got a long-term committee.
    Mr. Regula. Okay, we'll try to make it work.
    Mr. Hobson. Okay, thanks.
    Mr. Hall. Thank you, Mr. Chairman.
    Mr. Regula. I like these where you get some local 
involvement because it leverages our money so much more.
    Mr. Hobson. The governor and the State have already put in 
$1.2 million for many of the projects in the park.
    Mr. Regula. Okay, thank you.
    Mr. Hobson. Thank you.
    Mr. Hall. Thank you.
    [The information follows:]


[Pages 772 - 776--The official Committee record contains additional material here.]



    Mr. Regula. We'll be back. The committee will be in recess 
until 1:30.
                              ----------                              

                                         Wednesday, April 16, 1997.

                       YELLOWSTONE NATIONAL PARK

                                WITNESS

HON. RICK HILL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF MONTANA

    Mr. Regula [presiding]. We'll reconvene.
    Our first witness this afternoon is Mr. Hill from the great 
State of Montana. Your statement's a part of the record, and 
we'll appreciate brevity in telling us what you're concerned 
about.
    Mr. Hill. Mr. Chairman, it's a pleasure to testify before 
you and the subcommittee today in support of projects important 
to my State of Montana and on initiatives regarding Yellowstone 
National Park. In my written testimony I urge the subcommittee 
to support several projects important to my State; namely, the 
Tongue River Dam Project, Yellowstone Control Ground Water 
Project, the Whirling Disease study at Montana State 
University, the Fish and Wildlife Service Western Montana 
Project, and the Taylor Fork Project. And while I will not 
address these in my oral remarks, they are important to 
Montana, and I do wholeheartedly support them.
    In these brief remarks I will concentrate on asking the 
subcommittee to direct the Secretary of Interior to undertake 
several actions to help us improve the management at 
Yellowstone National Park. For the past 30 years, the 
Yellowstone bison herd has been managed under a philosophy 
known as natural regulation. In effect, natural regulation 
means management by no management. Without interference from 
man and with no management, the total bison population simply 
increases until it uses the available range within the park. It 
then either migrates out of the park or starves for lack of 
food, as occurred last winter.
    Failure to manage the bison population presents two serious 
problems. Inside the park itself, research indicates that these 
animals are overgrazing available rangeland and are wiping out 
many of the plants and animals important to the park's ecology. 
Outside the park, the migrating Yellowstone bison pose a 
serious health risk to the citizens and cattle industry of 
Montana. This is primarily due to the fact that more than one 
out of every two bison carries the infectious disease 
brucellosis that causes abortion in cattle and undulant fever 
in humans.
    Mr. Yates. That many?
    Mr. Hill. Yes.
    Mr. Yates. One out of two?
    Mr. Hill. That is true.
    Current management is doing nothing to control the 
overgrazing or the disease. I will speak about the disease 
brucellosis in a moment. However, I first want to encourage the 
subcommittee to take action on the overgrazing. What is needed 
is an independent, scientific assessment of Yellowstone's range 
resources. I, therefore, urge the subcommittee to instruct the 
Secretary of the Department of Interior to contract with the 
National Research Council's Board on Environmental Studies and 
Toxicology to conduct a scientific study of the ecological 
effects of hoofed animals on the range resources of Yellowstone 
National Park. To facilitate the study, the subcommittee should 
direct the Secretary to make available to such study all 
National Park Service and Yellowstone data, records, and 
studies pertaining to the range resources, and the subcommittee 
should require the Board on Environmental Studies and 
Toxicology to report the findings of the study directly to 
Congress.
    Regarding the disease brucellosis, I strongly urge the 
subcommittee to take two additional actions. First, I ask the 
subcommittee to direct the Secretary of Interior to undertake a 
contract with the National Research Council's Board on 
Environmental Studies and Toxicology for the development of an 
improved and more effective vaccine against this contagious 
bacterial disease. As you know, the Secretary recently 
negotiated such a study, and I support that decision, and I ask 
the subcommittee to ensure continued support for such research.
    Second, I urge the subcommittee to follow up the search for 
a more effective vaccine with a managed program within the park 
to control brucellosis and bison using vaccines that are 
already available. We all know that no vaccine is totally 
effective. Nevertheless, we vaccinate cattle against the 
disease under a national program begun by Congress in 1956. 
Vaccinating bison calves presents an opportunity to reduce the 
incidence of disease.
    All that is required to begin this program is for the 
Secretary of the Interior to lift his prohibition against 
access to the diseased herd. Therefore, I urge the subcommittee 
to direct the Secretary to invite, welcome, and work with the 
U.S. Department of Agriculture's Animal, Plant, and Health 
Inspection Service to vaccinate bison calves. APHIS is 
Government's foremost agency for this job. All they need is 
permission, a permission slip, from the Secretary of the 
Interior to begin the program.
    Mr. Chairman, these three elements--a study by the Board of 
Environmental Studies and Toxicology on the overgrazing effects 
of Yellowstone, research for the same board into a better 
vaccine, and a reasonable, good-faith, well-managed vaccination 
program--would achieve a great deal. Mr. Chairman, the 
subcommittee can play an historic role in the guidance of a new 
policy toward the management of Yellowstone Park. I strongly 
urge your solid support for language to accomplish these 
important recommendations. Together they provide a common-sense 
integrity we require to improve the overall environment of the 
park for ourselves, and generations of Americans to follow.
    Thank you.
    Mr. Regula. Thank you.
    Mr. Yates. No questions.
    Mr. Regula. Thank you.
    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Yates. You didn't mention the ``big sky.'' [Laughter.]
    Mr. Hill. It's a wonderful place, and I love it greatly.
    Mr. Yates. I'll bet you do.
    [The information follows:]


[Pages 779 - 781--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. PETE HOEKSTRA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MICHIGAN

    Mr. Regula. Mr. Hoekstra? And I want you to know, Mr. 
Hoekstra, that Mr. Yates just came for your testimony.
    Mr. Yates. Oh, that's an honor that I've been waiting for 
for a long time. [Laughter.]
    Mr. Regula. He has some interest in this subject that 
you're going to address.
    Mr. Yates. Well, so does Mr. Hoekstra.
    Mr. Hoekstra. Well, good, let's talk about prevailing wages 
this morning. [Laughter.]
    Mr. Yates. Before you start, is it true that you were once 
a vice president of Herman Miller?
    Mr. Hoekstra. That is correct.
    Mr. Yates. Well, congratulations and commendations. I was 
your biggest customer. We were--my wife and I were--disciples 
of Mies Van der Rohe and your contemporary furniture just 
filled our house. We spent a lot of money with Herman Miller.
    Mr. Hoekstra. Do you still have it?
    Mr. Yates. Oh, yes.
    Mr. Hoekstra. You are a very wealthy man--[laughter]--not 
only because it was a good investment, and that stuff is now 
very valuable.
    Mr. Yates. Oh, I know. The Eames chairs and the other 
chairs--as a matter of fact, we just bought one of the Eames 
lounge chairs from Herman Miller. I guess I shouldn't be 
talking.
    Mr. Regula. Oh, you can talk as much as you like. 
[Laughter.]
    Mr. Yates. But, you know, I shouldn't say this at this 
time. I was going to say it later, but this man, a vision, my 
admiration and respect for him go up immensely because Herman 
Miller was one of the pioneers in contemporary furniture----
    Mr. Regula. It's very artistic, too, was it not?
    Mr. Hoekstra. That's correct.
    Mr. Yates. It's contemporary furniture design, and I don't 
understand how a man with this kind of vision can have that 
kind of an attitude toward the National Endowment for the Arts. 
[Laughter.]
    But, at any rate, go ahead with your testimony.
    Mr. Regula. On that note, we'll make your testimony a part 
of the record and you can address in your four minutes whatever 
you choose.
    Mr. Yates. Are you still with Herman Miller? [Laughter.]
    I don't mean that. I mean, do you still have a connection 
of some kind with Herman Miller?
    Mr. Hoekstra. Only friendship.
    Mr. Yates. Okay.
    Mr. Hoekstra. Only friendship and own a few shares of 
stock.
    Mr. Yates. Yes, that's what I meant. It's still a great 
company.
    Mr. Hoekstra. The stock has doubled in the last 12 months.
    Mr. Yates. And it should; their products are so good. 
[Laughter.]
    Mr. Hoekstra. Thank you. Is this all on the record that I 
can send this to them?
    Mr. Yates. Yes, it's on the record.
    Mr. Regula. If you check with us, we'll give you a copy of 
the transcript. I know they'd like to have it.
    Mr. Hoekstra. All right.
    I'd like to thank the chairman, Mr. Regula, for allowing me 
to testify, and, Mr. Yates, thank you for being here. My 
subcommittee that I chair on the Education and Workforce 
Committee, we've been doing oversight work on the National 
Endowment for the Arts as part of our ongoing oversight 
efforts, and we've really asked three questions: ``Is funding 
the NEA an appropriate Federal role? Is the NEA operating in an 
effective and efficient manner? And is it operating consistent 
with congressional intent?'' And I'd like to just briefly 
summarize, I think, what we've found in each of those areas.
    Does the NEA fulfill an appropriate Federal role? One of 
the things that we looked at in this area is we took a look at 
the condition of the arts as an industry within America today. 
Our evidence shows that this is a thriving industry. This is a 
very good profession to be in. Attendance is up in all arts 
categories--for museums, operas, plays, and ballets. Total 
receipts for performing arts now approach those of the motion 
picture industry and spectator sports. Employment and earning 
levels for artists are up. As a matter of fact, they are well 
above the average of the rest of the labor force in America. 
The unemployment rate is equal or below that for people 
employed in other industries in America.
    So the arts in America are flourishing, and I believe that 
they're flourishing and that the NEA is not the primary reason 
that they are flourishing. The biggest reason that they are 
flourishing is because they are producing products, goods and 
services, that are being consumed by the American public. 
People are supporting the arts in their local community because 
they're producing a good product. The level of private support 
for the arts continues to grow and to skyrocket, and the end 
result is, when you take a look at that, NEA funding today 
accounts for less than 1 percent of the total receipts for the 
arts.
    This is not a debate about whether the Federal Government 
should be involved in the support of the arts. We are involved. 
We're involved in a significant way outside of the NEA. We 
provide more than $1 billion in art subsidies through the 
Federal income tax deduction for charitable giving, and we have 
a number of other programs, so that the NEA, in and of itself, 
is only about 6 percent of the total Federal Government 
support. Even though the NEA funding has been cut--has gone 
down over the last several years--private giving and State and 
local government contributions to the arts have increased 
significantly. This industry is doing extremely well.
    Is the NEA operating in an effective and efficient manner? 
We have this organization. Does it work? I think the evidence 
that we have would say no. The administrative costs keep 
climbing. In 1996, we estimate that their administrative costs 
will be about 18.8 percent of their total budget. So that means 
for every dollar that we send here, about 81 cents only gets 
back to support the arts. The NEA has said that this would fall 
below 17 percent, but they have been able to do that.
    Their administrative costs may be due in part to the lack 
of strict accounting and management standards. The NEA is not 
subject to the types of accounting standards maintained in the 
private sector and which have recently been placed on other 
Federal agencies, such as the Chief Financial Officers Act.
    Finally, few, if any, significant outside reviews of the 
NEA's accounting or management structures have been performed 
in recent memory. In short, I think this is a bureaucracy that 
is not working very well.
    Does the NEA follow congressional intent? I think it is 
operating outside the intent and will of this and past 
Democratically-controlled Congresses. I always thought that one 
of the things that NEA was supposed to do was promote the arts 
on a broad basis throughout America. One-third of the 
congressional districts, 143 out of 435, failed to get any 
direct support from the NEA. Approximately one-third of the 
direct NEA grants go to six large cities: New York, Boston, LA, 
San Francisco, Chicago, and D.C. Furthermore, a large 
percentage of these funds go to the large organizations that 
have significant budgets that indicate they're being 
successful: the Metropolitan Opera, total income, $133 million; 
the Lyric Opera, $37 million; the Boston Symphony, $43 million; 
the Art Institute of Chicago, $96 million. These successful 
organizations experienced cuts in NEA funding; yet, each 
reported a dramatic increase in total income in 1996.
    Congress also has repeatedly tried to limit the NEA's 
funding of performers and exhibits that run counter to common 
decency standards. I think, as Mr. Regula, you know, my former 
colleague, Mr. Henry, tried to correct that problem. That's now 
been declared unconstitutional by the Federal district courts.
    My testimony will be submitted for the record. I think that 
this is an ineffective bureaucracy. It's a minuscule part of 
the total funding of arts in the United States, and the arts 
will continue to thrive and be successful in spite of the NEA.
    Mr. Regula. I have one question.
    Mr. Hoekstra. Yes?
    Mr. Regula. Do you think the Federal Government has any 
role in the preservation and enhancement of the cultural 
heritage of America?
    Mr. Hoekstra. The historical elements, yes, I think so.
    Mr. Regula. Mr. Yates?
    Mr. Yates. Yes. Mr. Hoekstra, you talked about the Federal 
Government now giving subsidies to cultural endeavors, to the 
arts, through charities. Does that mean that you favor Federal 
funding for the arts other than the Endowment?
    Mr. Hoekstra. Well, there are certain other organizations 
that we fund, such as the Smithsonian and those types of 
things.
    Mr. Yates. That's right.
    Mr. Hoekstra. We have not taken a look at those. I think in 
some ways there may be an appropriate Federal role for those 
types of institutions. I think where we get differentiated from 
the National Endowment for the Arts is where Washington gets 
into putting the stamp of approval and trying to pick winners 
and losers and trying to identify what's good art.
    Mr. Yates. But Washington does not pick winners and losers; 
Washington gives that job to private citizens who select who 
the grants should go to through their panels, and that is not a 
Government operation, except in the framework of letting the 
private citizens do that. Is not that your understanding, too?
    Mr. Hoekstra. That, I think, is how the system operates. 
It's still Federal dollars going to specific individuals and 
designers and artists. I can tell you that when we were at 
Herman Miller, the toughest question that we had to deal with 
was identifying the next Bob Probst, identifying the next 
Charles Eames, identifying that next successful designer that 
could bring together form and function in a very successful 
way, and I think the most effective way to do that is through 
the charitable tax writeoff and not having artists trying to 
pick who's going to be successful.
    Mr. Yates. Well, Charles Eames and Bob Probst and the 
others you mentioned could just as well have been trained under 
NEA's financed programs, could they not?
    Mr. Hoekstra. Charles Eames and Bob Probst became very 
successful and they became very wealthy individuals----
    Mr. Yates. Oh, I know.
    Mr. Hoekstra [continuing]. Because they were judged in the 
private sector.
    Mr. Yates. I have one more question.
    Mr. Regula. Okay.
    Mr. Yates. Do you favor Federal funding for symphony 
orchestras, for example, like the New York Philharmonic?
    Mr. Hoekstra. No, I don't think that there's a necessary 
role in Washington for us to pick one orchestra----
    Mr. Yates. I don't mean one; I mean any symphony orchestra 
that applies throughout the country.
    Mr. Hoekstra. No, I don't think that's necessary. I think 
the symphony orchestras are flourishing and they're doing well 
without Washington subsidizing some and not others.
    Mr. Yates. What about art museums?
    Mr. Hoekstra. No, I don't think that there's a necessity 
for Washington to be involved in that.
    Mr. Yates. Okay, and what about art education for children?
    Mr. Hoekstra. I think art education, I think as the 
Secretary of Education has recently identified, is instrumental 
in developing children's capacity for creative skills and that. 
So I think art education is a very important component of a 
total curriculum.
    Mr. Yates. Now you indicated that the arts community, apart 
from NEA, is flourishing at the present time.
    Mr. Hoekstra. Yes.
    Mr. Yates. Suppose the facts indicated that it was not 
flourishing; would you then change your mind about Federal 
funding, including the Endowment?
    Mr. Hoekstra. I don't know. I'd want to take a look at why 
I thought that--why people were speculating that that industry 
was not flourishing. So, without knowing why, it would be hard 
to say.
    Mr. Yates. Thank you, Mr. Chairman. Thanks, Mr. Hoekstra.
    Mr. Hoekstra. Hey, thank you.
    Mr. Regula. Okay.
    [The information follows:]


[Pages 787 - 790--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                   MORATORIUM ON OIL AND GAS LEASING

                        SOUTH FLORIDA INITIATIVE

                                WITNESS

HON. PORTER GOSS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

    Mr. Regula. Mr. Goss, you're next on the list.
    Mr. Goss. Thank you, Mr. Chairman. Hi, Mr. Yates. How are 
you?
    Mr. Regula. I'm familiar with yours; Joe's going to take 
over here for a little bit. I've got about a 20-minute 
appointment.
    Mr. Goss. Mr. Chairman, I come before you today with a 
prepared statement for the record, which I'd ask be included in 
the record.
    Mr. Skeen. [presiding] It will be done.
    Mr. Goss. Thank you. And I would, therefore, like to 
abbreviate and make myself available for questions.
    Mr. Skeen. With much appreciation.
    Mr. Goss. The standard area of the Outer Continental Shelf 
problem in Florida has not gone away; we could talk about it at 
length. There's very little new dimension from the testimony I 
made last year. Perhaps the most important thing I can say is 
that we do have a good bill ready to move; we are trying to 
move it, which I think will get us out of the annual moratorium 
business and into a more meaningful, long-term solution.
    With regard to the South Florida Initiative, which you all 
have so generously assisted, the State and the citizens of the 
area of south Florida, we are moving forward. We're dealing, as 
you know, with the Everglades science and research activities. 
We're doing the land acquisition; we're dealing in Big Cypress; 
we're in Florida Bay, and, most importantly, I think that we 
are dealing with the question of water flows, which is really 
the major problem for the future health of the system and the 
bay. And all of that is a coordinated program called the South 
Florida Initiative, which has got a whole lot of players, 
including the Federal Government. Your wisdom, vision, 
foresight, generosity would be much appreciated. We hope it 
will continue in our program.
    With regard to the wildlife refuge funding, I do have a 
wrinkle that is relevant to my own district, and that's in the 
Ding Darling Refuge, which is a particularly good one, well-
run, in fact so well-run I understand the manager is receiving 
a national award.
    Mr. Yates. You have Sanibel in your district then, don't 
you?
    Mr. Goss. Yes, Sanibel is, indeed, in my district, and not 
only is it in my district; it's in my back yard; it's where I 
live, and I love it dearly.
    In that area, the refuge manager has identified some in-
holdings--some out-holdings that he would like to have become 
in-holdings as part of the refuge. [Laughter.]
    And he has gotten the city and local government to 
basically take that land out of what I would call private 
development--with the idea that eventually the Federal 
Government will include it in the refuge. That's a good 
program, and one that I hope you will be able to help with.
    Coastal Barrier Resources System is a very important issue 
for us. We've got lots of coast, and the highest point on 
Sanibel above sea level is 14 feet, and that's one very small 
part of it. Most of it is just about at sea level, and we can 
talk all day long about the flood program, and so forth, but I 
think it's very important that we honor the commitments we've 
made in the Barrier Resources System, and my testimony speaks 
briefly to that.
    Historic preservation, Mr. Yates, I know you've been 
interested in that before. I think Florida is a State that has 
proven it's put its money where its mouth is in historic 
preservation, and we would like to continue to be able to 
participate to the degree that the Federal Government 
participates. As Mr. Yates knows, I believe that it is 
appropriate for there to be some Federal Government-type 
participation in the arts and historic preservation and the 
humanities.
    I'd be very happy to respond to any questions or 
amplification.
    Mr. Skeen. Thank you. Speaking of the Everglades and that 
problem there, I understood it was tied in, too, with some of 
your agricultural production. Would you want to comment on that 
or has anything been----
    Mr. Goss. I would, indeed. Obviously, we have interested 
parties, and that includes agricultural production; it includes 
primarily sugar----
    Mr. Skeen. Sugar production.
    Mr. Goss. Sugar primarily. And I believe we have a close 
working, cooperative relationship with the sugar industry. It 
gets stressed and strained from time to time by referendums, 
initiatives, and differences of view about how much is the 
right amount for the sugar industry to pay. Sugar is a 
participant in the payout of this. Whether it's the right 
formula or not, I would be happy to discuss at length. The 
governor believes that a good deal has been made; I think 
that's fair to say; he's endorsed it. The taxpayers are 
participating, even those downstream who were not part of the 
pollution problem. The taxpayers in my district are paying into 
the solution. The principal the polluters pay is being applied. 
Whether it's being applied to the right degree is debatable, 
but so far we have a degree and it is going forward.
    I don't think that problem is going to be resolved until 
billions of dollars have been spent, and I suspect we'll be 
arguing about what the right percentage is right down to the 
last of the billion dollars.
    Mr. Skeen. I think you've answered a fair surmissal----
    Mr. Goss. I think so.
    Mr. Skeen. But the sugar industry is involved----
    Mr. Goss. Yes, it is.
    Mr. Skeen [continuing]. And they're not offering 
participation?
    Mr. Goss. I would say that the sugar industry understands 
that they have a responsibility.
    Mr. Skeen. But they don't want to quantify it as far as 
money is concerned?
    Mr. Goss. It's a little hard on a day-to-day basis to get 
total agreement from everybody on exactly where that 
responsibility translates out into the balance sheet, but 
they're trying.
    Mr. Skeen. Thank you. I appreciate that.
    Mr. Yates?
    Mr. Yates. Mr. Goss, you indicated that you had some 
concern about the Ding Darling Refuge?
    Mr. Goss. Yes, sir, I do.
    Mr. Yates. What is the problem?
    Mr. Goss. The problem really is that the refuge manager has 
identified some properties in the area that are truly 
threatened by development. They would appropriately be part of, 
and they're certainly part of, the ecosystem; no doubt about 
that. They would make an appropriate part of the refuge. This 
is not an expansion. It's basically taking care of what's in 
the circle.
    Mr. Yates. Right. I've been out to the Ding Darling Refuge 
several times. It's a wonderful, wonderful refuge.
    Mr. Goss. Thank you.
    Mr. Yates. And Sanibel is a lovely community, as is 
Captiva. I'll certainly want to help preserve Ding Darling.
    Mr. Goss. Thank you, sir.
    Mr. Yates. And I read somewhere that it had some trouble 
for a brief period.
    Mr. Goss. If you're referring to the Government shutdown 
last year----
    Mr. Yates. Yes.
    Mr. Goss [continuing]. That was endemic elsewhere. I hope 
that isn't going to happen again this year.
    Mr. Yates. Oh, I hope not.
    Mr. Goss. I don't think there's any problem with Ding 
Darling. There have been some user fees involved there. There 
have been a lot of issues that have been discussed. The 
wonderful thing about Ding Darling is basically it's located in 
a community that is absolutely sympathetic to the refuge 
purpose. There is a lot of symbiosis, and my view is that right 
now we've got a refuge manager receiving a national award, 
national attention, for the job he's done. The hallmark of it 
is that we've been able to work out the areas of discussion or 
controversy very well locally.
    The one thing we haven't been able to do is get all the 
necessary funds, even though the citizens and the municipality 
of Sanibel have contributed very substantially to the 
enlargement of the wetlands holdings, taking them out of the 
private mix and putting them aside for conservation.
    Mr. Yates. Do I understand that the whole Florida 
delegation supports the moratorium on off-sea drilling?
    Mr. Goss. Yes, sir, I believe that is a fair statement. 
There is an exception up in the northwest part for one gas well 
that was at a certain degree of development, and I understand 
that is basically the terminus for that operation is in an 
adjoining State, and it is not going to be in Florida. But I 
think it's fair to say--I don't want to put words in my 
colleagues' mouths, but I believe they've all signed on my 
bill--they've co-sponsored--which is looking for a permanent 
solution. So I think it's a nonpartisan, statewide concern, and 
I know the governor, who happens to be, as you know, a very 
fine gentleman, is very concerned and very supportive.
    Mr. Yates. Okay, thanks, Mr. Chairman.
    Mr. Skeen. Your five minutes are up, but I'd like to ask 
you one last question, and that's on citrus research 
installation. Did we get it moved?
    Mr. Goss. You know, I don't know what finally happened to 
that. I know that there's still some feeling, very strong 
feeling, down in my area.
    Mr. Skeen. Well, I think it's in progress. I didn't mean to 
pin you on this thing, but I----
    Mr. Goss. I will be happy to get the chairman the answer to 
that question, but it's still a sore subject in some places.
    Mr. Skeen. Very tender; I understand.
    Mr. Goss. Yes, sir.
    Mr. Skeen. Thank you very much.
    Mr. Goss. Thank you.
    [The information follows:]


[Pages 795 - 797--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                DEPARTMENT OF ENERGY--FOSSIL ENERGY R&D

                                WITNESS

HON. MIKE DOYLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

    Mr. Skeen. Okay, Mike Doyle, welcome.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Skeen. You've got five whole minutes to tell us what 
all your problems are. [Laughter.]
    Mr. Doyle. Thank you, Chairman. I appreciate the 
opportunity. I'd like to thank the ranking member, Mr. Yates, 
and all members of the committee for the opportunity to come 
before you today to highlight a couple of areas of concern that 
I hope can be addressed in Fiscal Year 1998's Interior 
appropriations bill.
    My written testimony primarily focuses on the Department of 
Energy's fossil energy budget. In it, I point to a number of 
funding adjustments that need to be made in various fossil 
energy programs, which I won't get into in great detail in my 
oral remarks.
    Let me say that the merger that has created the Federal 
Energy Technology Center has been quite successful, and it's 
probably the best example of the type of efficiencies that DOE 
should be pursuing as we embark on a glide path toward a 
balanced budget. There's one issue pertaining to the FETC 
merger that remains outstanding. That's the equity between 
Pittsburgh and Morgantown sites and the reduction of site 
support contractors.
    I also urge this committee to look at the possibility of 
including in the FETC structure the work of FE's oil program, 
which used to take place at the Bartlesville projects office. 
It is my understanding that it is DOE's intention to move this 
work to the Tulsa field office, despite the fact that it could 
be handled in a more cost-efficient manner by the FETC.
    While the administration's request for fossil energy is not 
as disappointing as it has been in the past few years, there 
are a few areas which need improvement. Most important is the 
funding for the FETC program direction. Specifically, this 
funding--funding this line at $51.1 million for Fiscal Year 
1998 is necessary to preserve up to 100 positions at the center 
that are needed to meet FETC's core mission.
    I would like to point out to the members that H.R. 1277, 
the DOE R&D authorization bill, currently being marked up in 
the Science Committee, contains this level of funding for FETC 
program direction. Other items of the FE budget that need to be 
looked at include LEBS, advanced clean efficient fuels, Solid 
Oxide Fuel Cell Program, and possible restructuring of the 
Advanced Turbine Systems Program.
    Looking beyond this year's budget, I want to make members 
of this committee aware of legislation I plan to introduce next 
week to merge the Department of Energy's Office of Fossil 
Energy with the Office of Energy Efficiency and Renewable 
Energy. This bill combines the administrative functions of FE 
and EE, achieving budgetary savings while preserving the 
programmatic efforts and research missions of these offices. 
I'm introducing this bill, along with Chairman Ken Calvert of 
the Energy and Environment Subcommittee, and it is also being 
co-sponsored by Science Committee Ranking Member George Brown 
and Energy and Environment Ranking Member Tim Roemer.
    In the past there's been politically-motivated rivalry 
between congressional supporters of FE and EE, one that is 
based on labels rather than fact. This has been detrimental to 
both programs and seems foolish when one recognizes that when 
DOE was originally formed these research areas were all located 
under the jurisdiction of a single Assistant Secretary for 
Energy Technology. This bill eliminates that rivalry without 
harming important energy R&D.
    Chairman Calvert has assured me that we will hold hearings 
on the bill and possibly move to markup prior to the end of 
this summer. In the interim, I would welcome input from the 
members of this committee with regard to this effort.
    Mr. Chairman, the rest of my testimony I've submitted in 
writing, and in the interest of time, I'll stop at this time 
and thank you for your consideration.
    Mr. Skeen. It will be entered in total in the record, and 
we appreciate your presentation and the brevity of it.
    I don't have any questions of you. I think you pretty well 
covered the energy situation as far as these areas are 
concerned.
    Mr. Doyle. Thank you, Mr. Chairman.
    Mr. Skeen. We'll give you every consideration. Thank you.
    Mr. Doyle. I appreciate that. Have a good day.
    Mr. Skeen. You do the same.
    [The information follows:]


[Pages 800 - 803--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                RESTORATION OF SALMON ON THE ELWHA RIVER

                                WITNESS

HON. RICK WHITE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON

    Mr. Skeen. Rick White?
    Mr. White. Yes, sir. Thank you, Mr. Chairman, very much. I 
do have a----
    Mr. Skeen. Welcome.
    Mr. White. Thank you. I have a written statement that I'd 
like to ask be included in the record.
    Mr. Skeen. It shall be done.
    Mr. White. And I prefer not to read it. I prefer just to 
say two or three things----
    Mr. Skeen. Abstract it, if you will, and we appreciate 
that.
    Mr. White. Great. Just to summarize, what I'm asking for is 
an appropriation of $24.6 million for salmon restoration 
efforts on the Elwha River, most of which is in Olympic 
National Park in the State of Washington. And I brought some 
maps which I think do a much better job of telling why more 
than anything I could possibly say. So, with your indulgence, 
let me just show you what we're talking about.
    As you can see right here, this is the Olympic Peninsula of 
Washington; this is the Pacific Ocean; this is the Strait of 
Juan de Fuca. And the Olympic National Park occupies a big 
chunk of the Olympic Peninsula.
    Mr. Skeen. I don't mean to interrupt you, but I was there 
at the dedication when Franklin Deleanor Roosevelt was 
President.
    Mr. White. Well, it hasn't changed much since then.
    Mr. Skeen. That have been a little place called Port 
Angeles?
    Mr. White. That's right. There you go.
    Mr. Skeen. There you go right there. Are the sands pit 
still there?
    Mr. White. Yes, sir, it is, and it's a wonderful place. I 
was out there with my kids just a few months ago.
    Mr. Skeen. Well, I've worn down a whole lot, and I think 
the sands pit's probably still growing. [Laughter.]
    Mr. White. It has.
    Mr. Skeen. Thank you.
    Mr. White. As you can see, we put this big red line on the 
park here. That shows the Elwha River, which starts at the 
glacier just east of Mt. Olympus and flows all the way down the 
Strait of Juan de Fuca, about 50 miles, into the Pacific Ocean.
    Mr. Skeen. It's a beautiful piece of country.
    Mr. White. Now the reason I wanted to show you this map is 
that we spend about $435 million every year to restore salmon 
on the Columbia and Snake River systems, which have dams and 
agriculture and all kinds of other very important uses that 
make it kind of hard to figure out how to restore the salmon. 
Here virtually all of this river is in a national park. There 
is no agriculture. Except for these two old dams, there's 
nothing else impeding the restoration of the salmon. If we want 
to actually get some bang for our buck in spending money to 
restore salmon, this is the place to do it because all of this 
river is in a national park.
    Mr. Skeen. That's one of the largest spawning areas.
    Mr. White. Yes, sir, it had--all five species of salmon 
have spawned here for centuries. It's just an opportunity 
where, if we spend a little bit of money, $24 million, on a 
one-time basis this year, that will allow us to acquire these 
dams, plan a little bit for the best way to restore salmon, and 
once we've spent that money, we've got something that will 
actually work. We don't have to deal with agriculture and 
irrigation and all the other problems because this river is in 
a national park. I think if we're looking for a place where we 
can spend our money and really make some difference, this is 
just a wonderful opportunity.
    Mr. Skeen. So all the water rights belong to the Federal 
Government then?
    Mr. White. The last 15 miles is outside of the park, and--
--
    Mr. Skeen. Which is private then?
    Mr. White. It is----
    Mr. Skeen. Riparian?
    Mr. White. Yes, it is riparian. That's exactly right. 
That's an issue I think we could deal with very easily. The 
great bulk of the river is in the national park, and it's in 
the same condition it's been in for thousands of years. It's a 
perfect spawning habitat for salmon.
    Mr. Skeen. Has there been a large decline in the spawning 
numbers, and so forth?
    Mr. White. Well, yes, sir, because one of the dams is 
actually in the park, and then there's another dam just a 
little bit down the river.
    Mr. Skeen. I see.
    Mr. White. And there's just--I was out there six months ago 
with my kids. There's no way in the world a salmon could get 
over that dam without an elevator or a helicopter, or something 
else. I mean, it is a big dam.
    Mr. Skeen. They don't have a fish ladder or----
    Mr. White. No fish ladder. This was all built before the 
time when we knew that we should put fish ladders into this 
sort of river.
    Mr. Skeen. Yes.
    Mr. White. So it's just a wonderful opportunity to actually 
get some value from the $24 million we spend, instead of 
putting $435 million every year into the Columbia River, where 
we're not seeing much bang for our buck. And I just appreciate 
the committee's consideration of that.
    Mr. Skeen. Well, we appreciate the presentation, and I have 
to tell you that I lived in Port Angeles and in Seattle, and 
it's a beautiful part of the country, but the greatest thing 
was all of us coming from New Mexico into that area. My father 
was an engineer, worked around the paper mills----
    Mr. White. Yes, sir.
    Mr. Skeen [continuing]. And he went fishing out there, and 
we're used to catching nice trout or bass, and so forth. He 
caught a 35-pound salmon, and he had that--in those early days, 
this was back in the thirties or forties, or somewhere along in 
that area----
    Mr. White. That's right.
    Mr. Skeen [continuing]. And he had it shipped to New Mexico 
just to show people what a real fish looked like. [Laughter.]
    Mr. White. I'll tell you, Mr. Chairman--or, Mr. Acting 
Chairman--if you guys can appropriate a little money for this 
dam, in a few years we'll catch a 100-pound salmon up there in 
that river. [Laughter.]
    That's what there used to be in----
    Mr. Skeen. Let's go for it.
    Mr. White. Okay, thank you, sir.
    Mr. Skeen. Thank you very much.
    [The information follows:]


[Pages 807 - 808--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                             FOREST SERVICE

                                WITNESS

HON. JOHN E. PETERSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

    Mr. Skeen. The Honorable John E. Peterson, welcome.
    Mr. Peterson. Thank you and good afternoon.
    Mr. Skeen. You've been very patient.
    Mr. Peterson. Yes. Well, good afternoon, Mr. Skeen, and 
fellow members and staff. I'm pleased to be here today to 
testify on behalf of the Allegheny National Forest. I have 
detailed testimony which we'll submit for the record, and I'll 
just go over it very quickly.
    Mr. Skeen. Your whole testimony will be entered in the 
record.
    Mr. Peterson. Yes, sir.
    The Allegheny National Forest is 513,000 acres which lie 
completely in my congressional district of Pennsylvania. Today 
I would like to recommend to the committee three priority 
projects on the forest that fall under the jurisdiction of the 
United States Forest Service, two under Recreation and 
Construction and one under Fire, Administration, and Other.
    The first project is construction of a Marienville office. 
Currently, the Allegheny National Forest employees work out of 
two small office buildings, a trailer, and two warehouses 
located separately in different areas. This leads to 
inefficiencies in work coordination, additional travel, 
communications costs, additional administrative and management 
costs.
    For over a decade, the Allegheny National Forest has been 
requesting funds to construct a central office at Marienville 
and has been unsuccessful. This would allow for disposal of 
inadequate office space and would free-up land in the center of 
Marienville, a small town in Forest County, to some other use 
than the Forest Service warehouse. This would benefit the rural 
development of one of Pennsylvania's poorest counties. The 
total size of the new office space is estimated to be 12,000 to 
14,000 square feet. Much of the existing infrastructure--roads, 
water, sewer system, electrical, storage buildings--would be 
used in the construction. New construction would include 
expanding parking for employees and visitors, a new sewage 
treatment system, and a new workshop warehouse of approximately 
5,000 square feet. The total cost of this first project is 
$1.75 million.
    The next two projects fall under Recreation and 
Construction. The first project is boat-access campgrounds on 
the Allegheny Reservoir, which involves the rehabilitation of 
three of five boat-access campgrounds on the 12,000-acre lake. 
Completion of this project will finish a larger project started 
by rehabilitation of the first two boat-access campgrounds on 
the reservoir.
    The prime reason for rehabilitation is environmental 
protection--leaking underground sewage facilities. In addition, 
this would reduce future maintenance needs and reduce 
backlogged maintenance.
    The capacity of the campgrounds is considerably exceeded on 
the weekends due to poorly defined campsites. Use at this 
campground has totalled 11,800 recreation visitor days 
annually. These sites were constructed in 1960 and have 
outlived their expected lifespan. Repairs also include 
replacing pit toilets with sweet-smelling toilets, redefining 
existing sites and additional sites, where appropriate; provide 
accessible path from the shoreline to some campsites, water 
pumps, and toilets; install underground sewer pumping line for 
easier, more sanitary pumping of the vaults. Total cost: 
$200,000.
    Finally, the third project is the Buckaloons Recreation 
Area rehabilitation. This area is located well within the 
heritage resource area and is within the designated Wild and 
Scenic River Corridor of the Allegheny River. Customer 
complaints center around water facilities, parking, and access. 
The primary purpose of this project would be to provide 
improved shower/toilet facilities, increase parking at the 
boat-access lot, add electrical hookups to some sites, and add, 
again, the sweet-smelling toilets. Total cost: $291,000.
    Mr. Skeen and members, I think it's important to note that 
the Allegheny National Forest is a very profitable forest. 
During Fiscal Year 1996, the Allegheny National Forest 
generated a profit of nearly $9 million from its timber sale 
program that goes back into the U.S. Treasury. In addition, the 
Allegheny National Forest is saddled with a $10 million 
maintenance backlog. Funding for this project would return 
needed dollars to the forest area to better serve our customers 
and visitors, and would really enhance the tourism of this 
area.
    Mr. Skeen. Thank you. What is--where did the name 
Buckaloons derive from?
    Mr. Peterson. Well, it's an Indian settlement. All along 
the Allegheny River that was an Indian settlement, and that--
I'm not sure how they retained that, but it was an area that 
was highly inhabited by Indians.
    Mr. Skeen. But that's where it came from?
    Mr. Peterson. That's where it came from, yes.
    Mr. Skeen. Well, thank you. It sounds like you've got a 
beautiful recreational area.
    Mr. Peterson. Yes, the Allegheny National Forest----
    Mr. Skeen. All it needs is sweet-smelling toilets.
    Mr. Peterson. That's right. [Laughter.]
    Mr. Skeen. I'm very interested in that project.
    Mr. Peterson. Okay. [Laughter.]
    Mr. Skeen. Thank you very much.
    Mr. Peterson. You betcha. Thank you for your time.
    Mr. Skeen. I thought that would get a chuckle. You raised 
our interest level. [Laughter.]
    [The information follows:]


[Pages 811 - 814--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

             THE EDWIN B. FORSYTHE NATIONAL WILDLIFE REFUGE

                                WITNESS

HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY

    Mr. Skeen. Do we have any other presenters? Shall we just 
wait on them.
    Oh, here we go. We've been looking for you. The sheriff's 
out after you. [Laughter.]
    Welcome.
    Mr. Saxton. Thank you.
    Mr. Skeen. Mr. Jim Saxton.
    Mr. Saxton. It's nice to be here again.
    Mr. Skeen. We're delighted to have you here.
    Mr. Saxton. I'm delighted to be here.
    Mr. Skeen. What can we do for you?
    Mr. Saxton. Well, we've got this little area back in the--
--
    Mr. Skeen. We'll put your entire written testimony into the 
record.
    Mr. Saxton. That would be great.
    We've got this little area back in New Jersey which is 
known as the Forsythe Wildlife Refuge. It consists of about 
42,000 acres. We have been able to acquire property all the way 
from Cape May to Sandy Hook, which is a run of about 100 miles, 
and that 42,000 acres has been of tremendous benefit to 
wildlife, particularly migratory birds. And of course we 
protect the entire ecosystem and manage it very carefully.
    And what we have found is that most of the land that we 
have been able to acquire has been land which is wetlands, 
which is right along the bay and the estuaries that feed into 
it, and we have found now that it is necessary to acquire 
uplands to protect the land that we have already acquired, 
where the drainage begins and drains down into the uplands. As 
you know, I guess, New Jersey is one of the most densely-
populated States in the country, and the population along the 
coast east of the Garden State Parkway is where the growth 
takes place, and it jams people continually into this area 
because of the dynamics of the area and the places that people 
want to live.
    And so if we are going to have an area there that is 
friendly to wildlife and friendly to migratory birds in 
particular, then we need to protect it, and, therefore, we are 
asking for $3 million to acquire additional uplands to protect 
the investment that we have already made.
    Secondly, the land which is immediately inland from the 
Garden State Parkway is known as the Pinelands Preserve, and 
there has been established a State and Federal partnership to 
protect this land and this ecosystem, and we're asking for $9 
million as a match to the State of New Jersey, who is also 
putting up $9 million for environmental protection facilities 
and efforts in that area.
    It seems to me there is one other thing of importance in my 
testimony here. Oh, yes, the administration has requested $10 
million for Canada goose research. These birds are quite 
fascinating and quite complicated. I had no idea until a year 
or so ago that there are at least a half a dozen or maybe more 
subspecies, and----
    Mr. Regula. Three hundred of them are on my pond. 
[Laughter.]
    Mr. Saxton. And those are the kind that don't migrate; 
they're the bigger birds, and they're, besides being called 
``geese,'' they're called a number of other things. [Laughter.]
    But our understanding of the subspecies, while those birds 
are so darned prolific that we're trying to invent new ways to 
get rid of them, the species that migrate along the East Coast 
from northern Canada are in very short supply, and the 
biologists are trying to figure out how to get this thing back 
in balance, so that we don't have so many geese messing up our 
front yards on a year-round basis while the other ones are 
becoming endangered or even extinct. So that's what that $10 
million is for.
    So those are my very modest requests, and I'm sure you'll 
see fit to put them all as they are in your markup.
    Mr. Skeen. We'll modestly try. [Laughter.]
    Mr. Saxton. Well, we modestly--we greatly appreciate it, 
without any modesty at all. [Laughter.]
    Mr. Skeen. We thank you.
    Mr. Saxton. Thank you.
    Mr. Regula. The geese do enhance the fertility of golf 
courses.
    Mr. Skeen. Let me ask you a question. You mentioned the 
water runoff, and if you--you're trying to purchase them or 
purchase the uplands, so that you can control the water?
    Mr. Saxton. Well, controlling the water in a passive way. 
If we leave the ecosystem and if we leave the habitat the way 
it is without building----
    Mr. Skeen. But you would manage the water better? Or has it 
been causes erosion, and so forth?
    Mr. Saxton. It's not erosion; it's more pollution.
    Mr. Skeen. Just pollution?
    Mr. Saxton. It's from fertilizer, pesticides, herbicides--
    Mr. Skeen. I see.
    Mr. Saxton. And if we don't have houses there, we don't 
have lawns in there; therefore, those issues are not problems 
to the Forsythe Refuge.
    Mr. Skeen. Thank you. Thank you, Mr. Chairman.
    Mr. Regula [presiding]. Thank you. Thank you, Joe, for 
covering.
    Mr. Skeen. Thank you.
    [The information follows:]


[Pages 817 - 819--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

            DEPARTMENT OF ENERGY--LOW EMISSION BOILER SYSTEM

                                WITNESS

HON. RAY LaHOOD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS

    Mr. Regula. Mr. LaHood I think is----
    Mr. LaHood. Yes, sir.
    Mr. Regula. You're next.
    Mr. Skeen. Is that the infamous Ray LaHood?
    Mr. Regula. And he'll be civil to us.
    Mr. LaHood. Mr. Chairman, of course I will be. [Laughter.]
    Thank you for allowing me to make an appearance here and 
offer a few comments about a project known as Low Emission 
Boiler System Project, which is in my district. It's just south 
of Lincoln, Illinois. It's between Peorie and Springfield, 
along a corridor of Illinois 155, and this is a project that 
has been coordinated by the Department of Energy's Office of 
Fossil Fuels. And the Prairie Energy Project was one of three 
projects. It was awarded a cost-share contract by DOE. It is in 
the final design work, and construction on the proof-of-concept 
facility would be located in my district at the Ziegler 
Company/Turris Coal Mine in Elkhart.
    The State of Illinois has pledged $3 million for support of 
the project. The team and the State of Illinois have committed 
together nearly 75 percent of the total project, and the 
remaining 25 percent of the funds is being sought from Federal 
sources. And this is, obviously, a very good public/private 
partnership.
    It would provide 30 new jobs in this small community of 
Elkhart and stability for 20 coal miners and work for 50 
engineers. It has a very positive impact on the coal-mining 
industry. It currently employs 100,000 coal miners. It would 
provide 20 percent more efficient than current power plant 
technology, keep the U.S. at the forefront of coal-fired power 
plant technology, and provides a potential export market for 
American companies, and provides 70 percent less nitrogen oxide 
emissions than current conventional systems, and removes 98 
percent of sulfur dioxide pollutants.
    It's obviously a very important project, and we believe, 
because of the partnership here and the funding, we hope you 
will deem it as meritorious and give it your most serious 
consideration.
    And if a copy of my full testimony could be entered into 
the record, I would be grateful for that.
    Mr. Regula. Without objection.
    Is this a mine mouth operation?
    Mr. LaHood. Yes.
    Mr. Regula. And they must have a generating plant there now 
that would close?
    Mr. LaHood. Yes. It's one of the few still underground 
mining operations that exists in Illinois.
    Mr. Regula. Is it deep?
    Mr. LaHood. It is.
    Mr. Regula. Oh, Barbara says she's been there.
    Mr. LaHood. Oh, I'm planning to go there in about the next 
10 days. I had to cancel a tour, but I hope to be there very 
soon. But it is underground, yes.
    Mr. Regula. Sounds a little scary. [Laughter.]
    Mr. LaHood. Well, if you're claustrophobic, I guess it will 
be.
    I'd love to have you come. Ralph, if you'd love to, I'd 
love to have you come out and tour with me.
    Mr. Regula. Well, I grew up around the coal industry. 
That's why I've got the picture.
    Mr. LaHood. You're more than welcome to come along.
    Mr. Regula. Okay.
    Mr. LaHood. I'm sure they'd love to have you.
    Mr. Regula. Thank you.
    Mr. LaHood. Thank you very much. I appreciate it.
    [The information follows:]


[Pages 822 - 823--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

           BLACKSTONE RIVER VALLEY NATIONAL HERITAGE CORRIDOR

                                WITNESS

HON. PATRICK KENNEDY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    RHODE ISLAND

    Mr. Regula. Patrick Kennedy, you're next on the list here.
    Mr. Patrick Kennedy. Thank you, Mr. Chairman. I don't need 
to tell you about the value of heritage corridors.
    Mr. Regula. No.
    Mr. Patrick Kennedy. You can well appreciate. You've been a 
great champion of heritage corridors, and I'm grateful for 
that, because the Blackstone Valley Heritage Corridor in my 
State and in southern Massachusetts has revived an historical 
area that had been in desperate shape as the result of the 
post-Industrial Revolution Era, where all those manufacturers 
went away, but those historical structures are still there, 
where the birth place of the Industrial Revolution in 
Pawtucket, Rhode Island, which is right in the middle where our 
visitor center is.
    And as a result of some modest Federal support, we have 
been able to put boats on the river that would take tourists 
around and to help expand our tourist economy incredibly. 
Businesses along the river corridor are thrilled to have this 
in their back yards, and they've done a lot to work with the 
local people to comply with zoning ordinances and the like.
    And, basically, we were thrilled that we got your support 
to have this passed through the authorization bill, and now we 
need to make sure there's the adequate funding to ensure its 
implementation. We are asking double the amount of operating 
funds because the corridor has been expanded by----
    Mr. Regula. Is this--your request, is that offset by a 
matching amount from the State and/or local community?
    Mr. Patrick Kennedy. Yes, it has been. The local community 
is matching the dollars that the Federal Government provides.
    Mr. Regula. I thought that's the way it is.
    Mr. Patrick Kennedy. Yes. And it backs a good punch for its 
dollar, I can assure you.
    Mr. Regula. Yes, I understand. Okay.
    Mr. Patrick Kennedy. Thank you very much, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Regula. Yes.
    [The information follows:]


[Pages 825 - 826--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                 NATIONAL FISH AND WILDLIFE FOUNDATION

                                WITNESS

HON. TOM BLILEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    VIRGINIA

    Mr. Regula. Mr. Chairman, your statement's a part of the 
record.
    Mr. Bliley. Thank you very much, and I'll be brief in 
respect to the committee's time.
    I'm here on behalf of the National Fish and Wildlife 
Foundation. You know all about them. I'm requesting $11.5 
million----
    Mr. Regula. Oh, this is for the Foundation, yes.
    Mr. Bliley. Yes, that's $7.5 million for Fish and Wildlife, 
$2 million to the Bureau of Land Management, and $2 million, 
Forest Service. You know, for every dollar you give them, they 
raise two on the outside. They pay all of their operating 
expenses with private money.
    Since it was founded, since Fish and Wildlife was founded, 
it's awarded over 1,400 grants and 199 million. I'm 
particularly here today because last year Chesterfield County, 
Virginia, which is suburban Richmond, was offered the 
opportunity to purchase more than 800 acres of wildlife areas 
along the James River, an area that industrial development was 
encroaching on, for a price of $1.65 million. Chesterfield 
envisioned establishing the first county-owned and -operated 
wildlife protection area in Virginia, and it's known as the 
Dutch Gap Conservation Area. It's known as Dutch Gap because in 
the war of northern aggression there was a----
    Mr. Regula. They don't quit, do they? [Laughter.]
    Mr. Bliley [continuing]. There was a bend in the river, and 
the Union, very smartly, dug a channel across and bottled up 
the Confederate fleet in the Dutch Gap.
    But, anyway, they went to Fish and Wildlife, and Fish and 
Wildlife worked with the North American Wetlands Council to 
secure grants of more than $531,000, and today that 800 acres 
is now available, and will be available for all time for the 
public.
    Mr. Regula. Do Union folks go there and visit?
    Mr. Bliley. Yes, sir, absolutely. Absolutely. [Laughter.]
    So I can't commend them too highly, and I know you'll do 
the best you can within the constraints you have to work with. 
Thanks a lot, Mr. Chairman.
    Mr. Regula. It sounds like a good project, and I think the 
Foundation has done a lot of good work.
    Mr. Bliley. Excellent work.
    Mr. Regula. It's a partnership. We're trying to encourage 
those.
    Mr. Bliley. Yes.
    Mr. Regula. It maximizes our dollars.
    Mr. Bliley. Absolutely.
    Mr. Regula. Yes.
    Mr. Bliley. Thanks a lot.
    Mr. Regula. Thank you.
    [The information follows:]


[Pages 828 - 829--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

       NATIONAL PARK SERVICE BERRY HILL PLANTATION SLAVE CEMETERY

                                WITNESS

HON. VIRGIL H. GOODE, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF VIRGINIA

    Mr. Regula. Let's see, I think you're up. We're missing 
some Members here.
    Mr. Goode. Mr. Chairman, thank you very much. I know the 
Chair has to sit through committees through this, and I thank 
you for hearing----
    Mr. Regula. Well, it's quite interesting. I just wish I had 
a printing press because we've got so many good projects.
    Mr. Goode. Exactly.
    Mr. Regula. And there are limited funds. You're talking 
about a Park Service project. Is this a preservation?
    We'll put your statement in the record.
    Mr. Goode. Right.
    Mr. Regula. Tell me a little bit about it.
    Mr. Goode. All right. This is asking for a study of the 
slave cemetery located at Berry Hill Plantation in South 
Boston, Virginia.
    And I would like to quote from the letter of Dr. Jerome S. 
Handler. You've got the full letter there. ``[I]f this cemetery 
contains 200 to 250 slaves and if it dates to the antebellum 
period and if it has not been disturbed since the original 
interments were made, then this cemetery is, as far as I am 
aware, the largest and earlier undisturbed African descendent 
plantation cemetery yet reported in the Americas, including the 
United States, the Caribbean, and South America.''
    And Berry Hill was a plantation near South Boston, Virginia 
that now sits on a 682-tract of land, and I have been down 
there and looked at the cemetery, and it is very elementary, 
but you can see the rows and rows of rocks.
    Mr. Regula. Well, was this a cemetery that served an entire 
area?
    Mr. Goode. Right.
    Mr. Regula. All the slaves, as they were deceased, were 
they buried here; is that right?
    Mr. Goode. That's right.
    Mr. Regula. Who maintains it at the moment?
    Mr. Goode. It's not maintained. It's in the woods on Berry 
Hill Plantation.
    Mr. Regula. It's overgrown then?
    Mr. Goode. It's overgrown.
    Mr. Regula. Is the plantation surrounding it?
    Mr. Goode. The plantation--the cemetery is here and the 
plantation is here. The cemetery is located on the plantation 
property.
    Mr. Regula. So, technically, the owner of the plantation 
owns the cemetery?
    Mr. Goode. That's correct.
    Mr. Regula. Do you contemplate that this would be given to 
the Park Service?
    Mr. Goode. There's likely going to be a new owner. Several 
corporations have looked at Berry Hill, and Berry Hill is a 
national historic landmark, and it would--I can't--I couldn't 
presume to speak for who----
    Mr. Regula. What would a corporation want it for?
    Mr. Goode. On retreats.
    Mr. Regula. Oh.
    Mr. Goode. And it not only has the manor house, if you 
will, but it also has all the slave quarters, outbuildings. It 
was one of the largest plantations in operation before the war.
    Mr. Regula. Was it tobacco or cotton? Do you know?
    Mr. Goode. Tobacco and wheat.
    Mr. Regula. How many acres is the plantation?
    Mr. Goode. It's 682 now, but at one time it was thousands 
and thousands of acres. It's been whittled down to that.
    Mr. Regula. So this cemetery is just overgrown, but it's 
part of the plantation?
    Mr. Goode. It's part of the plantation. It's kind of on the 
back side on a hill. And we would like--if the Park Service and 
other entities could----
    Mr. Regula. Well, you say the preservation of the slave 
culture, including mansion, outbuildings, the residence, stone 
quarry, et cetera, ice pond. Now is this part of what this 
corporation would include in their retreat facility?
    Mr. Goode. I would--you know, I generally couldn't speak 
for them, but I would think they would only want the main house 
and maybe the outbuildings right near that, and not--the slave 
quarters are scattered throughout the plantation, and there are 
some quarters over next to the slave cemetery.
    Mr. Regula. So what you contemplate would be sort of an 
overall example of the slave culture of yesteryear?
    Mr. Goode. That's right. And there have been persons from 
the Park Service down and touring it.
    Mr. Regula. Has the Park Service expressed any opinion on 
it?
    Mr. Goode. Yes, they--I have a letter from the Northeast 
Field Area Director, Marie Rust, and here's what she states: 
that ``the slave quarters, work buildings, and slave cemetery 
and the cultural landscape of the plantation constitute one of 
the best preserved slave environments surviving in the United 
States today. These rare resources would benefit from sensitive 
conservation planning.''
    Mr. Regula. I don't know that there's anything like that in 
the United States at this time.
    Mr. Goode. No.
    Mr. Regula. Okay, thank you.
    Mr. Goode. Thank you, sir.
    Mr. Regula. Who's district did you take?
    Mr. Goode. L. F. Payne.
    Mr. Regula. Oh, okay.
    Mr. Goode. Fifth district of Virginia.
    Mr. Regula. Okay, thank you.
    Mr. Goode. Thank you, Mr. Chairman.
    [The information follows:]


[Pages 832 - 834--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                     WHITE MOUNTAIN NATIONAL FOREST

                SILVIO O. CONTE NATIONAL WILDLIFE REFUGE

                                WITNESS

HON. CHARLES F. BASS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW HAMPSHIRE

    Mr. Regula. Okay, Mr. Deal--oh, Mr. Bass, you're next on 
the list, right? Okay.
    Mr. Bass. Here we go.
    Mr. Regula. Here we go.
    Mr. Bass. Thank you very much, Mr. Chairman. As one who has 
been through two weeks of Member days on the ISTEA 
reauthorization, I want to thank you very much----
    Mr. Regula. You're even more popular than we are. 
[Laughter.]
    Mr. Bass. I want to thank you very much for taking the time 
to listen to folks like me.
    I appeared here both two years--I guess last year--in 
support of an acquisition proposal--Matt, do you have an extra 
copy of the map?--the Lake Tarleton Project. I'm going to give 
you my talking points, so I'm going to be very----
    Mr. Regula. Yes, we'll put them in the record.
    Mr. Bass. I have a full testimony here for the record, but 
I'm going to give you this, so that you can--it's a summary 
here.
    What we're looking for is $2.65 million to complete the 
Forest Service land acquisition of 1,900 acres----
    Mr. Regula. That would be these white spaces?
    Mr. Bass. They're out. The part I'm talking about now is 
the purple area.
    Mr. Regula. Oh, I see.
    Mr. Bass. You bought last year the red area.
    Mr. Regula. Okay.
    Mr. Bass. We're looking for the purple area in the lower 
part, not the upper part. Set your pencil on it and --yes, 
right there.
    Mr. Regula. Yes.
    Mr. Bass. That's correct.
    Mr. Regula. What's the nearest city to that?
    Mr. Bass. How do you define a city?
    The largest city in my district is probably smaller than--
--
    Mr. Regula. Well, I think in our area it's anything over 
5,000.
    Mr. Bass. Oh, Lebanon, which is about 30 miles away as the 
crow flies to the southwest.
    Mr. Regula. It seems to me when I was up there, Bob Dole or 
somebody pointed out this lake, but I'm not sure----
    Mr. Bass. If he did, you were not where Bob Dole should 
have been in order to win the election, unless he was trying to 
get the animal and the wildlife vote. [Laughter.]
    Mr. Regula. Well, then it must have been a different lake.
    Mr. Bass. This is rural Grafton County way up pretty far 
north. I've been on this lake before, and what it consists of 
is three different efforts here. There's the Forest Legacy 
Fund, which is in orange; the purple is the part we're looking 
for to complete the project for the Federal Government, and 
then that pink section, which is right on the edge of the lake 
there on the west side, is the part that the State is going to 
purchase with their resources, which would be--I can't recall 
the exact amount, but it's something less than a million 
dollars.
    Mr. Regula. Now what is this, a playground for----
    Mr. Bass. Say that again?
    Mr. Regula. Is this a playground for fishermen, sportsmen?
    Mr. Bass. Well, this particular area is----
    Mr. Regula. How is it used?
    Mr. Bass. It's used mostly for recreation. There's a summer 
camp on the lower part of the lake, which is a small out-block, 
and it's just part--it's annexed and part of the White Mountain 
National Forest. It's--it would be the largest, or is the 
largest, lake in the White Mountain National Forest, and 
obviously it's undeveloped.
    The most expensive part, frankly, is the part, on a per-
acre basis, is the part the State is contemplating purchasing. 
At the present time there's a huge sewer system installed. So 
it's going to be a very large developmentconstructed there. The 
State is going to buy all the lots along the west side of the lake.
    You might be interested to know that the President's budget 
request has this item in it at $2.65 million. It's their 
fourth--ranked fourth on the Forest Service Acquisition 
Priority List. So I would, obviously, appreciate your support 
for this because it would protect this undeveloped lake, and as 
I said a minute ago, provide recreational opportunities, and it 
has a lot of, obviously, a lot of local community support, and 
the State of New Hampshire, which is highly unusual, is willing 
to make--or will be willing to make--a very significant 
contribution to complete this project. So we've certainly shown 
our interest in this project, and we hope that the Congress 
will do the same.
    Mr. Regula. I assume that you get visitors from 
metropolitan areas----
    Mr. Bass. Yes.
    Mr. Regula [continuing]. Boston, New York----
    Mr. Bass. We have excellent transportation routes up here. 
If you look in the middle of the map, right above the legend, 
over ``New Hampshire,'' the letters ``New Hampshire,'' you'll 
see Route 93, which is a very big highway that goes to the 
north country, and it is--it's fairly easy, actually, to get to 
this place. That's one of the reasons why it's so endangered, 
because you get a four-lane highway up to within about--let's 
see the scale--oh, yes, about five miles from the lake, and 
then it's just five miles to the northwest of that. So, 
obviously, there was enormous pressure to develop this area.
    Mr. Regula. I'm sure they had.
    Mr. Bass. It would be a great asset to the State and to the 
White Mountain National Forest, of course.
    Mr. Regula. Do you have something on Silvio O. Conte?
    Mr. Bass. Well, there is an item in the President's budget 
request for $2 million for land acquisition in the Conte 
Refuge. This is a--I believe it's been earmarked to purchase a 
piece of land up in Whitefield, which is much farther north, up 
in Coos County. I'm hopeful that the subcommittee might 
consider including language that would prevent the Fish and 
Wildlife Service from taking land from an unwilling seller with 
any of this money. Now there isn't any unwilling seller, but I 
had a bill in last year which passed both the House and Senate, 
and was vetoed by the President, and it would be, I think, 
symbolic, but important, if the appropriation language included 
that limiting language, even though it won't have any impact 
one way or the other on this particular appropriation.
    Mr. Regula. Okay.
    Mr. Bass. All right, thank you very much, Mr. Chairman. I'm 
going to give you these talking points because it's a quick 
reference.
    Mr. Regula. Yes.
    [The information follows:]


[Pages 838 - 841--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

          CHATTAHOOCHEE NATIONAL FOREST NATIONAL FISH HATCHERY

           CHICKAMAUGA AND CHATTANOOGA NATIONAL MILITARY PARK

                                WITNESS

HON. NATHAN DEAL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    GEORGIA

    Mr. Regula. Mr. Deal?
    Mr. Deal. Thank you, Mr. Chairman, for the opportunity to 
address your subcommittee today. I have two issues, both of 
which you're familiar with.
    I'll start with the one that you have helped me wrestle 
with over the last couple of years, and that is the completion 
of the bypass around the Chickamauga/Chattanooga Battlefield. 
As you'll recall, this is U.S. Highway 27. It is to be four 
laned from the Tennessee border in the north all the way 
through the State of Georgia to the Florida line in the south. 
We are talking about a segment at the very uttermost northern 
part of this corridor. The Chickamauga/Chattanooga Battlefield 
is within 10 miles of the Tennessee border.
    The plan was designed back in 1985, in which the State of 
Georgia requested the right to expand the existing roadway 
which traverses through the middle of the park. The Interior 
Department and the Park Service said, no, they didn't want to 
do that, that they wanted to reroute it around the edge of the 
park. This is a project that began in 1985, and we are still 
not anywhere close to completing it. A substantial part of it 
has been done.
    Mr. Regula. It's built, part of it?
    Mr. Deal. Part of it is built. The more expensive part is 
on the northern border in which you have to have a rather 
elaborate bridge interchange to connect it back and get it back 
to the roadway in the north.
    Mr. Regula. So this would bypass the park?
    Mr. Deal. It bypasses the park around the edge of the park, 
yes.
    Mr. Regula. And you've built part of it?
    Mr. Deal. They have built part of it.
    Mr. Regula. How did you do part of it----
    Mr. Deal. Well, we've had to--it's an ongoing battle. As 
you'll recall, this had been an item in the budget up until two 
years ago, in the Interior budget. Whatever their reasons were, 
they did not see fit to include it in their budget request. 
With your help, we were able to amend the National Highway 
System language to allow them to use their national parkway 
program out of the trust fund money.
    I would not be making this request except for the fact I 
feel like I'm getting caught in a crossfire. I have asked the 
Park Service for a commitment as to how much money they would 
be willing to spend through that funding source to begin to 
complete it. We would like $17.7 million of Federal 
appropriations remaining under the authorized amount to finish 
it.
    Mr. Regula. Which you need to complete it?
    Mr. Deal. We need to complete it.
    Mr. Regula. Yes, I mean, the $17 million would finish it?
    Mr. Deal. The $17.7 million would finish it. It is 75 
percent Federal, 25 percent State.
    Mr. Regula. Twenty-five local?
    Mr. Deal. The State has been more than willing to put up 
their money. In fact, they would like to have an appropriation 
that would finish the project this Fiscal Year. They're willing 
to do their part to complete that.
    Mr. Regula. This wouldn't be an interstate, but it would be 
a four-lane divided?
    Mr. Deal. It would be a four-lane--parts of it have a 
median; part of it would not, yes.
    My request in my written testimony, which I would hope you 
would make a part of the record, is----
    Mr. Regula. Without objection.
    Mr. Deal [continuing]. Is to divide that in half, ask for 
the $8.85 million this year, and then, hopefully, get the 
remaining half in the next year. Now the thing that concerns 
me, Mr. Chairman, is where we might be if we totally look to 
the trust fund money. I requested them to give me a figure that 
they were willing to commit from that funding source for this 
Fiscal Year----
    Mr. Regula. The Park Service would commit from their trust 
fund money?
    Mr. Deal. Yes. I felt that, in order to secure this 
project, I had to ask that question, to tell the State how much 
money they should be expecting to try to match----
    Mr. Regula. Right.
    Mr. Deal [continuing]. I did not get an answer in terms of 
a dollar figure. The answer I got was that it was all 
contingent upon reauthorization of ISTEA, and that they are 
asking for a separate category. As I understand it, they would 
put this project in a systems completion category in ISTEA. 
Now, to me, that is very ``ify.'' We don't know whether or not 
that's going to ever even be approved or not, and I don't think 
it is fair for the State of Georgia or for my constituents, or 
for anyone else, to leave this project uncompleted. It's a 
terrible inconvenience in that area. It's a very congested part 
of the State. As you know, Chattanooga sits right at the 
border, spills over into my district, and this is traffic 
coming right out of Chattanooga that we need to move.
    Mr. Regula. How much was built?
    Mr. Deal. Mr. Chairman, probably--it's only 5.7 miles.
    Mr. Regula. The whole thing?
    Mr. Deal. Most of the road work part has been completed. 
Some of the supports for overpasses have already been built. 
The most expensive part is this northern section to tie it back 
in----
    Mr. Regula. It's a cloverleaf?
    Mr. Deal [continuing]. And because of its terrain, it's a 
cloverleaf, yes.
    Mr. Regula. So the right-of-way is purchased?
    Mr. Deal. The right-of-way is purchased. That was what took 
so long in the initial stages and the most expensive part was 
right-of-way acquisition and the initial construction phases. 
The most expensive part at the tail-end is this interchange, 
and that's where the 17.7 million Federal dollars has to come 
from.
    I appreciate your indulgence on that. Let me skip quickly 
to the second project, and it is relatively small in the 
overall scheme of things. That is the Chattanooga Forest 
National Fish Hatchery. The administration has included 
$244,000 in their budget to cover continuing operation of this 
fish hatchery. It is rather unique, and I simply ask that you 
keep that request in the President's budget for that $244,000.
    Mr. Regula. Okay, thank you.
    Mr. Deal. Thank you, sir.
    [The information follows:]


[Pages 845 - 846--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                        HOOSIER NATIONAL FOREST

                                WITNESS

HON. LEE H. HAMILTON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Regula. Mr. Hamilton?
    Mr. Hamilton. Good afternoon, Mr. Chairman. Thank you very 
much.
    Let me give you a map here that will be helpful to you. I 
ask my statement be put into the record, of course.
    Mr. Regula. Without objection.
    Mr. Hamilton. This is just a request for $500,000 for land 
acquisition.
    Mr. Regula. What is this, to buy----
    Mr. Hamilton. Hoosier National. As you can tell from that 
map, Hoosier National is quite a large area. There are two 
segments to it, but it's a very fragmented ownership. Only 
about 30 percent of the land is now acquired.
    Mr. Regula. Do you mean only 30 percent inside the red 
boundaries?
    Mr. Hamilton. That's right. This shows you a little better 
because it shows you the green is the part that is now Hoosier 
National.
    Mr. Regula. Oh, yes.
    Mr. Hamilton. There's an awful lot of land that needs to be 
acquired.
    Mr. Regula. We had the same problem with the Wayne.
    Mr. Hamilton. Yes.
    Mr. Regula. I think they're almost twins.
    Mr. Hamilton. They're very similar. Wayne is very similar 
to the Hoosier. And, of course, it would be done on--there are 
no condemnations here. There are a lot of significant pieces of 
land that are ready to be purchased, the sellers want to sell 
it, so we need to continue the funding, and I'd appreciate very 
much a similar amount as we had this past year in the 1997 
bill, $500,000; we're making the same request this year.
    Mr. Regula. Okay. You'd like to eventually connect all of 
these?
    Mr. Hamilton. Yes, eventually. It's a long-term process. 
Right now you've got a situation where the management is very 
difficult because the land ownership pattern is fragmented, and 
we're gradually putting it together is what we're doing.
    Mr. Regula. I assume this land is not terribly expensive as 
land goes anymore?
    Mr. Hamilton. Yes, it's very inexpensive. I'm reluctant to 
give you a figure, but it's a few hundred dollars an acre or 
less there. It's not very productive land. It's very hilly 
and----
    Mr. Regula. It's very much like the Wayne.
    Mr. Hamilton. Yes.
    Mr. Regula. Do you get a fair amount of usage, sportsmen?
    Mr. Hamilton. We sure do, yes.
    Mr. Regula. Indianapolis is how far?
    Mr. Hamilton. Oh, it's a couple of hours away.
    Mr. Regula. Probably Cincinnati?
    Mr. Hamilton. Cincinnati is close-by; Louisville is close-
by. So you've got a lot of pressure on this land.
    Mr. Regula. They make great playgrounds, these areas.
    Mr. Hamilton. Oh, my, it's tremendous. This is a great 
asset for the State of Indiana.
    Mr. Regula. Oh, yes; Wayne is the same way.
    Mr. Hamilton. Yes. And I'm very appreciative of the support 
you've given in the past.
    Mr. Regula. Well, I'm sure you experience the same as we 
do. The farmers are getting urbanized; that is, the land. 
People who want to hunt, fish, they've got squeezed, and this 
is about it.
    Mr. Hamilton. This is it.
    Mr. Regula. Yes.
    Mr. Hamilton. We have in our State quite a push on farmland 
preservation now. Do you have that in Ohio?
    Mr. Regula. We have the same thing in Ohio. It's the same 
thing. The only problem is they don't want to buy it. They just 
want the farmer to preserve it free of cost.
    Mr. Hamilton. That's right. Thank you very much.
    [The information follows:]


[Page 849--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    FOREST SERVICE AND CONSTRUCTION

                                WITNESS

HON. ELIZABETH FURSE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    OREGON

    Mr. Regula. Yes, Mrs. Furse?
    Ms. Furse. Thank you, Mr. Chairman.
    Mr. Regula. You're welcome.
    Ms. Furse. Mr. Chairman, I have a longer testimony which 
I'll introduce.
    Mr. Regula. Yes, we'll make it part of the record.
    Ms. Furse. I'm here, Mr. Chairman, on two issues. One, to 
urge the subcommittee to shift money away from new forest road 
construction to maintenance of the roads we already have. It's 
very, very important in my area. And I'm also here to request 
$2 million in funding for the State of Oregon to inventory 
potential landslide areas in Oregon.
    Actually, the two issues are kind of linked. We have been 
plagued with very damaging floods in the Northwest. It's caused 
over $60 million of damage, our landslides, in the last two 
years. And many surveys have come out since the big rainstorms, 
showing that much of these landslides are the result of poorly-
maintained forest roads and poor logging practices.
    Mr. Regula. I was going to say, Are these on public or 
private lands?
    Ms. Furse. Public.
    Mr. Regula. Is this land that has been logged-over?
    Ms. Furse. In many cases it has been logged, and sometimes 
it has been logged as much as 10 years before.
    Mr. Regula. So there is some second growth then?
    Ms. Furse. Sometimes, yes.
    Mr. Regula. Does the landslide result from the fact that 
water is not retained by vegetation, which normally would be 
the case?
    Ms. Furse. That's right, and where there's been logging, 
Mr. Chairman, on very steep lands we see even worse. We had a 
very large tragedy in the State of Oregon. There was a mudslide 
that came as the result of a clearcut, and five people died in 
that mudslide. The entire house was swept away.
    And we've also had problems with the water clarity in both 
Portland and Salem. Again, we think it is because of these bad 
logging practices.
    Another issue with mudslides--and, again, connected to the 
clearcutting and to poor roads maintenance--has been the effect 
on our endangered salmon runs. We have many salmon runs going 
endangered, and when salmon was a big industry, it brought 
60,000 jobs and a little over a billion dollars a year in 
income. So the loss of that fishery has also been a huge 
economic loss. Moreover, there is now presently a great number 
of miles of road.
    And so I would like to ask the committee if they would 
consider five recommendations that I would have: one, decrease 
the construction of new forest roads. We already have 380,000 
miles of forest roads. Shift the money, would be another 
recommendation, away from building new roads to maintaining the 
roads we have. We know----
    Mr. Regula. And these are roads used largely by sportsmen?
    Ms. Furse. And by logging companies.
    Mr. Regula. Some logging yet?
    Ms. Furse. And recreation use. And where the roads are not 
maintained. Where the backlog is not kept up, recreation use is 
very damaged; people can't get back into those areas.
    Mr. Regula. I understand.
    Ms. Furse. The Forest Service believes that there is a $440 
million backlog in maintenance.
    I would also recommend increased funding for the 
decommissioning of unneeded roads. Sometimes it takes a little 
funding to decommission those roads.
    Mr. Regula. That is, you're trying to remove them? When you 
say, ``decommission,'' obviously, you just walk away from them?
    Ms. Furse. You have to----
    Mr. Regula. Are you saying it should be restored to 
probably bring in some drainage breaks, and so on?
    Ms. Furse. Yes. And I would particularly suggest that the 
committee look at decommissioning roads in critical fishery 
habitats because those are where we see the real damage to 
fisheries.
    I think we need to also prohibit funds for logging and 
road-building on steep and unstable slopes. We have got a lot 
of evidence to show that building roads on those slopes is just 
devastating for the entire ecosystem, and particularly for a 
fishery.
    And then if I could recommend the money for this geological 
survey, so that we in the State of Oregon can look at those 
areas which are particularly unstable, so that we can plan 
ahead and make sure that we can mitigate that damage ahead of 
time.
    Mr. Regula. Do you have some kind of building codes that 
keep people from building in these precarious areas?
    Ms. Furse. Well, the problem is on public land. The State 
has a State plan where people are restricted on how they build, 
but this would be on the Forest Service land.
    Now, of course, there are in-holdings on this Forest 
Service land.
    Mr. Regula. Yes, right.
    Ms. Furse. So people could be on private land, but 
threatened by roads and hills that might slide.
    Mr. Regula. Yes. Okay.
    Ms. Furse. And, as I say, I have more detailed testimony 
which I will----
    Mr. Regula. Yes, without objection, that will be a part of 
the record.
    Ms. Furse. I appreciate the time, Mr. Chairman.
    Mr. Regula. Thank you.
    Ms. Furse. Thank you so much.
    [The information follows:]


[Pages 852 - 854--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

NATIONAL FISH AND WILDLIFE FOUNDATION/NORTH AMERICAN WETLANDS CONSERVATION FUND

                                WITNESS

HON. CURT WELDON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    PENNSYLVANIA

    Mr. Regula. Mr. Weldon?
    Mr. Weldon. Hello, Mr. Chairman. How are you?
    Mr. Regula. Good.
    Mr. Weldon. Thank you for your time, and I will be brief. 
And I have the unusual opportunity, as I've done in the past, 
of not being here to testify on behalf of any parochial issue. 
I'm not here to advocate anything for my State or my district. 
These are national programs that you've been a leader on that 
date back to the days of our good friend Sil Conte.
    Mr. Regula. Right.
    Mr. Weldon. The first program is the Fish and Wildlife 
Foundation, which, as you know, is an outstanding example of 
how to take a small amount of money and use it to leverage a 
much larger investment. We get on average at least $2 for every 
$1 that we put in, and the money is used for a wide variety of 
voluntary conservation projects, bringing together business and 
nongovernmental organizations, helping to continue and to 
initiate new environmental activities.
    The request this year is for $7.5 million, which is a 
meager request, but that will go----
    Mr. Regula. Is that the President's request?
    Mr. Weldon. That's the President request. It will go a long 
way. And you've been a leader, Mr. Chairman, on this issue, and 
I've come to you in previous years, and you've always said, 
``Curt, we've got a tight budget,'' but you've always managed 
to come through, and, believe me, that is widely known.
    Mr. Regula. What is the total budget? We get $7.5 million 
Federal.
    Mr. Weldon. Yes.
    Mr. Regula. How much?
    Mr. Weldon. I don't know what the--do you mean total--oh, 
the Foundation?
    Mr. Regula. Yes.
    Mr. Weldon. I don't have that here. I can get that for you 
for the record.
    Mr. Regula. I think it's probably three to one.
    Mr. Weldon. Yes, it's at least three to one in total 
budget----
    Mr. Regula. Yes.
    Mr. Weldon [continuing]. But the actual dollars they use to 
match is on at least a two-to-one basis.
    Mr. Regula. Yes.
    Mr. Weldon. The second major initiative is North American 
Wetlands Conservation Act. I succeeded Sil Conte and Dick 
Shoals on the Migratory Bird Commission. I sit with John 
Dingell for the House. We have a Republican and Democrat in the 
Senate, and three of the Cabinet Secretaries. And we use this 
money to leverage, again, significant amounts of private 
dollars, groups like Ducks Unlimited, to voluntarily preserve 
open space and the migratory bird flyaways and the habitats. 
They're used for a variety of purposes from recreation to 
hunting. It's a very cooperative program. It's a program that 
Republicans can embrace because we're not forcing anybody to do 
anything. We acquire and protect land, and that land, then, is 
used for the kind of conservation activities originally 
intended when Sil Conte and John Dingell's father first 
initiated this whole program years ago.
    The request again here is a rather modest request in terms 
of the funding needs. The President--we authorized theprogram 
to a level of $30 million for Fiscal Year 1998; the President's 
actually requested $15 million. All I would say is if you can help us 
get to that maximum of 15, that would be great.
    So I thank you for your time and----
    Mr. Regula. Are you a sportsman, Curt?
    Mr. Weldon [continuing]. As always--limited. I'm not a 
hunter, but, you know, I go out with a bow and do some bow-
shooting and all, but----
    Mr. Regula. Is that right?
    Mr. Weldon. Yes.
    Mr. Regula. We need to get you up to Cuyahoga Valley. We 
have a huge overpopulation of deer.
    Mr. Weldon. Yes, I've heard that.
    Mr. Regula. Yes, they'll be in downtown Cleveland pretty 
soon browsing. [Laughter.]
    Mr. Weldon. We've got that problem in Pennsylvania, too.
    Mr. Regula. Yes, it's growing everywhere.
    Mr. Weldon. All over.
    Mr. Regula. Of course, there's not any natural predators, 
and to certain groups every one of them is Bambi, and that 
makes it tough to go out there and try to solve the problem.
    Mr. Weldon. Well, that's why these kind of voluntary 
programs are so great, because you're not forcing anybody.
    Mr. Regula. No.
    Mr. Weldon. It's all through voluntary cooperation and it 
leverages the dollars.
    Mr. Regula. And we leverage our dollars, yes.
    Mr. Weldon. So thanks again. You've been great. We 
appreciate it.
    Mr. Regula. Thank you.
    Mr. Weldon. Have a good day.
    [The information follows:]


[Pages 857 - 859--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                           APPALACHIAN TRAIL

                                WITNESS

HON. NANCY L. JOHNSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CONNECTICUT

    Mr. Regula. Okay, Nancy, Appalachian Trail.
    Ms. Nancy Johnson. That's right.
    Mr. Regula. We share an affection for that even though I've 
never been on it.
    Ms. Nancy Johnson. Well, I appreciate the constancy of this 
committee to the goal of achieving completion of the 
Appalachian Trail.This is my 15th consecutive appearance before 
you----
    Mr. Regula. Well, I know that.
    Ms. Nancy Johnson [continuing]. In support of the 
Appalachian Trail and the Historic Preservation Trust Fund.
    There are 2,160 miles of Appalachian Trail from Maine to 
Georgia. It cuts through some of the most beautiful portions of 
the Nation and some beautiful portions of northwest 
Connecticut. It connects 75 public land areas in 14 States. 
Virtually every mile of the trail is within easy access of a 
major population center. It's supported by thousands of 
volunteers who care for the trail. It really is an example of 
the kind of public/private partnership that has made this 
Nation remarkable.
    A completion of the trail is within reach. In fact, the 
trail is complete now in West Virginia, Maine, and New 
Hampshire. In Connecticut, just six parcels of land are 
remaining to be purchased. To keep us on track toward 
completion of the----
    Mr. Regula. Do we have willing sellers?
    Ms. Nancy Johnson. Pardon?
    Mr. Regula. Do we have willing sellers?
    Ms. Nancy Johnson. Yes, we do have willing sellers. We did 
go through a minor problem with that one year in Connecticut, 
but the remainders are willing sellers. Northwest Connecticut 
is a very conservation-minded area and preservation-minded 
area.
    To keep us on track, though, to completion by the year 
2000, which is our goal, we urge the committee to approve the 
$7.2 million in appropriations for acquisition of land and 
rights-of-way, which is the same amount in the President's 
budget.
    Mr. Regula. And that's the same amount, I think, we had 
last year.
    Ms. Nancy Johnson. I think so.
    And then I also wanted to state my support for the Historic 
Preservation Trust Fund. Many regions of the country, including 
New England and Connecticut, are blessed with old historic 
buildings, and through the trust fund, we have really been able 
to preserve them for future generations, and we use them in a 
constructive way. I, myself, working with the National Historic 
Preservation Trust Fund, helped to restore an incredibly large 
factory complex in Connecticut called the Bigaloo Sanford 
Carpet Mills, where Lowell Weicker's father worked, to a mixed-
use complex. It is really beautiful. It has preserved the 
history of that part of town, but now houses people, small 
businesses, small manufacturers. It's really been a tremendous 
asset, where it could have been, and was for a while, an 
extraordinary liability.
    Mr. Regula. Okay.
    Ms. Nancy Johnson. So thank you very much.
    Mr. Regula. Thanks, Nancy.
    [The information follows:]


[Page 862--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                    NATIONAL ENDOWMENT FOR THE ARTS

                                WITNESS

HON. PATSY MINK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF HAWAII

    Mr. Regula. Patsy, we'll try to get you before we go vote.
    Ms. Mink. Yes, yes, yes. I won't take much of your time, 
Mr. Chairman. I simply want to thank you for giving me this 
opportunity to appear----
    Mr. Regula. We'll put your statement in the record.
    Ms. Mink [continuing]. Before you support the funding 
request for the National Endowment of the Arts. It's a program 
that I believe is of vital interest, national concern, and I 
regret that there is so much continuing controversy over its 
continuance.
    Art is something which brings out the nature of the 
individual, whether they're children or adults or elderly. I 
believe very strongly that a country, in support of its 
uniqueness and its diversity and the importance of emphasizing 
individuality and creativity, that this is an appropriate 
function which the Congress should support.
    So I'm here to ask that you support the President's budget 
request of $138 million. You know that it's gone through a 
great reorganization under the leadership of Jane Alexander, 
and I think the criticisms of the past have been more than 
adequately met by the new Chair. So I hope that you will 
reconsider and give us the full funding requested.
    Mr. Regula. You have a great champion here in my colleague, 
Mr. Yates.
    Ms. Mink. Oh, thank you. Thank you. Yes, I was hoping he 
would be here, but I'm sure that he'll help monitor this whole 
activity.
    Mr. Regula. He was here for the opponents.
    Ms. Mink. Oh, he was? Well, that's important. It's probably 
more important than being here for me. [Laughter.]
    Thank you very much.
    Mr. Regula. Thank you.
    [The information follows:]


[Pages 864 - 866--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                              SUMMIT HOUSE

                         INDIAN HEALTH SERVICE

                                WITNESS

HON. JOEL HEFLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO

    Mr. Regula. Joel, I think we can get you in yet before we 
vote.
    Mr. Hefley. All right, that's----
    Mr. Regula. We'll put your statement in the record, if you 
can be brief.
    Mr. Hefley. I will try to be brief. And thank you, Mr. 
Chairman.
    I have three things I'd like to talk about.
    Mr. Regula. Okay.
    Mr. Hefley. The first is $6 million to replace the Summit 
House Visitor Center on top of Pike's Peak, which----
    Mr. Regula. It's operated by a concessionaire, is it?
    Mr. Hefley. Yes, but it's owned by the Park Service.
    Mr. Regula. The Park Service, yes, I've been there.
    Mr. Hefley. Yes, and we put language in the bill last year 
which said: study it; see if we can't renovate it or something 
and save. And the report came back and said that it would cost 
more to repair the existing structure than it would to build a 
new one. The structure that's up there now is 32 years old, and 
so they have recommended replacement of that. And so we're 
making that request.
    Mr. Regula. Do you suppose we could get the State to put up 
some money?
    Mr. Hefley. We might. We might.
    Mr. Regula. Would you explore that and get back to us? What 
I've been asking most of the witnesses today is to see if we 
can get some matching money because it leverages what we have 
available.
    Mr. Hefley. Yes, yes.
    Mr. Regula. So if you'd talk to the appropriate people in 
Colorado and let us know, that would be helpful.
    Mr. Hefley. All right, we could do that.
    Mr. Regula. Okay.
    [The information follows:]


[Pages 868 - 870--The official Committee record contains additional material here.]



    Mr. Hefley. The second one is a strange request because it 
doesn't have anything to do at all with my district. It's just 
a program that I believe in. It's $92,640 for continued 
operation of three youth centers at the Crow Creek Indian 
Reservation in South Dakota.
    Mr. Regula. Okay.
    Mr. Hefley. I want to thank the subcommittee for its 
appropriation of $37,000 for construction of stump shelters at 
the Flourisant Fossil Beds National Monument in my district. 
And the shelters will be dedicated next week, and the money was 
sufficient to make a number of other needed minor repairs. So 
that has gone well.
    And then, last, Mr. Chairman--and you and I have worked on 
this situation for a long time--and that's the heritage areas. 
And you remember last year I was trying to develop that----
    Mr. Regula. Yes, you had a generic bill.
    Mr. Hefley. A generic bill, so we would set parameters 
around the heritage thing. I believe in the heritage program, 
but we do need some parameters around it.
    Now I understand the Park Service has requested $11 million 
for a Washington-based heritage area program, where they would 
go out across the country and promote heritage areas. That 
creates two problems. First of all, our whole idea when we were 
working on this last year, Ralph, you'll remember, was that 
these should be locally-generated, not top-down, but bottom-up.
    Mr. Regula. Yes. I don't quarrel with that at all.
    Mr. Hefley. Yes, we've got them out. I would ask that you 
put a moratorium on that. So I'm coming to you asking you not 
to spend the money. And we're working on the generic bill 
again, and we hope to get through some of the hurdles we had 
last year, and be able to redefine this, but certainly don't--
--
    Mr. Regula. There might be a role for an information 
center, but promoting it I think is maybe going a little bit 
too far.
    Mr. Hefley. Yes, I think so, too.
    So, with that, I'll leave you.
    Mr. Regula. So you hope to get the generic bill moved 
again?
    Mr. Hefley. Yes, we do.
    Mr. Regula. They are a nice thing, and if you can get--like 
in our case, we've probably got 3,000 people--people involved 
in one way or another in these efforts, then it's driven from 
the bottom-up.
    Mr. Hefley. And when it is that way, the communities are 
usually tickled to death with it----
    Mr. Regula. Oh, yes, they love it.
    Mr. Hefley [continuing]. And it's a good tourist 
attraction.
    Mr. Regula. I know.
    Mr. Hefley. Yes.
    Mr. Regula. Okay, thank you.
    Mr. Hefley. Thank you very much.
    [The information follows:]


[Pages 872 - 873--The official Committee record contains additional material here.]



    Mr. Regula. The committee will suspend for voting here. We 
have two more to go.
    [Recess.]
                              ----------                              

                                         Wednesday, April 16, 1997.

                         NATIONAL PARK SERVICE

                                WITNESS

HON. LYNN WOOLSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Regula. Okay.
    Ms. Woolsey. Well, here I am.
    Mr. Regula. Okay, we're always glad to see you.
    Ms. Woolsey. Thank you.
    Mr. Regula. We'll put your statement in the record. You 
tell us about your project.
    Ms. Woolsey. My statement is in the record, and I have a 
very short--I have two requests.
    Mr. Regula. Okay.
    Ms. Woolsey. One is the one you were just referring to, and 
that's the National Park Service land acquisition for Giacomini 
lands, and I have three--there's been three--I'm requesting $3 
million, and that's----
    Mr. Regula. For Giacomini?
    Ms. Woolsey. For the National Park Service----
    Mr. Regula. To buy what?
    Ms. Woolsey [continuing]. To buy the Giacomini. And it's a 
ranch to be owned by the Department of the Interior, so that it 
will then go into wetlands. But----
    Mr. Regula. Would this be managed by the Fish and Wildlife 
Service or the Park Service?
    Ms. Woolsey. Park Service, yes.
    Mr. Regula. Would this be melded into the Golden Gate?
    Ms. Woolsey. Yes.
    Mr. Regula [continuing]. To save operating costs?
    Ms. Woolsey. Yes.
    Mr. Regula. It would be an extension of Golden Gate?
    Ms. Woolsey. It's within it.
    Mr. Regula. Is it contiguous to Golden Gate property now?
    Ms. Woolsey. Yes, it's within the Golden Gate.
    Mr. Regula. It's within the boundaries?
    Ms. Woolsey. Right, it's inside the boundary. It doesn't 
expand it.
    Mr. Regula. Okay.
    Ms. Woolsey. But here's what you're going to like: it's 
more than 500 acres of wetlands, will be part of this, but--
and, you know, it's one of the most pristine estuaries in the 
country, where this sits. So we just want to keep it that.
    But what you want to know about California is that 
California--I've worked with them, and they are going to 
provide over $3 million in matching funds for the project.
    Mr. Regula. What is the total cost--we don't have an 
appraisal yet; is that correct?
    Ms. Woolsey. It's around six.
    Mr. Regula. In the reappraisal?
    Ms. Woolsey. Yes.
    Mr. Regula. So you just need the balance then?
    Ms. Woolsey. Well, they need the three, is what we've been 
told. So that it's----
    Mr. Regula. Well, we can check that. Would the State, then, 
just make this as a contribution, but the land would really go 
with the Golden Gate?
    Ms. Woolsey. Right, it stays with the Golden Gate.
    Mr. Regula. Become Federal land?
    Ms. Woolsey. The State has an agreement with the 
environmental groups around, that they need to restore 
wetlands, because of the road that they reconstructed, and 
rather than come up with their own wetlands restoration 
project, they are willing to be in the Giacomini area.
    Mr. Regula. Okay. It would be part of that then?
    Ms. Woolsey. It would be part of that.
    Mr. Regula. Okay.
    Ms. Woolsey. But here's what I assure you: with that $3 
million, I will be not back here next year asking for any more 
for Giacomini.
    Mr. Regula. Well, shouldn't this finish it?
    Ms. Woolsey. Yes, criss-cross my heart.
    That will be it.
    Mr. Regula. Okay.
    Ms. Woolsey. We'll be through. You won't have me come back 
then.
    Mr. Regula. Okay, we'll look at that one.
    Ms. Woolsey. Okay. Then--and it is in the President's--the 
administration budget, in the Department of the Interior 
section. So they put it in there. It isn't something you have 
to do, carve out separately.
    Mr. Regula. Okay.
    Ms. Woolsey. The other thing I'm looking for to ask you is 
to talk about the Point Reyes National Seashore, which receives 
over 2.6 million national visitors to the national park every 
year, and this is increasing. Every month it's more. It's such 
a well-used park.
    So that, plus the fact that the seashore area has sustained 
several floods and shipwrecks and a 12,000-acre wildfire, which 
I think you remember, in that area a few years ago--that 
wildfire consumed over 15 percent of the park--that has put a 
real burden on the Park Service staff. And so what I would like 
to ask and request is $280,000 for Fiscal Year 1998 for Point 
Reyes National Seashore, which is an increase of 1 percent to 
help with their staffing and operating funds, $280,000.
    Mr. Regula. Okay, we'll take a look at both of them.
    Ms. Woolsey. Okay.
    Mr. Regula. Thank you.
    Ms. Woolsey. All right. I thank you very much.
    Mr. Regula. We'll miss you if you don't come back.
    Ms. Woolsey. I'll be back. I'll have other things; you know 
that.
    Mr. Regula. Oh, oh.
    Ms. Woolsey. But I won't have Giacomini, I promise.
    Mr. Regula. Oh, okay.
    Ms. Woolsey. Okay, thank you.
    [The information follows:]


[Pages 877 - 878--The official Committee record contains additional material here.]



                                         Wednesday, April 16, 1997.

                         NATIONAL TRAILS SYSTEM

                                WITNESS

HON. DAN SCHAEFER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    COLORADO

    Mr. Regula. Okay, Dan? That's all right; let's go ahead.
    Mr. Schaefer. I'll be real quick here. Mr. Chairman, thank 
you, and I'm here today as the co-chairman of the House Trails 
Caucus----
    Mr. Regula. Okay.
    Mr. Schaefer [continuing] And a Member of Congress who is 
really concerned with the status of trails in this country. As 
the chairman knows, the National Trails System covers both 
rural and urban areas, and it provides great recreational 
facilities in this country and provides a positive 
transportation alternative for citizens. Economically, trails 
allow for greater access to towns across the country and to 
businesses within them. They are also an attractive tourist 
destination in and of themselves.
    One of these trails in development is the American 
Discovery Trail, which connects the Pacific Ocean to the 
Atlantic all the way across the country. It links the urban 
areas with rural America, giving people nationwide access to 
the trail system. This project is the kind of thing that we in 
the caucus are committed to promoting.
    And the final thing I'll say is about the construction of 
the Continental Divide Trail which runs all the way from north 
to south from Montana to New Mexico. I think that the things 
that we're doing there are not only environmentally good, but 
they are a good way for people who have never been out into the 
wilderness areas to get access.
    Mr. Regula. Oh, I'm a big advocate of trails, and we'll do 
as much as we can. Nancy Johnson was here on behalf of the 
Appalachian Trail.
    Mr. Schaefer. Yes.
    Mr. Regula. We're about finished with land acquisition on 
that.
    Mr. Schaefer. That's great.
    Mr. Regula. People love trails.
    Mr. Schaefer. Yes, every year they have big trail events in 
Colorado, and as for the Trails Caucus, Bruce Vento and I are 
the co-chairs of this. So it's very bipartisan, too.
    Mr. Regula. Yes, well, trails don't have political labels. 
[Laughter.]
    Mr. Schaefer. Thank you, Mr. Chairman.
    Mr. Regula. They have health labels.
    Mr. Schaefer. Yes, well, that's true.
    Mr. Regula. Okay, thank you.
    Mr. Schaefer. Thank you, Mr. Chairman. And we have a full 
statement.
    Mr. Regula. Yes, without objection, it's part of the 
record.
    [The information follows:]

[Page 880--The official Committee record contains additional material here.]


                                         Wednesday, April 16, 1997.

MULTIPLE SPECIES CONSERVATION PROGRAM--MORATORIUM ON OFFSHORE OIL AND GAS EXPLORATION WARD VALLEY

                                WITNESS

HON. BRIAN BILBRAY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA

    Mr. Regula. And, likewise, yours, Brian; your statement's 
in the record.
    Mr. Bilbray. Thank you, Mr. Chairman. I appreciate the fact 
of the tight ship you run here, keeping on schedule.
    I would--let me just make an editorial note on the last 
issue about trails, and that is there are benefits of trails 
that a lot of people don't see. And the last thing you'll hear 
from certain groups is the benefits for endangered species, but 
we actually had a case in the Tijuana Valley where the 
Leesville oriole were nesting all along the trails, and the 
bureaucracy typically wanted to close-off those trails because 
of the Endangered Species Act. It ended up being, when we 
asked, well, could there be a reason why the species is 
preferring the trail area, and when they came back, they said, 
well, by the way, the human activity was scaring off the 
predators and the birds were moving towards the humans, who 
were giving a beneficial impact to the species rather than a 
derogatory one. So there is a good example, something you don't 
even think about, that there are benefits to having trails 
going to wilderness areas.
    But what I'm here talking about, again, are the type of 
studies that we've been looking at in the southern California 
area, the multi-species blend that we've developed in----
    Mr. Regula. That's your HCP?
    Mr. Bilbray. Yes.
    Mr. Regula. A great idea.
    Mr. Bilbray. Well, we're just trying to show that the 
command and control top-down method is not the way to go with 
the Endangered Species Act.
    Mr. Regula. A great idea.
    Mr. Bilbray. Proactive, cooperative rather than punitive, 
and this is really our chance to show that you don't have to be 
anti-private sector, anti-individual rights to be pro-
environment.
    And so I would ask you to consider the fact that the 
regional cooperation has been put together. Mayor Golding is 
the chairwoman of that.
    Mr. Regula. I talked with her when I was in San Diego.
    Mr. Bilbray. And I appreciate the fact that you have 
historically supported this, and I think----
    Mr. Regula. I tried to get Bob Dole to pick this up as a 
great environmental issue in his campaign. I think he could 
have run with it.
    Mr. Bilbray. He could have highlighted it.
    Mr. Regula. As a good way to go about it, because you 
bounce everything out of it.
    Mr. Bilbray. Yes, if you look at the big picture, and the 
biggest thing is the holistic approach, and anybody----
    Mr. Regula. Exactly.
    Mr. Bilbray [continuing]. Who claims to be an 
environmentalist who doesn't want to look at the big picture, 
obviously, is not. And this is one of the things we keep 
saying: you have to look at the big picture because 
everything's interrelated.
    Mr. Regula. Right.
    Mr. Bilbray. One of the things, though, that's related to 
that, and an issue that has come up with the Multi-Species Plan 
and with the estuarian preserve that was formed back in the 
seventies--the largest estuarian preserve in California, 
southern California, is the Tijuana Estuarian Preserve. One of 
the parcels just adjacent to it is up for purchase, Spooner's 
Mesa, which has been one that I've personally looked at and 
worked on for almost 20 years, but we finally got the owner, 
who has the local coastal permit to strip-mine this property, 
and is now willing to sell 396 acres of coastal marine scrub. 
It's adjacent to the estuary, and one of the big concerns here 
is that this property is so susceptible to erosion next to 
Mexico that it could dump-in and actually close-off----
    Mr. Regula. Is this straight on the border?
    Mr. Bilbray. Right on the border. It has obviously has--
obviously, we prefer to have this area open for other reasons 
other than just environmental, but I also need to point out my 
home town of Imperial Beach, Mr. Chairman, was condemned by the 
Federal Government, 50 percent of it, and set aside for the 
wildlife preserve because this estuary was so important. Now 
we've got a situation where that entire plan could go under if 
we don't acquire a critical parcel. Most of the other parcels 
in the area have been acquired.
    And let me say that we will be talking about certain issues 
such as the Fish and Wildlife Service acquisition and critical 
habitat, and we'll talk about that later sometime, about 
specifically where they're going for funding resources, 
because, frankly, I think there's some shifting that can be 
done to focus on these critical parts, rather than going 
fishing, if I can use that term, in other areas. And so I would 
personally say, as somebody who has worked at the regional park 
and the estuary there, this is sort of the last keynote 
critical highland right between the urban area of Tijuana and 
this very rural preserve area.
    Mr. Regula. Tijuana is across the border----
    Mr. Bilbray. Right on the other side of the border.
    Mr. Regula [continuing]. Of San Diego? And does the Tijuana 
River start in Mexico?
    Mr. Bilbray. It comes in Mexico and comes north----
    Mr. Regula. Yes.
    Mr. Bilbray [continuing]. Into the United States and goes 
across, and this is on the south side of the Tijuana River and 
it's really the divider between the estuary and the wildlife 
area and the urban area, and it is really choice to be able to 
be used and it's----
    Mr. Regula. It fronts on the ocean?
    Mr. Bilbray. It fronts on the ocean, and it's almost--it's 
surrounded on three sides by the wildlife reserve. And so it's 
really----
    Mr. Regula. By an existing wildlife reserve?
    Mr. Bilbray. The existing--it's the Tijuana Estuarian--
well, actually, it's a research reserve, too. It's the highest 
level of protection under the Federal act.
    Mr. Regula. So is that Federal then?
    Mr. Bilbray. Yes.
    Mr. Regula. So this would just fill in?
    Mr. Bilbray. This would be filling-in. The other parts east 
of it now are county and city wildlife reserves, and then 
Tijuana's on the other side. So this is the critical parcel 
sort of sitting there.
    One of the problems we traditionally have with anything 
along the border, is that the Fish and Wildlife Service and the 
Federal Government sort of have always had a strange look--
because they get intimidated by it, but this is a very critical 
part, and the open space, as you know, must be compatible to 
other strategies of the NAFTA.
    The offshore drilling moratorium, I think you know our 
support for that and why. One of the biggest arguments that 
I've looked at is things that were reserves in California that 
we'veopened up on land were much easier accessible, and we try 
to encourage those easier, safer facilities taken, and we've looked at 
that.
    The Ward Valley issue, though, is one that we've been more 
than patient about. We've reached a point to where it's 
absolutely absurd to have the Interior Department start asking 
for reprogramming authorization to do studies they have no 
expertise in, and it's strictly a stalling tactic. The National 
Academy of Science did an extensive research of the facility in 
support of the safety of the site. There's just no legitimate 
public health issue. There's other hidden political issues that 
are drawn in here, and I would just hope that you strongly 
oppose the use of tax money to further the delay. And I say 
that as somebody who has major biotech facilities and medical 
facilities in his district. The research in cancer, AIDS, and a 
lot of other health issues are being held up now and slowed up 
because the Interior Department is playing politics with this 
rather than turning it over, and allowing those like the 
Nuclear Regulatory Commission and the State of California's 
health department to be able to regulate this, and it's a shame 
that our public lands are being jacked around and used for 
other political issues. So I would ask that you consider the 
fact of making sure that Federal funds aren't used to further 
delay that transfer.
    Outside of that, I just thank you very much for the chance 
to be able to proceed.
    Mr. Regula. Thank you. Oh, just one question on this land. 
You mentioned the Spooner's Mesa. Do we contemplate the Federal 
Government buying the whole thing?
    Mr. Bilbray. No, actually, what's going on right now is the 
county has about $1.3 million, and they're now looking for 
other money, too. Let me point out something else.
    Mr. Regula. So this would be a partnership?
    Mr. Bilbray. A partnership. In fact, the local property 
owners in the area and their water district put up over a 
million dollars for acquiring the land in the area for--and 
it's a unique preserve, Mr. Chairman. It's wildlife and 
agriculture and recreation, and the whole concept was to use 
this area to show that compatible uses can be worked together; 
you don't have to throw up fences to keep the public out, but 
you can also preserve it. So this would be part of the Federal 
Government's participation, the local government, and the local 
citizens, who are not a very wealthy area; this is a poor, 
working-class area. They've really come forward, and that's why 
I really feel like going to bat for these people. I mean, how 
often do you have a poor, working-class area putting aside 
money that they raised in their own taxes saying, ``We're 
willing to put this up if you guys will participate with us.''?
    Mr. Regula. So they have a taxing district?
    Mr. Bilbray. They did it through their water district.
    Mr. Regula. Okay. Just on another subject, do you still 
have sewage problems with Tijuana?
    Mr. Bilbray. That's been my whole career, and this week on 
Friday we're dedicating the new international sewer treatment 
plant just to the east of this location, which is the treatment 
plant to finally get the Mexican sewage that's been pouring in.
    Mr. Regula. So this is a joint venture?
    Mr. Bilbray. This is an International Boundary and Water 
Commission project, which is a joint commission with Mexico 
that is being built under the leadership of the EPA and the 
city of San Diego, has built the outfall--was the lead agency 
for the outfall.
    So the primary treatment side of this issue will be 
completed this week, and the next step is to upgrade it to 
secondary. What's interesting about it is now that the Federal 
Government realizes the cost of going to secondary, there may 
be some question now about doing that, but it's--what goes 
around comes around.
    Mr. Regula. Mexico or Tijuana is participating, I assume?
    Mr. Bilbray. They're participating to some degree, not as 
much as we'd like, but the fact is that right now they are 
participating and they're supposed to be paying back a portion 
of the construction.
    Mr. Regula. Do they have yet infrastructure to build?
    Mr. Bilbray. That's where their big investment has been 
made. They have been going through and they've actually been 
doing a darned good job of putting in a new one. And, you know, 
a big advantage we have is their engineers that they're using 
now--so much of Baja is so socially and culturally and 
economically tied to California that their engineers that are 
working are all U.S.-trained engineers. So you have a 
repetitive system; you have preventative maintenance--things 
that you didn't used to have coming out of a Latin American 
country. They really have upgraded their capabilities.
    Mr. Regula. Baja is a peninsula, isn't it?
    Mr. Bilbray. It's a peninsula.
    Mr. Regula. Is it developed all the way to the end?
    Mr. Bilbray. No. The real development--Tijuana is actually 
one of the--the third or fourth largest city in Mexico and 
could be the second within 10 years, but Baja is very rural. I 
just came back from a week with my son off-roading and surfing 
down there, and you can go a thousand miles down and----
    Mr. Regula. In Baja?
    Mr. Bilbray. Baja.
    Mr. Regula. Is it that long?
    Mr. Bilbray. It's a thousand miles from Tijuana down to 
Cabo San Lucas.
    Mr. Regula. Gee whiz.
    Mr. Bilbray. And that's where Scanman's Lagoon is, where 
the whales are, San Ignacio where you pet the whales, and it's 
got the Sea of Cortez on the east side, and that is the part of 
the Gulf of California. That's where the San Andrea Fault 
literally splits California in half, and that's why Baja is a 
peninsula. And then you've got the Pacific on the other side.
    Mr. Regula. Are there resort facilities down--probably on 
the tip?
    Mr. Bilbray. They've got a lot of them at the tip, but they 
have, periodically as you go down, they have what is called la 
presidentes or la pintas every about 50 to 100 miles, and 
that's what's really happened, is you see these little clusters 
in the wilderness every once in a while. And so it's a quite 
unique kind of experience. It's some place where like right now 
I just came back--we have huge Saguaro cactus, big huge 
boulders, and streams running through the desert, and the 
cactus are all in bloom this time of year. So it's quite an 
interesting--you don't think about cactus, the desert being 
green and all the bright colors, and right now with all the 
blooms--I mean, literally, there was one barrel cactus that I 
saw that you had to stop and look at itbecause it looked like 
it had snowed on this cactus because the blooms were so fine; it's just 
a dusting of white.
    Mr. Regula. Is this some of the desert?
    Mr. Bilbray. Oh, yes, almost all of it is desert.
    Mr. Regula. Is that right?
    Mr. Bilbray. Almost all of the Baja is desert.
    Mr. Regula. You'd think you'd get the rains coming off the 
Pacific. I guess they float right over it because there's no 
mountains.
    Mr. Bilbray. Yes. Well, they get some--out in the mountains 
they get it, but the problem you get is it doesn't rain on the 
coast and it doesn't rain on the desert; it rains on top of the 
mountain.
    Mr. Regula. Is there a mountain chain on Baja?
    Mr. Bilbray. It's the extension of the Sierra Nevadas that 
California has.
    Mr. Regula. What distance is it east and west?
    Mr. Bilbray. East-west, about 50 miles wide. It could be as 
much as 100 miles wide, but usually it's about 50.
    Mr. Regula. If you look at a map, you don't think of it 
being that large.
    Mr. Bilbray. No.
    Mr. Regula. Distances are pretty deceiving.
    Mr. Bilbray. And it's sort of interesting because you go 
from San Diego and drive for maybe two hours and be in a desert 
atmosphere on the Sea of Cortez, and it will be 100 degrees and 
no humidity.
    Mr. Regula. Okay, thank you.
    Mr. Bilbray. We're going to have to take you down there 
sometime.
    Mr. Regula. I'd like to see it.
    Mr. Bilbray. Thank you very much, Mr. Chairman.
    [The information follows:]


[Pages 886 - 888--The official Committee record contains additional material here.]



    Mr. Regula. And the committee is adjourned.
    [Committee note.--Several Members of Congress were unable 
to attend the hearing to present their statements. These 
statements follow:]


[Pages 890 - 940--The official Committee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Alexander, Jane..................................................   299
Bass, Hon. C.F...................................................   835
Bereuter, Hon. Doug..............................................   727
Bilbray, Hon. Brian..............................................   881
Bliley, Hon. Tom.................................................   827
Blumenauer, Hon. Earl............................................   638
Campbell, Hon. Tom...............................................   902
Cannon, Hon. Chris...............................................   891
Condit, Hon. G.A.................................................   926
Crapo, Hon. M.D..................................................   644
Deal, Hon. Nathan................................................   842
DeLauro, Hon. Rosa...............................................   746
Deutsch, Hon. Peter..............................................   752
Doyle, Hon. Mike.................................................   798
Eshoo, Hon. Anna.................................................   657
Forbes, Hon. M.P.................................................   890
Furse, Hon. Elizabeth............................................   850
Gilman, Hon. Ben.................................................   936
Goode, Hon. V.H., Jr.............................................   830
Goodlatte, Hon. Bob..............................................   764
Gordon, Hon. Bart................................................   700
Goss, Hon. Porter................................................   791
Graham, Hon. Lindsey.............................................   758
Gutierrez, Hon. L.V..............................................   931
Hackney, Sheldon.................................................   423
Hall, Hon. T.P...................................................   770
Hamilton, Hon. L.H...............................................   847
Hartz, G.J.......................................................     3
Hefley, Hon. Joel................................................   867
Heyman, I.M......................................................   153
Hill, Hon. Rick..................................................   777
Hilliard, Hon. E.F...............................................   712
Hinojosa, Hon. Ruben.............................................   694
Hobson, Hon. Dave................................................   770
Hoekstra, Hon. Pete..............................................   782
Inglis, Hon. Bob.................................................   758
Johnson, Hon. N.L................................................   860
Kennedy, Hon. Patrick............................................   824
LaHood, Hon. Ray.................................................   820
Lapp, Douglas....................................................   153
Lincoln, M.E.....................................................     3
LoBiondo, Hon. F.A...............................................   909
Maloney, Hon. J.H................................................   940
Miller, Hon. George..............................................   904
Mink, Hon. Patsy.................................................   863
Nadler, Hon. Jerrold.............................................   715
Newman, C.B......................................................   153
O'Connor, J.D....................................................   153
Oberstar, Hon. J.L...............................................   741
Ortiz, Hon. S.P..................................................   911
Pallone, Hon. Frank..............................................   667
Pelosi, Hon. Nancy...............................................   707
Peterson, Hon. J.E...............................................   809
Reyes, L.L.......................................................     3
Rice, R.H., Jr...................................................   153
Romero-Barcelo, Hon. Carlos......................................   934
Roukema, Hon. Marge..............................................   928
Sanders, Hon. Bernard............................................   892
Saxton, Hon. Jim.................................................   815
Schaefer, Hon. Dan...............................................   879
Shays, Hon. Christopher..........................................   746
Sherman, Hon. Brad...............................................   685
Slaughter, Hon. L.M..............................................   913
Smith, Hon. R.F..................................................   664
Stupak, Hon. Bart................................................   734
Thompson, Hon. B.G...............................................   678
Trujillo, M.H....................................................     3
Underwood, Hon. R.A..............................................   723
Vanderwagen, W.C.................................................     3
Viscloskey, Hon. Peter...........................................   689
Watts, Hon. J.C., Jr.............................................   900
Weldon, Hon. Curt................................................   855
Weldon, Hon. Dave................................................   899
Weller, Hon. Jerry...............................................   650
Wharton, L.C.....................................................   153
White, Hon. Rick.................................................   804
Williams, D.P....................................................     3
Woolsey, Hon. Lynn...............................................   874
Young, Hon. Don..................................................   629


                               I N D E X

                              ----------                              

                         Indian Health Service

Witnesses........................................................     3
Biography, Dr. Michael Trujillo..................................     4
Introduction of Associates.......................................     5
Health Status....................................................     6
Budget Request...................................................     6
External Pressures...............................................     6
Restructuring and Business Plan..................................     7
Government-To-Government.........................................     7
Prepared Statement of Dr. Michael Trujillo.......................     9
Deteriorating Water Systems......................................    14
Health Care Organizations and Management Systems.................    15
Tribal Revenues and Resources....................................    16
DRG..............................................................    16
Mandatory Costs..................................................    17
Joint Venture....................................................    18
Proposed Diabetes Research Center................................    19
Diabetes.........................................................    20
Life Expectancy..................................................    21
Medical Mobile/Modular Units.....................................    21
Dental Units.....................................................    22
Direct Care and Administrative Costs.............................    22
Epidemiology.....................................................    24
Recruitment and Scholarships.....................................    24
Administrative Cost Rate.........................................    30
Employment Incentives............................................    32
Dialysis Patient Travel..........................................    33
Budget Priorities................................................    33
Partnership with Tribes and Urban................................    34
Accountability and Standards.....................................    34
Questions from the Subcommittee..................................    36
Questions from Congressman Jim Kolbe.............................   100
Questions from Congressman Sidney R. Yates.......................   102

                   Institute of American Indian Arts

Accreditation....................................................   132
Appropriations Request...........................................   123
Board of Trustees................................................   148
Embezzlement.....................................................   147
Endowments.......................................................   144
Facilities.......................................................   146
Fund Raising.....................................................   124
Future Funding...................................................   145
Governance.......................................................   130
Historic Overview................................................   130
History of Tuition...............................................   131
Mission..........................................................   129
Museum Exhibitions...............................................   127
Non-Federal Funding Resources....................................   141
Summary..........................................................   128
Tribal and Community Support.....................................   125
Tuition..........................................................   144
Tuition History and Revisitation.................................   126

                        Smithsonian Institution

Additional Committee Questions..................................202-234
    From Congressman Regula.....................................235-254
    From Congressman Yates.......................................   255
    On Implementation of the Government Performance and Results 
      Act.......................................................231-235
Admission Charges..........................................242, 251-253
Affiliation Policy.............................................162, 189
    Agreement with Bethlehem Steel...............................   169
    Beyond the Mall: Collections-Based Affiliations..............   239
    Fact Sheet..................................................235-239
    Regents' Policy on Affiliations.............................239-240
Alterations and Modifications....................................   218
``America's Smithsonian'' Traveling Exhibition...161, 223, 242, 255-257
``Barn Again!'' Exhibition.......................................   176
Biographies of witnesses........................................154-160
Budget Priorities...............................................202-205
Collections Information Systems..................................   208
Collections in Storage Versus on Display.........................   173
Collections on Loan..............................................   169
Commemorative Coin Sales.........................................   243
Comparision of Smithsonian Institution Museums and Resources.....   221
Comparison of Visitation to Funding Levels.......................   197
Corporate Patrons................................................   222
Creative Artists Agency..........................................   241
Downsizing.....................................................211, 244
Educational Outreach.............................................   175
    Children's Book..............................................   191
    Distributing Education Information...........................   184
    Electric Motor Demonstration................................181-182
    Funding for Education........................................   183
    Office of Education..........................................   180
    Private Universe Project.....................................   229
Financial Resources..............................................   185
Fundraising....................................................198, 253
Funds to Secure Against Terrorism................................   210
FY 1998 Capital Budget Request...................................   174
FY 1998 Operating Budget Request.................................   172
Government Grants and Contracts..................................   199
Government Performance and Results Act.....................221, 231-235
Museum Shop at National Airport..................................   279
National Air and Space Museum Dulles Center....169, 174, 189, 219, 251, 
                                                                    257
National Museum of the American Indian.................170-172, 187-189
    Cultural Resources Center....................................   206
    Facilities...................................................   217
    Mall Museum.................................................248-250
National Museum of American History Military History Collection..   223
National Museum of Natural History:
    East Court...................................................   205
    West Court..................................................253-254
National Science Resources Center................................   180
National Zoological Park:
    Construction and Improvements...............................212-215
    Grasslands Exhibit...........................................   250
    Safety Needs.................................................   193
Non-Federal Funding Sources......................................   197
Voluntary Contributions..........................................   187
Opening Statement, I. Michael Heyman............................161-168
Patent Office Building Renovation................................   247
Reorganization......................................................210
Repair and Restoration of Buildings..............192, 216, 244-247, 258
Research...................................................176-177, 193
    Astrophysical Observatory Xenon Gas Research.................   226
    Coordination................................................178-179
    Examples....................................................194-196
Sesquicentennial.................................................   162
Smithsonian Astrophysical Observatory:
    Education Program............................................   183
    Private Universe Project.....................................   229
    Submillimeter Array..........................................   259
    Xenon Gas Research...........................................   226
Smithsonian Environmental Research Center........................   180
Smithsonian Outreach...........................................191, 200
    Affiliations................................................211-235
    Homepage, www.si.edu.........................................   162
    Internet...............................................227-229, 259
    SITES Catalog................................................   190
Smithsonian Credit Card..........................................   241
Smithsonian Tropical Research Institute....................207, 224-226
Uncontrollable Costs.............................................   254
    Serials Inflation...........................................203-204
Voluntary Contributions.............................................187
Woodrow Wilson International Center for Scholars Relocation......   209
Workyear Reductions.................................................186

                        National Gallery of Art

Coordination With Other Agencies.................................   271
Energy Management................................................   271
Fixed Cost Increases.............................................   268
Government Performance and Results Act...........................   273
Opening Statement................................................   263
Security Guards..................................................   268
Special Exhibitions..............................................   269
Water and Sewer Costs............................................   269

                         John F. Kennedy Center

FY 1998 Capital Repair Program...................................   281
FY 1998 Operations and Maintenance Program.......................   281
Government Performance and Results Act...........................   292
Introduction.....................................................   279
Kennedy Center Artistic and Education Programming................   282
Performing Arts for Everyone.....................................   282
Sources of Income................................................   279
Use of Appropriated Funds........................................   280

                    National Endowment for the Arts

Administration...................................................   415
Administrative Budget..........................................390, 417
Alexander, Jane:
    Prepared Statement...........................................   307
    Biography....................................................   300
Alternate Funding Sources for NEA...............342, 357, 360, 408, 416
American Canvas...........................................313, 361, 398
Application Statistics...........................................   353
Applications of Art..............................................   323
Appropriations Status of NEA.....................................   319
Arts in Communities............................................320, 323
Arts and the Economy.............................................   353
Arts Education........................303, 304, 320, 323, 376, 377, 411
Arts Funding in Other Countries................................354, 409
Arts Institutions..............................................303, 321
Arts Organizations, Health of in U.S......................351, 363, 365
Authorization Status of NEA..........................318, 322, 356, 416
Business Week Arts Education Insert..............................   324
Chamber Music Rural Residencies..................................   305
Consolidation of Agencies.................................342, 370, 411
Controversial Grants......................................353, 369, 411
Corporate Support of the Arts....................................   317
Department of Education Grants...................................   376
Elimination of Agency, Consequences of.........................397, 415
Enterprise Development, Office of.........................343, 357, 359
Entertainment Industry, NEA Partnership with.....................   408
Federal Role in the Arts.......................................364, 413
Fellowships, Elimination of......................................   418
Funding Needs of the Arts........................................   363
Funding Priorities:
    Agency.....................................................373, 416
    Federal...............................................317, 318, 344
Future of the NEA................................................   302
Government Performance and Results Act (GPRA)....................   393
Grants:
    Elimination of Some Types....................................   371
    Geographic Distribution....................................321, 378
    Geographic Reach.............................................   353
    Individuals...........................................352, 371, 418
    NEA Process......................................315, 347, 366, 368
    Number of..................................................372, 374
    Rejection of...............................................316, 374
Reporting Requirements.........................................352, 369
Selection Criteria...............................................   383
Importance of NEA Funding........................................   364
Indemnity Program................................................   350
Inner-City Youth, Programs for...................................   340
Interagency Partnerships.......................................313, 385
International Exchange.........................................304, 314
Mayors' Institute on City Design.................................   381
Millennium Projects............................................381, 418
Museum Exhibitions, NEA Support of...............................   350
National Endowment for the Humanities Grants.....................   376
National Recognition Grants......................................   375
National Theater of the Deaf.....................................   419
Panel Process....................................................   347
Partnerships with Communities....................................   384
Phase-Out of Agency............................................356, 408
Place of the Arts in Society.........................302, 319, 322, 347
Planning and Stabilization Grants................................   383
Poetry, Youth on the Metro.......................................   349
Preservation of Culture..........................................   303
Private Sector Funding of the Arts...305, 313, 318, 346, 363, 364, 366, 
                                                                    414
Programs of the Agency...........................................   374
Purchasing Power of NEA Dollar...................................   319
Questions Submitted for the Record:
    Committee....................................................   356
    Representative Regula........................................   397
    Representative Yates.........................................   415
Recapture of Funds.............................................343, 358
Reorganization and Accountability at NEA........352, 369, 370, 397, 417
Solicit and Invest Authority...................................344, 361
States Arts Agencies......................................305, 388, 390
Subgranting by NEA Grantees......................................   352
Sundance Film Festival...........................................   382
Taxes, Effect on the Arts......................................348, 413
True Endowment, Establishment of...............................345, 410
Underserved Communities..........................................   380
Uniform Balloting System.........................................   368
Washington State, Importance of Arts to..........................   346
Web Site, NEA.............................................314, 382, 391

                 National Endowment for the Humanities

Application-review system........................................   435
Brittle books and other preservation efforts.....................   439
Budget cuts, impact of.........................................438, 440
Culture, support for in America..................................   434
    Impact on, if NEH eliminated.................................   437
    Private sector unlikely to fill void.........................   442
Hackney, Sheldon:
    Biographical information.....................................   424
    Opening remarks..............................................   425
    Statement for the record.....................................   426
Humanities education...........................................435, 443
    Universities and other sources of support....................   443
Income recovery policy...........................................   440
``Ministry of Culture''..........................................   434
Partnerships.....................................................   441
``Synergy'' between the humanities and the arts..................   435
Questions for the record on the GPRA Act.........................   484
Questions for the record submitted by the Committee:
    Administration...............................................   482
    Alternative funding efforts..................................   450
    Authorization, status of.....................................   445
    Education programming........................................   465
    Funding needs................................................   453
    Funding priorities...........................................   459
    Income recovery from grantees................................   448
    NEH and other agencies.......................................   475
    Partnerships.................................................   479
    Peer review process..........................................   478
    Private sector and budget shortfall..........................   454
    Programs and grants..........................................   465
    Restructuring NEH, impact of.................................   457
    Termination/phase-out........................................   446
Questions for the record submitted by Cong. Yates................   488

                       Holocaust Memorial Council

Communications Line..............................................   620
Conferences and VIP Events.......................................   615
Council Activities and Expenses..................................   618
Education........................................................   609
Government Performance and Results Act...........................   620
Internet Sites...................................................   613
Maintenance....................................................608, 611
Opening Statement................................................   605
Private Sector Funding...........................................   614
Rent of Storage Facilities.......................................   613
Restructuring of Organization....................................   612
Security.........................................................   608
Staffing.........................................................   610
Use of Donated Funds.............................................   618

                                <all>
</pre></body></html>
